<html>
<title> - VOTING MACHINES: WILL THE NEW STANDARDS AND GUIDELINES HELP PREVENT FUTURE PROBLEMS?</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
                     VOTING MACHINES: WILL THE NEW
                     STANDARDS AND GUIDELINES HELP
                        PREVENT FUTURE PROBLEMS?

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                              COMMITTEE ON
                          HOUSE ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                                AND THE

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 19, 2006

                               __________

                           Serial No. 109-56

                               __________

    Printed for the use of the House Committee on Science and House 
                   Committee on House Administration


     Available via the World Wide Web: http://www.house.gov/science



                    U.S. GOVERNMENT PRINTING OFFICE
28-627                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001
                                 ______

                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
RALPH M. HALL, Texas                 BART GORDON, Tennessee
LAMAR S. SMITH, Texas                JERRY F. COSTELLO, Illinois
CURT WELDON, Pennsylvania            EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         LYNN C. WOOLSEY, California
KEN CALVERT, California              DARLENE HOOLEY, Oregon
ROSCOE G. BARTLETT, Maryland         MARK UDALL, Colorado
VERNON J. EHLERS, Michigan           DAVID WU, Oregon
GIL GUTKNECHT, Minnesota             MICHAEL M. HONDA, California
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               LINCOLN DAVIS, Tennessee
WAYNE T. GILCHREST, Maryland         DANIEL LIPINSKI, Illinois
W. TODD AKIN, Missouri               SHEILA JACKSON LEE, Texas
TIMOTHY V. JOHNSON, Illinois         BRAD SHERMAN, California
J. RANDY FORBES, Virginia            BRIAN BAIRD, Washington
JO BONNER, Alabama                   JIM MATHESON, Utah
TOM FEENEY, Florida                  JIM COSTA, California
RANDY NEUGEBAUER, Texas              AL GREEN, Texas
BOB INGLIS, South Carolina           CHARLIE MELANCON, Louisiana
DAVE G. REICHERT, Washington         DENNIS MOORE, Kansas
MICHAEL E. SODREL, Indiana           DORIS MATSUI, California
JOHN J.H. ``JOE'' SCHWARZ, Michigan
MICHAEL T. MCCAUL, Texas
MARIO DIAZ-BALART, Florida
                   COMMITTEE ON HOUSE ADMINISTRATION

               HON. VERNON J. EHLERS, Michigan, Chairman
BOB NEY, Ohio                        JUANITA MILLENDER-MCDONALD, 
JOHN MICA, Florida                       California
JOHN T. DOOLITTLE, California        ROBERT A. BRADY, Pennsylvania
THOMAS REYNOLDS, New York            ZOE LOFGREN, California
CANDICE MILLER, Michigan


                            C O N T E N T S

                             July 19, 2006

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Vernon J. Ehlers, Chairman, Committee 
  on House Administration, U.S. House of Representatives.........    10
    Written Statement............................................    12

Statement by Representative Juanita Millender-McDonald, Ranking 
  Minority Member, Committee on House Administration, U.S. House 
  of Representatives.............................................    13

Statement by Representative Sherwood L. Boehlert, Chairman, 
  Committee on Science, U.S. House of Representatives............    14
    Written Statement............................................    16

Statement by Representative Bart Gordon, Ranking Minority Member, 
  Committee on Science, U.S. House of Representatives............    17
    Written Statement............................................    17

Statement by Hon. Rush Holt, Representative from the State of New 
  Jersey.........................................................    18
    Written Statement............................................    18

Prepared Statement by Representative Tom Feeney, Member, 
  Committee on Science, U.S. House of Representatives............    43

Prepared Statement by Representative Jerry F. Costello, Member, 
  Committee on Science, U.S. House of Representatives............    43

Prepared Statement by Representative Lynn Woolsey, Member, 
  Committee on Science, U.S. House of Representatives............    44

Prepared statement by Representative Mark Udall, Member, 
  Committee on Science, U.S. House of Representatives............   106

Prepared Statement by Representative Darlene Hooley, Member, 
  Committee on Science, U.S. House of Representatives............    44

Prepared Statement by Representative Sheila Jackson Lee, Member, 
  Committee on Science, U.S. House of Representatives............    45

                               Witnesses:

Ms. Donetta L. Davidson, Commissioner, Election Assistance 
  Commission
    Oral Statement...............................................    46
    Written Statement............................................    47
    Biography....................................................    52

Dr. William Jeffrey, Director, National Institute of Standards 
  and Technology
    Oral Statement...............................................    52
    Written Statement............................................    54
    Biography....................................................    56

Ms. Mary Kiffmeyer, Secretary of State for Minnesota
    Oral Statement...............................................    57
    Written Statement............................................    59

Ms. Linda H. Lamone, Administrator of Elections, Maryland State 
  Board of Elections
    Oral Statement...............................................    60
    Written Statement............................................    62
    Biography....................................................    64

Dr. David Wagner, Professor of Computer Science, University of 
  California-Berkeley
    Oral Statement...............................................    64
    Written Statement............................................    66

Mr. John S. Groh, Chairman, Election Technology Council, 
  Information Technology Association of America
    Oral Statement...............................................    72
    Written Statement............................................    73
    Biography....................................................    78
    Financial Disclosure.........................................    78

Discussion
  Human Factors and HAVA Guidelines, Technology..................    79
  Security in Electronic Voting..................................    80
  Voluntary Nature of Standards..................................    82
  Paper Trails and Mandatory Audits..............................    83
  Role of EAC....................................................    84
  Dr. Wagner's Study.............................................    86
  EAC's Guidelines to States.....................................    87
  Paper Trails...................................................    88
  Voluntary or Mandated Independent Testing Labs.................    89
  Verification of Voter Identity.................................    97
  State Role in Federal Elections................................    98
  Legislation That Addresses Voting Issues.......................    99
  Voting Systems in Context of Katrina and Emergency Situations..    99
  Military Personnel and Voting..................................   100
  Standards for Failure Rate.....................................   101
  Vulnerabilities of Paper Trails and Foreign Investment in 
    Voting Equipment.............................................   101
  Poll Workers and Human Error...................................   105
  Voter Confidence and Turnout...................................   105

             Appendix 1: Answers to Post-Hearing Questions

Ms. Donetta L. Davidson, Commissioner, Election Assistance 
  Commission.....................................................   110

Dr. William Jeffrey, Director, National Institute of Standards 
  and Technology.................................................   122

Ms. Mary Kiffmeyer, Secretary of State for Minnesota.............   125

Ms. Linda H. Lamone, Administrator of Elections, Maryland State 
  Board of Elections.............................................   129

Dr. David Wagner, Professor of Computer Science, University of 
  California-Berkeley............................................   136

Mr. John S. Groh, Chairman, Election Technology Council, 
  Information Technology Association of America..................   149

             Appendix 2: Additional Material for the Record

Statement of the U.S. Public Policy Committee of the Association 
  for Computing Machinery........................................   156

Statement of Lawrence Norden, Chair, Task Force on Voting System 
  Security, Brennan Center for Justice, New York University 
  School of Law..................................................   159

Comments on the 2005 VVSG, by Roy Lipscomb, Directory of 
  Technology, Illinois Ballot Integrity Project..................   162

Statement of the National Committee for Voting Integrity (NCVI)..   167

Statement of VerifiedVoting.org..................................   172

Maryland Registered Voters' Opinions About Voting and Voting 
  Technologies, Donald F. Norris, National Center for the Study 
  of Elections, Maryland Institute for Policy Analysis and 
  Research, University of Maryland, Baltimore County, February 
  2006...........................................................   177

A Study of Vote Verification Technologies for the Maryland State 
  Board of Elections.............................................   213

Statement of the U.S. Election Assistance Commission (EAC).......   216

Voting System Independent Testing and Certification Process: 
  Comprehensive, Rigorous, and Objective, The Election Technology 
  Council, November 2005.........................................   221

Security Analysis of the Diebold AccuBasic Interpreter, David 
  Wagner, David Jefferson, and Matt Bishop, Voting Systems 
  Technology Assessment Advisory Board (VSTAAB)..................   224


  VOTING MACHINES: WILL THE NEW STANDARDS AND GUIDELINES HELP PREVENT 
                            FUTURE PROBLEMS?

                              ----------                              


                        WEDNESDAY, JULY 19, 2006

                  House of Representatives,
                 Committee on House Administration,
                                           joint with the  
                                      Committee on Science,
                                                    Washington, DC.

    The Committees met, pursuant to call, at 2:02 p.m., in Room 
2318 of the Rayburn House Office Building, Hon. Vernon J. 
Ehlers [Chairman of the Committee on House Administration] 
presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                   COMMITTEE ON HOUSE ADMINISTRATION

                     U.S. HOUSE OF REPRESENTATIVES

                            JOINTLY WITH THE

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                     Voting Machines: Will the New

                     Standards and Guidelines Help

                        Prevent Future Problems?

                        wednesday, july 19, 2006
                          2:00 p.m.-4:00 p.m.
                   2318 rayburn house office building

Purpose

    The purpose of the hearing is to review new federal voluntary 
standards for voting equipment, which were issued late last year, to 
see if they are likely to improve the accuracy and security of voting, 
and to see if states are likely to adopt the standards.
    The new standards, known as the Voluntary Voting Systems Guidelines 
(VVSG), were required by the Help America Vote Act (HAVA), which was 
enacted in 2002. Under the Act, the Election Assistance Commission 
(EAC) promulgates the standards, based on recommendations from the 
Technical Guidelines Development Committee (TGDC), which is chaired by 
the National Institute of Standards and Technology (NIST). The language 
in the Act regarding the standards was written by the House Science 
Committee and the House Administration Committee.

Witnesses

Ms. Donetta Davidson--Commissioner, Election Assistance Commission.

Dr. William Jeffrey--Director, National Institute of Standards and 
Technology.

Ms. Mary Kiffmeyer--Secretary of State for Minnesota.

Ms. Linda Lamone--Administrator of Elections, Maryland State Board of 
Elections.

Mr. John Groh--Chairman, Election Technology Council, Information 
Technology Association of America.

Dr. David Wagner--Professor of Computer Science, University of 
California at Berkeley.

Overarching Questions

    The hearing will address the following overarching questions:

        1.  Are the new voting equipment standards, if adopted, likely 
        to improve the accuracy and security of voting? What additional 
        elements, if any, are needed to improve the standards? When 
        should the standards be updated?

        2.  Are states likely to adopt the new voting equipment 
        standards? What needs to be done, if anything, to make the new 
        standards more useful for states and voting equipment 
        manufacturers?

        3.  What is the status of certifying the labs, known as Voting 
        System Testing Laboratories (VSTLs), that will test voting 
        equipment to see if it complies with standards?

        4.  How will the new standards, particularly those sections 
        that addressing human factors in voting, improve the usability 
        and accessibility of voting systems?

Overview

        <bullet>  ``The U.S. election system is highly decentralized, 
        with primary responsibility for managing, planning, and 
        conducting elections residing at the local jurisdictions--
        generally at the county level in most states, but some states 
        have delegated election responsibility to sub-county 
        governmental units. Sub-county election jurisdictions in nine 
        states account for about 75 percent of about 10,500 local 
        election jurisdictions in the United States, but about 12 
        percent of the 2000 U.S. Census population. Local election 
        jurisdictions vary widely in size and complexity, ranging from 
        small New England townships to Los Angeles County, whose number 
        of registered voters exceeds that of many states.''\1\
---------------------------------------------------------------------------
    \1\ GAO, Elections: The Nation's Evolving Election System as 
Reflected in the November 2004 General Election, GAO-06-450 
(Washington, D.C.: June 6, 2006).

        <bullet>  In October 2002, Congress enacted the Help America 
        Vote Act (HAVA) (P.L. 107-252) to help address problems with 
        voting machines that were brought to the public's attention 
        during the 2000 federal election. HAVA encourages states and 
        localities to eliminate punch card and lever voting machines by 
        providing funds to the states to replace such equipment. Under 
        HAVA, the states have received $2.9 billion since 2003 to 
        improve their elections processes, including by purchasing new 
---------------------------------------------------------------------------
        voting equipment.

        <bullet>  HAVA established an Election Assistance Commission 
        (EAC) to carry out aspects of HAVA. HAVA also established a 
        number of basic requirements that voting machines and systems 
        should meet, and a process by which new voluntary technical 
        standards would be developed to ensure the reliability and 
        accuracy of new voting equipment.

        <bullet>  Under HAVA, draft technical standards for voting 
        system hardware and software are developed by the Technical 
        Guidelines Development Committee (TGDC), a 14-member panel 
        chaired by the Director of the National Institute of Standards 
        and Technology (NIST). The TGDC recommends standards to the 
        EAC, which approves and promulgates voluntary standards after 
        review and input from a HAVA-established Standards Board 
        (composed of State and local elections officials) and a Board 
        of Advisors (appointed by associations representing governors, 
        legislators, election directors, county officials, and others).

        <bullet>  The EAC approved the first edition of these 
        standards, the 2005 Voluntary Voting Systems Guidelines (VVSG), 
        in December 2005, but made the new standards (the 2005 VVSG) 
        officially effective as of December 2007.

        <bullet>  The 2005 VVSG standards are voluntary. States are 
        free to adopt them, in whole or in part, or not at all, as they 
        see fit. Two earlier sets of voluntary standards promulgated by 
        the Federal Election Commission (FEC), one promulgated in 1990 
        and one promulgated in 2002, are also available. The voluntary 
        nature of these standards means that earlier standards are not 
        necessarily superseded by the promulgation of updated 
        standards. Some states have adopted the 1990 FEC standards, 
        some states have adopted the 2002 FEC standards, some states 
        are in the process of adopting the 2005 VVSG standards prior to 
        their official effective date, some states have created their 
        own standards, and a handful of states have not yet adopted 
        standards for voting equipment.

        <bullet>  In a recent GAO report, The Nation's Evolving 
        Election System as Reflected in the November 2004 General 
        Election, which included a survey of states, the GAO noted 
        widespread inconsistency in the use of federal technology 
        standards. For the November 2006 election, 11 states will 
        require local jurisdictions to meet the 1990 FEC standards, 29 
        states will use the 2002 FEC standards, five will use the draft 
        version of the 2005 VVSG, and the remainder did not require 
        compliance with any federal standard, used a mix of federal 
        standards, had not decided, or did not respond.

        <bullet>  In addition, the same GAO study noted that the 
        performance of the voting systems--such as accuracy, 
        reliability, and efficiency--was not consistently measured by 
        states. Half of jurisdictions were collecting such data, 
        meaning that there is no nationwide data on the performance of 
        voting systems. Such information could help improve technology 
        and elections in the future.

Issues

Timing of the 2005 VVSG Versus State Voting Systems Purchases--The 
transition to the new standards regime has been slow. The members of 
the EAC were not appointed until the end of 2003, and the EAC was 
initially provided with little funding to support its activities, 
including the development of standards. Furthermore, the TGDC could not 
meet until the EAC had been appointed, so the first TGDC meeting did 
not take place until July 2004. When the EAC began distributing funds 
to the states to help them purchase new voting equipment to replace 
punch-card and lever voting machines, the TGDC had not finished the 
process of developing the 2005 VVSG.
    This has raised concerns that the new standards will not have a 
significant effect on the technology that is currently being purchased. 
Today, voting systems meet the 1990 or 2002 FEC standards, but none are 
certified to meet the 2005 VVSG standards. One of the reasons is that 
although the 2005 VVSG have been adopted, they are generally recognized 
to be incomplete. The TGDC still needs to develop a comprehensive suite 
of tests that instruct vendors and accredited testing laboratories how 
to assess the performance of voting systems versus the standards. 
Another reason is that the EAC, when they approved the 2005 VVSG, 
included a 24-month grace period for states to adopt the standards, 
reasoning that the testing laboratories had yet to be accredited, there 
were no test suites to accompany the 2005 VVSG, and that states and 
vendors had not had time to review and digest the new standards. This 
means that the standards effectively do not apply until 2007. By this 
time, all of the federal funds provided to the states under HAVA will 
have been disbursed.

Security--Numerous reports have been released by computer science 
experts that detail specific security flaws in electronic voting 
systems, particularly in voting systems software used in direct record 
electronic (DRE) or ``touch-screen'' voting machines. Due to these 
flaws, most of these experts recommend the use of an independent paper 
record to ensure that elections officials can audit election results, 
spot-check for accuracy, and re-count should electronic results be lost 
or compromised. They have also recommended various security procedures 
to ensure access to the voting machines is strictly controlled.
    These reports have been criticized by the voting systems vendors 
and by some elections officials as offering unlikely and alarmist 
scenarios. They point out that, to date, there is no evidence that an 
electronic voting system has been hacked. They also point out that the 
creation of a paper record creates additional opportunities for 
mischief and management headaches for election workers. However, 
computer security experts warn a relatively unskilled hacker with even 
a few minutes' access to the machines--either through physical contact 
or through a wireless connection--could change election results. 
Hacking aside, they point out that software errors, or errors that are 
made during the programming of the ballot into the machine to get it 
ready for a specific election, can lead to errors in the vote count. Up 
to now, it is these types of problems, rather than hacking, that have 
led to counting errors by electronic voting machines.
    The 2005 VVSG includes technical standards related to electronic 
voting machine security, but some security experts say that the 
standards require additional scope and detail. In particular, they say 
that true security testing goes beyond running through a checklist of 
tests and should include actually trying different ways of breaking 
into a system to alter vote counts. This type of testing should be 
required and carried out routinely on voting systems, they say, before 
there will be any assurance that systems are truly secure. The 2005 
VVSG also contains guidelines for the use of a voter-verifiable paper 
trail, should states decide to require one. Currently 27 states have 
chosen to do this. Another eight do not have the requirement although 
individual jurisdictions within those states have chosen this 
technology.

Testing--The 2005 VVSG consists of two volumes totaling 370 pages. 
Volume I National Certification Testing Guidelines describes the 
minimum capabilities, hardware, software, security, and functionality 
requirements that a voting system should have. This includes such 
topics as human factors that affect the usability of these systems, 
requirements for ballot preparation and election programming, and 
environmental tolerances for heat, cold, and rough treatment such as 
dropping.
    For a standard to be useful, there must be a test or tests to 
validate that it has been met. For this reason, Volume II Voting System 
Performance Guidelines contains procedural requirements for vendors and 
test labs and a high level description of the areas that shall be 
tested. However, it does not contain tests for every topic covered by 
the 2005 VVSG and therefore the 2005 VVSG will have to be updated with 
more detailed testing protocols. Currently the VVSG include protocols 
for the most basic varieties of environmental testing. For example, the 
guidelines describe a test (Section 4.6.5.2) where the equipment is 
heated for a specific period of time to ensure that variations in 
environmental conditions do not interfere with its basic functions, 
since equipment could be used or stored (up to months or years) under 
extremely hot (or cold) temperatures. In another section of the 
guidelines, standard tests from the International Electrical Code that 
are already in use are recommended to test for resilience to power 
disturbance, electromagnetic radiation, lightning surges, and other 
phenomena.(Section 4.8.1-4.8.8).
    However, for more advanced matters such as software security, tests 
have not been fully detailed in the 2005 VVSG. For example Volume I has 
an extensive section on standards to protect the security of voting 
systems. Volume II's section on testing for security mostly relies on 
requiring the vendor to describe their own security testing, or on the 
test laboratory designing tests. Although there are tools used by the 
software industry to check software for errors, as well as malicious 
code, no specific techniques, procedures, de-bugging software or other 
tools are listed as mandatory for labs to test voting systems software 
to meet a security standard. However it is important to note that in 
the broader software industry software security testing is not 
particularly standardized because there is so much customization in 
software.

Usability--Electronic voting machines (i.e., computers, often with 
``touch screens'') have the potential to simplify voting and reduce 
errors. Their similarly to Automated Teller Machines (ATMs), which many 
people use on a routine basis, has made their use in the polling place 
more intuitive for many voters. Electronic voting machines can also be 
outfitted with devices to help the disabled vote without assistance. 
Nevertheless, problems with the design and set-up of voting machines, 
ballots, and the polling places themselves still can make voting a 
confusing and discouraging experience. But even when the machines are 
user-friendly and intuitive for voters, they may still remain 
problematic for poll workers who need to set them up and break them 
down on Election Day, and solve problems when voting machines do not 
perform as expected.
    In May 2004, before the formation of the TGDC, NIST published a 
report entitled ``Improving the Usability and Accessibility of Voting 
Systems and Products.'' This report, often referred to as ``the Human 
Factors Report,'' detailed how research and best practices developed in 
human-machine, human-computer, and usability engineering disciplines 
could be applied to improve the usability of voting systems, both for 
voters and poll workers, and for the disabled community. The report 
noted that usability and accessibility were only partially addressed in 
the FEC voting systems standards, and made recommendations on how 
usability and accessibility could be addressed in the standards updates 
mandated by HAVA.

Background

A Brief History of Voting Standards--Before the passage of the Help 
America Vote Act (HAVA), voluntary voting systems standards were 
developed and promulgated by the Federal Election Commission (FEC). 
There were two versions of these standards, the 1990 version, and the 
2002 version. These standards were developed by volunteers from the 
elections community that did not necessarily include a range of 
expertise on technical issues, such as security. The accreditation of 
the testing laboratories that tested equipment against the FEC 
standards was performed by the National Association of State Elections 
Directors. The FEC standards had been originally developed in 
recognition of the need for minimum performance requirements for voting 
technologies that were becoming increasingly complex and sophisticated. 
However, compared with most technical standards, these standards were 
more descriptive than prescriptive. The design of tests to comply with 
them was generally left to individual testing laboratories, resulting 
in differences in interpretation and application of the standards. For 
these and other reasons, HAVA included the language requiring the 
development more rigorous standards.
    The 2005 VVSG used the 2002 FEC standards as a starting point, 
although they significantly expanded and refined them. HAVA transferred 
the responsibility for accrediting the testing laboratories to the 
newly created EAC, which would accredit laboratories upon the 
recommendation of NIST. These testing laboratories are now referred to 
as Voting Systems Testing Laboratories (VSTLs). NIST is evaluating 
prospective VSTLs through its National Voluntary Laboratory 
Accreditation Program. NIST will make recommendations to the EAC based 
on those evaluations about which laboratories to accredit.

VVSG Development and Approval Process--HAVA directed the TGDC to make 
recommendations to the EAC, which would then have the recommendations 
reviewed by the EAC Board of Advisors, a 37-member body drawn from 
federal, state, and local entities, and Congressional appointees, and 
by the EAC Standards Board, which is composed of 110 members drawn from 
State and local election officials. The first meeting of the TGDC was 
held July 9, 2004, and the TGDC has held regular meetings and 
teleconferences since that date. The TGDC submitted its recommended 
draft standards to the EAC May 9, 2005.
    HAVA required a public comment period of unspecified length on the 
draft standards. The EAC held a 90-day public comment period during 
which time it received and reviewed over 6,000 comments on the proposed 
guidelines. The EAC made some changes to TGDC's recommended standards 
based on the public comment, and comments by the Board of Advisors and 
the Standards Board. The EAC voted to approve the final standards on 
December 13, 2005, while delaying their official effective date by 24 
months to December 2007.
    The TGDC continues to meet, as it believes there are major areas 
for improvement and expansion in the standards. In addition to the test 
suites to accompany the 2005 VVSG, the TGDC and NIST are working to 
update the VVSG for 2007, which will complete the standards and 
guidelines that were not fully addressed in the 2005 VVSG.

Recent Issues--Although the majority of new electronic voting equipment 
performed well in the 2004 election and in the 2006 primaries held thus 
far, some problems have occurred. During the 2004 election, the race 
for the post of agriculture commissioner in North Carolina had to be 
re-run because a problem in a voting machine caused it to stop counting 
votes. During the Indiana and West Virginia primaries this year, 
election officials in several counties had to manually count ballots 
because of programming errors in the equipment that tabulated the 
results from the voting machines. Recently tests in Utah revealed 
potential security vulnerabilities in one manufacturer's machines (see 
attached news article). Many new voting systems that have exhibited 
problems related to software errors had their systems evaluated and 
passed by testing laboratories, which did not catch these errors. This 
raises questions about how to improve software standards and testing 
for voting systems so that these types of errors are caught in the 
future.

Witness Questions

    The witnesses were asked to address the following specific 
questions:
Ms. Donetta Davidson--Commissioner, Election Assistance Commission 
        (EAC).

        1.  What is the EAC doing to encourage states to adopt the 2005 
        Voluntary Voting Systems Guidelines (VVSG)? How many states 
        have adopted the VVSG for the 2006 election? How many states do 
        you anticipate will adopt the VVSG for the 2008 election? Why 
        are states adopting or failing to adopt the guidelines?

        2.  Does the EAC intend to update the VVSG? If so, when will 
        they next be updated and what standards, testing procedures, 
        and other technical issues will be considered as part of the 
        update? What impact will these updates have on equipment 
        already in use?

        3.  To what extent did you review the VVSG with respect to 
        human factors and usability issues? To what extent do you think 
        human factors and usability need to be addressed in updates of 
        the guidelines?

        4.  What is the EAC's role in the approval of a certification 
        process for Voting Systems Testing Laboratories (VSTLs) and 
        what is the status of this process? When will the first VSTLs 
        be approved?

        5.  What actions, in addition to establishing a process to 
        certify VSTLs, does the EAC need to take to ensure that voting 
        equipment meets the 2005 VVSG and future updates?

Dr. William Jeffrey--Director, National Institute of Standards and 
        Technology (NIST).

        1.  What is the TGDC doing to update the 2005 Voluntary Voting 
        Systems Guidelines (VVSG)? What are the primary gaps in the 
        2005 VVSG that need to be filled? To what extent would voting 
        equipment still be subject to problems if it complied with the 
        2005 VVSG?

        2.  What is NIST doing to implement a certification process for 
        Voting Systems Testing Laboratories (VSTLs) and what is the 
        status of this process? How many testing laboratories have 
        applied for approval and when will recommendations for 
        qualifying laboratories be submitted to the Election Assistance 
        Commission (EAC)?

        3.  What were the findings and recommendations of NIST's 2004 
        report ``Improving the Usability and Accessibility of Voting 
        Systems and Products,'' which addressed human factors in 
        voting? To what extent were those findings and recommendations 
        reflected in the 2005 VVSG? To what extent do the 2005 VVSG and 
        the 2004 human factors reports emphasize the importance of ease 
        of use of voting systems for both poll workers and voters?

Ms. Mary Kiffmeyer--Secretary of State for Minnesota.

        1.  To what extent are the 2005 Voluntary Voting Systems 
        Guidelines (VVSG) being used by Minnesota and why? If Minnesota 
        is not adopting the 2005 VVSG, what standards are you using for 
        voting equipment purchasing decisions and operation, and why 
        did you select these standards?

        2.  Are the 2005 VVSG comprehensive enough to guide states' 
        voting equipment purchasing decisions and voting systems 
        operation during elections? If so, why, and if not, why not?

        3.  What do the Election Assistance Commission (EAC) and 
        Technical Guidelines Development Committee (TGDC) need to do to 
        make it more likely that states will update equipment using the 
        latest VVSG? Do the 2005 VVSG need to be changed or improved in 
        any way to make them more useful to the states? If so, what 
        changes or additional information would you recommend for the 
        VVSG? If not, why not?

        4.  How important are human factors, such as those described in 
        the National Institute of Standards and Technology (NIST) 2004 
        report ``Improving the Usability and Accessibility of Voting 
        Systems and Products,'' in your selection of voting equipment? 
        Is this report, together with the 2005 VVSG, having an impact 
        on voting systems and elections, and if so, how? If not, why 
        not?

Ms. Linda Lamone--Administrator of Elections, Maryland State Board of 
        Elections.

        1.  To what extent are the 2005 Voluntary Voting Systems 
        Guidelines (VVSG) being used by Maryland and why? If Maryland 
        is not adopting the 2005 VVSG, what standards are you using for 
        voting equipment purchasing decisions and operation, and why 
        did you select those standards?

        2.  Are the 2005 VVSG comprehensive enough to guide states' 
        voting equipment purchasing decisions and voting systems 
        operation during elections? If so, why, and if not, why not?

        3.  What do the Election Assistance Commission (EAC) and the 
        Technical Guidelines Development Committee (TGDC) need to do to 
        make it more likely that states will update equipment using the 
        latest VVSG? Do the 2005 VVSG need to be changed or improved in 
        any way to make them more useful to the states? If so, what 
        changes or additional information would you recommend for the 
        VVSG? If not, why not?

        4.  How important are human factors, such as those described in 
        the National Institute of Standards and Technology (NIST) 2004 
        report ``Improving the Usability and Accessibility of Voting 
        Systems and Products,'' in your selection of voting equipment? 
        Is this report, together with the 2005 VVSG, having an impact 
        on voting systems and elections, and if so, how? If not, why 
        not?

Mr. John Groh--Chairman, Election Technology Council, Information 
        Technology Association of America (ITAA); and Vice President of 
        Marketing and Director of International Sales, Elections 
        Systems and Software, Inc., a voting machine manufacturer.

        1.  To what extent are the 2005 Voluntary Voting Systems 
        Guidelines (VVSG) sufficient to inform the development and 
        manufacture of new voting machines? Is there additional 
        information and guidance voting machine manufacturers need?

        2.  Do you believe that changes are needed to the 2005 VVSG, 
        and if so, what are they and why are they necessary? If not, 
        why not?

        3.  What does your industry need in terms of tests and other 
        procedures to ensure that your products meet these guidelines? 
        Do you believe the current process for approval of Voting 
        Systems Test Laboratories (VSTLs) for voting equipment will 
        meet your needs?

        4.  How important are human factors, such as those described in 
        the National Institute of Standards and Technology (NIST) 2004 
        report ``Improving the Usability and Accessibility of Voting 
        Systems and Products,'' in your design of voting equipment? Did 
        this report, together with the 2005 VVSG, impact your industry, 
        and if so, how? If not, why not?

Dr. David Wagner--Professor of Computer Science, University of 
        California at Berkeley.

        1.  What should the Technical Guidelines Development Committee 
        (TGDC) and the Election Assistance Commission (EAC) do to 
        improve the 2005 Voluntary Voting Systems Guidelines (VVSG)? 
        What are the primary gaps in the 2005 VVSG that need to be 
        filled? To what extent would voting equipment still be subject 
        to problems if it complied with the 2005 VVSG?

        2.  What are the most effective and practical measures that 
        election officials can take today to make existing voting 
        systems as secure and reliable as possible in November?

        3.  Do the VVSG adequately address human factors and usability 
        issues? Do you think that they need to be improved in this 
        area? If so, why, and if not, why not?
    Chairman Ehlers. This hearing will come to order. Welcome 
to today's hearing on Voting Machines: Will the New Standards 
and Guidelines Help Prevent Future Problems?
    First, a few things to get out of the way. We have a 
unanimous consent on rules for the joint hearing, since this is 
a joint hearing of both the Science Committee and the Committee 
on House Administration.
    I ask unanimous consent that we conduct today's hearing 
under Science Committee rules, the five-minute rule, and using 
the following order of recognition. Opening statements by the 
Chair, then Ranking Member of House Administration, opening 
statements by Chair, then Ranking Member of the Science 
Committee. Following witness testimony, questions from the 
Chair, then Ranking Member of House Administration. Questions 
from the Chair, then Ranking Member of the Science Committee, 
questions from a majority, then minority Member of House 
Administration, questions from majority, then minority Members 
of the Science Committee, and so forth, until each Member 
present has been recognized for the initial round of questions 
under the five-minute rule. The presiding Chairman may use 
discretion to ensure orderly and balanced recognition, based 
upon time of arrival and seniority, as may be appropriate under 
the circumstances. Without objection, so ordered.
    I also ask unanimous consent for the gentleman from New 
Jersey, Mr. Holt, to join us on the dais for today's hearing, 
that he be able to ask questions of the witnesses and introduce 
a statement for the record. Without objection, so ordered.
    Now, having taken care of that bit of business, to organize 
the meeting of the joint Committees, I just want to do a brief 
explanation of procedure for the witnesses and the Members and 
audience. Now, we are likely to have a vote on the Floor very, 
very soon, and the bells will ring, and we will have to go 
vote. I am hoping it will be only one vote, in which case we 
probably can go to the Floor vote and be back within 15 
minutes. If there is a series of votes, it will be longer, and 
I beg your forbearance during that time. But we will certainly 
do it as expeditiously as possible, and I also am very hopeful 
that we will not have another vote during the course of this 
hearing, so that we can proceed directly through it.
    So, I am pleased to welcome all of you to this joint 
hearing of the Committees on Science and House Administration 
to review the development and implementation of the Voluntary 
Voting System Guidelines.
    My main objective in holding this hearing is to discuss how 
voting technology standards can help us come closer to two very 
important goals. First, that every citizen knows that their 
vote is being accurately counted, and second, that every 
citizen knows that their vote is not being diluted by illegal 
or improper votes. At this hearing, I look forward to hearing 
testimony from expert witnesses who may help us understand how 
voting equipment standards and testing can help improve the 
accuracy and security of the country's voting systems, and 
prevent errors and fraud.
    The new Voluntary Voting System Guidelines were developed 
pursuant to the requirements of the Help America Vote Act of 
2002, or HAVA, and it was the Science Committee and the House 
Administration Committee that wrote the language requiring 
these federal technical guidelines. So, the technical part of 
the HAVA bill originated in this committee, and it was also 
very much a joint minority-majority effort--as I recall, Mr. 
Barcia was the Ranking Member at that time, and he and I worked 
hand-in-hand in drafting that.
    Under HAVA, these draft technical standards for voting 
systems are developed by the Technical Guidelines Development 
Committee, TGDC, a 14-member panel chaired by the Director of 
the National Institute of Standards and Technology, better 
known as NIST. And the Director is present to offer testimony. 
The TGDC recommends standards to the Election Assistance 
Commission, EAC, which approves the voluntary standards after 
review and input from a HAVA-established Standards Board and 
Board of Advisors composed of federal, State, and local 
election officials.
    This sounds like an incomprehensible alphabet soup, but the 
system, although cumbersome, was designed to provide input and 
action from experts in the field from all different areas, 
ranging from the smallest township in the country to the 
largest manufacturers.
    The first set of standards under HAVA, known as the 
Voluntary Voting System Guidelines, were approved by the EAC in 
December 2005, although their official effective date was 
delayed until December 2007.
    The creation of the 2005 Voluntary Voting System Guidelines 
was an important step in improving voting standards, but the 
utility of the guidelines in ensuring honest and fair elections 
will only be demonstrated by their adoption and implementation 
in the states. Also, NIST still needs to approve test protocols 
at companies that will certify that voting systems meet the 
guidelines.
    I look forward to hearing from our witnesses how the 
guidelines will be used by states in the selection and use of 
voting equipment, and when we can expect NIST to complete 
certification of the testing companies. Our hearing today 
should give us a better understanding of our progress in 
applying these standards, as well as the efforts underway to 
facilitate their adoption.
    Another important issue with regard to voting standards is 
the ability to update the guidelines as circumstances change 
and technologies evolve. In the event that the guidelines are 
updated, some existing equipment may fall out of compliance 
with the updated regulations. We need to understand what impact 
these updates will have on equipment--pardon me--already in 
use, and what guidance the EAC will offer the states in 
assessing this impact and helping them deal with it.
    The matters we will discuss today are technical in nature, 
and while they may be complicated, the underlying question is a 
simple one. How will the new standards improve the integrity 
and accuracy of our voting systems? As the name suggests, the 
Help America Vote Act was enacted to help our citizens exercise 
their right to vote. Technology can help us advance that goal, 
but it must be deployed with the proper standards, standards 
that take into account the human factors that will determine 
whether or not real people, the voters, will be able to use the 
technology with ease and confidence. Our objective is to ensure 
that every person who is eligible to vote is able to do so with 
the assurance that their vote will be accurately counted, and 
that their vote will not be nullified by fraud.
    I would like to thank our witnesses for offering their 
insight into these issues, as we continue to improve our voting 
systems and processes on behalf of all Americans.
    Now, just one last, one other quick comment. I notice a 
number of Members in the audience wearing T-shirts 
demonstrating their support for a paper trail. That is a very 
important issue. It is not likely to be addressed today, unless 
some of the witnesses bring it up, but I have discussed it with 
Dr. Holt, to whom we have granted the privileges of sitting 
with us and commenting and questioning.
    And I am trying to arrange a hearing, a separate hearing on 
the paper trail, presumably some time in September, but we had 
too much to do already in this hearing, without having to deal 
with that separate issue, which is complex and important, and I 
felt it deserved a hearing of its own.
    With that, I am very pleased to now recognize Ms. 
Millender-McDonald, the Ranking Member of the House 
Administration Committee, for an opening statement.
    [The prepared statement of Chairman Ehlers follows:]

            Prepared Statement of Chairman Vernon J. Ehlers

    Good afternoon. I want to welcome everyone to this joint hearing of 
the Committees on Science and House Administration to review the 
development and implementation of the Voluntary Voting Systems 
Guidelines (VVSG).
    My main objective in holding this hearing is to discuss how voting 
technology standards can help us come closer to two very important 
goals: First--that every citizen knows that their vote is being 
accurately counted, and second--that every citizen knows that their 
vote is not being diluted by illegal or improper votes. At this 
hearing, I look forward to hearing from expert witnesses whose 
testimony may help us understand how voting equipment standards and 
testing can help improve the accuracy and security of the country's 
voting systems, and prevent errors and fraud.
    The new Voluntary Voting System Guidelines were developed pursuant 
to the requirements of the Help America Vote Act of 2002, or HAVA, and 
it was the Science Committee and House Administration Committee that 
wrote the language requiring these federal technical guidelines.
    Under HAVA, draft technical standards for voting systems are 
developed by the Technical Guidelines Development Committee (TGDC), a 
14-member panel chaired by the Director of the National Institute of 
Standards and Technology (NIST). The TGDC recommends standards to the 
Election Assistance Commission (EAC), which approves the voluntary 
standards after review and input from a HAVA-established Standards 
Board and a Board of Advisors composed of federal, State and local 
election officials.
    The first set of standards under HAVA (known as the Voluntary 
Voting Systems Guidelines (VVSG) ) were approved by the EAC in December 
2005, although their official effective date was delayed until December 
2007.
    The creation of the 2005 Voluntary Voting Systems Guidelines was an 
important step in improving voting standards, but the utility of the 
guidelines in ensuring honest and fair elections will only be 
demonstrated by their adoption and implementation in the states. Also, 
NIST still needs to approve test protocols at companies that will 
certify that voting systems meet the guidelines. I look forward to 
hearing from our witnesses how the guidelines will be used by states in 
the selection and use of voting equipment, and when we can expect NIST 
to complete certification of the testing companies. Our hearing today 
should give us a better understanding of our progress in applying these 
standards, as well as the efforts underway to facilitate their 
adoption.
    Another important issue with regard to voting standards is the 
ability to update the guidelines as circumstances change and 
technologies evolve. In the event that the guidelines are updated, some 
existing equipment may fall out of compliance with the updated 
regulations. We need to understand what impact these updates will have 
on equipment already in use, and what guidance the EAC will offer the 
states in assessing this impact and helping them deal with it.
    The matters we will discuss today are technical in nature and, 
while they may be complicated, the underlying question is a simple 
one--how will the new standards improve the integrity and accuracy our 
voting systems? As the name suggests, the Help America Vote Act was 
enacted to help our citizens exercise their right to vote. Technology 
can help us advance that goal, but it must be deployed with the proper 
standards--standards that take into account the human factors that will 
determine whether or not real people--voters--will be able to use the 
technology with ease and confidence. Our objective is to ensure that 
every person who is eligible to vote is able to do so, with the 
assurance that their vote will be accurately counted, and that their 
vote will not be nullified by fraud.
    I would like to thank our witnesses for offering their insight into 
these issues, as we continue to improve our voting systems and 
processes on behalf of all Americans.

    Ms. Millender-McDonald. Thank you so much, Mr. Chairman, 
and I, too, would like to join you in welcoming all of the 
expert witnesses, those who are participating with us in the 
audience, and others today. It is great to see you all here as 
we convene this joint hearing.
    And given that it is a joint hearing, I would like to thank 
both Chairmen, my own Chair, Ehlers, and Chairman Boehlert, for 
calling this very important joint oversight hearing.
    Given that the Election Assistance Commission, EAC, was 
created to be the election issue clearinghouse, they are 
working tirelessly to remedy the inherent problems with lever 
and punch card machines that plagued past elections. This issue 
was clearly brought to light during the 2000 Presidential 
election in Florida. As part of HAVA, the EAC was tasked with 
updating the Voluntary Voting System Guidelines, which were 
promulgated by the now-defunct FEC Office of Election 
Administration. The EAC worked in tandem with the National 
Institute of Standards and Technology and the Technical 
Guidelines Development Committee to address computerized voting 
equipment as well as standards.
    The media has focused much of its attention in the last few 
years on the perceived problems with direct recording 
electronic, DRE, voting machines, as well as calls for a voter-
verifiable paper audit trail, VVPAT. The EAC was tasked by HAVA 
to determine if there are actual versus perceived problems with 
paperless DRE voting machines, and recommend standards for 
states that have decided to implement VVPAT.
    I believe that the EAC's chief functions in determining 
these standards will be the testing certification, 
decertification, and recertification of voting system hardware 
and software. To that end, the EAC heard public opinion on the 
Voting System Guidelines, received over 6,500 comments from the 
public, and incorporated elements of these comments into the 
Election Management Guideline Project.
    Elections today are not the same as they were 200 years 
ago, not even 60 years ago. We are moving to a more 
technologically-driven world, and we need comprehensive 
standards to reflect these changes. States may decide to adopt 
the Voluntary Voting System Guidelines in their entirety or in 
part prior to the effective date of December 2007. However, we 
are hopeful that all states will implement these standards.
    During a hearing held by our committee in July of 2004, 
Brit Williams, Kennesaw State University Professor of Computer 
Science, suggested one way to improve the way elections are run 
is to test machines before, during, and after elections to 
verify their soundness. I am interested in hearing the panel's 
thoughts on this concept. As we are in the midst of the 2006 
election cycle, I intend to ask about one of HAVA's mandates 
for states which requires that each polling station be equipped 
with at least one machine that is fully accessible to the 
individuals with disabilities. That mandate became effective 
January 1 of this year.
    One way states may satisfy this obligation is with the use 
of DRE voting equipment. Now, are all states going to be 
compliant before this upcoming November election? That is yet 
to be determined. DRE machines were at one point thought to be 
the great panacea to the problems associated with the 2000 
election, but much concern has continued to brew since the 
enactment of HAVA. These Voluntary Voting System Guidelines 
will be directly affecting the way elections are conducted.
    So, I look forward to the hearing today, from the panel of 
experts, about voting machines, and the hearing, and to hear 
their answers to such questions as, ``Will they be secure, 
while still allowing for people with a disability to vote 
without assistance and in private?'' And Mr. Chairman, I am 
very pleased that you have suggested that we will have a 
hearing some time in the near future on the paper trail.
    When I had my week off, we all had weeks off here a couple 
of weeks ago, I heard from an overwhelming amount of 
constituents on the paper trail issue, and I think it is 
important that we bring this to the forefront, so Americans 
across this nation can hear our thoughts on a paper trail.
    So, I thank the two Chairmen for convening this hearing, 
and I look forward to the testimony of this esteemed panel, to 
answer those questions, some of which I have raised.
    Thank you, Mr. Chairman.
    Chairman Ehlers. Thank you for your comments. Next, I am 
pleased to recognize a very, very distinguished gentleman, the 
Chairman of the full Science Committee, who has devoted a good 
share of his life to the Congress and to this committee, and 
unfortunately, has chosen to retire, and will be honored today 
at a retirement reception.
    But Congressman Boehlert from New York has done yeoman 
service, and I think, frankly, we should, we have a good group 
here, let us all give him a round of applause for his good 
work.
    The Chairman is recognized for his opening statement.
    Chairman Boehlert. Thank you very much, Mr. Chairman.
    And I have to observe at the outset that we have the entire 
Congressional Physics Caucus with us here today on the dais. 
Both Chairman Ehlers and Dr. Holt are distinguished scientists 
in their own right. Both have Ph.D.s in physics, so it is a 
pleasure to work in association with you. They are scientists 
first, politicians second.
    I want to join the Chairman in welcoming everyone to this 
extraordinarily important hearing. Elections are obviously the 
keystone of our entire democratic system. If elections are not 
seen as legitimate, the entire American system unravels. But 
making sure that election results are credible is a trickier 
and more technical matter than first appears to be the case. 
That is why our committees worked together under the leadership 
of Dr. Ehlers to craft language in the Help America Vote Act, 
requiring new technical standards for voting equipment, and a 
new testing regime for those standards. That is not the part of 
the law that got the most attention, but it may prove to be the 
most important part of the law for the future of American 
democracy.
    I say that because, as the Nation moves to electronic 
voting systems, that is, to computers, which is a good trend on 
the whole, the kinds of things that can go wrong with voting 
machines may become harder to recognize, harder to fix, and 
harder to prevent. I am referring here mostly to unintentional 
problems, but security issues become more complex as well.
    Over the long-run, newer voting machines are going to 
require clear, comprehensive technical standards, and testing, 
to ensure that election results are credible. In the short-run, 
I think we also need to require paper trails, even though they 
have their own problems, to ensure that election results can be 
checked.
    I think, excuse me, I think all of us need to pay close 
attention to the testimony that will be offered today by Dr. 
Wagner, and to his recommendations for making sure that 
electronic voting machines make voting more accurate and more 
secure, not the opposite. I am not endorsing all the 
recommendations at this point, but I am going to want to hear 
from each of our witnesses what they think of each of Dr. 
Wagner's recommendations.
    And I don't simply want to hear that the recommendations 
will be expensive. How much is American democracy worth? As a 
nation, we ought to be willing to invest in election equipment, 
invest as much in election equipment as we invest in campaign 
ads. Frankly, we in Congress haven't invested as much as we 
should in the development of the new standards, which have been 
delayed as a result. I am not happy to learn that new standards 
are not likely to be fully enforceable until 2010, at the 
earliest, and that is only in states that choose to adopt them. 
I have to say that I had wanted the Help America Vote Act to 
require any state using federal money to purchase voting 
equipment to abide by the standards, but we weren't able to get 
that language into the bill.
    But what we have now is an entirely voluntary system, and 
we need to make sure that it works. I hope that today, our 
committees will get clear guidance on what needs to be done to 
ensure that comprehensive standards get developed, to ensure 
that those standards are capable of preventing problems with 
electronic voting machines, and to encourage states to adopt 
and effectively implement those standards.
    And once again, let me say, if we are going to spend 
taxpayer dollars to develop federal standards, I think we 
should require that the states that want to access those 
federal dollars should meet those standards. I am not enamored 
with the concept that they voluntarily can choose to comply.
    That is what is necessary to have credible election results 
in the future. The essayist E.B. White once defined democracy 
as ``the recurrent suspicion that more than half of the people 
are right more than half of the time.'' That makes democracy a 
pretty fragile construct to begin with, but it is an unworkable 
idea if we can't accurately count what half of the people are 
thinking.
    I look forward to today's testimony, and I thank you, Mr. 
Chairman, for the courtesy.
    [The prepared statement of Chairman Boehlert follows:]

          Prepared Statement of Chairman Sherwood L. Boehlert

    I want to join Chairman Ehlers in welcoming everyone here to this 
extraordinarily important hearing. Elections are obviously the keystone 
of our entire democratic system. If elections are not seen as 
legitimate, the entire American system unravels.
    But making sure that election results are credible is a trickier 
and more technical matter than first appears to be the case. That's why 
our committees worked together, under the leadership of Dr. Ehlers, to 
craft language in the Help America Vote Act requiring new technical 
standards for voting equipment and a new testing regime for those 
standards. That's not the part of the law that got the most attention, 
but it may prove to be the most important part of the law for the 
future of American democracy.
    I say that because, as the Nation moves to electronic voting 
systems, that is, to computers--which is a good trend, on the whole--
the kinds of things that can go wrong with voting machines may become 
harder to recognize, harder to fix, and harder to prevent. I'm 
referring here mostly to unintentional problems, but security issues 
become more complex as well.
    Over the long-run, newer voting machines are going to require 
clear, comprehensive technical standards and testing to ensure that 
election results are credible. In the short-run, I think we also need 
to require paper trails--even though they have their own problems--to 
ensure that election results can be checked.
    I think all of us need to pay close attention to the testimony that 
will be offered today by Dr. Wagner and to his recommendations for 
making sure that electronic voting machines make voting more accurate 
and more secure, not the opposite. I'm not endorsing all of his 
recommendations at this point, but I am going to want to hear from each 
of our witnesses what they think of each of his recommendations.
    And I don't simply want to hear that the recommendations will be 
expensive. How much is American democracy worth? As a nation, we ought 
to be as willing to invest in election equipment as we are in campaign 
ads.
    Frankly, we in Congress haven't invested as much as we should in 
the development of the new standards, which have been delayed as a 
result. I'm not happy to learn that new standards are not likely to be 
fully enforceable until 2010 at the earliest--and that's only in states 
that choose to adopt them. I have to say that I had wanted the Help 
America Vote Act to require any state using federal money to purchase 
voting equipment to abide by the standards, but we weren't able to get 
that language into the bill.
    But what we have now is an entirely voluntary system, and we need 
to make that work. I hope that today our committees will get clear 
guidance on what needs to be done to ensure that a comprehensive 
standards gets developed, to ensure that those standards are capable of 
preventing problems with electronic voting machines, and to encourage 
states to adopt and effectively implement those standards. That's 
what's necessary to have credible election results in the future.
    The essayist E.B. White once defined democracy as ``the recurrent 
suspicion that more than half of the people are right more than half of 
the time.'' That's makes democracy a pretty fragile construct to begin 
with. But it's an unworkable idea if we can't accurately count what 
half of the people are thinking.
    I look forward to today's testimony. Thank you.

    Chairman Ehlers. And I thank you for your comments. And 
before we go to the next person, I just want to comment on the 
reference to Dr. Holt and myself as physicists. We are the 
first two research physicists elected to the Congress. When he 
was elected, we decided to form a Physicists' Caucus. Since 
then, we have been looking for a suitable office for the 
caucus, but so far, we have not found a phone booth with a 
chalkboard. And physicists can't meet without a chalkboard.
    Having said that, it is my pleasure to recognize the 
Ranking Member of the Science Committee. I am pleased to 
recognize Mr. Gordon for his opening statement.
    Mr. Gordon. Thank you, Mr. Chairman. Let me add my welcome 
to everyone that is here today. It is good to see a full house. 
I also want to welcome our friends and colleagues from the 
House Administration, many of whom had little trouble finding 
this room, since Dr. Ehlers and Zoe Lofgren also do double duty 
here, so we welcome you, and certainly, Rush Holt, who has 
taken a major role in this issue.
    But most importantly, I want to welcome our distinguished 
guests today, who are going to be speaking to us. I am in that 
position where, being the fourth speaker, most everything has 
been said. I haven't said it, and I am going to leave it that 
way, and just quickly say that as my friend, Chairman Boehlert, 
pointed out, the root and foundation of any democracy is a 
feeling among its people that once the election is over with, 
you were treated fair and square, and that you can go home, be 
upset maybe that your candidate didn't win, but you can then be 
a part of the loyal opposition, and the process can move 
forward until the next election.
    When you don't have that, as we are seeing in Mexico right 
now, problems persist. Recently, concerns have developed in our 
country about that level of being fair and square, whether it 
is intentional or unintentional, and so, I hope that today's 
hearings will help us to move forward. I have to say that I am 
disappointed that we are behind schedule, and I do not see, 
obviously, much taking place in 2006, maybe not even 2008. We 
need to move forward. There needs to be transparency. There 
needs to be credibility in this process, and we need to move on 
with it.
    So, thank you, and hopefully, this hearing today will allow 
us to do so.
    [The prepared statement of Mr. Gordon follows:]

            Prepared Statement of Representative Bart Gordon

    I want to welcome everyone to this afternoon's hearing and to 
welcome our House Administration colleagues to the Science Committee 
hearing room.
    The development of new voting standards by NIST and the Election 
Administration Commission (EAC) was meant to improve the accuracy, 
reliability and integrity of our voting systems. However, the facts 
highlight that these updated guidelines may have little impact on the 
2006 or even the 2008 elections.
    According to a June 2006 GAO report, eleven states are still using 
the 1990 Federal Election Commission (FEC) standards which are known to 
be inadequate. Twenty-nine states are using the 2002 FEC standards 
which GAO has also found to be weak. Currently, only five states plan 
on using the new 2005 standards developed by the EAC and NIST during 
the 2006 elections. In addition, there are serious questions about the 
current testing procedures used to determine if voting equipment meets 
any standards. The current conformance testing is not transparent and 
results are not public. This issue needs to be addressed now.
    While NIST has worked hard to develop new standards, the revised 
EAC/NIST standards will not go into effect until December 2007. For 
these new standards, transparent conformance tests still need to be 
developed. While these standards and test methods were being developed, 
states were already purchasing new voting equipment.
    Will this new equipment meet the 2005 standards? At this time I 
don't think we know with any certainty.
    We do know that there are questions about the security and 
integrity of direct recording electronic voting equipment. And some 
states have experienced significant problems with these voting systems.
    Finally, if purchased equipment does not meet updated standards and 
conformance tests, we need to decide who will pay for equipment 
upgrades.
    I don't have the answers to these questions, but we have a 
distinguished panel with a wide range of experience and views on this 
issue. I hope they can shed some light on the issues I've raised, and I 
look forward to their comments.

    Chairman Ehlers. I thank the gentleman for his statement, 
and I do have good news. We thought we would be interrupted by 
votes before this, but fortunately, the manager's action on the 
House floor have taken up three suspensions, which will 
postpone votes, perhaps to the point where we can finish the 
hearing. That remains to be seen.
    Mr. Holt. Mr. Chairman.
    Chairman Ehlers. Yes.
    Mr. Holt. I would like to thank you for the courtesy of 
taking part in this. I appreciate your calling the hearing. I 
would like to ask unanimous consent to put, at this point, in 
the record a written statement, which will make the basic point 
that the subject of today's hearing, standards for design and 
certification, are good, but not sufficient, and that one needs 
auditability, and a required audit process, as well.
    And I will have to excuse myself at some point soon for an 
Intelligence Committee hearing, but I thank the gentleman, the 
Chairman, for his courtesy.
    Chairman Ehlers. Well, I thank you, and it is a pleasure to 
find out that there is some intelligence in the Congress.
    I will make the general statement, if there are Members who 
wish to submit additional opening statements, your statements 
will be added to the record. Without objection, so ordered.
    [The statement of Representative Rush Holt follows:]

             Prepared Statement of Representative Rush Holt

    Chairmen Ehlers and Boehlert, Ranking Members Millender-McDonald 
and Gordon, Honored Members of the Committees, I am Rush Holt, 
Representative from the 12th District of New Jersey. I would like to 
reiterate my gratitude, as expressed on the occasion of the House 
Administration Committee's recent hearing on the issue of voter 
identification, that the Committees are jointly addressing another 
critical aspect of election reform--the Voluntary Voting Systems 
Guidelines for voting equipment. But I would like to say again, 
however, that I fear that our opportunity to meaningfully and 
decisively address the very real issue of the security risks and 
accuracy problems plaguing our electronic voting systems is passing us 
by. At a result, this November may yet again strike a blow to the 
public's confidence in our elections.
    It was my honor to speak before the House Committee on Science, 
Subcommittee on Technology, on this matter two years ago, when it held 
a hearing in June 2004 entitled ``Testing and Certification of Voting 
Equipment: How Can the Process Be Improved?'' In my statement to the 
Committee, I reviewed some of the history of the development of voting 
system standards, first implemented in 1990, and updated in 2002, to 
cover punch card, optical scan, and direct recording electronic (DRE) 
voting systems.
    But I also directed the Committee's attention to the 2001 Report of 
the CalTech MIT Voting Technology Project--``Voting--What Is, What 
Could Be,'' which stated that ``[t]he existing standards process is a 
step in the right direction, but it does not cover many of the problems 
that we have detected. . .important things are not reviewed currently, 
including ballot and user interface designs, auditability, and 
accessibility.'' The CalTech MIT study also recommended, under the 
heading ``Create a New Standard for Redundant Recordings,'' that 
``[a]ll voting systems should implement multiple technological means of 
recording votes. For example, DRE/touchscreen systems should also 
produce optical scan ballots. This redundancy insures that independent 
audit trails exist post-election, and it helps insure that if fraud or 
errors are detected in one technology there exists an independent way 
to count the vote without running another election.''
    Since then, the same recommendation has been made by one 
authoritative body after another. In the wake of the 2004 election, the 
Commission on Federal Election Reform, Co-Chaired by former President 
Jimmy Carter and former Secretary of State James Baker, again studied 
the problem of electronic voting security. The Commission released its 
findings in September 2005, in a report entitled ``Building Confidence 
in U.S. Elections.'' The Commission concluded, among other things, that 
``of course, DREs are computers, and computers malfunction,'' and that 
``[t]he standards for voting systems, set by the EAC, should assure 
both accessibility and transparency in all voting systems.'' However, 
the EAC cannot mandate transparency in the standards because HAVA does 
not mandate it. Therefore, the Commission recommended that ``Congress 
should pass a law requiring that all voting machines be equipped with a 
voter-verifiable paper audit trail and, consistent with HAVA, be fully 
accessible to voters with disabilities.'' It further noted that 
``[t]his is especially important for [DREs]'' in order to ``provide a 
backup in cases of loss of votes due to computer malfunction'' and ``to 
test--through random selection of machines--whether the paper result is 
the same as the electronic result.'' Finally, it noted that ``paper 
trails and ballots currently provide the only means to meet the 
Commission's recommended standards for transparency.''
    Just last month, the Brennan Center for Justice, working in 
conjunction with NIST, Ron Rivest of M.I.T. (a co-author of the 
CalTech/MIT study), Howard Schmidt, former White House Cyber Security 
Advisor for George W. Bush and Chief Security Officer for Microsoft and 
eBay, and other computer security experts, released the most 
comprehensive and rigorous analysis to date of e-voting security risks 
and remedies. My colleagues Tom Davis and Tom Cole joined me at a press 
conference commending the Brennan Center on the Report.
    Entitled ``The Machinery of Democracy: Protecting Elections in an 
Electronic World,'' the report explained in detail the various risks 
associated with using all of the three major types of voting systems 
now used in the United States. The report assumed, in its analysis, 
that (1) an Independent Testing Authority (ITA) has certified the model 
of voting machine used in the polling place; (2) Acceptance Testing was 
performed on machines as soon as or soon after they were received by 
the County; (3) pre-election Logic and Accuracy testing was performed 
by the relevant election official; (4) prior to opening the polls, 
every voting machine and vote tabulation system was checked to see that 
it was still configured for the correct election, including the correct 
precinct, ballot style, and other applicable details; and (5) the 
jurisdiction was not knowingly using any uncertified software that is 
subject to inspection by the ITA. Even so, however, the report found 
that ``[a]ll three voting systems have significant security and 
reliability vulnerabilities, which pose a real danger to the integrity 
of national, State, and local elections.'' To mitigate those risks, the 
report recommended a voter-verified paper record accompanied by 
automatic routine random audits of those records, a ban use of voting 
machines with wireless components, and other security measures, all to 
be implemented as expeditiously as possible.
    That same month, the National League of Women Voters issued similar 
recommendations in a resolution passed at its Annual Convention in 
June. The resolution states that the League of Women Voters ``supports 
only voting systems that are designed so that: they employ a voter-
verifiable paper ballot or other paper record, said paper being the 
official record of the voter's intent. . .the paper ballot/record is 
used for audits and recounts. . .the vote totals can be verified by an 
independent hand count of the paper ballot/record. . .and routine 
audits of the paper ballot/record in randomly selected precincts can be 
conducted in every election, and the results published by the 
jurisdiction.''
    I expect the Chairman recalls the testimony of Michael Shamos, 
Professor of Computer Science at Carnegie Mellon University, who also 
spoke before the Subcommittee on Technology during its hearing in June 
2004. At the very outset of his remarks, he said: ``I am here today to 
offer my opinion that the system we have for testing and certifying 
voting equipment in this country is not only broken, but is virtually 
nonexistent. It must be re-created from scratch or we will never 
restore public confidence in elections. I believe that the process of 
designing, implementing, manufacturing, certifying, selling, acquiring, 
storing, using, testing and even discarding voting machines must be 
transparent from cradle to grave, and must adhere to strict performance 
and security guidelines that should be uniform for federal elections 
throughout the United States.''
    Chairman Ehlers, you and I are scientists. Like scientists, we rely 
on evidence. Scientists can collect evidence and collect more evidence. 
As policy-makers, we know that for policies that determine how our 
government functions, we must not wait so long that delay harms the 
functioning of our government and thus harms the people. We are at that 
point today: we need no more inquiry on the issue of the transparency 
and independent auditability in our elections. The public, numbering in 
the millions--and I believe that is no exaggeration--is losing 
confidence in the integrity of our voting systems. This undermines the 
essential democracy of America. Citizens are beginning to doubt our 
ability to govern ourselves. What could be more important?
    We have heard from a President, a Cabinet Secretary, a White House 
advisor on computer security, computer security experts at NIST, 
election integrity experts at the Brennan Center for Justice, the 
League of Women Voters and many other voting integrity activists, and a 
lengthy list of this nation's top computer security experts. After 
extensive study and consideration, they all agree that (1) no matter 
how rigorous the testing and certification process, it cannot, by 
itself, prevent fraud or errors; (2) voter-verified paper records 
accompanied by routine random audits are necessary as an independent 
audit mechanism; and (3) paper is the only technology available at this 
time by which we may establish such independent auditability.
    I have attached a document prepared by the voting integrity group 
VotersUnite.org. This map sets forth a partial list--51 reported 
incidents--in which ballot programming errors recently resulted in 
votes being recorded other than as evidently intended by the voter. It 
is important to note that in every single instance, the machines which 
failed had already been tested and certified and were either deployed 
or about to be deployed for use in actual elections, under our existing 
testing and certification regimen. What follows are just a few examples 
from this document, entitled ``Vote-Switching Software Provided by 
Vendors'':

        <bullet>  In June, 2006, in Pottawattamie County, Iowa, 
        software in optical scanners recorded votes inaccurately. The 
        County Auditor became suspicious when a college student was 
        found to be leading the incumbent County Recorder (who'd held 
        the job since 1983) by a count of 99 to 79 absentee votes. She 
        stopped the computer count and ordered a hand count of the 
        paper absentee ballots, and the result was reversed--the 
        incumbent had 153 votes and the student had just 25.

        <bullet>  In May 2006, in a School Board election near Grand 
        Rapids Michigan, optical scanners erroneously gave votes to 
        non-existent write-in candidates. Brand new machines 
        malfunctioned in 15 of 16 townships and the town of Hastings in 
        Barry County, recording in one instance 90 write-in votes in a 
        contest that received in only 127 votes. In only one township, 
        as confirmed by a hand count of the optical scan ballots, did 
        the software count the votes accurately.

        <bullet>  In June 2006, in Leflore and Jackson Counties, 
        Mississippi, various glitches were experienced in the use of 
        new paperless voting machines, including ballots not being 
        properly customized for each precinct. An AP story published on 
        June 7 about the irregularities quoted a County-level political 
        official as saying: ``If a hacker comes in and hacks that 
        program, what are we going to do then? . . .We're praying that 
        everything will work out for us.''

    These are but a few of the numerous incidences of electronic voting 
irregularities that have plagued this year's primary season. And the 
most important point about these examples is that, in the first two 
incidents, something unusual tipped off election officials and, because 
optical scan ballots were used, they were able to prove who actually 
won by counting those voter-verified paper ballots. In the third 
example, the fact that the ballots were not programmed correctly for 
each precinct was discoverable, but, because paperless touch screens 
produce no voter-verified paper ballots, the accuracy of the ultimate 
vote count could not be confirmed. In this third example, the political 
official in question was left to simply ``pray'' for accuracy.
    Hoping and praying for an accurate vote count is simply 
unacceptable in a democracy. We need no further study to conclude that 
vote counting must be transparent, and that the only way to achieve 
transparency today and for the foreseeable future is to require a 
voter-verified paper audit trail on all election machines. My 
legislation, the Voter Confidence and Increased Accessibility Act of 
2005 (H.R. 550) would establish a uniform national requirement for a 
voter-verified paper record for every vote cast, routine random audits 
of a small percentage of the electronic tally of those votes, a ban on 
the use of wireless devices, and other measures that will ensure not 
just the accessibility, but the independent auditability and 
transparency of our elections.
    I thank the Committees again for giving their time and attention to 
matters of election reform, and I urge the Committee on House 
Administration to conduct a hearing or schedule a mark-up of my Voter 
Confidence Act as expeditiously as possible.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    [The prepared statement of Mr. Feeney follows:]

            Prepared Statement of Representative Tom Feeney

    Today's hearing continues our effort to ensure that every properly 
completed ballot is counted and fraud and error do not dilute 
legitimate votes. The adoption and implementation of technical 
standards for voting equipment ensure that the best technology and 
operational practices are applied to each election.
    In order to achieve these goals, I have introduced H.R. 3910, the 
Verifying the Outcome of Tomorrow's Elections (VOTE) Act. As to voting 
equipment standards and guidelines, the VOTE Act requires that:

        1.  direct recording electronic systems also produce voter-
        verified paper records;

        2.  technical standards address the security of data 
        electronically transmitted or received by voting systems; and

        3.  ballot tabulation equipment is regularly tested to ensure 
        compliance to prescribed error rates.

    However, technical standards are only one part of preserving the 
integrity of every vote. You can cast your vote on technically flawless 
equipment. But if ineligible voters also cast ballots or corrupt 
election officials oversee the process, your vote is cheapened.
    Accordingly, the VOTE Act implements these security procedures:

        1.  each election official is subject to a criminal background 
        check;

        2.  political party representatives can observe ballot 
        tabulations; and

        3.  voters must present photo identification before casting a 
        ballot.

    Let's not delude ourselves into believing that technology by itself 
creates honest and fair elections. We should focus on preserving the 
integrity of the overall election system in which technology plays an 
important but not exclusive role.

    [The prepared statement of Mr. Costello follows:]
         Prepared Statement of Representative Jerry F. Costello
    Good afternoon. I want to thank the witnesses for appearing before 
our committee to review new federal voluntary standards for voting 
equipment which were issued late last year. Today's hearing serves as 
an opportunity to examine the accuracy and security of voting and to 
see if states are likely to adopt the Voluntary Voting Systems 
Guidelines (VVSG) standards.
    In October, 2002, Congress enacted the Help America Vote Act (HAVA) 
to help address problems with voting machines that were brought to the 
public's attention during the 2000 federal election. HAVA established a 
number of basic requirements that voting machines and systems should 
meet and a process by which new voluntary technical standards would be 
developed to ensure the reliability and accuracy of new voting 
equipment.
    Since HAVA's enactment, the states have received $2.9 billion to 
improve their election systems. In my home State of Illinois, it has 
received $143 million and has adopted the 2002 Federal Election 
Commission standards. Further, Illinois continues to work on the 
computerized state voter registration system to bring it into full 
compliance with the HAVA.
    While I recognize the benefits of using electronic voting equipment 
to improve the accuracy of the ballot tallies, I believe we should 
proceed with caution. Reliability, efficiency, security, and usability 
concerns must be reviewed thoroughly to ensure electronic voting 
machines can be used by all registered voters and that election results 
are not compromised.
    Further, consistent, nationwide data on the performance of voting 
systems would be useful to help improve technology and elections in the 
future. In the recent report completed by the Government Accountability 
Office (GAO) titled, The Nation's Evolving Election System as Reflected 
in the November 2004 General Election, it notes that the performance of 
the voting systems in the surveyed states was not consistently 
measured. I am interested to hear from our witnesses their comments on 
GAO's findings.
    I look forward to hearing from the panel of witnesses.

    [The prepared statement of Ms. Woolsey follows:]

           Prepared Statement of Representative Lynn Woolsey

    Mr. Speaker, I commend Chairman Boehlert and the Science Committee 
for holding this hearing today. The fairness and integrity of our 
federal elections is of paramount concern.
    One need only look at the last two presidential elections to cite 
serious, well-documented concerns about disenfranchisement and voting 
rights violations without any Congressional investigation.
    The U.S. is supposed to be a beacon of freedom. . .the greatest 
democracy in the world. . .yet we cannot seem to guarantee that the 
votes of our citizens are counted.
    During the 2004 election we saw it all--from votes outnumbering 
voters in some precincts, to blatant voter intimidation in others. The 
time is long overdue for us to investigate these serious violations to 
our democracy and ensure that our voting machines are held to the 
highest standards possible.
    And, there's also a tragic irony here: we're sacrificing thousands 
of American lives and billions of dollars to try to establish democracy 
in Iraq, yet we can't seem to get our own Democratic house in order.
    This is not about which candidate won and which candidate lost on 
November 2, 2004. It's not about politicians at all; it's about 
citizens and their most fundamental rights.
    We must ensure that any and all future elections are unmarred by 
fraud or even human error. A solution to this problem is not pie-in-
the-sky--it can be solved. It's time this Congress stepped up to the 
plate and did something about it.

    [The prepared statement of Ms. Hooley follows:]

          Prepared Statement of Representative Darlene Hooley

    Thank you Chairman Boehlert and Chairman Ehlers for holding this 
hearing today on this vitally important issue.
    The ability to vote, and the knowledge that your vote will be 
counted, is a right that every American knows is guaranteed to them by 
the Constitution.
    As technology has improved, our ability to make sure that every 
vote is counted has been improved.
    The election of 2000 demonstrated flaws within the system and gave 
us in Congress the opportunity to revise the standards for voting in 
this country and allow us to make better use of computers and other 
forms of technology to assist us in the goal of counting every vote. 
Now we have a chance to review the standards that were put into place 
as part of the Help America Vote Act, see what has worked and what 
needs to be improved.
    One issue that I know my constituents in Oregon, and our fellow 
citizens across the country, care about is that of ballot security. 
Numerous reports have been released by computer science experts that 
detail specific security flaws in electronic voting systems. These 
reports have been criticized by the voting system vendors and by some 
elections officials as offering unlikely and alarmist scenarios. These 
people have correctly pointed out that, to date, there is no evidence 
that an electronic voting system has been hacked. I am glad that we are 
going to have the opportunity today to hear from experts about the 
possible security threats to these voting machines and I look forward 
to hearing their testimony.
    One simple fix that I support is the use of an independent paper 
record to ensure that elections officials can audit election results, 
spot-check for accuracy, and re-count should electronic results be lost 
or compromised.
    My state is unique in the country in that we only have vote-by-mail 
and, as such, are guaranteed to have a paper trail that election 
officials can refer to if the need arises. It is not difficult to 
recognize the wisdom of having a paper trail to make sure that votes 
are being recorded and counted. Any action that can be taken by 
election officials to reassure citizens that their votes are being 
counted is one that I believe needs to be taken.
    The final issue that I want to highlight is the difficulty that our 
senior citizens may have with these new voting machines. In an average 
election, around 70 percent of our nation's seniors vote and some of 
them have limited experience with computers or other electronic 
devices.
    In addition, many of the precinct workers who man the polls on 
Election Day and may be called upon to offer technical assistance if 
one of these voting machines crashes may lack proper training. How do 
we know that these people are able to handle not just mis-voting and 
voter assistance, but also machine malfunction?
    I look forward to hearing from the witnesses today and I am 
thankful to the Chairman and Ranking Members of the Science and House 
Administration Committees for holding this hearing and giving us all 
the opportunity to review voting guidelines. The American people need 
to feel secure in their belief that when they cast a vote, it will be 
recorded and counted.
    I am confident that we will do everything that we can assure our 
fellow Americans that their belief is well-founded and that their votes 
are secure.

    [The prepared statement of Ms. Jackson Lee follows:]

        Prepared Statement of Representative Sheila Jackson Lee

    Mr. Chairman, thank you for holding this crucial hearing today, in 
which once again, we find how important science is not only to our 
economy and technological expertise around the world, but to our 
ability to protect and defend the most basic American civil rights. Now 
that voting standards have been promulgated, it is time to focus on 
their accuracy, reliability, and effectiveness.
    Under the authority of the Help America Vote Act of 2002, the 
Election Assistance Commission was created to oversee and spearhead 
standards for voting equipment, and produce voluntary voting system 
guidelines for states to follow. Clearly, this was in response to the 
voting process disaster in 2000 election.
    So far, the Election Assistance Commission has experienced 
significant delays and funding problems, resulting in only limited 
changes to the original Federal Election Commission standards. These 
new changes have been met with criticism because of 1) the undue burden 
it places on manufacturers of voting machines, 2) the fact that the 
standards are not comprehensive, 3) the fact that paper trails were not 
addressed, and 4) that conformance tests were not developed.
    Just last month, the GAO published a report documenting the 
difficulties that states have with voter information databases, such as 
the surge of last minute voter registrations, inaccurate information on 
registration materials, and the varied means of counting the votes 
between states.
    In addition, a report from the Brennan Center at the New York 
University School of Law highlighted problems in the verification 
process of registered voters. For example, one existing database in 
Florida contained as many as 40 misspellings of the word ``Fort 
Lauderdale.'' If the voter-verification system in place relies on data 
matching, this would clearly obstruct an individual's ability to vote.
    It is inexcusable that there should ever be barriers that prevent 
U.S. citizens from performing their civic duties. Just last week, we 
reauthorized the Voting Rights Act, thereby reaffirming our social and 
political commitment to civil rights. Today, we address the 
technological and procedural problems that remain in delivering these 
civil rights to every American.
    It is shameful that in 2006, the 21st century, we are lacking in 
procedures to ensure open and fair elections. There must be a paper 
trail on every electronic voting machine. We experienced the failures 
of a paperless voting system in the 2000 and 2004 election. A voting 
machine without electronic paper trail is a voting machine doomed for 
fraud. Any standard must ensure that the minority vote is counted, and 
that discrepancies are thoroughly reviewed. America should be ashamed 
of itself, and the fact that it denies the opportunity to have 
elections reviewed transparently, legitimately, and credibly.
    The problems that exist in voting machine and voting process 
standards are complex, and yet resolvable. I look forward to the 
testimony today to illustrate the evidence and the direction in which 
we should pursue legislative recourse, if necessary.
    Thank you, Mr. Chairman, and I yield the balance of my time.

    Chairman Ehlers. At this time, I would like to introduce 
our witnesses. We have an excellent panel. We thank you very 
much for coming here.
    First, we have Ms. Donetta Davidson, Commissioner of the 
Election Assistance Commission, and the member of the 
commission, six-member commission. She is the member who is the 
techie, as you might call it. At least, you pay the most 
attention to it. Dr. William Jeffrey, a fellow physicist, 
Director of the National Institute of Standards and Technology, 
and chair of the Technical Guidelines Development Committee.
    Next, I recognize the Member of this committee, the 
gentleman from Minnesota, Mr. Gutknecht, to introduce our third 
witness. Mr. Gutknecht is recognized.
    Mr. Gutknecht. Thank you, Mr. Chairman.
    I am pleased to announce, or to introduce Secretary Mary 
Kiffmeyer from Minnesota. Mary and her husband Ralph have been 
dear friends of mine for 25 years. She is Minnesota's twentieth 
Secretary of State. She was first elected in 1998, and was 
reelected in 2002. She is also the former President of the 
National Association of Secretaries of State, and she has been 
very active in the Election Assistance Commission Standards 
Board. Mary takes her job extremely seriously, and I don't know 
of anybody in elected office who works harder than Mary 
Kiffmeyer.
    Minnesota has a reputation for clean elections, and she has 
done her level best to make certain that we maintain that 
reputation. So, Mary, we are delighted to have you here today, 
and I am honored to call you my friend, and even more honored 
to call you our Secretary of State.
    Chairman Ehlers. Thank you, and we are pleased to have you 
here, and Minnesota is a good state. It is my birthplace.
    Next, Ms. Linda Lamone, Administrator of Elections, the 
Maryland State Board of Elections. Mr. John Groh, Chairman, 
Election Technology Council, Information Technology Association 
of America. And Dr. David Wagner, Professor of Computer 
Science, University of California at Berkeley, the finest 
public university in this country. I just happened to have 
graduated from there.
    Chairman Boehlert. Mr. Chairman, are we going to have all 
these commercials all day?
    Chairman Ehlers. Thank you for yielding the chair to me. I 
am enjoying doing this.
    As our witnesses should know, spoken testimony is limited 
to five minutes each, after which, the Members will each have 
five minutes to ask questions. And we are pleased to start by 
hearing the testimony of Ms. Davidson.

 STATEMENT OF MS. DONETTA L. DAVIDSON, COMMISSIONER, ELECTION 
                     ASSISTANCE COMMISSION

    Ms. Davidson. Good afternoon. Chairmen, Ranking Members, 
and Committee Members of both committees. My name is Donetta 
Davidson, and I am with the Election Assistance Commission.
    As a result of the Help America Vote Act, about one-third 
of our voters will be voting on new equipment in 2006. HAVA 
established minimum requirements that all voting systems must 
meet. The law also mandated that EAC adopt Voluntary Voting 
System Guidelines. The TGDC delivered guidelines within the 
nine months, and at that time, prior to our adoption, we held 
three public meetings, received and reviewed over 6,500 
comments, and had a very transparent process.
    The states have always been the decision-makers when it 
comes to making the decision on what equipment they are goint 
to use. HAVA did not change that, as some have stated. The VVSG 
was an initial update to the 2002 Voting System Standards that 
was in place. We focused mainly on security, usability, 
accessibility, and created a usability section, address the 
needs of all voters, and empowers election officials to adjust 
voting systems to improve interaction.
    The EAC and NIST are already working on future iterations--
software, forms of independent verification, security, 
comprehensive test suites, the mean time between failure rate, 
and detailed threat analysis for voting systems are being 
addressed. HAVA mandates that the EAC also certify voting 
systems against new guidelines. The EAC has just adopted the 
first phase of the program for testing and certifying of voting 
systems.
    The program will be more rigorous, transparent, and 
thorough than ever before. We will have to remember that voting 
systems are only half of the equation though. Voting is a human 
exercise. We must focus on protecting the integrity of the 
whole process, just not the machine. The bottom line is the 
voting equipment, whether it is paper or electronic, is only as 
good as the operator.
    Attempts to compromise a voting system requires two 
things--access and knowledge of the voting system. That is why 
election officials must adopt management guidelines to make 
sure that we protect the process all the way. Speaking of 
training, the EAC has already developed a Quick Start Guide 
that we have here today for everybody. That will give the 
individuals and the states ideas, and make sure that they 
follow procedures to make sure that they address everything in 
a new voting system.
    The larger part, we will be issuing election management 
guidelines that will cover the following topics: security 
protocol, all phases, setup, storage, transportation, election 
day, post-election, archiving, logic and accuracy testing, 
tabulation, training of employees and poll workers. As a former 
Secretary of State, I could tell you that regardless of what 
kind of voting equipment is in place, some things never change. 
Controlling access, having enough people to work in the polls, 
and making sure those people are well-trained, testing the 
equipment, and putting contingency plans into place are the 
highest priority.
    Voting systems and people are not mutually exclusive. We 
must keep that in mind as we move forward, to make sure that 
the next generation of voting equipment is secure, accurate, 
and reliable.
    Thank you, and I would be happy to answer any questions at 
this time.
    [The prepared statement of Ms. Davidson follows:]

               Prepared Statement of Donetta L. Davidson

    Good morning Chairmen Ehlers and Boehlert and Members of the 
Committees. I am pleased to be here this afternoon on behalf of the 
U.S. Election Assistance Commission (EAC) to discuss the changes in 
voting that have been effectuated by the Help America Vote Act of 2002 
(HAVA) and the role that EAC plays in supporting the states and local 
governments in implementing HAVA-compliant voting systems.

INTRODUCTION

    EAC is a bipartisan commission consisting of four members: Paul 
DeGregorio, Chairman; Ray Martinez III, Vice Chairman; Donetta 
Davidson; and Gracia Hillman. EAC's mission is to guide, assist, and 
direct the effective administration of federal elections through 
funding, innovation, guidance, information and regulation. In doing so, 
EAC has focused on fulfilling its obligations under HAVA and the 
National Voter Registration Act (NVRA). EAC has employed four strategic 
objectives to meet these statutory requirements: Distribution and 
Management of HAVA Funds, Aiding in the Improvement of Voting Systems, 
National Clearinghouse of Election Information, and Guidance and 
Information to the States. Each program will be discussed more fully 
below. The topic at hand involves our strategic efforts to aid in the 
improvement of voting systems.

AIDING IN THE IMPROVEMENT OF VOTING SYSTEMS

    One of the most enduring effects of HAVA will be the change in 
voting systems used throughout the country. All major HAVA funding 
programs can be used by states to replace outdated voting equipment. 
HAVA established minimum requirements for voting systems used in 
federal elections. Each voting system must:

        <bullet>  Permit the voter to verify the selections made prior 
        to casting the ballot;

        <bullet>  Permit the voter to change a selection prior to 
        casting the ballot;

        <bullet>  Notify the voter when an over-vote occurs (making 
        more than the permissible number of selections in a single 
        contest);

        <bullet>  Notify the voter of the ramifications of an over-
        vote;

        <bullet>  Produce a permanent paper record that can be used in 
        a recount or audit of an election;

        <bullet>  Provide accessibility to voters with disabilities;

        <bullet>  Provide foreign language accessibility in 
        jurisdictions covered by Section 203 of the Voting Rights Act; 
        and

        <bullet>  Meet the error rate standard established in the 2002 
        Voting System Standards.

    According to HAVA, the requirement for access for voters with 
disabilities can be satisfied by having one accessible voting machine 
in each polling place. In addition to these requirements, Congress 
provided an incentive for states that were using punch card or lever 
voting systems by providing additional funding on a per precinct basis 
to replace those outdated systems with a voting system that complies 
with the requirements set out above.
    HAVA also provides for the development and maintenance of testable 
standards against which voting systems can be evaluated. It further 
requires federal certification according to these standards. EAC is 
responsible for and committed to improving voting systems through these 
vital programs.
Voluntary Voting System Guidelines
    One of EAC's most important mandates is the testing, certification, 
decertification and recertification of voting system hardware and 
software. Fundamental to implementing this key function is the 
development of updated voting system guidelines, which prescribe the 
technical requirements for voting system performance and identify 
testing protocols to determine how well systems meet these 
requirements. EAC along with its federal advisory committee, the 
Technical Guidelines Development Committee (TGDC), and the National 
Institute of Standards and Technology (NIST), work together to research 
and develop voluntary testing standards.
    On December 13, 2005, EAC adopted the first iteration of the 
Voluntary Voting System Guidelines (VVSG). The final adoption of the 
VVSG capped off nine months of diligent work by NIST and the TGDC. In 
May of 2005, the TGDC delivered its draft of the VVSG. EAC then engaged 
in a comprehensive comment gathering process, which included comments 
from the general public as well as from members of its Board of 
Advisors and Standards Board. Interested persons were able to submit 
comments on-line through an interactive web-based program, via mail or 
fax, and at three public hearings (New York, NY; Pasedena, CA; Denver, 
CO). EAC received more than 6,000 individual comments. EAC teamed up 
with NIST to assess and consider every one of the comments, many of 
which were incorporated into the final version.
    The VVSG is an initial update to the 2002 Voting System Standards 
focusing primarily on improving the standards for accessibility, 
usability and security. The 2005 VVSG significantly enhances the 
measures that must be taken to make voting systems accessible to 
persons with disabilities and more usable for all voters. For example, 
the 2002 VSS contained 29 accessibility requirements, focusing 
primarily on accommodating persons with visual disabilities. The 2005 
VVSG contains 120 requirements that establish testing measures to 
assure that voting systems accommodate all persons with disabilities, 
including physical and manual dexterity disabilities. In addition to 
ensuring accessibility requirements were increased and strengthened, 
the 2005 VVSG includes for the first time a usability section, which 
addresses the needs of all voters, empowering them to adjust voting 
systems to improve interaction. Those testing measures include allowing 
adjustment of brightness, contrast, and volume by the voter to suit 
his/her needs.
    The 2005 VVSG also incorporated standards for reviewing voting 
systems equipped with voter-verifiable paper audit trails (VVPAT)\1\ in 
recognition of the many states that now require this technology. In 
accordance with HAVA and to assure that persons with disabilities had 
the same access to review their ballots as non-disabled voters, the 
2005 VVSG required VVPATs to be accessible when the paper record would 
be used as the official ballot or as definitive evidence in a recount. 
In addition, the VVSG addressed new technologies that emerged on the 
market since the 2002 VSS, such as wireless technology. Standards were 
established to require the wireless mechanism to be disabled during 
voting and to provide a clear, visual indicator showing when the 
wireless capability is activated. VVSG also establishes testing methods 
for assessing whether a voting system meets the guidelines. A complete 
listing of the changes and enhancements included in the 2005 VVSG can 
be found on the EAC web site, http://www.eac.gov/Summary%20of% 
20Changes%20to%20VVSG.pdf.
---------------------------------------------------------------------------
    \1\ VVPAT is an independent verification method that allows the 
voter to review his/her selections prior to casting his/her ballot 
through the use of a paper print out. VVPAT is merely one form of 
independent verification. EAC is currently working with NIST to develop 
standards for additional methods such as witness systems, cryptographic 
systems, and split process systems.
---------------------------------------------------------------------------
    The 2005 VVSG, like the 1990 and 2002 VSS, is a voluntary set of 
voting system testing standards. States choose to make these standards 
mandatory for equipment purchased in those states by requiring national 
certification according to those standards in their statutes and/or 
rules and regulations. Currently, approximately 40 states require 
certification to either the 2005 VVSG or the 1990 or 2002 VSS. When EAC 
adopted the 2005 VVSG, it did so with an effective date of December 13, 
2007. This two-year period was designed to allow states the time needed 
to make changes to their laws, rules and regulations to require 
certification to the new standards, as is standard practice when 
introducing new industry guidelines. New York has already legislatively 
mandated certification to the 2005 VVSG, and EAC expects over the next 
several years that the vast majority of the states will make changes to 
their legislation requiring certification to the 2005 VVSG. Prior to 
December 13, 2007, voting systems, components, upgrades and 
modifications can be tested against either the 2002 VSS or the 2005 
VVSG, depending on the requirements of the states and manufacturers' 
requests. After December 13, 2007, EAC will no longer test systems to 
the 2002 VSS; systems and upgrades will only be tested to the 2005 
VVSG.
    Significant work remains to be done to fully develop a 
comprehensive set of standards and testing methods for assessing voting 
systems and to ensure that they keep pace with technological advances. 
In FY 2007, EAC along with TGDC and NIST, will revise sections of the 
VVSG dealing with software, functional requirements, independent 
verification, and security and will develop a comprehensive set of test 
suites or methods that can be used by testing laboratories to review 
any piece of voting equipment on the market. Much like the roll out of 
the 2005 VVSG, these future iterations will be adopted with an 
effective date provision and a procedure for when new voting systems, 
components, upgrades and modifications will be required to be tested 
against the new iteration of the VVSG.
Accreditation of Voting System Testing Laboratories
    HAVA Section 231 requires EAC and NIST to develop a national 
program for accrediting voting system testing laboratories. NIST's 
National Voluntary Laboratory Accreditation Program (NVLAP) will 
initially screen and evaluate testing laboratories and will perform 
periodic reevaluation to verify that the labs continue to meet the 
accreditation criteria. When NVLAP has determined that a lab is 
competent to test systems, the NIST director will recommend to EAC that 
a lab be accredited. EAC will then make the determination to accredit 
the lab. EAC will issue an accreditation certificate to the approved 
labs, maintain a register of accredited labs and post this information 
on its web site to fully inform the public about this important 
process.
    In June 2005, NVLAP advertised for the first class of testing 
laboratories to be reviewed under the NVLAP program and accredited by 
EAC. Three applications were received in the initial phase, with two 
additional applications following in late 2005. Pre-assessments of 
these laboratories began in April 2006 and formal review is proceeding. 
NVLAP will conduct full evaluations of at least two initial applicants 
this fall and, depending on the outcome of the evaluations, will make 
initial recommendations to the EAC before the end of the year. All 
qualified candidates from among the pool of five applicants will be 
sent to the EAC by spring 2007.
    In late 2005, EAC invited laboratories that were accredited through 
the National Association of State Election Directors (NASED) program as 
Independent Testing Authorities (ITAs) to apply for interim 
accreditation to avoid a disruption or delay in the testing process. 
All three ITAs have applied for interim accreditation. Interim 
accreditation reviews by EAC contractors are under way and are expected 
to be completed by September 2006. ITAs will be accredited on an 
interim basis until the first class of laboratories is accredited 
through the NVLAP process. After that time, all testing labs must be 
accredited through the NVLAP evaluation process.
The National Voting System Certification Program
    In 2006, EAC is assuming the duty as prescribed by HAVA to certify 
voting systems according to national testing standards. Previously, 
NASED qualified voting systems to both the 1990 and 2002 Voting System 
Standards. Historically, voting system qualification has been a labor 
intensive process to ensure the integrity and reliability of voting 
system hardware, software and related components. In six months, NASED 
received 38 separate voting system test reports for review and 
qualification. All requests were received, processed and monitored 
while the testing laboratory assessed compliance. Once a test report 
was produced, technical reviewers analyzed the reports prior to 
certification.
    EAC's certification process will constitute the Federal 
Government's first efforts to standardize the voting system industry. 
EAC's program will encompass an expanded review of voting systems, and 
it will utilize testing laboratories accredited by EAC and experts 
hired by EAC to assure that the tested systems adequately met the 
standards.
    The EAC will implement the Testing and Certification Program 
required by Section 231(a)(1) of HAVA in two distinct phases (pre-
election phase and full program). Both phases will be rolled out in 
2006. The first phase of the program will begin on July 24, 2006 and 
terminate upon the EAC's implementation of the program's second phase. 
The second phase (full program) will begin on December 7, 2006.
    The pre-election phase of the program focuses on providing 
manufacturers a means to obtain federal certification for modifications 
required by state and local election officials administering the 2006 
General Election. This pre-election phase will ensure a smooth and 
seamless transition from the NASED program (which has qualified voting 
systems at the national level for more than a decade) to the more 
rigorous and detailed EAC program. This will be done by delaying 
implementation of some the procedural requirements found in the full 
program until after the critical pre-election period. This will allow 
the EAC to diligently review voting system modifications while, at the 
same time, ensuring a smooth transition and avoiding the unacceptable 
delays often associated with rolling out a new program.
    The full program will begin in December by requiring every voting 
system manufacturer that desires to have a product certified to 
register and disclose information about the company and its owners, 
board members and decision-makers. Manufacturers will be subject to a 
conflict of interest analysis including reviewing whether any owners or 
board members are barred from doing business in the United States. EAC 
will test complete voting systems including new components and how they 
integrate with the entire voting system. This process will be achieved 
by having technical experts review the reports provided by accredited 
testing laboratories to assure that the tests performed and the results 
are consistent with a system that conforms to the VVSG. These experts 
will recommend conforming systems for certification. Another new 
feature of the EAC certification program will be the quality assurance 
program. Through site visits to manufacturing facilities and field 
inspections, EAC will confirm that the systems that are being 
manufactured, sold to and used by election jurisdictions throughout the 
country are the same as those certified by EAC. Last, EAC will 
introduce a decertification process that will allow involved persons to 
file complaints of non-conformance, provide for the investigation of 
those complaints, and if warranted decertify systems because of a 
failure to conform to the VVSG.
Election Management Guidelines
    To complement the VVSG, the EAC is creating a set of election 
management guidelines. These guidelines are being developed by a group 
of experienced state and local election officials who provide subject 
matter expertise. The project will focus on developing procedures 
related to the use of voting equipment and procedures for all other 
aspects of the election administration process. The election management 
guidelines will be available to all election officials if they wish to 
incorporate these procedures at the State and local levels. These 
guidelines cover the following topics:

        <bullet>  Storage of equipment

        <bullet>  Equipment set up

        <bullet>  Acceptance testing

        <bullet>  Procurement

        <bullet>  Use

        <bullet>  Logic and accuracy (validation) testing

        <bullet>  Tabulation

        <bullet>  Security protocols (all phases--storage, set up, 
        transport and Election Day)

        <bullet>  Training of employees/poll workers

        <bullet>  Education for voters

    The first of these management guidelines was issued by EAC in June 
2006 in the form of a Quick Start Guide for election officials. This 
guide focused on the issues and challenges faced by election officials 
as they accept and implement new voting systems. The guide gave tips to 
the election officials on how to avoid common pitfalls associated with 
bringing new voting systems on line.

2006: A YEAR OF CHANGE, CHALLENGE AND PROGRESS

    The federal elections in 2006 have and will mark a significant 
change in the administration of elections. In compliance with HAVA, 
states have purchased and implemented new voting systems. There is a 
strong shift to electronic voting, although optical scan voting is 
still popular. In addition, states have imposed new requirements on 
their voting systems, and they have implemented their own testing 
programs for voting systems they purchase. And, in at least 25 states, 
voter-verified paper audit trails (VVPAT) have been required for all 
electronic voting. Due to the introduction of new voting systems 
throughout the Nation, the voter's experience at the polls will be 
quite different in 2006 than it was in 2000. It is estimated that one 
in three voters will use different voting equipment to cast their 
ballots in 2006 than in 2004.
    Voters with disabilities will likely experience the most dramatic 
changes. For the first time, every polling place must be equipped with 
voting machines that allow them to vote privately and independently. 
For many voters with disabilities, this may be the first time that they 
will cast ballots without the assistance of another person.
    Voting systems do not represent the only changes in election 
administration that will be apparent in 2006. States have also 
developed statewide voter registration lists, which will provide the 
ability to verify voters' identity by comparing information with other 
State and federal databases. This will result in cleaner voter 
registration lists and fewer opportunities for fraud. Another 
anticipated benefit of the statewide lists will be a significantly 
reduced need for provisional ballots, as was the case in states that 
had statewide voter registration lists in 2004.
    This year is one of transition, which is difficult to overcome in 
any business; elections are no different. The introduction of new 
equipment will present some challenges and hurdles to overcome. For 
State and local governments, there are also a host of new obligations. 
They must receive and test a fleet of new voting equipment. Training 
for staff and poll workers must be organized and conducted. And, 
extensive education programs must be implemented to inform the public 
about the new voting equipment.
    Although EAC cannot be on the ground in every jurisdiction to lend 
a hand in these tasks, we have issued a Quick Start Guide to assist 
election officials as they implement new voting systems. We also 
encourage states to take proactive measures to test their voting 
systems and voter registration lists prior to the federal elections. 
Such activities have proven to be an excellent tool to identify 
problems and solutions prior to the stresses and unpredictability of a 
live election.

CONCLUSION

    Over the past four years, significant changes have been made to our 
election administration system. New voting systems have been purchased 
and implemented. Each state has adopted a single list of registered 
voters to better identify those persons who are eligible to vote. 
Provisional voting has been applied across all 50 states, the District 
of Columbia and four territories. However, one thing has not changed. 
Elections are a human function. There are people involved at every 
level of the election process, from creating the ballots, to training 
the poll workers, to casting the votes.
    With these changes will come unexpected situations, even mistakes. 
We cannot anticipate in a process that involves so many people that it 
will work flawlessly the first time. What we can embrace, however, is 
that the process has been irrevocably changed for the better. There is 
a heightened awareness of the electoral process in the general public. 
There have been significant improvements to the election administration 
process. And, more people have the ability to vote now than ever 
before.
    Messrs. Chairmen, thank you for the opportunity to address the 
Committees today. I will be happy to answer any questions that you may 
have.

                   Biography for Donetta L. Davidson

    Ms. Donetta L. Davidson was nominated by President George W. Bush 
and confirmed by unanimous consent of the United States Senate on July 
28, 2005 to serve on the U.S. Election Assistance Commission (EAC). Her 
term of service extends through December 12, 2007. Ms. Davidson, 
formerly Colorado's Secretary of State, comes to EAC with experience in 
almost every area of election administration--everything from County 
Clerk to Secretary of State.
    Ms. Davidson began her career in election administration when she 
was elected in 1978 as the Bent County Clerk and Recorder in Las 
Animas, Colorado, a position she held until 1986. Later that year, she 
was appointed Director of Elections for the Colorado Department of 
State, where she supervised county clerks in all election matters and 
assisted with recall issues for municipal, special district and school 
district elections.
    In 1994, she was elected Arapahoe County Clerk and Recorder and re-
elected to a second term in 1998. The next year, Colorado Governor Bill 
Owens appointed Davidson as the Colorado Secretary of State, and she 
was elected to in 2000 and re-elected in 2002 for a four-year term.
    She has served on the Federal Election Commission Advisory Panel 
and the Board of Directors of the Help America Vote Foundation. In 
2005, Ms. Davidson was elected President of the National Association of 
Secretaries of State, and she is the former President of the National 
Association of State Elections Directors (NASED). Prior to her EAC 
appointment, Ms. Davidson served on EAC's Technical Guidelines 
Development Committee (TGDC).
    In 2005, Government Technology magazine named Ms. Davidson one of 
its ``Top 25: Dreamers, Doers, and Drivers'' in recognition of her 
innovative approach to improve government services. She was also the 
1993 recipient of the Henry Toll Fellowship of Council of State 
Governments.
    Davidson has devoted much of her professional life to election 
administration, but her first love is her family. Ms. Davidson was born 
into a military family in Liberal, Kansas and became a Coloradoan 
shortly thereafter when her family moved first to Two Buttes, then to 
Las Animas where they settled. Whenever possible Ms. Davidson spends 
time with her family, son Todd, daughter and son-in-law Trudie and Todd 
Berich, and granddaughters Brittany and Nicole.

    Chairman Ehlers. And thank you very much for staying well 
below the five minute limit. Dr. Jeffrey.

STATEMENT OF DR. WILLIAM JEFFREY, DIRECTOR, NATIONAL INSTITUTE 
                  OF STANDARDS AND TECHNOLOGY

    Dr. Jeffrey. Chairmen, Ranking Members, and Members of the 
Committee, thank you for the opportunity to testify today on 
``Voting Machines: Will the New Standards and Guidelines Help 
Prevent Future Problems?''
    I am William Jeffrey, Director of the National Institute of 
Standards and Technology, and I am pleased to be offered this 
opportunity to participate in today's discussion.
    NIST works closely with the Election Assistance Commission, 
by providing technical support directly to them and to the 
Technical Guidelines Development Committee, or TGDC. NIST is 
pleased to be working on this matter of national importance 
with our EAC and TGDC partners.
    Today, I will focus on NIST's role in meeting the 
requirements of the Help America Vote Act of 2002, including 
development of voluntary guidelines for voting systems and 
laboratory accreditation.
    HAVA assigned three major responsibilities to NIST. First, 
develop a report to assess areas of human factors research, and 
to ensure the usability and accuracy of voting systems. Second, 
chair and provide technical support to the TGDC. And third, 
recommend testing laboratories to the EAC for accreditation. We 
believe that we have met or are on track to meeting these three 
responsibilities.
    First, in January 2004, NIST completed the report, which 
assessed areas of human factors research. The recommendations 
from this report are being addressed in the Voting System 
Guidelines to ensure the usability and accuracy of voting 
systems.
    Second, NIST is chairing and providing technical support to 
the TGDC, which is developing new voluntary voting system 
guidelines for consideration by the EAC. HAVA mandated that the 
first set of recommendations be delivered to the EAC nine 
months after the formal creation of the TGDC. To meet this 
incredibly aggressive schedule, NIST and the TGDC conducted 
workshops, meetings, and numerous teleconferences to gather 
input, pass resolutions, and review and approve NIST-authored 
materials. This was done in a fully transparent process, with 
meetings conducted in public, and draft materials available on 
the Web. The resulting document was delivered on schedule to 
the EAC in May of 2005.
    These new guidelines are built upon the strengths of the 
previous Voting System Standards, enhancing areas needing 
improvement, and adding new material. The new material focuses 
primarily on usability, accessibility, and security. The new 
section on security includes the first federal standard for 
voter-verified paper audit trails. The new voluntary guidelines 
takes no position regarding the implementation of such paper 
audit trails, and neither requires nor endorses them. If states 
choose to implement the voter-verified paper audit trails, the 
new voluntary guidelines provide requirements that will help to 
ensure that their systems are usable, accessible, reliable, and 
secure. The new security section also contains requirements for 
addressing voter systems software distribution, validation of 
software used on Election Day, and wireless communications.
    Immediately after completing its work on the '05 
guidelines, NIST and the TGDC began work on the next version, 
currently planned for delivery to the EAC in July of 2007. The 
'07 voluntary guidelines will build upon the '05 version, but 
takes a fresh look at many of the requirements. The '07 
guidelines will review every section of the current standard, 
and will consider inclusion of additional requirements, as 
identified by the TGDC.
    NIST is aware that in addition to the '07 voluntary 
guidelines, an open test suite needs to be developed, so that 
the requirements in the new standard can be tested uniformly 
and consistently by all of the testing labs. The test suite 
development is planned to begin in Fiscal Year 2007.
    The third task that NIST is given under HAVA is 
recommending testing laboratories to the EAC for accreditation. 
Simply stated, laboratory accreditation is formal recognition 
that a laboratory is competent to carry out specific tests. 
NIST is using its National Voluntary Laboratory Accreditation 
Program to accomplish this task. Thus far, we have received 
applications from five labs, and are working to submit the 
qualified labs to the EAC for accreditation in early 2007.
    Thank you for the opportunity to testify, and I would be 
happy to answer any questions that the Committee might have.
    [The prepared statement of Dr. Jeffrey follows:]
                 Prepared Statement of William Jeffrey

Introduction

    Chairmen Ehlers and Boehlert, Ranking Members Millender-McDonald 
and Gordon, and Members of the Committees, thank you for the 
opportunity to testify today on ``The Status of Voluntary Voting System 
Guidelines.'' I am William Jeffrey, Director of the National Institute 
of Standards and Technology (NIST), part of the Technology 
Administration of the Department of Commerce. I am pleased to be 
offered the opportunity to add to this discussion regarding standards 
development for voting systems.
    I will focus my testimony on NIST's role in meeting the 
requirements of the Help America Vote Act of 2002, specifically in 
providing technical expertise towards the development of voluntary 
guidelines for voting systems and providing assistance to the Election 
Assistance Commission (EAC) with respect to voting system testing 
laboratories. I will discuss NIST's role in producing the Voluntary 
Voting System Guidelines (VVSG) of 2005 and then discuss our current 
and future work, which is to produce a next iteration of the VVSG that 
is more precise and testable and to produce associated test suites for 
this redesigned VVSG. Lastly, I will discuss the status of our work in 
assessing potential voting system testing laboratories and recommending 
them to the EAC for accreditation.

HAVA

    I will begin by giving a brief review of the Help America Vote Act 
(HAVA) of 2002 with respect to NIST's role. HAVA provided for the 
creation of the Technical Guidelines Development Committee (TGDC) and 
mandated that the TGDC provide its first set of recommendations to the 
Election Assistance Commission (EAC) not later than nine months after 
all of its members have been appointed.
    HAVA assigned three major items to NIST. First, NIST was tasked 
with the development of a report to assess the areas of human factors 
research, which could be applied to voting products and systems design 
to ensure the usability and accuracy of voting products and systems. 
Second, NIST was tasked with chairing and providing technical support 
to the TGDC, in areas including (a) the security of computers, computer 
networks, and computer data storage used in voting systems, (b) methods 
to detect and prevent fraud, (c) the protection of voter privacy, and 
(d) the role of human factors in the design and application of voting 
systems, including assistive technologies for individuals with 
disabilities and varying levels of literacy. Third, NIST is to conduct 
an evaluation of independent, non-federal laboratories and to submit to 
the EAC a list of those laboratories that NIST proposes to be 
accredited to carry out the testing.
    The first major item assigned by HAVA was the production of a human 
factors report. This report, titled ``Improving the Usability and 
Accessibility of Voting Systems and Products,'' was completed by NIST 
in January 2004. It assesses human factors issues related to the 
process of a voter casting a ballot as he or she intends. The report 
recommends developing a set of performance-based usability standards 
for voting systems. Performance-based standards address results rather 
than equipment design. Such standards would leave voting machine 
vendors free to develop a variety of innovative products and not be 
limited by current or older technologies. The EAC delivered this report 
to Congress on April 30, 2004.
    Second, HAVA assigned NIST to provide technical support to the TGDC 
in the development of voluntary voting system guidelines. The TGDC 
provides technical direction to NIST in the form of TGDC resolutions, 
and it reviews and approves proposed guidelines and research material 
written by NIST researchers. The TGDC ultimately is responsible for 
approving the guidelines and submitting them to the EAC.
    These voluntary guidelines contain requirements for vendors when 
developing voting systems and for laboratories when testing whether the 
systems conform to, or meet, the requirements of the guidelines. 
Voluntary standards or guidelines are common in industry. Voluntary 
standards encourage the adoption of requirements and procedures without 
the enforcement of regulation or law. The marketplace--in this case, 
the states and the public--provides the impetus for software developers 
to implement and conform to the standard.

2005 VVSG

    I will now discuss NIST's role in producing the 2005 VVSG for the 
EAC. HAVA mandated that the first set of recommendations be written and 
delivered to the EAC nine months after the final creation of the TGDC. 
To meet this very aggressive schedule, the TGDC organized into three 
subcommittees addressing the following areas of voting standards: core 
requirements and testing, human factors and privacy, and security and 
transparency. Over nine months, NIST and the TGDC conducted workshops, 
meetings, and numerous teleconferences to gather input, pass 
resolutions, and review and approve NIST-authored material. This was 
done in a fully transparent process, with meetings conducted in public 
and draft materials available over the web. The resulting document, now 
known as the VVSG 2005, was delivered on schedule to the EAC in May 
2005.
    The VVSG 2005 built upon the strengths of the previous Voting 
Systems Standards and enhanced areas needing improvement and added new 
material. The new material adds more formalism and precision to the 
requirements using constructs and language commonly used in rigorous, 
well-specified standards. This includes rules for determining 
conformance to the standard and a glossary for clarifying terms, which 
is very important when one considers that each voting jurisdiction may 
define terms differently.
    The new material focuses primarily on usability, accessibility, and 
security. The usability section includes requirements on voting system 
controls, displays, font sizes, lighting, and response times. It also 
requires voting systems to alert voters who make errors such as over-
voting so as to reduce the overall number of spoiled ballots. The 
accessibility section is greatly expanded from the previous material 
and includes requirements for voters with limited vision and other 
disabilities. It also addresses the privacy of voters who require 
assistive technology or alternative languages on ballots.
    The new section on security includes the first federal standard for 
Voter Verified Paper Audit Trails (VVPAT). As you know, many states 
require that their voting systems include a voter-verified paper trail. 
The VVSG takes no position regarding the implementation of VVPAT and 
neither requires nor endorses them. If states choose to implement 
VVPAT, the VVSG's requirements help to ensure that their VVPAT systems 
are usable, accessible, reliable and secure, and that the paper record 
is useful to election officials for audits of voting equipment.
    The new security section also contains requirements for addressing 
how voting system software is to be distributed. This will help to 
ensure that states and localities receive the tested and certified 
voting system. Moreover, the section also includes requirements for 
validating the voting system setup. This will enable inspection of the 
voting system software after it has been loaded onto the voting 
system--again to ensure that the software running on the voting system 
is indeed the tested and certified software. Lastly, there are 
requirements governing how wireless communications are to be secured. 
The TGDC concluded that, for now, the use of wireless technology 
introduces severe risk and should be approached with extreme caution. 
Wireless communications are currently permitted in the VVSG if security 
measures and contingency procedures are in effect.
    The TGDC-approved version of the VVSG 2005 was sent to the EAC in 
May 2005. Following that, the EAC conducted a 90-day public review and 
received thousands of comments; NIST provided technical assistance to 
the EAC in addressing these comments. The EAC published its version of 
the VVSG on December 13, 2005. This version included changes to the 
TGDC-approved version, reflecting the EAC's additional review.

2007 VVSG

    Immediately after completing its work on the VVSG 2005, NIST and 
the TGDC began work on what is now called the VVSG 2007, currently 
planned for delivery to the EAC in July 2007.
    The VVSG 2007 builds upon the VVSG 2005 but takes a fresh look at 
many of the requirements. It will be a larger, more comprehensive 
standard, with more thorough treatments of security areas and 
requirements for equipment integrity and reliability. The TGDC will 
consider updated requirements for accessibility and requirements for 
usability based on performance benchmarks. They will also consider 
updated requirements for documentation and data to be provided to 
testing labs, and for testing laboratory reports on voting equipment. 
The requirements will be structured so as to improve their clarity to 
vendors and their testability by testing labs.
    The VVSG 2005 included a discussion of voting systems with 
Independent Verification (IV). IV means that the voting systems produce 
a second record of votes for ballot record accuracy and integrity. For 
VVSG 2007, the TGDC will update this discussion for consideration as 
new requirements. The TGDC will also consider a number of updated 
requirements dealing with voting equipment integrity and reliability.
    NIST is aware that, in addition to the VVSG 2007, an open test 
suite needs to be developed so that the requirements in the VVSG 2007 
can be tested uniformly and consistently by all of the testing labs. 
The development of a test suite is a major undertaking and once 
complete, will add significantly to the trust and confidence that 
voting systems are not only being tested correctly, but are robust, 
secure and work correctly. Test suite development is planned to begin 
in fiscal year 2007.

Laboratory Accreditation

    I will conclude my remarks with the status of NIST's third major 
item under HAVA, laboratory accreditation. NIST has been directed to 
recommend testing laboratories to the EAC for accreditation. In order 
to accomplish this, NIST is utilizing its National Voluntary Laboratory 
Accreditation Program (NVLAP). NVLAP is a well-established laboratory 
accreditation program that is recognized both nationally and 
internationally.
    Simply stated, laboratory accreditation is formal recognition that 
a laboratory is competent to carry out specific tests. Expert technical 
assessors conduct a thorough evaluation of all aspects of laboratory 
operation using recognized criteria and procedures. General criteria 
are based on the international standard ISO/IEC 17025, General 
Requirements for the Competence of Testing and Calibration 
Laboratories, which is used for evaluating laboratories throughout the 
world. Laboratory accreditation bodies use this standard specifically 
to assess factors relevant to a laboratory's ability to produce 
precise, accurate test data, including the technical competency of 
staff, validity and appropriateness of test methods, testing and 
quality assurance of test and calibration data.
    Laboratories seeking accreditation to test voting system hardware 
and software are required to meet the ISO/IEC 17025 criteria and to 
demonstrate technical competence in testing voting systems. To ensure 
continued compliance, all NVLAP-accredited voting system testing 
laboratories will undergo periodic assessments to evaluate their 
ongoing compliance with specific accreditation criteria.
    NVLAP has received applications thus far from five laboratories. We 
are conducting on-site visits and examining their qualifications to 
test voting systems and be granted NVLAP accreditation. NVLAP is 
working to submit the qualified labs from the five applications to the 
EAC for accreditation in early 2007.

Conclusion

    NIST is pleased to be working on this matter of national importance 
with our EAC and TGDC partners. NIST has a long history of writing 
voluntary standards and guidelines and developing test suites to help 
ensure compliance to these standards and guidelines. NIST is using its 
expertise to work with our partners to produce precise, testable voting 
system guidelines and tests that will reduce voting system errors and 
increase voter confidence, usability, and accessibility.
    Thank you for the opportunity to testify. I would be happy to 
answer any questions the Committee might have.

                     Biography for William Jeffrey

    William Jeffrey is the 13th Director of the National Institute of 
Standards and Technology (NIST), sworn into the office on July 26, 
2005. He was nominated by President Bush on May 25, 2005, and confirmed 
by the U.S. Senate on July 22, 2005.
    As Director of NIST, Dr. Jeffrey oversees an array of programs that 
promote U.S. innovation and industrial competitiveness by advancing 
measurement science, standards, and technology in ways that enhance 
economic security and improve quality of life. Operating in fiscal year 
2006 on a budget of about $930 million, NIST is headquartered in 
Gaithersburg, Md., and has additional laboratories in Boulder, Colo. 
NIST also jointly operates research organizations in three locations, 
which support world-class physics, cutting-edge biotechnology, and 
environmental research. NIST employs about 2,800 scientists, engineers, 
technicians, and support personnel. An agency of the U.S. Commerce 
Department's Technology Administration, NIST has extensive cooperative 
research programs with industry, academia, and other government 
agencies. Its staff is augmented by about 1,600 visiting researchers.
    Dr. Jeffrey has been involved in federal science and technology 
programs and policy since 1988. Previous to his appointment to NIST he 
served as Senior Director for Homeland and National Security and the 
Assistant Director for Space and Aeronautics at the Office of Science 
and Technology Policy (OSTP) within the Executive Office of the 
President. Earlier, he was the Deputy Director for the Advanced 
Technology Office and chief scientist for the Tactical Technology 
Office with the Defense Advanced Research Projects Agency (DARPA). 
While at DARPA, Dr. Jeffrey advanced research programs in 
communications, computer network security, novel sensor development, 
and space operations.
    Prior to joining DARPA, Dr. Jeffrey was the Assistant Deputy for 
Technology at the Defense Airborne Reconnaissance Office, where he 
supervised sensor development for the Predator and Global Hawk Unmanned 
Aerial Vehicles and the development of common standards that allow for 
cross-service and cross-agency transfer of imagery and intelligence 
products. He also spent several years working at the Institute for 
Defense Analyses performing technical analyses in support of the 
Department of Defense.
    Dr. Jeffrey received his Ph.D. in astronomy from Harvard University 
and his B.Sc. in physics from the Massachusetts Institute of 
Technology.

    Chairman Ehlers. Thank you for your testimony. Next, we 
recognize Ms. Kiffmeyer.

    STATEMENT OF MS. MARY KIFFMEYER, SECRETARY OF STATE FOR 
                           MINNESOTA

    Ms. Kiffmeyer. Chairman Ehlers and Chairman Boehlert and 
Members, thank you for the opportunity to address the U.S. 
House of Representatives Committees on House Administration and 
Committee on Science. The opportunity to inform the Committees 
of the needs of the states regarding ``Voting Machines: Will 
the New Standards and Guidelines Help Prevent Future 
Problems?'' is very important to me, and to other election 
officials in other states.
    Minnesota has long been a leader in elections in this 
country. We have led the Nation in voter turnout for several 
years, including the important 18- to 24-year-olds, but one 
reason for that high involvement is that Minnesotans have 
demanded that elections meet the highest standards of accuracy, 
access, integrity, and privacy. So, the implementation of HAVA 
has only helped to assist in this process.
    In the implementation of HAVA in Minnesota, access and 
privacy are being greatly increased through the use of 
disability accessible voting equipment. In the process of 
evaluating potential equipment, accuracy and integrity were 
deemed important objectives, along with the 2005 VVSG. In 
addition, the Secretary of State and all major parties came to 
the conclusion that Minnesota should hold to a long-established 
requirement of paper ballots for elections.
    To what extent are these guidelines being used for 
Minnesota and why? Minnesota chose to use the 2005 Voluntary 
Voting System Guidelines in order to be in line with the best 
information we could get on election systems. In 2005, the 
State of Minnesota published a request for proposal for the 
statewide purchase of HAVA-compliant voting equipment, both 
assistive and vote tabulating equipment. In preparation of the 
RFP, the 2005 VVSG were used to establish accessibility and 
usability requirements for the assistive voting equipment, and 
the RFP required that all equipment purchased under the 
contract comply with the 2005 VVSG.
    At the time the RFP was published, the 2005 VVSG were not 
yet adopted. Therefore, the final contract required that the 
voting equipment vendor would be responsible for bringing the 
systems into compliance with the VVSG upon final adoption by 
the EAC.
    The Minnesota State Plan also called for the state to make 
grants to counties from HAVA funds for the purchase of this 
equipment. Counties were required to prepare plans that they 
would purchase with this grant funds. Many counties already had 
voting tabulating equipment. However, it was learned that the 
vendor would not be upgrading the older equipment to the 2005 
VVSG. Consequently, the state made the choice to permit the use 
of grant funds to replace this older equipment, with the intent 
to bring all voting equipment in the state up to the 2005 VVSG 
standards.
    Finally, due to security concerns raised during the comment 
period for the adoption of the 2005 VVSG, it was decided in the 
interests of Minnesota voters who shared these concerns for 
security, that Minnesota would only permit the use of paper 
ballots in its elections. Therefore, statutes were amended in 
the 2006 legislative session, implementing this strict paper 
ballot requirement.
    Are the VVSG comprehensive enough, in the 2005 guidelines, 
to guide purchasing decisions? No, the security standards of 
the 2005 VVSG are not sufficiently comprehensive to ensure 
security in our election systems. The use of technology for 
voting increases the risk that security of the voting system 
will be breached if proper safeguards are not taken.
    I believe that more comprehensive treatment in two areas 
alone would increase confidence in the electronic voting 
systems. First is the use of wireless components. Because of 
concerns with wireless components in the polling place, 
wireless components should only be turned on after the polls 
close and voting is complete, or strict security guidelines are 
developed.
    Also, to provide for maximum trust in election systems in 
the United States, I believe that a voter-verified paper audit 
trail should be highly considered required in the VVSG. In 
Minnesota, I am pleased to say we have the ultimate voter-
verified paper trail, the actual ballots that the voters have 
marked. This standard will help provide assurance that the 
elections process is being conducted in an accurate and fair 
manner. I believe that voters should be able to verify their 
votes in complete confidence that they are counted as cast, and 
that a VVPAT is necessary for purposes of a recount, and that 
of an audit trail.
    The current VVSG is good, for as far as it goes, but it 
needs to be evaluated after the next election, to see how the 
equipment functioned, and what would be better. Any necessary 
modifications need to be made with an emphasis on software 
changes and hardware security changes first. The cost of 
implementing new hardware could be a burden on the taxpayers, 
and should be avoided if at all possible.
    So, what do these TGDC need to do to make it more likely 
that states will update the equipment? Time is an issue. The 
next effective date is too close for election administrators to 
both evaluate the current system and propose improvements. 
Through study of the effectiveness and the conduct of 
elections, we will be able to have more information to make the 
improvements necessary in the next versions. Caution should be 
given to large capital expenditures that would waste today's 
money.
    Human factors are extremely important, and I have 
sufficient testimony as well that is written today that I could 
submit, seeing my time has concluded.
    Thank you very much for the opportunity to testify today.
    [The prepared statement of Ms. Kiffmeyer follows:]

                  Prepared Statement of Mary Kiffmeyer

    Chairman Ehlers and Chairman Boehlert and Members, thank you for 
the opportunity to address the U.S. House of Representatives Committees 
on House Administration and Committee on Science. The opportunity to 
inform the committees of the needs of the states regarding ``Voting 
Machines: Will the New Standards and Guidelines Help Prevent Future 
Problems?'' is very important to me and to other election officials in 
other states. Minnesota has long been a leader in elections in this 
country.
    Minnesotans have led the Nation in voter turnout for several years 
now including the important 18- to 24-year-old segment of the voting 
population. One reason for high involvement is that Minnesotans have 
demanded that elections meet the highest standards of accuracy, access, 
integrity, and privacy. So, the implementation of HAVA has only helped 
to assist in this process.
    In the implementation of HAVA in Minnesota, access and privacy are 
being greatly increased through the use of disability-accessible voting 
equipment. In the process of evaluating potential equipment, accuracy 
and integrity were deemed important objectives, along with the 2005 
VVSG. In addition, the Secretary of State and all major parties came to 
the conclusion that Minnesota should hold to a long-established 
requirement of paper ballots for elections.

Q.  To what extent are the 2005 Voluntary Voting Systems Guidelines 
(VVSG) being used by Minnesota and why? If Minnesota is not adopting to 
the 2005 VVSG, what standards are you using for voting equipment 
purchasing decisions and operation, and why did you select these 
standards?

A. Minnesota chose to use the 2005 Voluntary Voting Systems Guidelines 
in order to be in line with the best information we could get on 
election systems. In 2005, the State of Minnesota published a Request 
for Proposals (RFP) for the statewide purchase of HAVA-compliant voting 
equipment, both assistive-voting equipment and vote-tabulating 
equipment. In preparation of the RFP, the 2005 Voluntary Voting System 
Guidelines (VVSG) were used to establish accessibility and usability 
requirements for the assistive voting equipment and the RFP required 
that all equipment purchased under the contract comply with the 2005 
VVSG. At the time the RFP was published, the 2005 Voluntary Voting 
System Guidelines had not yet been adopted. Therefore, the final 
contract required that the voting equipment vendor would be responsible 
for bringing the systems into compliance with the Voluntary Voting 
System Guidelines upon final adoption by the EAC.
    The Minnesota State Plan called for the state to make grants to 
counties from HAVA funds for the purchase of this equipment. Counties 
were required to prepare plans for the voting equipment they would 
purchase with these grant funds. Many counties already had vote-
tabulating equipment; however, it was learned that the vendor would not 
be upgrading the older equipment to 2005 VVSG standards. Consequently, 
the state made the choice to permit the use of grant funds to replace 
this older equipment with the intent to bring all voting equipment in 
the state up to the 2005 VVSG standards.
    Finally, due to security concerns raised during the comment period 
for the adoption of the 2005 VVSG standards, it was decided, in the 
interest of Minnesota voters who shared these concerns for security, 
that Minnesota would only permit the use of paper ballots in its 
elections. Therefore, statutes were amended in the 2006 legislative 
session implementing this strict paper ballot requirement.

Q.  Are the 2005 VVSG comprehensive enough to guide states' voting 
equipment purchasing decisions and voting systems operation during 
elections? If so, why, and if not, why not?

A. No, the security standards of the 2005 VVSG are not sufficiently 
comprehensive to ensure security in our election systems. The use of 
technology for voting increases the risk that security of the voting 
system will be breached, if proper safeguards are not taken. More 
comprehensive treatment in two areas alone would increase confidence in 
electronic voting systems. First is the use of wireless components. 
Because of concerns with wireless components in the polling place, 
wireless components should only be turned on after the polls close and 
voting is complete or strict security guidelines are developed. Also, 
to provide for maximal trust in election systems in the United States, 
I believe that a voter-verified paper audit trail should be highly 
considered required in the VVSG. (In Minnesota, I am pleased to say, we 
have the ultimate voter-verified paper trail: the actual ballots that 
voters have marked.) This will help provide assurance that the 
elections process is being conducted in an accurate and fair manner. I 
believe that voters should be able to verify their votes in complete 
confidence that their votes are counted as cast. And a VVPAT is 
necessary for purposes of a recount and that of an audit trail.
    The current VVSG is good for as far as it goes, but it needs to be 
evaluated after the next election to see how the equipment functioned 
and what would be better. Any necessary modifications need to be made 
with an emphasis on software changes and hardware security changes 
first. The cost of implementing new hardware could be a burden on the 
taxpayers and should be avoided if at all possible.

Q.  What do the Elections Assistance Commission and Technical 
Guidelines Development Committee (TGDC) need to do to make it more 
likely that states will update equipment using the latest VVSG? Do the 
2005 VVSG need to be changed or improved in any way to make them more 
useful to the states? If so, what changes or additional information 
would you recommend for the VVSG? If not, why not?

A. Time is an issue. The next effective date is too close for election 
administration to both evaluate the current system and propose 
improvements. Thorough study of the effectiveness of the equipment in 
the conduct of elections must be evaluated. After that study ideas and 
suggestions must be given regarding the improvement of the election 
process. This takes time and the current timeframe is much too short.
    In addition, caution should be given to large capital expenditures 
to replace equipment. If at all possible software changes and upgrades 
that would improve the process would be preferred and allow the 
hardware changes to take affect later in order to make maximum use of 
current expenditures by the Federal Government, states and local 
jurisdictions.

Q.  How important are human factors, such as those described in the 
National Institute of Standards and Technology (NIST) 2004 report 
``Improving the Usability and Accessibility of Voting Systems and 
Products,'' in your selection of voting equipment? Is this report, 
together with the 2005 VVSG, having an impact on voting systems and 
elections, and if so, how? If not, why not?

A. Human factors were extremely important in the development of voting 
equipment requirements for the State of Minnesota. In the early stages 
of HAVA, our state worked closely with the disability community to seek 
their advice as to the human factors in their voting experience. We 
considered them the experts.
    When it was decided that the state would be acquiring new voting 
equipment, one of the first actions taken was to form a diverse group 
of citizens to assist the Secretary of State in defining the 
requirements for voting systems to be used in Minnesota. A Voting 
Equipment Proposal Advisory Committee (VEPAC) was established for this 
purpose. This group included members with different disabilities for 
their input on accessibility and usability, local election 
administrators, and citizens motivated to improve the election process 
in the state. This committee researched the election equipment study 
reports, including the report, ``Improving the Usability and 
Accessibility of Voting Systems and Products,'' and made 
recommendations to the Secretary of State that were incorporated into 
the final equipment requirements of the state voting equipment 
contract. Members of the committee then helped score RFPs and select 
equipment. Accessibility and usability of the equipment eventually 
chosen was of the greatest importance in its ultimate selection in 
addition to the critical base requirements of security, accuracy and 
integrity.
    Thank you for the opportunity to testify before your committees and 
your willingness to hear from those who administer elections in the 
states. I would like to re-emphasize that no matter what modifications 
may be made to the VVSG, it must incorporate the need for access, 
accuracy, integrity, and privacy. And for the best use of funds already 
invested both now and in the future, please give the needed time for 
evaluation of the current situation of the election systems prior to 
implementation of new standards.

    Chairman Ehlers. And thank you very much. Ms. Lamone.

 STATEMENT OF MS. LINDA H. LAMONE, ADMINISTRATOR OF ELECTIONS, 
               MARYLAND STATE BOARD OF ELECTIONS

    Ms. Lamone. Chairmen, Members of the Committee, I am a 
lawyer by training, not a physicist, but I will try to overcome 
that deficiency.
    Chairman Ehlers. We would appreciate that.
    Ms. Lamone. One of the things I think everyone needs to 
remember when we are talking about the issue that is before the 
Committee today, that the voting process is really a four-
pronged, and a very large enterprise.
    Not only do you have the voting equipment in place, and 
that seems to be the focus of a lot of people, but you also 
have to have an examination of the processes that surround the 
election, the security, which is a huge issue in Maryland, and 
of course, all the people.
    And one of the things that concerns me about some of the 
dialogue that is occurring around the country, not necessarily 
here, is that we tend to lose focus on the huge number of 
absolutely wonderful people that we have working in elections 
across the country, from people like me, I am not that 
wonderful, but people like, in my position, down to my 
employees, the county people, the town people, and most 
importantly, the poll workers. And they are a very important 
prong to this process, and we need to make sure that they feel 
like they are a part of it, and a welcome part of it.
    The other part of this whole thing, of course, is also the 
voters. What are we doing to make sure that they feel confident 
that we are doing our job well, and not trying to undermine 
their confidence, which I think a lot of the discussion is 
tending to do.
    You have heard from three of my distinguished colleagues 
about some of the issues with the guidelines. I think one of 
the most important things we need to remember is that this is 
an evolution. It is not a simple step to improve the process. 
In Maryland, we started, in 2001, with the General Assembly of 
Maryland passing a law requiring a uniform statewide voting 
system, and it has taken me until this year to fully implement 
law, with Baltimore City becoming the last jurisdiction. So, in 
the fall of this year, every voter in Maryland will be voting 
on touchscreen voting.
    The amount of money that it has taken me and the State of 
Maryland to implement that decision of the General Assembly is 
huge. Not only do I have over $50 million invested in the 
voting system, I have many, many more millions invested in 
security procedures, security processes, that we necessarily 
have to take to ensure the integrity of this voting system.
    If, for some reason, the existing system that we have in 
Maryland is not compliant with any future guidelines issued by, 
through the cooperation of NIST and the EAC, will the taxpayers 
of my state be willing to spend another $50 million on voting 
systems? Now, I suggest to you that that is going to be a very 
tough decision on the part of my governor and my General 
Assembly. So, that is something that we all have to keep in the 
back of our minds when we are talking about this. And a lot of 
the other states are going to be in the same position. Georgia 
has a statewide system. They use the same system that I do, and 
a lot of the counties are out there purchasing, or have 
purchased for this upcoming fall elections, because they had 
to, under the Help America Vote Act.
    I would just like, and I know it is going to come up, so I 
might as well hit it right on the head, the verified paper 
trail has, for me, two main issues. One, it is going to stifle, 
and it already has, to some extent, the development of any 
other kind of independent verification technologies. I have 
seen some things out there that are still prototypes that I 
would love to see go onto the market, because they would 
provide me with all kinds of wonderful tools, as well as 
providing a way to audit and verify the election.
    The other thing that has me greatly concerned about it is 
its impact on the disabled voters, particularly those with 
vision problems or blind voters. They have no way of verifying 
in privacy what that piece of paper said, and it seems to me 
that one of the major thrusts of the Help America Vote Act was 
to assist this huge population of people, who either can't 
read, don't know how, or can't read because they can't see.
    I think in this debate, we need to keep them in our minds, 
because we certainly have done everything we can in Maryland to 
reach out to this population.
    [The prepared statement of Ms. Lamone follows:]

                 Prepared Statement of Linda H. Lamone

    Thank you for the opportunity to address the Committee on House 
Administration and the Committee on Science on the impact of the voting 
systems guidelines adopted by the U.S. Election Assistance Commission 
in December 2005. As the Chief Election Official in Maryland and an 
active member of the National Association of State Election Directors, 
federal voting system standards have historically provided state and 
local election officials with a level of assurance that a voting system 
accurately counts and records votes and meets the minimum performance 
and testing standards. The 2005 Voluntary Voting Systems Guidelines 
(VVSG) enhance the prior voting system standards and, by raising the 
minimum standards, will provide greater assurances to election 
officials, candidates, and the voting public.

Application of Federal Voting Systems Standards in Maryland

    Under section 9-102 of the Election Law Article of the Annotated 
Code of Maryland, a voting system in Maryland cannot be State certified 
unless an approved independent testing authority has tested the voting 
system and shows that it meets the performance and test standards for 
electronic voting systems. Although Maryland's law does not require 
that a voting system meet a specific version of the standards, the 
current language enables the State of Maryland to have voting systems 
tested against the most recent standards without having to amend the 
statute each time the standards are revised.
    The State of Maryland began its implementation of a statewide, 
uniform voting system in 2002. The request for proposals required that 
``all equipment and software proposed must comply with the Federal 
Election Commission's voting system standards regarding DRE and optical 
scan equipment.'' \1\ Since Maryland's voting system was procured and 
implemented in twenty-three of twenty-four jurisdictions before the 
voluntary voting system standards were released for comment, the voting 
system met the current standards at the time--the 1990 and later the 
2002 standards.
---------------------------------------------------------------------------
    \1\ See Section 2.1, Request for Proposals: Direct Recording 
Electronic Voting System and Optical Scan Absentee Voting System for 
Four Counties, Project No. SBE-2002.01, www.elections.state.md.us/pdf/
procurement/rfp.pdf.
---------------------------------------------------------------------------
    As section 9-102 of the Election Law Article includes the VVSG and 
any subsequent revisions, no additional steps are necessary for the 
State to adopt these guidelines. Once the independent testing 
authorities begin testing against the VVSG, future software versions of 
the State's uniform voting system will be tested against these 
guidelines.

Impact of 2005 Standards on Purchasing & Operational Decisions

    As every jurisdiction should know that the VVSG are the only 
federal standard against which voting systems will be tested starting 
December 2007, the ability of a voting system to meet the VVSG should 
be a critical factor for a jurisdiction selecting a voting system. With 
at least forty-seven states requiring local jurisdictions to comply 
with federal standards and guidance, the majority of states recognize 
the importance of federal standards and guidance.\2\ That being said, I 
suggest to you that whether the VVSG are ``comprehensive enough'' is 
not a factor guiding voting system purchasing decisions (although it 
may be factor in determining whether additional testing is required); 
the paramount inquiry is whether the voting system meets the 
guidelines.
---------------------------------------------------------------------------
    \2\ ``States and the District of Columbia Reported Requirements for 
Local Jurisdictions to Use Federal Standards for Voting Systems,'' 
Appendix X, The Nation's Evolving Election System as Reflected in the 
November 2004 General Election, GAO-06-450, June 2006.
---------------------------------------------------------------------------

Improve Likelihood of States to Accept VVSG

    It is my opinion that the VVSG will become de facto mandatory for 
several reasons. First, the majority of states require compliance with 
federal guidelines. These states laws may already require compliance 
with new guidelines once they become effective.
    Second, jurisdictions using old voting systems (i.e., punch card 
voting system and mechanical lever machines) can no longer use those 
systems if they accepted federal funds under the Help America Vote Act 
of 2002. As vendors will not likely risk losing potential clients by 
selling voting systems that do not meet the VVSG, they will most likely 
only be offering voting systems that meet the VVSG. As a result, the 
majority, if not all, of voting equipment on the market for the 2008 
elections will most likely meet the VVSG.
    Third, according to the U.S. Election Assistance Commission, voting 
systems will no longer be tested against prior versions of the 
guidelines once the VVSG are in effect. Once testing against prior 
guidelines ends, new voting systems and upgrades to existing systems 
will need to meet the VVSG or risk not being certified. With no other 
guidelines against which to test, there will no longer be different 
standards of certification (i.e., meets 2002 standards but not VVSG, 
etc.)
    Lastly, the political pressure against purchasing or using a system 
that does not meet the guidelines will be high. With the litigious 
nature of advocacy groups, it will be difficult for jurisdictions to 
justify selecting and using a voting system that does not meet the 
guidelines.
    Although I believe that most states will accept the VVSG, there is 
one additional enhancement to the guidelines that could provide an 
additional incentive. In addition to certification by the U.S. Election 
Assistance Commission, many states have a state certification process. 
To the extent that the VVSG could be revised to include state-specific 
certification requirements, state election officials could accept the 
certification by the U.S. Election Assistance Commission as the basis 
of state certification. This joint certification would reduce the 
resources needed to conduct state certification without a reduction in 
confidence in the voting system.

Human Factors & Voting Systems

    Under Maryland law, a system's ``ease of understanding for the 
voter'' and ``accessibility for all voters with disabilities recognized 
by the Americans with Disabilities Act'' are required considerations 
for State certification of a voting system.\3\ Although usability of 
voting systems generally gets lost in the on-going debate about voting 
systems, the ability of a voter to understand how to vote is equally 
important as the security of a voting system.
---------------------------------------------------------------------------
    \3\ See  9-102(d)(6) and (10), Election Law Article, Annotated 
Code of Maryland.
---------------------------------------------------------------------------
    The new usability guidelines in the VVSG are an important addition. 
The new requirements and the expected usability guidelines in the next 
version of the VVSG, coupled with recent studies by the National 
Institute of Standards and Technology (NIST) and other academics, will 
only enhance the usability of voting systems.\4\ Although Maryland's 
voting system vendor has incorporated findings of prior usability 
studies into its voting systems, I expect that greatest impact of these 
requirements and studies will be in future voting systems and software 
upgrades.
---------------------------------------------------------------------------
    \4\ See Herrnson et al., A Project to Assess Voting Technology and 
Ballot Design, www.capc.umd.edu/rpts/VoteTechFull.pdf.
---------------------------------------------------------------------------

Conclusion

    It is important to consider the VVSG as a long-term strategy to 
improve voting systems in the United States. These guidelines cannot be 
viewed as a panacea with an immediate and dramatic impact on elections; 
their impact will be gradual and will not be known for several election 
cycles.
    Voting system vendors need time to make the required software and 
hardware changes to their products. Similarly, independent testing 
authorities need time to develop the necessary performance and test 
guidelines to use during testing. Although the guidelines are referred 
to as the ``2005 VVSG,'' the U.S. Election Assistance Commission 
recognized that the infrastructure would need to develop before the 
VVSG could be effective. For this reason, the Commission made the 
guidelines effective in December 2007. For these reasons, the first 
elections when voting systems tested against the VVSG would most likely 
be used are the 2010 elections.
    Equally important, State and local jurisdictions typically consider 
voting systems as long-term investments. Maryland, for example, has 
projected a fifteen-year life cycle for its current voting system. When 
the VVSG become effective, some jurisdictions might be faced with the 
following choice--either scrap a voting system that does not meet the 
VVSG or procure a voting system that does. Although federal funding 
offset some of the expenses associated with purchasing and implementing 
a new voting system, it cannot cover all of the on-going maintenance 
costs or costs of a new system.
    Also, the involvement of the NIST in the election arena is new. 
NIST's leadership of the Technical Guidelines Development Committee has 
been critical in updating the voting system standards, and its 
establishment of the National Voluntary Laboratory Accreditation 
Program will impact future testing against the standards. As their role 
has just begun and continues to evolve, it is important to allow NIST 
to put into place standards and procedures to impact voting system 
certification.
    In conclusion, I would like to compare the process of improving 
voting systems to the process of improving air quality. When the U.S. 
Congress enacts a law to limit air pollution, the date by which the 
affected industry must comply is often ten years down the road. This 
delayed effective date allows the industry to evaluate options, develop 
technologies that will enable them to comply with the mandates, and 
implement the necessary changes to the industry's infrastructure.
    I believe this is how voting system technology should be viewed. In 
the meantime, however, the VVSG are a good first step, but they must be 
viewed as the first step of many. Like cleaning our air, improving 
voting systems takes time, and I caution you not to expect overnight 
changes to voting systems.

                     Biography for Linda H. Lamone

    Linda H. Lamone was appointed by the Governor to be the State 
Administrator of Elections on July 1, 1997. As the State Election 
Administrator, Ms. Lamone, by statute, has been charged with maximizing 
the use of technology in election administration. Since her 
appointment, Ms. Lamone is overseeing the second development and 
implementation of a statewide voter registration system and a mandate 
for a uniform statewide voting system. Additionally, Ms. Lamone has 
administered the development of a sophisticated candidate and campaign 
finance management program and an election management system that 
creates and certifies each ballot layout for the State of Maryland.
    Ms. Lamone serves on the Executive Committee of the National 
Association of Secretaries of State and the U.S. Election Assistance 
Commission's Standards Board and Advisory Board. She is also Vice Chair 
of the Attorney Grievance Commission of Maryland and Chair of the 
Character Committee for the Fifth Appellate Circuit and the Select 
Committee on Gender Equality.

    Chairman Ehlers. Thank you very much. Dr. Wagner.

 STATEMENT OF DR. DAVID WAGNER, PROFESSOR OF COMPUTER SCIENCE, 
              UNIVERSITY OF CALIFORNIA AT BERKELEY

    Dr. Wagner. Chairmen, Committee Members, thank you for the 
opportunity to testify today. My name is David Wagner. I am an 
Associate Professor of Computer Science at UC Berkeley. My 
expertise is in computer security and electronic voting.
    In my research into electronic voting, I have come to the 
conclusion that the federal standards process is not working. 
The federal testing labs are failing to weed out machines with 
serious security and reliability problems. We know that the 
federal testing labs have approved machines that have lost 
thousands of votes. We know that the testing labs have approved 
machines that have serious reliability problems.
    How do we know that? Well, the State of California, my home 
state, does its own reliability testing, using a methodology 
that is more rigorous than occurs at any level of federal 
testing, and when the State of California went to test one 
federally approved system last year, they discovered mechanical 
and software reliability problems so severe that if those 
machines had been used in a real election, on election day, 20 
percent of those machines would have failed.
    Fortunately, California is on top of things, and was able--
has been able to detect and fix these problems before they 
impact an election, but it raises questions about how the 
testing labs came to approve a system like this.
    Also, the federal testing labs, we know, are approving 
machines that have security problems. We know that because 
Finnish researcher Harri Hursti, an outsider, has found serious 
security vulnerabilities in federally approved voting systems. 
And in my own research, when I was commissioned to analyze one 
federally approved voting system, I too found security 
vulnerabilities that the federal testing labs had overlooked.
    So, in short, the testing labs aren't getting the job done, 
and what is more, so far, the federal standards, even the 2005 
federal standards, have yet to address these problems. So, that 
is the first of several shortcomings in the federal standards 
that I wanted to highlight today.
    The second is that it is my opinion that the standards are 
not sufficiently grounded in a solid understanding of the 
scientific and engineering principles. There is a broad 
consensus among the technical experts who have studied these 
issues that today, the best tool we have for protecting the 
reliability and the security of our elections is the use of 
voter-verified paper records, along with routine manual audits 
of those records.
    We know that computers can fail. We know that computers can 
make mistakes, and part of the problem with paperless voting 
machines is that they don't provide any independent way to go 
back and reconstruct the voter's intent if voting software 
should prove faulty, or be tampered with.
    This is not a minority opinion. For instance, recently, the 
Brennan Center, in collaboration with a large group of 
technical experts and election officials, has completed a 
comprehensive, 150-page analysis of some of the threats facing 
voting systems. Their conclusion was that without voter-
verified paper records, a single person may be able to switch 
votes on a large scale, possibly undetected, and potentially 
even swing a close election.
    So today, I don't know of a single colleague in the 
computer security community who believes it is possible to have 
full confidence in election outcomes without paper, given our 
current state of our voting equipment. However, this consensus 
among technical experts has yet to be reflected in the federal 
voting standards. So, this is one example, and there are many 
others, of how the federal standards are lagging behind the 
best scientific and engineering understanding.
    The consequence of these shortcomings is that the federal 
standards are not sufficient to guarantee that federally 
approved voting systems are able to adequately protect the 
integrity of our elections, either against unintentional 
failures, or against deliberate tampering.
    I see that I have used up most of my allocated time. There 
were a number of other points I wanted to make. In my written 
testimony, I have discussed some of the steps that the EAC 
could take to remedy these problems in the short term, as well 
as some measures that election officials could take before 
these November elections, to help as much as possible, and I 
would welcome the chance to discuss this topic further with the 
Committee Members.
    Thank you.
    [The prepared statement of Dr. Wagner follows:]

                   Prepared Statement of David Wagner

    Thank you for the opportunity to testify today. My name is David 
Wagner. I am an associate professor of computer science at U.C. 
Berkeley. My area of expertise is in computer security and the security 
of electronic voting. I have an A.B. (1995, Mathematics) from Princeton 
University and a Ph.D. (2000, Computer Science) from U.C. Berkeley. I 
have published two books and over 90 peer-reviewed scientific papers. 
In past work, I have analyzed the security of cell phones, web 
browsers, wireless networks, and other kinds of widely used information 
technology. I am a member of the ACCURATE center, a multi-institution, 
interdisciplinary academic research project funded by the National 
Science Foundation\1\ to conduct novel scientific research on improving 
election technology. I am a member of the California Secretary of 
State's Voting Systems Technology Assessment Advisory Board.\2\
---------------------------------------------------------------------------
    \1\ This work was supported by the National Science Foundation 
under Grant No. CNS-052431 (ACCURATE). Any opinions, findings, and 
conclusions or recommendations expressed in this material are those of 
the author and do not necessarily reflect the views of the National 
Science Foundation.
    \2\ I do not speak for UC-Berkeley, ACCURATE, the California 
Secretary of State, or any other organization. Affiliations are 
provided for identification purposes only.
---------------------------------------------------------------------------

Background

    Today, the state of electronic voting security is not good. Many of 
today's electronic voting machines have security problems. The ones at 
greatest risk are the paperless voting machines. These machines are 
vulnerable to attack: a single person with insider access and some 
technical knowledge could switch votes, perhaps undetected, and 
potentially swing an election. With this technology, we cannot be 
certain that our elections have not been corrupted.
    Studies have found that there are effective security measures 
available to protect election integrity, but many states have not 
implemented these measures. The most effective defense involves 
adoption of voter-verified paper records and mandatory manual audits of 
these records, but only 13 states have mandated use of these security 
measures. (At present, 27 states mandate voter-verified paper records, 
another eight states use voter-verified paper records throughout the 
state even though it is not required by law, and the remaining 15 
states do not consistently use voter-verified paper records. Of the 35 
states that do use voter-verified paper records statewide, only 13 
require routine manual audits of those records.[1]) Voter-verified 
paper records provide an independent way of reconstructing the voter's 
intent, even if the voting software is faulty or corrupt, making them a 
powerful tool for reliability and security.

Problems

    The federal qualification process is not working. Federal standards 
call for voting machines to be tested by Independent Testing 
Authorities (ITAs) before the machines are approved for use, but the 
past few years have exposed shortcomings in the testing process. The 
ITAs are approving machines with reliability, security, and accuracy 
problems. In the past several years:

        <bullet>  ITA-approved voting machines have lost thousands of 
        votes. In Carteret County, NC, voting machines irretrievably 
        lost 4,400 votes during the 2004 election. The votes were never 
        recovered [2]. In 2002, vote-counting software in Broward 
        County, Florida, initially mis-tallied thousands of votes, due 
        to flaws in handling more than 32,000 votes; fortunately, alert 
        election officials noticed the problem and were able to work 
        around the flaws in the machines. In 2004, the same problem 
        happened again in Broward County, changing the outcome on one 
        state proposition [3,4], and in Orange County [5]. In Tarrant 
        County, Texas, an ITA-approved voting system counted 100,000 
        votes that were never cast by voters [6].

        <bullet>  ITA-approved machines have suffered from reliability 
        flaws that could have disrupted elections. California's 
        reliability testing found that one ITA-approved voting system 
        suffered from mechanical and software reliability problems so 
        severe that, if it had been used in a real election, about 20 
        percent of machines would have experienced at least one failure 
        during election day and probably would have had to be taken out 
        of service [7].

        <bullet>  ITA-approved machines have been found to contain 
        numerous security defects that threaten the integrity of our 
        elections. Over the past several years, we have been inundated 
        with revelations of security flaws in our voting systems from 
        academics (e.g., Johns Hopkins University, Rice University 
        [8]), industry consultants hired by election administrators 
        (e.g., SAIC [9], Compuware [10], InfoSENTRY [11], and RABA 
        [12]), and interested outsiders (e.g., Finnish researcher Harri 
        Hursti [13,14]). None of these flaws were caught by ITAs. In 
        the past five years, at least eight studies have evaluated the 
        security of commercial voting systems, and every one found new, 
        previously unknown security flaws in systems that had been 
        approved by the ITAs. In my own research, I was commissioned by 
        the State of California to examine the voting software from one 
        major vendor, and I found multiple security flaws even though 
        the software was previously approved by ITAs [15]. One of these 
        flaws was discovered at least three times by independent 
        security experts over a period of nine years (once in 1997, 
        again in 2003, and again in 2006), but was never flagged by the 
        ITAs at any point over that nine-year period [16].

    All of these defects were ostensibly prohibited by federal 
standards [17], but the ITA testing and federal qualification process 
failed to weed out these problematic voting systems. The consequence of 
these problems is that the federal qualification process is at present 
unable to assure that voting systems meet minimum quality standards for 
security, reliability, and accuracy.
    Federal standards have so far failed to address these problems. The 
2005 VVSG standards do not remedy the demonstrated failures of the 
process to screen out insecure, unreliable, and inaccurate machines.
    These failures have exposed structural problems in the federal 
qualification process:

        <bullet>  The ITAs are paid by the vendors whose systems they 
        are evaluating. Thus, the ITAs are subject to conflicts of 
        interest that raise questions about their ability to 
        effectively safeguard the public interest.

        <bullet>  The process lacks transparency, rendering effective 
        public oversight difficult or impossible. ITA reports are 
        proprietary--they are considered the property of the vendor--
        and not open to public inspection. Also, if a voting system 
        fails the ITA's tests, that fact is revealed only to the 
        manufacturer of that voting system. In one widely publicized 
        incident, one Secretary of State asked an ITA whether it had 
        approved a particular voting system submitted to the ITA. The 
        ITA refused to comply: it declined to discuss its tests with 
        anyone other than the voting system manufacturer, citing its 
        policy of confidentiality [18].

            In addition, the secretive nature of the elections industry 
        prevents independent security experts from performing their own 
        analysis of the system. Technical information about voting 
        systems is often considered proprietary and secret by vendors, 
        and voting system source code is generally not available to 
        independent experts. In the rare cases where independent 
        experts have been able to gain access to source code, they have 
        discovered reliability and security problems.

        <bullet>  Testing is too lax to ensure the machines are secure, 
        reliable, and trustworthy. The federal standards require only 
        superficial testing for security and reliability. For instance, 
        California's tests have revealed unexpected reliability 
        problems in several voting systems previously approved by ITAs. 
        In my opinion, California's reliability testing methodology is 
        superior to that mandated in the federal standards, because 
        California tests voting equipment at a large scale and under 
        conditions designed to simulate a real election.

        <bullet>  Many standards in the requirements are not tested and 
        not enforced. The federal standards specify many requirements 
        that voting systems must meet, and specify a testing 
        methodology for ITAs to use, but many of the requirements are 
        not covered by that testing methodology. The ITAs only apply 
        whatever tests are mandated by the standards. The consequence 
        is that the federal standards contain many requirements with no 
        teeth. For instance, Section 6.4.2 of the 2002 standards 
        requires voting systems to ``deploy protection against the many 
        forms of threats to which they may be exposed;'' the security 
        vulnerabilities listed above appear to violate this untested 
        requirement. Likewise, Section 6.2 requires access controls to 
        prevent ``modification of compiled or interpreted code;'' three 
        of the major vulnerabilities revealed in the past two years 
        have violated this requirement. These requirements appear to be 
        ignored during ITA testing and thus have little or no force in 
        practice.

        <bullet>  Parts of the voting software are exempt from 
        inspection, reducing the effectiveness of the federal testing. 
        The federal standards contain a loophole that renders 
        Commercial Off-the-Shelf (COTS) software exempt from some of 
        the testing. The COTS loophole means that the security, 
        reliability, and correctness of those software components are 
        not adequately examined. COTS software can harbor serious 
        defects, but these defects might not be discovered by the 
        federal qualification process as it currently stands.

        <bullet>  Even if an ITA finds a serious security flaw in a 
        voting system, they are not required to report that flaw if the 
        flaw does not violate the VVSG standards. Thus, it is possible 
        to imagine a scenario where an ITA finds a flaw that could 
        endanger elections, but where the ITA is unable to share its 
        findings with anyone other than the vendor who built the flawed 
        system. Relying upon vendors to disclose flaws in their own 
        products is unsatisfactory.

        <bullet>  There are disincentives for local election officials 
        to apply further scrutiny to these machines. Some local 
        election officials who have attempted to make up for the gaps 
        in the federal qualification process by performing their own 
        independent security tests have faced substantial resistance. 
        After one Florida county election official invited outside 
        experts to test the security of his voting equipment and 
        revealed that the tests had uncovered security defects in the 
        equipment, each of the three voting system vendors certified in 
        Florida responded by declining to do business with his county 
        [19]. The impasse was resolved only when the State of Florida 
        interceded [20]. In Utah, one election official was pressured 
        to resign after he invited independent security experts to 
        examine the security of his equipment and the testing revealed 
        security vulnerabilities [21,22]. The barriers to performing 
        independent security testing at the local level heighten the 
        impact of shortcomings in the federal standards.

        <bullet>  If serious flaws are discovered in a voting system 
        after it has been approved, there is no mechanism to de-certify 
        the flawed system and revoke its status as a federally 
        qualified voting system.

    The 2005 VVSG standards do not address these structural problems in 
the federal qualification process. The 2005 VVSG standards were drafted 
over a period of approximately three months. With such an extremely 
constrained time schedule, it is not surprising that the 2005 standards 
were unable to satisfactorily address the fundamental issues raised 
above.
    The shortcomings of the 2005 VVSG standards have several 
consequences:

        <bullet>  We are likely to continue to see new security and 
        reliability problems discovered periodically. The security and 
        reliability of federally approved systems will continue to be 
        subject to criticism.

        <bullet>  Shortcomings at the federal level place a heavy 
        burden on states. The 2005 VVSG standards do not provide enough 
        information about the reliability and security of these 
        machines to help states and counties make informed purchasing 
        decisions. This places an undue burden on local election 
        officials. Some states are doing their best to make up for gaps 
        in the federal process, but many states do not have the 
        resources to do so.

            Also, the increased scrutiny at the state level has the 
        potential to subject vendors to dozens of involved state-level 
        certification processes that have been instituted to make up 
        for the gaps in the federal process, increasing the compliance 
        burden on vendors.

        <bullet>  Millions of voters will continue to vote on voting 
        machines that cannot be independently audited. This may 
        diminish confidence in election results. In the event of any 
        dispute over the outcome of the election, it may be impossible 
        to demonstrate whether the election was accurate. Allegations 
        of fraud may be difficult or impossible to rebut, due to the 
        fact that today's paperless voting machines do not generate and 
        retain the evidence that would be required to perform an 
        effective audit. The lack of openness and transparency 
        regarding voting system source code, testing, and equipment may 
        spawn further distrust in voting systems.

        <bullet>  Voting equipment may still be subject to security and 
        reliability problems, even if they comply with the 2005 VVSG 
        standards. Many of the security and reliability defects 
        described above would not have been prevented even if the 2005 
        VVSG standards had been in force when the machines were 
        evaluated. Approval under the 2005 VVSG standards is not a 
        guarantee of security or reliability.

Recommendations

    The Technical Guidelines Development Committee (TGDC) and the 
Election Assistance Commission (EAC) could improve the VVSG standards 
and begin to address these shortcomings by taking several steps:

        <bullet>  Mandate voter-verified paper records and mandatory 
        manual audits. Stop approving paperless voting machines. 
        Today's paperless voting machines are not auditable. There is 
        no effective way to independently check whether their results 
        are accurate or to detect electronic fraud. The inability to 
        audit these machines greatly heightens the impact of security 
        problems. Ensuring that election results can be independently 
        audited would go a long way to reducing the impact of security 
        defects in voting equipment. The 2007 VVSG should mandate 
        voter-verified paper records and automatic manual audits of 
        those records after every election.

        <bullet>  Broaden the focus beyond functionality testing, and 
        embrace discipline-specific methods of testing voting 
        equipment. Today, the standards primarily focus on 
        functionality testing, which evaluates whether the machines 
        implement all necessary functionality. Standards need to be 
        expanded to incorporate technical evaluations of the security, 
        reliability, and usability of these machines. The standards 
        must incorporate the different forms of evaluation these 
        disciplines each require. For instance, security evaluation is 
        unique, in that it must deal with an active, intelligent 
        adversary; functionality concerns the presence of desired 
        behavior, while security concerns the absence of undesired 
        behavior. Consequently, system security evaluations should 
        always include an adversarial analysis, including a threat 
        assessment and a source code review. The testing methods in the 
        standard should be updated to reflect the state of the art in 
        each discipline. Special attention will be needed to ensure 
        that the testing team has sufficient expertise, time, and 
        resources to perform a thorough evaluation.

        <bullet>  Eliminate conflicts of interest in the federal 
        testing process. ITAs should not be paid by the vendors whose 
        systems they are testing. Several financial models are 
        possible, and all deserve consideration. For instance, one 
        possibility is for the EAC to collect a fee from vendors, as a 
        condition of eligibility for the federal qualification process, 
        to cover the costs of hiring ITAs to evaluate the system under 
        consideration.

        <bullet>  Reform the federal testing process to provide more 
        transparency and openness. All ITA reports should be publicly 
        available. The documentation and technical data package 
        provided to ITAs should be made available to the public or to 
        independent technical experts so that they can independently 
        cross-check the ITA's conclusions and exercise public oversight 
        of the testing process. Also, the right of the public to 
        observe elections is rendered less meaningful if those 
        observing are unable to understand what it is that they are 
        seeing; under the current rules, observers have no access to 
        the documentation for the voting system they're observing, 
        which partially limits their ability to effectively monitor the 
        administration of the election.

        <bullet>  Require broader disclosure of voting system source 
        code. The secrecy surrounding voting source code is a barrier 
        to independent evaluation of machines and contributes to 
        distrust. To enhance transparency, improve public oversight and 
        hold vendors accountable, voting software should be disclosed 
        more broadly. At a minimum, source code should be made 
        available to independent technical experts under appropriate 
        non-disclosure agreements. In the long run, source code should 
        be publicly disclosed. Source code disclosure does not prevent 
        vendors from protecting their intellectual property; vendors 
        can continue to rely on copyright and patent law for this 
        purpose.

            Keeping source code secret does not appreciably improve 
        security: in the long run, the software cannot be kept secret 
        from motivated attackers with access to a single voting 
        machine. However, disclosing source code more broadly could 
        enhance public confidence in elections and is likely to lead to 
        improvements to voting system security.

        <bullet>  Incorporate closed feedback loops into the regulatory 
        process. Standards should be informed by experience. At 
        present, there is no requirement for reporting of performance 
        data or failures of voting equipment, no provision for 
        analyzing this data, and no process for revising regulations in 
        a timely fashion in response. The 2007 VVSG should incorporate 
        a framework for collecting, investigating, and acting on data 
        from the field and should provide a mechanism for interim 
        updates to the standards to reflect newly discovered threats to 
        voting systems. For instance, the FAA requires airplane 
        operators to report all incidents (including both failures and 
        near-failures), uses independent accident investigators to 
        evaluate these reports, and constantly revises regulations in 
        response to this information. Adopting a similar framework for 
        voting systems would likely improve voting systems.

        <bullet>  Strengthen the evaluation of usability and 
        accessibility. The discipline of usability has developed 
        methods for usability testing--such as user testing with actual 
        voters or poll workers, as well as heuristic evaluation by 
        usability and accessibility experts--but these methods are not 
        currently reflected in the VVSG standards. They would represent 
        a valuable addition to the standards. In addition, usability 
        experts have suggested it would be helpful to move away from 
        the current emphasis on functional requirements and towards an 
        evaluation regime based primarily on assessing performance 
        against some quantitative metric of usability [23]. The 2005 
        VVSG standards are a positive first step towards addressing 
        human factors issues, but there is room for further 
        improvement.

        <bullet>  Increase the representation of technical experts in 
        computer security on the TGDC. The appointment of Prof. Ronald 
        Rivest to the TGDC was warmly welcomed by security experts: 
        Rivest is extremely qualified and very highly respected among 
        the computer security community. However, at present, Rivest is 
        the only member of the TGDC with substantial experience in the 
        area of security. Appointing more TGDC members with security 
        expertise would improve the ability of the TGDC to develop 
        effective standards.

        <bullet>  Ensure that standards are grounded in the best 
        scientific and engineering understanding. Too often, decisions 
        have been made that do not reflect the best judgment of the 
        relevant experts. For instance, in 2004 the premier 
        professional organization for computing professionals surveyed 
        their members about e-voting technology. 95 percent of 
        respondents voted for a position endorsing voter-verified paper 
        records and expressing concerns about paperless voting 
        technologies [24]--yet two years later, this overwhelming 
        consensus among technical experts has yet to be reflected in 
        federal standards.

    For further information, I refer readers to the ACCURATE center's 
``Public Comment on the 2005 Voluntary Voting System Guidelines,'' [25] 
which I have attached as an appendix to this testimony.
    In the short-term, adopting the recommendations of the Brennan 
Center report on e-voting is the most effective and practical step 
election officials could take to make existing voting systems as secure 
and reliable as possible for this November. These recommendations 
include:

        <bullet>  Conduct automatic routine audits of the voter-
        verified paper records;

        <bullet>  Perform parallel testing of voting machines;

        <bullet>  Ban voting machines with wireless capability;

        <bullet>  Use a transparent and random selection process for 
        all audits; and,

        <bullet>  Adopt procedures for investigating and responding to 
        evidence of fraud or error.

    For further information, see the Brennan Center report [26].
    In addition, I encourage election officials to pay special 
attention to their voter registration systems. In many states, voter 
registration processes are in a state of flux, due to the HAVA 
requirement that statewide registration databases be in place this 
year. These databases could significantly improve elections if 
implemented well; if implemented poorly, however, they could 
disenfranchise many thousands of voters. See the USACM report on voter 
registration databases [27].

Summary

    In summary, the 2005 VVSG standards contain significant 
shortcomings regarding the security, reliability, and auditability of 
electronic voting. Members of the computer security community are 
available to help devise better solutions.

Notes

 1.  ``The Machinery of Democracy: Protecting Elections in an 
Electronic World,'' Brennan Center Task Force on Voting System 
Security, June 27, 2006. Since that report was written, Arizona has 
adopted voter-verified paper records and routine manual audits of those 
records statewide.

 2.  ``Computer loses more than 4,000 early votes in Carteret County,'' 
Associated Press, November 4, 2004.

 3.  ``Broward Ballot Blunder Changes Amendment Result,'' Local 10 
News, November 4, 2004.

 4.  ``Broward Machines Count Backward,'' The Palm Beach Post, November 
5, 2004.

 5.  ``Distrust fuels doubts on votes: Orange's Web site posted wrong 
totals,'' Orlando Sentinel, November 12, 2004.

 6.  ``Vote spike blamed on program snafu,'' Forth Worth Star-Telegram, 
March 9, 2006.

 7.  ``Analysis of Volume Testing of the AccuVote TSx/AccuView,'' 
Report of the California Secretary of State's Voting Systems Technology 
Assessment Advisory Board, October 11, 2005.

 8.  ``Analysis of an Electronic Voting System,'' Tadayoshi Kohno, Adam 
Stubblefield, Aviel D. Rubin and Dan S. Wallach, May, 2004.

 9.  ``Risk Assessment Report: Diebold AccuVote-TS Voting System and 
Processes,'' Science Applications International Corporation, September 
2, 2003.

10.  ``Direct Recording Electronic (DRE)Technical Security Assessment 
Report,'' Compuware Corporation, November 21, 2003.

11.  ``Security Assessment: Summary of Findings and Recommendations,'' 
InfoSENTRY, November 21, 2003.

12.  ``Trusted Agent Report: Diebold AccuVote-TS System,'' RABA 
Innovative Solution Cell, January 20, 2004.

13.  ``Critical Security Issues with Diebold Optical Scan,'' Harri 
Hursti, Black Box Voting, July 4, 2005.

14.  ``Critical Security Issues with Diebold TSx,'' Harri Hursti, Black 
Box Voting, May 11, 2006.

15.  ``Security Analysis of the Diebold AccuBasic Interpreter,'' Report 
of the California Secretary of State's Voting Systems Technology 
Assessment Advisory Board, February 14, 2006.

16.  ``Connecting Work on Threat Analysis to the Real World,'' Douglas 
W. Jones, June 8, 2006.

17.  For instance, the security vulnerabilities appear to violate the 
requirements of Section 6.4.2 and Section 6.2 of the 2002 FEC 
standards.

18.  ``Election Officials Rely on Private Firms,'' San Jose Mercury 
News, May 30, 2004.

19.  ``Election Whistle-Blower Stymied by Vendors,'' Washington Post, 
March 26, 2006.

20.  ``Sort of fixed: Broader election flaws persist,'' Tallahassee 
Democrat, April 15, 2006.

21.  ``Cold Shoulder for E-voting Whistleblowers,'' The New Standard, 
May 17, 2006.

22.  ``New Fears of Security Risks in Electronic Voting Systems,'' The 
New York Times, May 12, 2006.

23.  ``Public Comment on the 2005 Voluntary Voting System Guidelines,'' 
ACCURATE Center, submitted to the United States Election Assistance 
Commission, September 2005.

24.  ``ACM Recommends Integrity, Security, Usability in E-voting, Cites 
Risks of Computer-based Systems,'' USACM, September 28, 2004.

25.  http://accurate-voting.org/accurate/docs/
2005<INF>-</INF>vvsg<INF>-</INF>comment.pdf

26.  ``The Machinery of Democracy: Protecting Elections in an 
Electronic World,'' Brennan Center Task Force on Voting System 
Security, June 27, 2006.

27.  ``Statewide Databases of Registered Voters: Study of Accuracy, 
Privacy, Usability, Security, and Reliability Issues,'' commissioned by 
the U.S. Public Policy Committee of the Association for Computing 
Machinery, February 16, 2006.

    Chairman Ehlers. Thank you very much, and after those 
comments, perhaps we should have more distance between you and 
Mr. Groh in the seating arrangement.
    We will now call on Mr. Groh.

 STATEMENT OF MR. JOHN S. GROH, CHAIRMAN, ELECTION TECHNOLOGY 
     COUNCIL, INFORMATION TECHNOLOGY ASSOCIATION OF AMERICA

    Mr. Groh. Good afternoon. My name is John Groh, and I am a 
Senior Vice President with Election Systems & Software, one of 
the voting system vendors in the United States.
    I am here to provide testimony on the part of, or on behalf 
of the Information Technology Association of America, and its 
Election Technology Council, which is a subset group. ITAA is 
one of the oldest, the Nation's oldest and largest trade 
associations for the information technology industry, 
representing approximately 325 companies. The Election 
Technology Council consists of companies which offer voting 
system technology hardware products, software, services, to 
support the electoral process.
    These companies have organized within ITAA to work together 
to address common issues facing our industries as a valued 
stakeholder. Current members of the ETC are Advanced Voting 
Solutions, Danaher Guardian Voting Systems, Diebold Election 
Systems, Election Systems & Software, Hart InterCivic, Perfect 
Voting Systems, and Sequoia Voting Systems, along with UniLect 
Corporation. Our membership is open to all companies that are 
interested in the voting environment.
    Our member companies have a great stake in the conduct and 
the outcome of this process. Indeed, voting solutions provided 
and supported by our members account for over 90 percent of the 
voting systems the marketplace uses today. Our members employ 
over 2,000 dedicated citizen employees, who work hard to 
support the success of American elections.
    The ETC is pleased to respond to your request for a vendor 
perspective on the issues surrounding the implementation of the 
2005 Voluntary Voting System Guidelines, and the national 
voting system certification and testing process. My written 
testimony is much longer, but I would like to provide a few 
detailed responses to specific issues.
    First, I would like to acknowledge the very strong 
partnership and alliance that the vendor community has with two 
important organizational leaders in this area: the United 
States Election Assistance Commission, and the National 
Institute of Standards and Technology, as well as the Technical 
Guidelines Development Committee. Both of these groups should 
be commended for the focus and urgency with which they have 
moved forward with the Voluntary Voting System Guidelines. It 
has been a tremendous task to do this in a short period of 
time, that was challenged with everyone in this.
    Comments on the 2005 Voting System Guidelines process. 
Turning to the specific issues of the VVSG, it is important to 
first underscore the respect we have for the standards making 
process, and our very belief, our real belief that a dynamic 
standards process is key to motivating innovation and continued 
enhancement of voting technology.
    Having said that, there are several realities that the 
voting system vendors believe must be acknowledged and 
accounted for in laying the groundwork for successful rollout 
of the 2005 VVSG. Issues our members wish to raise to your 
attention include: one, the need to consider fiscal and 
operational feasibility; two, the impact of certification and 
testing; three, the need for continuing funding streams; and 
four, the need for a phased-in implementation.
    Let me touch first on the fiscal operational feasibility. 
There is a discernible trend in the development of the 2005 
Voluntary Voting System Guidelines to push the envelope of the 
voting system capabilities. While vendors can develop and 
deliver most of what is required in the VVSG, such requirements 
will come at a cost. Eventually, addition of system features 
and functions will be constrained by what the market will be 
willing to pay or able to pay. A balance needs to be struck 
between the development of new requirements and future versions 
of VVSG, and the fiscal and operational realities that the 
states and the counties and the United States that run 
elections have to deal with.
    The second issue, on the impact of certification and 
testing on the guidelines. Certification and testing will be 
critical to achieving full compliance with the 2005 standards. 
To achieve federal certification of systems under the 2005 VVSG 
by December of 2007, which is the effective date, the new 
certification process will likely need to be in place before 
the end of this year, with accredited testing labs ready to 
test, and tests defined for every applicable requirement for 
the 2005 guidelines. This is an extremely aggressive timeline 
for the vendors, as well as many of us sitting at this table.
    First, although the voting system features and functions 
addressed for the first time require the development of a new 
certification test, some of the 2005 Voluntary Voting System 
Guideline requirements have no test defined to date. Second, 
once the tests are in place, we would have to expect a learning 
curve, and unforeseen difficulties associated with the change.
    Then, some tests may add prohibitive delays or costs in the 
certification process, and depending on the nature of the 
problem, this may require modification to the guidelines or the 
testing process itself. All of these challenges will require 
some flexibility, as the revised guidelines and certification 
process are implemented. The alternatives will be a possibly 
unattainable or untestable standard.
    I have other comments, but my time is up, and so I will 
yield to the floor for questions.
    [The prepared statement of Mr. Groh follows:]

                   Prepared Statement of John S. Groh

    Good afternoon, Chairmen Ehlers and Boehlert, Ranking Members 
Millender-McDonald and Gordon:
    My name is John Groh and I am a Senior Vice President with Election 
Systems & Software. I am here to provide testimony on behalf of the 
Information Technology Association of America (ITAA) and its Election 
Technology Council (ETC). The ITAA is one of the Nation's oldest and 
largest trade associations for the information technology industry, 
representing approximately 350 companies. The Election Technology 
Council consists of companies which offer voting system technology 
hardware products, software and services to support the electoral 
process. These companies have organized within the association to work 
together to address common issues facing our industry. Current members 
of the ETC are: Advanced Voting Solutions, Danaher Guardian Voting 
Systems, Diebold Election Systems, Election Systems & Software, Hart 
InterCivic, Perfect Voting System, Sequoia Voting Systems, and UniLect 
Corporation. Membership in the ETC is open to any company in the 
election systems marketplace.
    The ETC is pleased to respond to your request for vendor 
perspective on issues surrounding the implementation of the 2005 
Voluntary Voting Systems Guidelines (2005 VVSG) and the national voting 
system certification and testing processes.
    Our member companies have a great stake in the conduct and outcome 
of this process. Indeed, voting solutions provided and supported by our 
members account for over 90 percent of voting systems in the 
marketplace today. Our members employ over 2,000 dedicated citizen 
employees, who all work hard to support the success of American 
elections.
    First, I would like to acknowledge the very strong partnership the 
vendor community has with two important organizational leaders in this 
effort: the U.S. Election Assistance Commission (EAC) and the National 
Institute of Standards and Technology (NIST)/Technical Guidelines 
Development Committee (TGDC). Both should be commended for the focus 
and urgency with which they have moved to implement the requirements of 
the Help America Vote Act of 2002 (HAVA), the roll-out of the Voluntary 
Voting Systems Guidelines, and the transition to a new voting system 
certification process.

Comments on the 2005 Voluntary Voting Systems Guidelines Process:

    There are several realities that voting system vendors believe must 
be acknowledged and accounted for in laying the groundwork for a 
successful roll-out of the 2005 VVSG. The delays at the beginning of 
the EAC-NIST ramp-up period set the guidelines development process back 
by about 12-18 months. The effort to issue the VVSG was unparalleled in 
terms of the scope and speed of a technical guidelines development for 
voting systems, and possibly for any comparable technology. Indeed, 
similar efforts have taken many years to complete. However, the initial 
delays compounded an already uncertain situation and many State and 
local governments chose to delay purchases of HAVA-compliant voting 
equipment in anticipation of the new guidelines.
    Given the amount of installation work now being undertaken, and 
despite the complexity and politics involved with voting systems 
procurements, the implementation of new voting systems that meet the 
requirements of HAVA is generally going smoothly. With primaries and 
general elections now looming, elections officials must exercise 
caution against taking shortcuts in important areas such as training, 
testing, and preparation.
    Many, if not most, of the problems that are experienced in the U.S. 
electoral process today are not directly technological, but involve 
humans and their interactions with technology. Reports of problems in 
the 2006 primary elections have been largely attributable to 
insufficient training and preparedness in the polling place. Those 
closely involved in voting know that it is an exercise with a thousand 
moving parts and most of those parts are processes conducted by human 
hands.
    The voting systems installation situation currently facing states 
and local governments is unique. Once this work is complete, the 
hardware may be in place ten years or more. While the immediate burdens 
of procurement and installation will surely diminish, the ongoing 
management and support of the large quantity of new systems, combined 
with the upcoming VVSG effective dates and roll-out of a new 
certification process, presents many new challenges and issues to 
elections officials and their vendor partners. Issues our members wish 
to raise to your attention include:

        <bullet>  What is feasible both fiscally and operationally?

        <bullet>  The impact of certification and testing on the 
        guidelines

        <bullet>  The need for continued funding streams

        <bullet>  The need for phased implementation

What Is Feasible Both Fiscally and Operationally?
    There is a discernible trend in the development of the 2005 VVSG to 
``push the envelope'' of voting system capabilities. While vendors can 
develop and deliver most of what is required in the VVSG, such 
requirements will come at a cost. Eventually, addition of system 
features and functions will be constrained by what the market will be 
willing and able to pay. A balance needs to be struck between the 
development of new requirements in future versions of the VVSG and 
fiscal and operational realities in the states.
    Those overseeing development of new voting systems guidelines 
should follow the old adage: ``perfect should not be the enemy of 
good.'' While we always strive towards perfection, we believe that 
making perfection the operating standards will have unintended 
consequences. What may be perfect for an aspect of security may be a 
limiting factor on usability. There may need to be compromises to find 
a ``good'' and balanced system that can actually be produced, certified 
and made affordable to jurisdictions using taxpayers' money.
The Impact of Certification and Testing on the Guidelines
    As new voting systems certification and testing processes are 
rolled out, there will be a learning curve that will cause delays in 
the implementation of the guidelines. Once the guidelines are actually 
applied by a test lab against a voting system, it is likely that the 
complexity of the guidelines and conflicts between some requirements in 
the 2005 VVSG will be discovered. As instances are discovered, further 
interpretation and revision of the guidelines will become necessary. 
Some examples that we know of to date are:

        <bullet>  The subjective interpretation that will be required 
        in the area of testing systems for accommodating cognitive 
        disabilities (no one system can accommodate all disabilities 
        and there is no list of disabilities defined for the labs to 
        use in their testing.)

        <bullet>  The addition of a standard port to read the DRE 
        memory without compromising security using an independent 
        system that hasn't been established.

        <bullet>  Requirements that need to be tested, yet no tests are 
        yet defined (e.g., usability, benchmarks are still being 
        studied by NIST.)

    Voting systems features and functions addressed for the first time 
in the 2005 VVSG have mandated the development of new tests. Some of 
the 2005 VVSG requirements have no tests defined to date. It is likely 
that the development and initial implementation of new tests will run 
into unforeseen difficulties and delays to determine objective and 
effective parameters. Some tests may add prohibitive delays or costs to 
the certification process. Depending on the nature of the problem, this 
may require modification to the guidelines or to the testing process 
itself.
    These situations will demand some flexibility in revisions to the 
guidelines and certification processes. The alternative will be to find 
some voting systems, or even a generation of voting equipment, 
uncertifiable against a possibly unattainable or untestable standard. 
If that equipment can readily meet the requirements spelled out in 
HAVA, such a result would be a poor outcome and one that may force 
states to squander federal and state monies already appropriated, 
disbursed and spent on HAVA compliant equipment.
Need for Continued Funding Streams
    One shortcoming of the Help America Vote Act of 2002 is the lack of 
a mechanism for continued funding to the states and election 
jurisdictions. Under the 2005 VVSG and future iterations of the 
guidelines, it is almost certain that states and election jurisdictions 
will be required to purchase and deploy new voting systems hardware 
and--more likely--firmware and software to be compliant with the new 
guideline iterations. While much of the expense for new systems 
compliant with the 2002 Voluntary Voting System Standards (2002 VVSS) 
was covered by the first HAVA appropriations, much of the continuing 
expense for modifications and upgrades demanded by changes in the 2005 
VVSG and future iterations will fall to the states and local 
governments.
    In many states, the most significant expense not covered by federal 
money was for Voter Verified Paper Audit Trail (VVPAT) equipment. The 
purchase of VVP AT printers was not anticipated by HAVA, and not enough 
money appropriated for it. In many states, legislative mandate has made 
the VVP AT a necessary voting system component. The additional cost of 
these devices has diverted monies from other important aspects of HAVA, 
such as voter education and user training.
    The increasing complexity required of voting systems by the 
guidelines is creating a need for more user training. As I stated 
above, the vast majority of problems experienced with voting systems 
are attributable to insufficient training and preparedness in the 
polling place. Some of these problems will decrease as elections 
officials and other system users move along the technology learning 
curve. But funding the necessary training will move elections 
jurisdictions more rapidly along the learning curve, expediting the 
drive to problem-free elections.
Need for Phased Implementation
    The voting systems market will take some time to adopt fully the 
new guidelines and certification process. For evidence of the time it 
takes for the marketplace to completely adjust to and absorb a new 
standard from release to widespread adoption, one need look no further 
than the case of the 2002 VVSS. It took more than three years from the 
initial release to adoption on a near-national basis. This lengthy 
adoption period was not for a lack of trying on the part of states and 
vendors but rather recognition that the process to make encompassing 
changes requires the time to do it right. The funding that HAVA 
provided facilitated the adoption of the 2002 VVSS by the states. As 
there currently are no federal funds earmarked to facilitate the 
implementation of 2005 VVSG compliant voting systems, the nation-wide 
adoption of the 2005 VVSG may take even longer.
    Given that the 2005 VVSG adoption process may take at least two to 
three years to complete, our members have recommended a phased 
implementation of the guidelines be taken under consideration by the 
EAC.\1\ This is a critically important issue which merits consideration 
by all interested parties.
---------------------------------------------------------------------------
    \1\ ETC testimony before the U.S. Election Assistance Commission, 
February 2, 2006; http://www.electiontech.org/downloads/
ETC%20Groh%20EAC%20Testimony%20-%202.2.06%20-%20Final.pdf
---------------------------------------------------------------------------
    Our members believe that equipment certified under the 2002 VVSS is 
HAVA-compliant. However, much of that equipment will not be compliant 
with the 2005 VVSG at the time the new guidelines become effective in 
December 2007. It is our position that voting systems certified to meet 
2002 VVSS that are HAVA-compliant and have been proven in the field to 
provide the customer and the voter with a satisfactory level of 
usability, reliability, accuracy, and security should be grandfathered 
under the 2005 VVSG. Many of the issues raised regarding 2002 VVSS 
compliant equipment can likely be addressed through operational 
procedure changes and software modifications.
    If equipment certified under the 2002 standard is not grandfathered 
under the 2005 guidelines, the cost burden to the customer will be 
onerous as jurisdictions will have to replace their existing 2002 VVSS 
and HAVA-compliant equipment with 2005 VVSG compliant equipment. 
Without some type of grandfathering provisions under the 2005 VVSG, 
additional federal funds will be necessary to cover the cost of 
replacement equipment and upgrades. Jurisdictions should be able to get 
at least a ten to fifteen year return on investment from their existing 
equipment and not be forced to replace it every time a new version of 
the guidelines are implemented.

Comments on National Voting Systems Certification and Testing 
                    Processes:

    The EAC provided the states and NIST a 24-month transition window 
after the adoption of the 2005 VVSG on December 14, 2005 to migrate to 
a new set of voting system guidelines and certification process. This 
migration has already begun and the EAC approved adoption of an interim 
set of federal certification procedures at its July 13, 2006 meeting. 
To facilitate federal ITA certifications before the December 2007 
deadline, the new certification process will likely need to be in place 
before the end of this year, with accredited testing laboratories ready 
to test, and tests defined for every applicable requirement in the 2005 
VVSG.
    There are several important issues that should be addressed in the 
migration to new certification and testing processes, including:

        <bullet>  Testing Frequency and Repetition

        <bullet>  Developing New Uniform, Economical Testing Practices

        <bullet>  Certification for Systems Developed under a Previous 
        Standard

Testing Frequency and Repetition
    As the EAC and NIST move forward in the design and implementation 
of a new certification process, our members believe the EAC should give 
serious consideration to the fundamental issue of testing frequency and 
repetition. State and county election officials, and their vendor 
partners, face an ever-increasing volume of federal qualification and 
state testing activity. Reducing the cost and delay imposed by 
continual--and often repetitive--testing should be a primary 
consideration of the new certification process. By combining the 
federal level ITA certification testing and basic state level tests, 
the system certification process could be made more streamlined and 
uniform, saving valuable time for election officials and reducing 
redundant non-value added costs for everyone.
Developing New Uniform, Economical Testing Practices
    Not only is testing voting systems for the purpose of obtaining 
federal and State certifications becoming too frequent and overly 
costly, the situation may soon be aggravated by the need for new and 
fairly complex tests mandated by the 2005 VVSG. The guidelines put 
forth several new requirements for which no appropriate tests currently 
exist. According to experts in the standards and testing field, the 
most challenging tests may prove to be in the areas of system usability 
and security.
    Further, the advent of state-mandated volume testing has 
dramatically increased costs of certification in some states. Volume 
testing incorporates the use of at least 100 DREs, each unit counting 
hundreds of ballots over the course of days to emulate the election-day 
experience at a polling site. While the goals of this type of testing 
are worthy, cost increases have resulted.
    Without the development of new tests that are uniformly applied 
from testing lab to testing lab, and designed from the outset to 
diminish the need for repetitive tests, a potentially vast new area of 
vendor expense may be created. Testing expense has the potential to 
drive up voting system costs significantly and slow the entry of new 
systems into the market. The ETC believes that the EAC, NIST, and other 
concerned groups should quickly take steps to begin work on developing 
more uniform and economical testing for voting systems.
Certification for Systems Developed Under a Previous Standard
    In previous communications with the EAC, we have asked the 
Commission to recognize and retain the good and common elements of the 
pre-existing NASED voting system certification procedures. We expect 
that the EAC certification process will likely incorporate several 
elements of the NASED procedure.
    One element of the current NASED certification process that the EAC 
has indicated it will carry forward is the discontinuation of 
certifying voting system platforms that were certified under a previous 
standard. It is important that Members of Congress understand the 
economic and election performance impacts of such a step on state and 
county election administrators, the voters and vendors.
    We know that stopping any and all certification of systems 
certified under the 2002 VVSS, on a certain date, without an allowance 
for state required enhancements or to fix errors found, will impose 
major economic consequences on states or election jurisdictions which 
have recently purchased voting systems under those standards. Due to 
the many meaningful changes made under the 2005 VVSG, there may be no 
way to economically retrofit some voting systems. Such equipment may 
have to be discarded and new procurements undertaken with new purchase 
costs to the election jurisdictions.
    In addition to cost and other economic impacts, the EAC should 
consider election management and performance issues in setting 
transition policy for systems certified under the 2002 VVSS. States and 
jurisdictions make voting system acquisitions with an expectation of a 
10- to 15-year service life. This timeframe allows the customer to 
refresh technology when it becomes near-obsolete or to take advantage 
of technology upgrades as they become available in the market. As 
states and jurisdictions introduce new technology, they must move along 
the learning curves for system usage, support, and training. Changes to 
hardware platforms can impact the training that the customer has 
invested in its poll workers as well as associated voter education 
programs.

Concluding Remarks:

    In providing this testimony, our intention is to give Members of 
the Committees vendor perspective on the roll-out of new voting systems 
guidelines and certification processes to the vendor community and, as 
we see it, to the states and election jurisdictions--our valued 
customers whom we serve.
    It is our belief that the adherence to standards and rigor of the 
certification process is critical to maintaining the integrity of our 
elections. State adoption of the federal Voluntary Voting System 
Guidelines is what makes the standard effective.
    The Election Technology Council and its members are committed to 
working with the EAC, NIST, and our customers, to see the 2005 VVSG and 
a new certification process through to successful implementation. 
Further, we look to EAC and NIST as the bodies best positioned and 
armed to tackle the tasks at hand. We hope that other parties 
interested in working on elections equipment and administration issues 
would similarly recognize the importance of the EAC and NIST 
initiatives and refrain from launching parallel and--in some 
instances--conflicting initiatives.
    Above all, we are responsive to customer needs and are committed to 
providing safe, secure, accurate, reliable and accessible voting 
systems under any standard or certification program. We only ask that 
the appropriate time be allowed so it can be done right and that the 
funding and costs of implementation be considered when creating new 
guidelines and certification processes. We all recognize and accept 
that with new voting system technology comes complexity and need for 
changes in election administration, poll worker skills and increased 
voter education and outreach programs.
    We are all involved in this process together, and by working 
together we can improve the process of voting, voter access and 
participation.

                       Biography for John S. Groh
    John Groh came to Election Systems & Software in 1995 to focus the 
company on a growth strategic plan that included development of new 
products, pursuing international markets for election automation, and 
growth through acquisitions. During this period ES&S has grown from 40 
associates to well over 400; with a customer base that has grown from 
600 local jurisdictions to more than 2,300 world-wide. The company's 
product offerings now cover the entire spectrum of end-to-end 
integrated voting systems--in paper, and electronic form.
    John S. Groh functions in several roles at ES&S, including 
President of ES&S International, Senior Vice-President of Voter 
Registration Sales, and Senior Vice President of Marketing, 
Communication & Public Relations. Additionally in his role as Senior 
Vice-President of Government Relations he has served as ES&S' liaison 
with the U.S. Election Assistance Commission and has participated in 
the NIST-TGDC process of creating the new voting system guidelines. 
Further still, he represented ES&S at NASS and NASED events, and serves 
as spokesperson for ES&S on policy issues.
    Mr. Groh currently serves as the Chairman of the Information 
Technology Association of America's (ITAA's)--Election Technology 
Council. He has offered testimony twice in front of the EAC on the HAVA 
implementation process.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               Discussion

    Chairman Ehlers. Thank you, and thank you all for staying 
within your time limits. I think that may have set a record for 
this committee.
    The panel is being joined by Mr. Skall, from NIST, who will 
assist in answering technical questions addressed to Dr. 
Jeffrey.
    I will begin the first round of questions, and recognize 
myself for five minutes.
    First of all, I just want to comment on, I believe it was 
Ms. Lamone, you referred to the poll workers, as I recall, and 
I have always admired the incredible dedication of the poll 
workers, who come out at minimal pay, for incredibly long 
hours, a difficult job, and do it year after year after year, 
and I have the highest respect for them.
    And partly for that reason, partly for other reasons, when 
we had the fiasco a few years ago in the Presidential election, 
and people were talking about solutions, I repeatedly heard 
people say, ``Well, we have to train the poll workers better, 
and we have to train the voters better.'' And I am a former 
professor. I have great respect for education, but I always 
said ``Bunk.'' If you are having people who do something twice 
a year on average, in some cases less, you can train all you 
want, but they are not going to remember for six months or a 
year, just precisely what they have to do. You have to design 
the systems so that they are intuitive and operation is self-
evident, and that is where the term human factors come in. So, 
I have pushed very hard on having human factors done first.

             Human Factors and HAVA Guidelines, Technology

    And Dr. Jeffrey, on that point, one of NIST's earliest 
products under HAVA was its Human Factors Report, partly, I 
suspect, because of my insistence on it. To what extent have 
the findings of this report been incorporated into the 2005 
guidelines, and what kinds of guidelines remain to be written?
    Dr. Jeffrey. Thank you, sir.
    The 2004 report listed ten major recommendations on human 
factors, and these included incorporating the U.S. Access Board 
requirements and suggestions into the guidelines, developing 
performance-based, as opposed to design-based usability 
requirements, and looking at usability testing for voting 
systems.
    Half of those, of the ten recommendations, have made it 
into the 2005 VVSG. The other half are being addressed, and 
will be addressed in the 2007 version. And I would just like to 
add that part of those usability requirements are not just for 
the voters, but they also include usability for poll workers, 
though it is not as comprehensive as for the voters, but it is 
included in there.
    Mr. Baird. Mr. Chairman, could we check and see if the 
witnesses' mikes are all turned off.
    Chairman Ehlers. Pardon?
    Mr. Baird. We are getting some--it is this one over here.
    Chairman Ehlers. I am sorry. Could you just turn off all 
your mikes for the moment, please. I am sorry, I can't hear 
you. Members turn off their mikes, too, unless you are 
speaking, yes. Yeah, just wait until the things really get 
rolling here. Okay, well, I appreciate your answer to that.
    Are there other guidelines that you are preparing on human 
factors?
    Dr. Jeffrey. On human factors, the other five 
recommendations. Actually, Mark, if you want to add the 
additional ones beyond the 2004 report.
    Mr. Skall. Yes. We are, again, in the 2007 proposed 
standard, we are adding looking at each usability requirement, 
again, as Dr. Jeffrey said, we are making them performance-
based, adding actual testing benchmarks, and doing research to 
update all the accessibility and usability requirements that 
were contained in 2005.
    Chairman Ehlers. Thank you. Mr. Groh, just to what extent 
has this better understanding of human factors affected the way 
that countries have, companies have designed their equipment, 
and to what extent have you been able to incorporate the human 
factors into your products?
    Mr. Groh. Well, I think it has been a multi-step approach. 
The first hurdle was to meet and manage and adapt systems that 
would allow states and counties to get an accessible voting 
system. Accessible voting systems are a difficult hurdle to 
cross over, because no single system will manage every voter 
with a disability issue that they face. But we have attempted 
to provide as many of them as we possibly can.
    Because the 2005 Voluntary Voting System Guidelines were 
still in development during all of 2005, and were not issued 
until January 1, or the January timeframe of '06, we were 
looking at and waiting for the final draft and the final 
guidelines to come out, and so, we have just begun to create 
the next level, or the next wave of accessibility, as well as 
human factors issues with it. And we are looking for the 
performance and the testing criteria, because that is what will 
drive us as to how we build the technologies, because we want 
it to fit within the guidelines, and we want it to pass the 
testing.
    Chairman Ehlers. Thank you very much. My time has expired. 
I want to pursue that a little more later on, with a few other 
witnesses, but at this time, I recognize the gentlewoman from 
California, Ms. Millender-McDonald, for five minutes.
    Ms. Millender-McDonald. Thank you so much, Mr. Chairman.
    Mr. Groh, were you saying that because of the lateness or 
just recently receiving the standards and whatever, you are now 
just beginning to design or to look into the software or 
whatever needs to be done, in terms of the testing? I was kind 
of talking when----
    Mr. Groh. No, my question was in regards to the human 
factors element, or human interface, and the ease of human 
interface, or as Chairman Ehlers put out earlier, the 
intuitiveness that would be there. And as technology evolves, 
there is new technology that is available today, our cell 
phones that we have in our pockets today, from five years ago 
are----
    Ms. Millender-McDonald. Okay.
    Mr. Groh.--greatly different, as are voting technologies or 
voting systems.
    What we focused on initially was the accessibility 
component of the 2002 and the HAVA requirements, because they 
were known. The accessibility and human factors component was 
not completed in time for us really to effectively apply 
those----
    Ms. Millender-McDonald. Okay. That is what I heard.
    Mr. Groh.--in this timeframe.
    Ms. Millender-McDonald. All right. Very well. Thank you so 
much.

                     Security in Electronic Voting

    What we have heard from all of you, or what I have heard 
from all of you, is security. That is one of the words I have 
heard from each of you, security, and in hearing that, it is 
extremely important, as Ms. Lamone said, about security is a 
big factor with the people whom we all serve, and with those 
voters who are out there, who is depending upon voting 
machines, or whatever the methodology is, to have security in 
their voting.
    Given all of this, we are also hearing from Dr. Wagner, who 
said, and I am just underscoring all of these different things 
that I am hearing, the state of electronic voting security is 
not good. He states that, and yet, Dr. Jeffrey, you were said 
to state that the testing labs that you have begun to do, or 
have successfully been done, seem to have been, or working 
toward some successful conclusions.
    What can we do, each of you, to ensure that security is 
foremost in our voting system? Voters are very concerned that 
their vote is not being counted, and that is why they want a 
paper trail, so that they can ensure at least some methodology 
of security of their voting. Will you each answer to me, and to 
us, why is it that Dr. Wagner says the electronic voting 
security is not good, and he also said that it seems that the 
federal standards are no long applicable, and I might be 
putting some words in your mouth, but if you can each respond 
to that?
    In conclusion, Ms. Lamone stated that there are four prongs 
to this whole notion of voluntary voting standards, and the 
whole notion of voting period. And one is that of people. And 
my recent legislation is putting more money into the till for, 
to train more poll workers to be well trained for upcoming 
elections, because we do find that the average voting age poll 
worker is 72, and that the training has been very ineffective 
and inefficient.
    Will you please speak to the security part of this, and if, 
by Dr. Wagner's assessment that the federal standards are out 
of whack, or not working, then what are we going to do in terms 
of security?
    Dr. Jeffrey. Well, thank you very much.
    Ms. Millender-McDonald. Throw it out there, and whichever 
one falls----
    Dr. Jeffrey. Okay.
    Ms. Millender-McDonald.--we will hear from one or the 
other.
    Dr. Jeffrey. Let me start, and clarify a couple points. One 
is the role of the testing and the accreditation. NIST is 
actually brand new to this process. Under the Help America Vote 
Act, the accreditation of laboratories, the laboratories that 
do the independent testing, is completely different, and so, we 
are on a brand new process. The old accreditation process which 
was done by NASED, the National Association of State Election 
Directors. That was a phenomenal process that they put into 
place, in terms of being run, set up by essentially volunteers 
within the organization, with minimal resources, and they 
basically did a yeoman's job of getting the first level of 
accreditation and testing going.
    Under the HAVA, where NIST is now involved in helping to do 
the accreditation in the labs, we are using a very different 
process, a much more rigorous process, to initiate that. We 
have, within NIST, a program called NVLAP, which is, well, I 
won't bore you with the acronym, but it is an internationally 
recognized process for having independent testing labs be 
accredited to have the level of competence to make these kind 
of tests.
    I will give you some examples of some of the differences. 
Under the NASED, when an independent testing lab was 
accredited, it was accredited once, and that was good forever. 
Under NVLAP, they have to be accredited, and once they are 
accredited annually for the first three years, and then 
biannually after that. So they have to maintain proof that they 
are still competent to do that. There are also the people who 
go do the accreditation are internationally recognized experts 
in the validation and accreditation of the labs' process. So, 
there is a series of things that are going on in the testing to 
change them.
    One last point I would like to make on that as well that is 
different is that just the fact of going from the 2002 
standards to, ultimately, the 2007, the clarity and precision 
in those standards are going to be so improved that right now, 
there is a lot of ambiguity, which makes testing difficult. 
That is being fixed. That is one of the things that is 
specifically being addressed. That will help significantly, and 
will help minimize a lot of the problems that were mentioned, 
as well as the open test suite that will be developed for that.
    Chairman Ehlers. The gentlewoman's time has expired. If 
there is further time, we will take further answers to this 
next. We will have more than one round, I am sure.
    But since we have so many, I want to make sure everyone has 
a chance.
    Chairman Boehlert is next, and recognized for five minutes.

                     Voluntary Nature of Standards

    Chairman Boehlert. I would like to be quite basic, and I 
look at the title of the hearing: ``Will the New Standards and 
Guidelines Help Prevent Future Problems?'' I think what we are 
all looking for, some way to guarantee the integrity of the 
system.
    And I guess my basic question is, how can standards and 
guidelines which are voluntary guarantee anything?
    Ms. Lamone. They call them voluntary, but there is not a 
vendor that is going to sell a viable product in the United 
States that is not going to have their system tested against 
them, because most of the states require our voting systems to 
meet the standards.
    So, for the states that don't want to participate, their 
vendors are going to have met, and had their equipment tested 
anyway. So, I think focusing on the word voluntary is probably 
not the right way. You need to see what and how the states 
are--because I think most of us are going to adhere to them, 
and I know all the vendors will.
    Chairman Boehlert. You all agree with that answer? Is that 
satisfactory for all of you?
    Ms. Davidson. You know the other thing I think that we need 
to remember is we have been working with the players, the 
counties, the states, so they feel comfortable with those, and 
the more that they see how useful they are, the more states 
will join it. And we have over 40 states now that are already 
in some type of a process with the federal accreditation of the 
standards.
    Chairman Boehlert. Well, counsel advises me that what you 
say is not true. When will the manufacturers start only selling 
to the standards. They are not doing that now. Mr. Groh.
    Mr. Groh. Well, to represent all of the manufacturers, one 
is public opinion is the strongest approach that drives us, as 
well as the state election directors and the secretaries of 
state. I know of no state that does not demand and require that 
you have gone through a certification, a federal certification 
process.
    Today, the one that exists is under the 2002 Voluntary 
Voting System Standards. It will soon be upon us that will 
under a new set of standards and a new set of test procedures. 
So, for us, as Ms. Lamone mentioned or stated, it is very 
correct. No way would we be able to sell to any jurisdiction in 
the United States something that had not been through the 
appropriate accreditation and the recognized accreditation 
process.
    Chairman Boehlert. Which is inadequate right now, as we all 
know. And that is why we have got the problems enumerated in 
Dr. Wagner's testimony. Dr. Wagner, do you agree with what you 
are hearing?
    Dr. Wagner. Well, I think one problem we have is that even 
the new 2005 standards have significant shortcomings. And the 
second problem we have is that there are delays in these 
standards being adopted. The 2005 standards will not become, 
will not take effect until 2007, and so, we can expect to see 
quite a few years delay until this influences the majority of 
voting systems used in the U.S.

                   Paper Trails and Mandatory Audits

    Chairman Boehlert. Those are years wasted. Let me get right 
to the heart of another question, and it is brought up the 
commentary in Dr. Wagner's excellent testimony. And the 
recommendations are to mandate voter-verified paper records, 
and mandatory manual audits. Sounds pretty good to me. Anybody 
care to comment on it? Ms. Kiffmeyer.
    Ms. Kiffmeyer. Yes, Mr. Boehlert, without a doubt, even a 
state such as Minnesota, which has adopted those standards, 
because they were not ready, we have complied with them, but it 
is just simply a matter of time until we actually do that.
    But you are exactly right, that it is a real issue, and it 
is more a function of time then it is lack of willingness of 
either the vendors or the states to comply with them, and I 
think that is an important recognition.
    Chairman Boehlert. Come sit in the Congress of the United 
States and hear some of our colleagues tell us repeatedly we 
don't want government mandates, this is wrong, and we don't 
need paper trails, and you have got some of the vendors that 
are saying the same thing. We don't need paper trails. I kind 
of think it is we need something that is auditable, that we can 
check to make sure that, you know, things worked the way they 
were intended to work.
    So, I grant you, we need a little more time, but this is--
what about paper trail, what about all these paper trail 
recommendations? I mean, so many, you embraced them, obviously.
    Ms. Kiffmeyer. Absolutely, Chairman Boehlert, without a 
doubt. Recognizing the reality of the situation we were in 
today, the option for us was to do the actual, even better than 
the paper audit trails, to do the actual paper ballots, because 
the environment we are in right now today gave us that greatest 
level of security. But even there, Minnesota has chosen to do a 
source code review. We have chosen to do post-election audits 
as well, because we want to wrap the whole system.
    I mean, it is a system. There are many components, not just 
the technology, not just the box, but there are the people, 
those poll workers, a very important part of that aspect as 
well. And the aggressive training that we are doing in that 
area as well. The procedures and the aggressiveness of 
interoffice and working together with the locals, to make sure 
we have that all wrapped with the procedures and all of those 
things. And it is a situation that we have wrapped all of that 
together.
    That is what we have chosen to do in Minnesota, and I wish 
that we were all in that stage right now, but the reality and 
the facts are that the standards, the implementation and those 
things are the reality, and I think that most have tried to 
comply with those realities in the best way they could at this 
time.
    But we are not stopping. This is not the conclusion.
    Chairman Boehlert. Well, count Ms. Kiffmeyer as for a paper 
trail. Dr. Wagner, we know you are for it, because you 
recommended it. Ms. Davidson, yes or no?
    Ms. Davidson. I was Secretary in Colorado when we passed 
paper trails, and we had an audit of that paper trail, with the 
machine. So, I can only speak of myself. I am not speaking as 
an agency, but just so that you know where I really came from.
    You know, one thing I would like to add is when we 
rethink----
    Chairman Boehlert. Not too quick, because my time is up, 
but----
    Ms. Davidson. Okay. You go ahead.
    Chairman Boehlert. I just--so, you are for a paper trail. 
That is three to nothing now. Now, Dr. Jeffrey.
    Dr. Jeffrey. As a representative of the TGDC, we put in the 
guidelines specifically for technical hardware. We don't make 
policy calls, in terms of what should be implemented, but if 
one does implement the paper trails, we put in the guidelines 
to help ensure that they will meet the levels of security and 
accessibility and openness. But we defer to the EAC for the 
policy calls.
    Chairman Boehlert. So, I could have said, that is the 
official answer, but let us get the answer as a citizen. The 
citizen Jeffrey, rather than the head of----
    Chairman Ehlers. The gentleman's time has expired.
    Chairman Boehlert. Oh, boy oh boy. Did he tell you one on 
that one.
    Dr. Jeffrey. Fellow physicists.
    Chairman Ehlers. Yes. Okay. The next is the Ranking Member 
of the Science Committee, and I believe he has left, so next in 
line is Ms. Hooley, the gentlewoman from Oregon.
    Ms. Hooley. Thank you, Mr. Chair. I am one of these people 
that, having talked to a lot of people in my district, they 
really care about the integrity of the election system, and 
want to make sure that there is some way to go back and verify 
and recheck and make sure that their vote counted.

                              Role of EAC

    I have a lot of questions. I am going to direct most of my 
questions to Ms. Davidson. The EAC collects data on how systems 
perform in actual elections. For example, do you collect 
information on failure rates and other problems? If so, how is 
this information used to improve standards? There have been 
several incidents of security, reliability, and usability flaws 
discovered in the independent testing authority approved voting 
equipment, either during elections, or during state 
certification. When flaws are uncovered, what is the process 
for ensuring that the same mistakes are not repeated in the 
future? This is a multipart question I am asking you. Has the 
EAC published any report or analysis on how or why flaws were 
not discovered during inspection and testing?
    The premier professional organization for computing 
professionals, the Association of Computing Machinery, surveyed 
their members about evoting technology; 95 percent of 
respondents voted for a position endorsing voter-verified paper 
records, and expressing concerns about paperless voting 
technologies. If the computer scientists are concerned about 
security and reliability of voting machines, and recommend that 
all voting systems produce a voter-verified paper record that 
can be audited, why hasn't the EAC taken a stronger position?
    Ms. Davidson. Okay, let me see if I can start.
    Ms. Hooley. Remember all of those.
    Ms. Davidson. No, I am sure I won't. And you are certainly 
welcome to help me----
    Ms. Hooley. Right.
    Ms. Davidson.--with the questions. You know, first of all, 
our process of taking over the certification process from NASED 
is beginning Monday morning. This will be the first time that 
the Federal Government has had anything to do with the 
certification process. So that is number one.
    And yes, we do intend to go out and review any type of 
problem that is in the field, whether it is a mechanical 
problem, just an error by a judge or somebody that programmed 
the equipment. To really look into what kind of the issues they 
are, and keep a record of what the issues are out there. We do 
not know, and I am sad to say, we do not have any background at 
all, and we have not given any written documents saying what--
--
    Ms. Hooley. Okay.
    Ms. Davidson.What those scenarios are, because we don't 
have any way of even capturing that right now. But that is part 
of our process that will be in place as we get certifications 
that come from NVLAP to us before we certify the independent 
test authorities.
    But in the process, obviously, we have decertifying for the 
first time. We have never had a decertifying process before, 
and this type of process. So, the decertifying will be very 
important. If there is a system that is not working, and it is 
failing, one, we can notify all of the states that have that 
equipment. We are asking for all of the vendors to tell us 
exactly what they have in every state, so that we have a record 
of each individual type of equipment being used in every 
jurisdiction of the United States.
    So, that will start our information, and knowing what is 
going on. You know, there are a lot of other questions that go 
in there, that you have asked.
    Ms. Hooley. But it is not very long until the election of 
2006. I mean, that is right around the corner in a couple of 
months. So, I am concerned about this next election, and what 
happens, and what happens when you have a machine that goes 
down during the election. I know that the election workers know 
how to help a person redo their ballot, but I will give them 
some assistance, but what happens if you have a breakdown of 
the equipment during an election?
    I mean, how do we know what is going to happen? And then, 
again, the last question was will the EAC take a stronger 
position on some kind of a paper verification system?
    Ms. Davidson. Okay. First of all, the first one that you 
asked is what are we going to do before the 2006 election.
    Ms. Hooley. Right.
    Ms. Davidson. Obviously. Part of the certification requires 
that if equipment goes down, that the information on the 
machine--the votes on them--are able to be taken and retrieved. 
So, that is part of the testing. We need to make sure that 
voters know that if something happens to a piece of equipment, 
that information is still there, and is available to go into 
the count at the end of the night.
    The other thing is the EAC looked at people asking us to 
take a strong position on it. The EAC didn't feel we had the 
authority to take that type of position, because we are only an 
assistance commission in that area, and we really feel that we 
have not ever supported any vendor or any type of equipment. 
There is also testing that is going on currently of what other 
types of independent tests there are available. So, taking a 
position on one particular type, would be inappropriate for us 
to do at this time.
    Ms. Hooley. Well, I don't think you are talking about one 
piece of equipment or one vendor, when you say you would 
support paper verification.
    Ms. Davidson. Well, that is true, but knowing----
    Ms. Hooley. I mean, that is a general principle, as opposed 
to a specific kind of technology.
    Ms. Davidson. You know, I think that what we definitely 
support is verification. What form of verification is being 
studied now and the decision must be left up to the states.
    Ms. Hooley. So, a paper trail or verification is possible 
with the kind of voting machines that are out there.
    Ms. Davidson. That is true.
    Ms. Hooley. And the state could do that.
    Ms. Davidson. That is exactly right, and over 20, I think 
it is about 26 states have some sort of verification, paper 
verification, the VVPAT verification in their law right now, or 
in their rules and regulations. And besides that, they also 
have an audit mechanism in one way or another.
    Ms. Hooley. Okay, thank you.
    Chairman Ehlers. Next, I am pleased to recognize the father 
of HAVA, Congressman Ney from Ohio, who guided the bill through 
all the shoals and difficulties and the sharks, I might add, of 
the Congress, and managed to get the bill passed. I am pleased 
to recognize him for five minutes.
    Mr. Ney. The child has been well behaved, but it has gotten 
a little older, so we have to judge whether it is unruly or not 
at this time, so--I want to, just to ask for some quick 
answers, because I have got a few things to go through, if we 
can.

                           Dr. Wagner's Study

    Dr. Wagner, I was interested, when you said about that you 
had looked at what the testing board did, and you found some 
things they didn't uncover. Do you have something available on 
that you can give us as a committee?
    Dr. Wagner. Certainly. I would be pleased to provide you 
with a copy of the report that we wrote. The report is publicly 
available.
    Mr. Ney. Thank you. Have you went back to the testing board 
to say look, how did you miss this, or----
    Dr. Wagner. The tests, I have not gone back to the testing 
labs. The testing labs have a relationship with the vendor, not 
with outsiders.
    Mr. Ney. Or the EAC. Does the testing lab have any 
relationship with the EAC?
    Ms. Davidson. The test lab will have a relationship with 
the EAC, and we are setting up the procedures right now of what 
the test labs will make public information, and----
    Mr. Ney. So, you will be able to go back and say, look, Dr. 
Wagner did this study. Here is what he says, and what do you 
say about that? And that will--that would be, I think, would be 
a good counterbalance and check on the system. You will be able 
to do that?
    Ms. Davidson. We will be able to do that in the future.

                       EAC's Guidelines to States

    Mr. Ney. Okay. The question I had, Commissioner Davidson, 
and thank you for the job you do on the EAC, the guidelines 
were delayed for 24 months, and as Ms. Lamone said, some won't 
be, the voting systems won't be tested, I guess the 2005 
guidelines won't be done until 2010.
    So, what would the EAC be doing in the interim to help make 
decisions with states to assist them on what they are going to 
do about their voting systems? Are there any plans for that?
    Ms. Davidson. The first thing we did was a gap analysis in 
July of 2005, to make sure that the states met the HAVA 
requirements. Then, at that time, we adopted the VVSG in 
December of 2005. We looked at the timeframe, and decided to 
follow what the FEC had done with the 2002 Guidelines, and 
create the two-year gap, which allows the vendors time to 
produce what is required in the standards, and it allows the 
states to change their laws and procedures, because a lot of 
our states only have legislation every two years. So, that was 
the process we took.
    Mr. Ney. I had a question, actually, anybody else that 
would want to, but Ms. Kiffmeyer, Ms. Lamone, Mr. Groh, and Dr. 
Wagner. Do you think the 2005 Voting System Guidelines are an 
improvement over the previous voting standards, and do you have 
ideas, maybe not for today, my time won't allow it, but ideas 
how they could be improved? But basically, do you think they 
are an improvement over previous voting standards or not? Dr. 
Jeffrey, I didn't mean to exclude you too, if you want to.
    Dr. Wagner. I will start. I think they are definitely an 
improvement. They are a good start. There is a long way to go. 
They were drafted over a period of only three months, and that 
is not really sufficient time to address some of the 
substantive issues.
    Ms. Kiffmeyer. I think in general that is what we would all 
say. It was a good start. It is not where we want to end up, 
not where you want us to end up, not where the voters want us 
to end up, but you have got to start from somewhere, and in the 
time constraints, it was a step forward.
    Dr. Jeffrey. I certainly agree. We actually are working on 
updates to that. We think that the '05 are improvements over 
the '02, but there are clearly issues that we have already 
identified, that the TGDC is working, include things like 
security, audit control, new security testing, much of what Dr. 
Wagner has talked about in his testimony, are issues that we 
are actively addressing.

                              Paper Trails

    Mr. Ney. Let me just close by saying, you know, when 
Congressman Hoyer and I began this journey on this bill, and it 
went to the Senate with Senator Dodd and McConnell and Bond, 
and over here with Congressman Hoyer and Blunt and others, you 
know, everybody was alarmed about the cheating, the potential 
discrepancies, the hanging, the dimpled, and the pregnant chads 
and all that we knew about. The bill far went beyond that.
    Frankly, there wasn't a lot of discussion about a paper 
trail during those deliberations, and my state does a paper 
trail. We never said you couldn't. My state does a paper trail, 
and I know this about voting systems, and as, you know, this 
hearing. But we tried to make the bill premise easier to vote 
and harder to cheat.
    Again, my state does a paper trail. I think it is something 
that can be looked at. Frankly, when it was introduced, I have 
had discussion with Mr. Holt when it was introduced, to have 
moved at that point in time, I think, would have caused total 
chaos in the system. If you can go to China and put a card in 
an ATM and your money is secured, and nobody can hack into that 
system, we ought to be able to have tests and security, which I 
think EAC ought to look at in the future, and the final issue 
of whether we can have a paper trail or not.
    Just let me say in conclusion, I want to thank Linda Lamone 
for her work on this, from its inception, and the job that you 
did for us to be able to get the bill. Also, there is still 
$900 million owed to the locals by this Federal Government. We 
give $5 billion overseas to grow democracies, that is great. 
Congressman Hoyer and I, and I would hope I would get everybody 
on both sides of the aisle to try to get that other $900 
million to the states for the systems.
    Thank you, Mr. Chairman.
    Chairman Ehlers. The gentleman's time has expired. Next, I 
am pleased to recognize a minority Member of the House 
Administration Committee, and that is the gentlewoman from 
California, Ms. Lofgren.
    Ms. Lofgren. Thank you, Mr. Chairman.
    And I think this is an important hearing, and certainly, 
there is nothing really more important that goes just to the 
essence of our democracy than making sure that every vote that 
is cast is counted accurately. And the concern that exists, 
that that is not happening, is just devastating for a vigorous 
democracy. So, I think one of the most important things that we 
can do here, in Congress and with our partners in state and 
local government, is to make sure that every American knows 
that this is all on the up and up, and then, as I think the 
chairman or someone said, you know, you can win or lose an 
election, and if you know it was fair, you can deal with that, 
but if you think there was something unsavory or corrupt, it is 
a disaster for our country.
    So, having said that, I know that we are going to have a 
hearing on the paper trail issue. I am so glad that we are. It 
has been a long time coming, and I think it is very important 
that we do that. I won't dwell on that, as a consequence today, 
but I am interested, Dr. Wagner, in your comments. You 
mentioned, and because I am from California, I am aware that 
the testing that we have done there is more vigorous than has 
been required, and that we found, with that higher level of 
testing, there is a very high failure rate, 20 percent or so. I 
mean, you know, or a quarter that fails.
    The thing--that is not good, it is not acceptable, but one 
thing about it is that if it fails, it fails in a kind of 
unbiased way. That is different than the concern about someone 
hacking a system, or intentionally skewing the outcome of an 
election through hacking or a virus or a Trojan, for example, 
if you were able to manipulate the outcome of a vote in that 
way.
    Do you have concerns about that latter issue, or is it just 
about the reliability of systems overall?
    Dr. Wagner. Well, I have concerns both about the 
reliability, as well as the potential for deliberate fraud. You 
are right. I have high praise for the State of California. I 
think if every other state followed California's lead, we would 
be in a lot better position.
    There is some potential here, even with unintentional 
failures, that this could cause biases. For instance, there 
have been cases where more affluent areas have had higher 
technology voting systems, and so, if there is some correlation 
between----
    Ms. Lofgren. Right. Right.
    Dr. Wagner.--then that could potentially influence the 
results. But I am also concerned about the integrity of the 
elections and protection against deliberate fraud, and I think 
there are some serious issues there as well. And we have a long 
way to go to bring the testing up to snuff.
    Ms. Lofgren. Have you taken a look at--there are some who 
have talked to me, from--I come from Silicon Valley, and this 
is a high interest item in the Valley, people in the technology 
industry and computer scientists, who suggested to me that even 
the California systems are susceptible to viruses or to hacking 
today. Do you believe that is correct, and if it is, what, if 
you were sitting in my seat, what would you do about it?
    Dr. Wagner. Well, we should recognize that none of the 
voting systems are perfect, and they never will be. And it is 
true that some of the California systems have some, are not 
perfect either, but the State of California has gone a long way 
in instituting rigorous use procedures, procedural mitigations 
to make up for problems in the technology, and I have 
confidence in the California equipment, as a result of that. We 
have to recognize that places a heavy burden on our poll 
workers and our election administrators. This is very complex 
and not easy.

             Voluntary or Mandated Independent Testing Labs

    Ms. Lofgren. Would you recommend that the--right now, we 
have these independent testing labs that really don't report 
out publicly, and are not transparent, in my judgment, in the 
way that the California system is. Would you suggest that a 
system similar to California for testing be either suggested or 
mandated, for the states and localities, and that the results 
of testing of systems be made public?
    Dr. Wagner. I think California has got a pretty good story 
on reliability, and if we adopted California's reliability 
tests at the federal level, that would go a long way on 
reliability. On security, the issue is very much still up in 
the air. There is a lot of challenges there, to make sure that 
we can have confidence in the software. So, I think that is one 
we still have to work out.
    Ms. Lofgren. Let me ask Mr. Skall, you are the technical 
expert, I understand, from NIST. Do you agree with Dr. Wagner, 
or do you have differences that you would like to bring to our 
attention?
    Mr. Skall. No, I think he is absolutely correct. Computer 
systems in general, you can never have 100 percent assurance 
they will work correctly. What you do through testing is 
increase your level of assurance, and we are working through 
tests, and coming up with more specific requirements, to 
increase our level that they work correctly.
    And as far as public availability of test reports, I think 
most people would agree that would certainly improve the 
process. That is something we have discussed within the TGDC, 
and something we have discussed with the EAC, and it looks like 
that is one of the things that will be recommended in the near 
future.
    Ms. Lofgren. Thank you. I see my time has expired, Mr. 
Chairman.
    Chairman Ehlers. The gentlewoman's time, indeed, has 
expired. Let me just take just a moment to enter into the 
record two items that appeared recently in the press, not that 
these are the most excellent articles, but they certainly 
illustrate the concerns.
    And it is a June 7 article from Roll Call by Mr. Ornstein, 
and a May 30 article in the Washington Post by Mr. Goldfarb. 
Without objection, those will be placed in the record.
    [The information follows:]
    
<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Ehlers. Next, I am pleased to recognize the 
gentleman from Minnesota, Mr. Gutknecht, for five minutes.
    Mr. Gutknecht. Thank you, Mr. Chairman, and I am going to 
thank you and Dr. Wagner for your comment you made just a 
minute ago, and that is that there is no perfect system. I 
think we have to be careful we don't try to artificially set a 
standard that is virtually impossible to meet.

                     Verification of Voter Identity

    I also want to call everybody's attention, in just a few 
minutes, the buzzers are going to go off, and we are going to 
go over and vote, and in terms of paper trail, and I want 
everybody here to know that I support the concept of paper 
trails, but do understand, we are going to vote, and we are 
going to vote with these little cards, okay, and this little 
voting card has an embedded computer chip, so that when I put 
it in the slot, it will know that it is me, or it will know 
that I or somebody using this card is putting that into the 
machine that represents me. But it has my picture on it, it has 
a hologram, and as I say, it has got an embedded computer chip. 
I want to call your attention to that, because one of my 
concerns is not so much that our voting machines don't work 
correctly. I think there is also the element that is of growing 
concern to some of us, that not only that every vote counts, 
but only those people who are eligible to vote actually go to 
the polls, and this is sort of something, I guess, we don't 
really want to talk about, but making sure that the people who 
are voting are who they say there are.
    And Ms. Kiffmeyer, you know, in Minnesota, we still have a 
little bit of, we have a little more of a problem, or potential 
problem; I don't want to say it is a problem, but I have some 
concern about this, because we have same-day voter 
registration. We also have the system where people can 
literally come in and vouch for people at the polls, and so 
far, there is not a whole lot of evidence that that has been 
abused, but it is kind of difficult to, you know, say that it 
couldn't be abused, and what I am concerned about is some kind 
of verifiable ID system, where you have a photograph and/or 
something else.
    Ms. Kiffmeyer, I wonder if you could talk a little bit 
about that concern, and I will just leave it open-ended. What 
are some of your thoughts about that?
    Ms. Kiffmeyer. Chairman Ehlers, Chairman Boehlert, and 
Representative Gutknecht. Certainly, that is the case, as you 
have stated, in Minnesota. I think integrity, in all aspects of 
the election system, those entitled to vote get a vote, those 
who aren't, the system owes it to have integrity in that part. 
And just as we do in election equipment, we want a provable 
issue, provable to the standard of a recount in a close 
election.
    It is a transactional load unlike any other, where you 
separate the voter from the vote, so you need to be sure that 
both sides of the transaction are very important, both who is 
voting, in regards to the integrity of that aspect of the 
system, and also, the counting of the ballots, when that is 
completed, and to the standard of a recount. And I think those 
are very important components. I think issues such as the ID, 
issues such as the voter-verified paper trail, or an actual 
ballot, those are components of integrity in all aspects of the 
election. Those who are guiding the polling place are poll 
workers, their training, those issues, all of those are 
certainly very important, and the one you bring up, as well, is 
something that I think in Minnesota is an area that we need to 
make some improvements on, to come up to the standards, as 
other states as well.
    Mr. Gutknecht. Let me just add one other, go to a different 
subject, because if I recall correctly, and I hate to sound 
like a bean counter who has served on the Budget Committee for 
eight years, but I believe this bill actually authorized $2.3 
billion. I have not been here so long that I still think that 
that is a lot of money.

                    State Role in Federal Elections

    I guess the question I would have for some of the folks who 
may represent the states--I mean, the integrity of our 
elections is certainly a federal issue--is an important issue 
at the federal level, but it is no less important to the states 
and local units of government, and I am wondering: what do you 
see as their role in terms of picking up their end of whatever 
costs there are of buying, acquiring new technology for our 
elections?
    Ms. Lamone. The costs of complying with HAVA is far more 
than what Congress has appropriated, and in Maryland, what we 
have done with the voting system, and anything connected to the 
voting system, the county must pay half of it by law, and 
believe me, they have been screaming bloody murder as a result 
of that, because, as I said, the costs associated not only with 
the voting units, but all the security procedures, and the 
multi-layered testing that we do, before, during, and after the 
election, costs money, and it is very expensive to try and do 
the California model, because I think California copied me.
    Mr. Gutknecht. Excellent staff work. Before I go to Ms. 
Kiffmeyer, the staff tells me that we actually have 
appropriated $3.0 billion, so anyway. Ms. Kiffmeyer.
    Ms. Kiffmeyer. Chairman Ehlers, Chairman Boehlert, and 
Congressman Gutknecht. In regard to that question, you are 
right, $3 billion. But I remember when we were having the 
discussion with HAVA, and that the Federal Government money was 
really there to close the gap, because there was a tremendous 
need, and to help get at that, but it was also a very important 
issue, that we leave it to the states to continue, as they 
always have been, it has been a state responsibility to take 
care of elections, and it has usually been a local 
responsibility, as it is in Minnesota, to pay for that 
equipment, and it is a cooperative relationship.
    But it is a state responsibility, and it always has been, 
and my concern is that while we appreciate the federal money at 
this point, and the $3 billion in Minnesota, we were able to 
use that money, in addition to the five percent match, to 
totally cover the costs of that election equipment, and some 
money for licensing, maintenance, training, and some operating 
money as well, especially in the first three years, and then 
after that.
    But we were able to structure it, and also, the additional 
money that we used on the state level through my office, in 
designing systems that will support and reduce the overall cost 
of elections. So, we worked very hard to stay within that 
fiscal restraint, and we in the State of Minnesota really want 
to carry forward that. So, I would appreciate the additional 
$900 million, as was originally discussed, to help conclude 
that on that part of it, but nonetheless, I appreciate your 
concern, and that $3 billion, but I also respect states' 
rights.
    Mr. Gutknecht. Thank you.
    Chairman Ehlers. The gentleman's time has expired. Next, we 
are pleased to recognize the gentleman from Washington, Mr. 
Baird, for five minutes.
    Let me just interject. It appears that votes are going to 
appear fairly soon, so we are going to--I hope we can wrap this 
up before the votes, because it is going to take us at least 45 
minutes to vote.
    So, Mr. Baird, you are recognized for five minutes.
    Mr. Baird. I thank the Chair.
    I want to begin by commending my good friend and colleague, 
Rush Holt, for his legislation, and I want to thank the many 
folks who have come here today to express support.

                Legislation That Addresses Voting Issues

    It has been six years since the most contested election in 
many decades in this country, and my recollection is that the 
most objective and comprehensive analysis after that election 
revealed that had all the votes been accurately cast and 
counted, a different outcome would have resulted.
    Six years later, we still have not enacted legislation to 
prevent that from happening again, and a commonsense bill that 
would require a paper trail has not been brought to a vote. And 
I would just have to ask--I do not, for the life of me, 
understand why, if we truly care about counting people's votes, 
the majority party has not brought this up so that 
representatives of the people can exercise the people's will 
and insist on a paper trail, so that we know our votes are 
counted fairly.
    Having said that, I have a concern about the time it takes 
to put one of these institutions, or these implementations in 
place. My concern is this. This Congress passed a law that 
requires that following the catastrophic event with large 
losses of numbers of Members of the Congress, we would be 
required within 49 days to elect new Members to this body. In 
other words, select candidates, have a primary, have a general 
election in 49 days.

     Voting Systems in Context of Katrina and Emergency Situations

    From your knowledge of what it takes to train poll workers, 
implement these systems, verify the systems, distribute the 
equipment, et cetera, could you tell me if you think that is 
reasonable, and I would just contextualize that by pointing out 
that post-Katrina events in Louisiana took them more than six 
months to have an election, and even then, it was subject to 
great controversy. So, I would appreciate any insights into 
that.
    Ms. Davidson. I will ask my colleagues to join in. 
Obviously, what took place in Orlando, I mean, excuse me, in 
Louisiana was unprecedented. They even had to start building 
files of their voters. Things like voter registration forms had 
been destroyed amongst everything else. So, it did take a long 
time, and they did a tremendous job in carrying that process 
through, and having that election.
    I think that one of the things that we really need to think 
about in the process is, it just went right out of my head. So, 
I will let somebody else go ahead, and then, I will jump----
    Ms. Kiffmeyer. Chairman Ehlers, Chairman Boehlert, and 
Congressman, as well. Your point is very valid. What can we do 
in 49 days? In Minnesota, we had the tragic death of Senator 
Wellstone eleven days before election day, but it was already 
scheduled. But nonetheless, we had to get a new candidate, we 
had to get names on the ballot, get it done, and we did a hand 
count of that U.S. Senate race alone, statewide, that night, 
and had the results by 2:00 a.m. in the morning.
    So, I think we as a state feel very confident, but I think 
one of the best things in regards to HAVA is the requirement of 
every state to have a central voter registration system. The 
ability, through technology in this particular area, is very, 
very helpful in regards to conducting an emergency election, 
but it also requires a system around that, such as our state 
has, which is a five deep backup, so that we are able to pull 
the plug, as we practice routinely, and keep that voter 
registration system available to us anywhere within the Nation 
at any time, should that happen.
    I think that, again, it is an issue of time, those central 
voter registration systems. I mean, you can do a paper ballot. 
There are things that you hand count, and you would still have 
equal treatment of voters, but having that voter list and all 
those components will be a challenge, and certainly, I think 
that our state is ready to do it. I think you might 
underestimate the ability and the resilience of our country in 
that kind of catastrophic situation, which could have many 
things, would I even be here to do that? So we will do that.
    Mr. Baird. You mean to tell me that you are confident that 
if a nuclear weapon were detonated in some of our major cities, 
we could--or several nuclear weapons, we could confidently have 
a valid election, reflecting the will of the people, within 49 
days of that event?
    Ms. Kiffmeyer. I think in any circumstance like that, sir, 
it would be extremely difficult, without a doubt. Absolutely 
without a doubt. But you have a country that needs to move 
forward, and we have to do the best we can under those 
extremely challenging circumstances.

                     Military Personnel and Voting

    Ms. Davidson. And I will add, the one thing that I think is 
one of the biggest problems that we have is our overseas and 
military that is abroad.
    Mr. Baird. I was just going to ask that next question.
    Ms. Davidson. So, that is one of our biggest areas, and we 
are doing a study on overseas and military, what states are 
doing currently, and making sure that they have their right to 
vote. There is electronic transmittal of those ballots over, 
and some states require that they mail them back, to make sure 
that we cut down on that timeframe. Because obviously, time 
getting ballots over there and back, is running around 40 days, 
that is what we are told.

                       Standards for Failure Rate

    Mr. Baird. Mr. Chairman, I appreciate the comments. One 
final question left for me by Mr. Holt that I just want to get 
on the record, and I don't think there will be time to answer 
it, is this. He points out that apparently, under the Voluntary 
Voting System Guidelines, there is an acceptance of a 9.2 
percent failure rate of all voting machines used in any 15 hour 
period. I am curious if that is actually the standard that we 
have set, a 9.2 percent failure rate, and if that is an 
acceptable standard, I am very puzzled by that. That is, by the 
way, far less than an incandescent light bulb.
    Mr. Skall. Yes, that comes from the existing standards, and 
we are researching right now to actually update that, to make a 
much more acceptable failure rate.
    Mr. Baird. Given that many of us have lived or died on less 
than a percentage point margin in elections, including yours 
truly, I would kind of like to see a little higher level of 
reliability.
    Mr. Skall. Yes, we agree.
    Chairman Ehlers. The gentleman's time has expired, and I 
certainly share his feeling that we should. I would just like 
to point out the issue of the paper trail has come up 
repeatedly. For those who came here later, we do plan a hearing 
on that some time in September, but I also wish to point out 
that a paper trail can also be altered, either mistakenly or 
intentionally, and I would also remind everyone that--and I am 
not against a paper trail, I don't want you to misinterpret 
this, but I would point out that the big problems we had in 
Florida with the Presidential election also involved paper 
ballots, and that did not resolve the problem.
    Mr. Baird. Mr. Chair--if I may.
    Chairman Ehlers. No, I want to move on. I don't want to get 
into a debate. I just wanted to point out we are having a 
hearing on this later. I also want to point out to Mr. 
Gutknecht, before he leaves, he brought up a very important 
point about ensuring that the correct people are voting. We 
have had one hearing on Mr. Hyde's bill requiring proof of 
citizenship to register to vote, and a photo ID to vote. We 
will be conducting hearings throughout the United States in the 
next month, and so, we expect to get good testimony on that.
    With that, we have Mr. Diaz-Balart.
    Mr. Diaz-Balart. Thank you very much, Mr. Chairman.
    First, I want to clarify something. Then, I have two 
questions. Just to clarify something, because a lot of times, 
things get thrown out there, and they become facts, and they 
are not. After the election in Florida, a number of media 
outlets, including the Herald and USA Today and a bunch of 
others did their own recount, and they all agreed that the 
result was the same. I just want to make sure that the facts 
are out, and I would be more than willing to share with anybody 
who would like to see that.

       Vulnerabilities of Paper Trails and Foreign Investment in 
                            Voting Equipment

    But I have two questions. And I want to thank the chairman 
and this committee for this hearing, and also, for the hearing 
that we are going to have on paper trails. You are absolutely 
right, Mr. Chairman, that we have had some issues in the past 
with paper trails. There is no panacea. However, though it 
doesn't mean that paper trails will make things perfect, 
obviously, and we have heard some of the possible problems 
without having the paper trail. Does anybody have any reason to 
not have paper trails? Can paper trails be worse, if we have 
them? And I know there is an issue of cost. That is one 
question.
    And secondly, does anybody have any heartburn, or some 
concerns about the possibility of some of either hardware or 
software companies being owned by foreign investors, including 
some who may not have a tradition of favoring the democratic 
process? And we have read a number of articles about that.
    And those are my two questions, and I would like to kind of 
do them quickly, so we can hopefully get some good answers. 
Thank you, Mr. Chairman.
    Ms. Davidson. Well, on the foreign investors, because of 
the rigorous process that we are putting into place, each 
vendor or manufacturer will have to register the people that 
are involved with their organization, all of the top people. 
Those will be checked to see if there is anybody that has not 
been, you know, that is put on record that they cannot do 
business in the United States. So that is public information. 
So, we want to make this a more open process than what it has 
been in the past, because we do feel that the citizens need to 
be aware of all the issues.
    Mr. Diaz-Balart. Do you--anybody want to add anything to 
that?
    Mr. Groh. Well, and let me take a crack at some of this. As 
the vendor, it is difficult for me a lot of times to speak up, 
because I think the most important people at this table in a 
hierarchy are the Election Assistance Commission, and 
Commissioner Donetta Davidson has a stellar background, having 
been a local county election official, Secretary of State, now 
sitting on that commission brings a depth and wealth of 
knowledge. And if you go down from the Honorable Mary 
Kiffmeyer, and Linda Lamone, who has a reputation that excels 
and exceeds all of her colleagues, they can speak much better 
to this.
    As a vendor community, it is our responsibility and role to 
meet the standards that we have in front of us. We do not feel, 
as a vendor community, we should stand up and say we are for or 
against something. Our challenge and job is to enhance the 
voting process for all voters, maintain voter confidence, by 
meeting the standards that are out there, that the ITAs test 
to.
    As far as the ownership component of it, I think if you 
have good standards, and you have a good testing process, and 
the decisions are made through an RFP process at the state and 
county level, it should be for them to determine that. As a 
company, I am based in Omaha, Nebraska. I am a U.S. based 
company, but I also want to do business globally in other parts 
of the world. And my fear is that if I become, you know, 
constrained to others coming in, and doing business here, and 
don't allow it, the same is going to happen to me. So, there is 
a balance that has to be struck, and I think that is through 
the testing, the certification, the request for proposal, and 
that evaluation process, and then, people like Mary Kiffmeyer, 
who will go through a process that is very rigorous, in 
determining who they are going to buy from.
    Ms. Lamone. I had asked you your--I guess your first 
question.
    Chairman Ehlers. Is your microphone on?
    Ms. Lamone. I think so, yes. We commissioned a study, the 
State of Maryland did, with the University of Maryland of 
Baltimore County, to look at the various verification 
technologies available, or in prototype. And including the 
paper trail, and the conclusion of the multiple disciplinarian 
team was that none of them were ready for primetime, including 
the paper trail, and I will be happy to leave a copy of the 
study with the committee. It is on our web site. It is on the 
University's website, but I think they did a very thorough job, 
and provided some very valuable information, and we had it done 
for the policy-makers of the State of Maryland.
    Ms. Kiffmeyer. And I would also like to make a statement at 
this time that it is really about the voters and their 
confidence in the systems, because we as a system act on their 
behalf, and I think it is very important in making decisions 
that it is the citizens and the voters, and their sense, not 
only on election day, but after election day, in a close 
recount, that they have confidence.
    Mr. Diaz-Balart. Chairman, I believe I am out of time. I do 
want to clarify that, to make sure that it was the Opinion 
Research Center, University of Chicago, conducted a survey in 
Florida for eight news companies. They examined 99 percent of 
all the ballots in the 67 counties, and that included the 
Herald, CNN, and others. I just want to make sure that when 
things are said, that we stick to the facts. I had a colleague 
who used to say don't allow the facts to confuse the issue. I 
want to thank this chairman for never letting that happen. 
Thank you, sir.
    Chairman Ehlers. Well, I appreciate you getting that into 
the record. I am aware of that. I found it fascinating they 
spent $150,000 for it, hoping to get a story out of it. The 
result was headlines on page Z27. But nevertheless, it verified 
it.
    The bells have rung for votes. At least, I assume that is a 
vote. Yeah, okay. So, this is an opportune time. The other 
remaining Members have indicated that they would forego their 
opportunity to question, rather than coming back again at 5:00, 
when it will take us at least 45 minutes for the series of 
votes.
    Ms. Millender-McDonald. Mr. Chairman. May I just ask--okay.
    Chairman Ehlers. Just one moment. I just wanted to make one 
wrap-up comment. We have talked a great deal about standards 
and security, but I want to make certain that we also recognize 
that the key item is accuracy. We want to count the votes 
accurately, and secondly, we don't want any fraud whatsoever, 
and so, I will be pursuing those issues in the months ahead.
    Mr. Ney. Mr. Chairman.
    Chairman Ehlers. I--yes, we have a few people who want to 
make comments. We will first go to the Ranking Member.
    Ms. Millender-McDonald. Only, Mr. Chairman, that there is a 
Member on our committee who wishes to raise at least----
    Chairman Ehlers. All right.
    Ms. Millender-McDonald.--a question, and then, perhaps, at 
least for the record. Mr. Brady.
    Chairman Ehlers. All right. All right. I will recognize him 
in just a moment. Mr. Ney asked----
    Mr. Ney. I just want to, without objection, I would like to 
enter a statement into the record reaffirming Ms. Lamone's 
statement about including all the considerations of persons who 
have a form of a disability, if we go down the path of a paper 
trail.
    Chairman Ehlers. Without objection, so ordered.
    [The information follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    And I am now pleased to recognize our final questioner, Mr. 
Brady, the gentleman from Pennsylvania.
    Mr. Green. There will be one additional person, if we have 
time.

                      Poll Workers and Human Error

    Mr. Brady. Thank you, Mr. Chairman. I will be short and 
brief, so maybe my colleague can also get a question in.
    I would just like to commend and thank Ms. Lamone for 
recognizing our poll workers and our committee people. In the 
city of Philadelphia, we have 1,700 poll workers, 1,700 polling 
districts, 17,000 poll workers that do an excellent job. And I 
often wondered, a lot of times, when they get criticized, what 
would happen if we called the election off? What would happen 
if the poll workers didn't get to the machines, didn't get to 
the polling place, didn't get to the chairs? You can't do 
nothing to them, three quarters of them are volunteers. The 
other quarter gets paid less than $100 for 15, 16 hours a day 
work. Our training there is excellent. They get two or three 
sessions prior to every election, and they do an excellent job.
    So, my issue is this problem is not human. It is not a 
human problem. It is not a problem with people working when 
they--or not working. It is a mechanical or an electronic 
problem that we need to fix. Ironically, in Arizona, I heard 
today that, on the radio that they are having a lottery for 
anybody, they are going to put on a referendum on the ballot, 
that if you do vote, you have a chance to win a million 
dollars. There is a lottery pick that you get one chance, if 
you vote once. If you vote twice, you get two chances. So--once 
in the primary, and once in the general, all I am saying. A lot 
of you people from Philadelphia, you are talking about voting 
twice.

                      Voter Confidence and Turnout

    But my point is, we are trying to increase voter turnout, 
and yet, we wind up losing the confidence of the people that do 
come out, and do come out and vote. We just need to fix this 
problem. I commend and thank the chairman for having these 
hearings. Thank you for your input, the information, we are 
going to need a lot more of it. We do need to have a failsafe, 
when somebody comes out to vote, that who they vote for, they 
voted for, and not somebody else, that their vote does count, 
and we need to instill the confidence back in the American 
people, and I look forward to being a part of the next set of 
hearings where we do talk about a paper trail, or whatever we 
come up with that can fix this problem.
    So, thank you, and thank you for your participation.
    Chairman Ehlers. And thank you for your comments, and the 
gentleman from Texas, Mr. Green, wishes to ask a question.
    Mr. Green. Yes, thank you, Mr. Chairman, and I am honored 
to be with you, Mr. Chairman, and thank you for holding this 
hearing, and the Ranking Member as well.
    Friends, it is my opinion that we live in a world where it 
is not enough for things to be right, they must also look 
right. And to most Americans, it doesn't look right to cast an 
electronic ballot, and not have some verification that is 
audible and tangible. They want to see that their vote was cast 
properly, and they want a verification process that allows that 
proper audit to take place.
    Most Americans believe that if you can go to a service 
station, and you can purchase gasoline, and get a receipt on 
demand at the point of contact, they believe that you should be 
able to get some sort of tangible evidence of your vote, so 
that you can place that in some container someplace, in the 
event there is some malfunction in the electronic process.
    This really is not asking too much. It is not a question of 
will or way, it is a question of will. Do we have the will to 
abide by the will of the American people? My position is 
eventually, we will abide by the will of the people. We cannot 
continue to have elections questioned in this country. This is 
the greatest country in the world, not because we have tall 
buildings, but because we have a process by which we can verify 
the elections that we all honor, and if we lose that faith in 
our system, we can lose our government.
    So, let us stand up for the government. That is what I am 
going to do, and I am going to vote for some verifiable system 
that probably will include paper, since I haven't heard 
anything that--talk of anything that can substitute for paper. 
In this country, we honor paper. Our IDs are on paper. When we 
go over and vote today, there will be a paper verification of 
our votes today. Let us continue to honor paper, and make real 
the great American ideal of every vote counting and counting 
every vote.
    Thank you, Mr. Chairman.
    Chairman Ehlers. I thank the gentleman for his comments. 
The gentleman from Colorado, did you have anything you wanted 
to say? Apparently not. I--before we bring the hearing to a 
close----
    Ms. Millender-McDonald. There is one other thing.
    Chairman Ehlers. Oh, I am sorry. Mr. Udall, yes.
    Mr. Udall. Chairman Ehlers, I appreciate the opportunity 
just to say a couple of words. I wanted to first acknowledge 
our former Secretary of State, Donetta Davidson, who is here, 
and I am going off script a little bit, but I would tell you, 
as an elected official, she had to identify with one of the 
major political parties in the State of Colorado, but she was 
widely respected by both political parties for her sense of 
fairness and her principles, and her ability to get the job 
done, and I know she has that reputation nationally.
    And if I could, I would like to submit for the record a 
longer introduction that I intended to make of her as the panel 
began.
    Chairman Ehlers. Without objection, so ordered.
    [The prepared statement of Mr. Udall follows:]
            Prepared Statement of Representative Mark Udall
    I would like to welcome all of our witnesses and thank the Chairman 
for the opportunity to introduce one of our witnesses today, 
Commissioner Donnetta Davidson.
    I am pleased that she is joining us for this hearing as she has 
extensive experience in elections on the local, State, and national 
level.
    Commissioner Davidson started her career with elections as the 
Clerk and Recorder of Bent County in Colorado and later became Director 
of Elections for the Colorado Department of State.
    Through this position she handled several issues with local 
elections such as special district and school district elections.
    In 1999, while serving as the Clerk and Recorder of Arapahoe County 
in Colorado, she was appointed by Colorado Governor, Bill Owens as the 
Colorado Secretary of State.
    She was later elected to this position and served four terms.
    Commissioner Davidson has served as President to both the National 
Association of Secretaries of State and the National Association of 
State Elections Directors.
    On a federal level, she served on the Federal Election Commission 
Advisory Panel. And in 2005 she was unanimously confirmed to her 
current position as commissioner to the U.S. Election Assistance 
Commission.
    Commissioner Davidson clearly has a wealth of experience with 
election systems and I am eager to hear your thoughts on this country's 
efforts to establish standards in our voting machine system.
    Commissioner--welcome, and thank you for joining us today.

    Mr. Udall. And I also had a series of questions that I 
wanted to direct to the panel that they could answer within the 
time limit that we have defined for them, and I would ask 
unanimous consent to submit those questions.
    Chairman Ehlers. So ordered. And any Member can do that. I 
will get to that in just a moment.
    Mr. Udall. Thank you, and I will yield back all the time I 
have remaining.
    Chairman Ehlers. The gentleman yields back his time. Before 
we bring the hearing to a close, I want to thank the witnesses. 
You have been a superb panel, and I wish we had more time, and 
I certainly wouldn't mind sitting around a table with you, and 
just getting into more depth on these issues, and I believe our 
Ranking Member, Ms. Millender-McDonald, would feel the same 
way.
    This has been a highly educational hearing for everyone 
here, and I really appreciate your objectivity and your 
helpfulness in your responses. Many of these issues will be 
continued through other hearings. I hope that ultimately, we 
develop as nearly perfect a system as one can develop.
    If there is no objection, the record will remain open for 
additional statements from the Members, and for questions to be 
submitted by the Members to the panel, and for answers from 
these followup questions from any members of the panel. So, you 
may hear from us with some questions. We would appreciate your 
responses. All of that will be entered into the record.
    Without objection, so ordered.
    Finally, thank you once again for being such great 
witnesses. Thank you for your helping us.
    The meeting is adjourned.
    [Whereupon, at 4:08 p.m., the Committee was adjourned.]
                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Donetta L. Davidson, Commissioner, Election Assistance 
        Commission

INTRODUCTION

    Following the hearing and the testimony provided by the witnesses, 
the U.S. Election Assistance Commission (EAC) feels that it is 
important to provide some basic information about the history of voting 
systems, voting system certification and the role of EAC to clarify 
some misunderstandings or misconceptions that were put forth at the 
hearing.
    Voting system standards and voting system testing are not new 
concepts. In 1990, the Federal Election Commission (FEC) published the 
first set of voting system standards (1990 VSS), following a 
Congressional mandate and feasibility study. These standards were 
voluntary. States were not required to use systems that met the 1990 
VSS. States could adopt the standards by statute or regulation and 
thereby make them mandatory for voting systems used in the state.
    The FEC was not authorized or funded to develop a companion program 
for testing voting systems to those standards. That testing process was 
developed and implemented in 1994 by the National Association of State 
Election Directors (NASED), a trade association of state election 
directors. This group of volunteers established a testing program, 
including accrediting laboratories to test voting systems to the voting 
system standards, a process for review of the reports generated by the 
laboratories, and a means of assigning and tracking qualification 
numbers.\1\ NASED did not receive federal funding to administer its 
testing process. In addition to this voluntary national qualification 
program, states also began developing and implementing their own 
certification programs in which they reviewed voting systems for 
conformance with standards established in that state.
---------------------------------------------------------------------------
    \1\ NASED implemented a ``qualification'' procedure in which voting 
systems were qualified against the standards developed by the FEC. The 
term ``certification'' was reserved for the processes of reviewing 
voting systems that were conducted by the various states.
---------------------------------------------------------------------------
    In 2002, the FEC adopted a new set of voting system standards (2002 
VSS). These standards were also voluntary. They updated and expanded 
upon the 1990 VSS. At this point, the Federal Government still had not 
entered the voting system testing arena. NASED continued to qualify 
voting systems against the 1990 and 2002 VSS. It was not until the Help 
America Vote Act of 2002 (HAVA) was passed that the Federal Government 
was given a role in testing voting systems.
    HAVA took several actions with regard to voting systems. First, 
HAVA required that all voting systems used in elections for federal 
office meet the requirements of Section 301(a). Specifically, those 
systems must:

        <bullet>  Allow voters to review and alter a selection prior to 
        casting the ballot;

        <bullet>  Produce a permanent paper record of the election 
        which could be used in an audit or recount;

        <bullet>  Be accessible to individuals with disabilities, 
        allowing them to vote with privacy and independence;

        <bullet>  Provide ballots in languages required by Section 203 
        of the Voting Rights Act in covered jurisdictions; and

        <bullet>  Meet the error rate standard established in the 2002 
        VSS.

    HAVA did not set out a method of determining compliance with these 
requirements.
    Second, HAVA required the EAC to adopt a new set of voting system 
guidelines.\2\ These guidelines were to be voluntary, just as the 1990 
and 2002 standards were voluntary. Third, HAVA required the EAC to 
provide for the testing and certification of voting systems and for the 
accreditation of laboratories to test those voting systems. 
Participation by the states in the certification program, like the 
voting system guidelines, is voluntary. However, states may incorporate 
this requirement by statute or regulation, thereby making the EAC 
certification a requirement for voting systems used in the state.
---------------------------------------------------------------------------
    \2\ The term ``guidelines'' was used instead of ``standards.''
---------------------------------------------------------------------------
    On December 13, 2003, more than a year after the passage of HAVA, 
the EAC Commissioners were appointed and the agency was established. 
The EAC embarked on a partnership with the National Institute of 
Standards and Technology (NIST) to develop a set of testable standards 
against which voting systems could be measured. In July 2004, the 
Federal Advisory Committee required by HAVA to work with NIST on the 
voting system guidelines held its first meeting. The Technical 
Guidelines Development Committee (TGDC) is a Federal Advisory Committee 
that consists of 15 members. The membership of the TGDC was dictated by 
HAVA and includes four technical advisors appointed jointly by NIST and 
the EAC as well as the representatives of the following organizations:

          EAC Standards Board;

          EAC Board of Advisors;

          Architectural and Transportation Barrier Compliance Board;

          American National Standards Institute (ANSI);

          Institute of Electrical and Electronics Engineers (IEEE); 
        and

          National Association of State Election Directors.

    The TGDC and NIST worked over the next nine months to produce a 
draft set of voting system guidelines. The EAC published the draft 
guidelines, held hearings in three locations in the U.S. and 
established a user-friendly and accessible online tool for collecting 
comments. Comments were accepted for 90 days. During that period, the 
EAC received more than 6,500 separate comments from the public, 
academia, industry and the election community. The final version of the 
2005 Voluntary Voting System Guidelines (VVSG) was adopted by EAC on 
December 13, 2005.
    At the same time, the EAC and NIST had already begun work on an 
accreditation program for laboratories that would be used to test 
voting systems. The EAC and NIST partnered to use the National 
Voluntary Laboratory Accreditation Program (NVLAP) already in place at 
NIST to review and accredit laboratories. NIST sought applications from 
laboratories beginning in July 2005. To date, five applications have 
been received. Assessments of these laboratories are underway, and NIST 
anticipates having recommendations on three of the five laboratories by 
December 2006, with the remainder by Spring of 2007. The EAC has also 
developed an interim accreditation program to assure that there will be 
accredited laboratories in place to test modifications to voting 
systems prior to the upcoming 2006 elections. In addition, the EAC 
engaged the assistance of an expert on laboratory accreditation to 
review the laboratories that were previously accredited by NASED 
against the International Standard Organization's (ISO) protocol for 
laboratories, ISO 17025. To date, the EAC has accredited one laboratory 
under its interim accreditation program.
    While the EAC focused its efforts on developing a new set of voting 
system standards and establishing a process for accrediting 
laboratories, NASED continued to serve the election community by 
operating its voting system qualification program. On July 24, 2006, 
the EAC began its certification program. There are two phases to the 
EAC's voting system certification program. The first focuses on 
reviewing modifications to voting systems previously qualified by NASED 
prior to the November 2006 elections. The EAC recognizes that voting 
system certification is a very technical, complex and time-consuming 
process. As such, it would be impossible to retest every voting system 
prior to the November 2006 elections. Knowing that there would be 
changes and modifications needed to adapt voting systems for the 
upcoming elections, the EAC developed a process through which 
modification to voting systems would be provisionally certified based 
upon a review of the modification and integration testing. These 
provisional certifications expire in December 2006. At that time, the 
EAC will have begun the second phase of its voting system certification 
program.
    Phase two of the EAC's program begins a new era in voting system 
testing and certification. All voting systems will be eligible to apply 
for EAC certification, regardless of whether the system had previously 
been qualified by NASED. The process begins with registering of the 
manufacturer, which includes disclosure of certain business information 
that will be used to determine if any conflicts of interest exist. Once 
a manufacturer is registered, the manufacturer will submit its system 
for testing by one of the EAC accredited laboratories. The laboratory 
will then provide a testing report to the EAC, where it will be 
reviewed by a committee of technical experts to assure that the 
laboratory conducted the proper test and that the voting system 
conforms to the voting system standards or guidelines. If a voting 
system successfully passes the testing and review and no conflicts of 
interest exist, the system will be granted an EAC certification.
    In addition to this certification process, the EAC is incorporating 
two other features into its program: (1) a quality assurance program, 
and (2) a decertification process. Through its quality assurance 
program, the EAC will visit and review production of voting systems at 
the manufacturer's facility to assure that the manufacturer is 
producing the same system that was certified by the EAC. In addition, 
the EAC will visit states and local jurisdictions to assure that 
manufacturers are delivering the same system that was certified by the 
EAC.
    The EAC decertification process will allow knowledgeable 
individuals such as election officials, technicians, and manufacturers 
to report instances where they believe voting systems failed to conform 
to the standards or guidelines. The EAC will investigate the complaints 
and determine if evidence exists to suggest that a voting system fails 
to comply with the standards or guidelines. If a system is found to be 
out of compliance, the EAC will begin the decertification process which 
will result in decertification if the manufacturer fails to bring all 
such systems into compliance.

Questions submitted by Chairman Vernon J. Ehlers and Chairman Sherwood 
                    L. Boehlert

Q1.  In his testimony, Dr. Wagner recommended that the Technical 
Guidelines Development Committee (TGDC) and the Election Assistance 
Commission (EAC) take the following actions to improve security and 
reliability of voting systems. For each recommendation listed below, 
please answer these questions: Do you agree with the recommendation? If 
so, what is the EAC doing to implement the recommendation? If not, why 
not?

A1. In his testimony, Dr. Wagner inaccurately characterized the 
function of the EAC, the intent of the HAVA, and the current role of 
the Federal Government in monitoring and reviewing voting systems. Some 
of Dr. Wagner's suggestions were legitimate. However, they do not take 
into account several issues such as the authorities vested in the 
various branches of government, programs or processes that are not 
operated by the Federal Government, and federal programs currently in 
place. The EAC has been and will continue to be willing to speak with 
Dr. Wagner and others to discuss their ideas and inform them of the 
legal, fiscal, and practical limitations under which the EAC and the 
system of election administration in this country work. Through the 
following responses, the EAC will correct the inaccurate statements as 
well as clarify the misconceptions put forth regarding the method in 
which elections are administered.
a. Mandate voter-verified paper records and mandatory manual audits.
    The EAC received its authorization from Congress regarding its 
duties, responsibilities and powers. HAVA specifically limited the 
EAC's power to develop voluntary guidelines and guidance for the 
states. HAVA recognized that the administration of elections is 
decentralized, being operated by the states and local governments. HAVA 
did not seek to upset that balance of power and limited the EAC's 
authority so that this agency would also respect that balance. The EAC 
was given no regulatory authority, except as it relates to the National 
Voter Registration Form, and that is the same authority previously held 
and exercised by the FEC. As such, the EAC is not authorized to mandate 
voter-verifiable paper audit trails (VVPAT). In addition, VVPAT is not 
one of the voting system requirements listed in 301(a) of HAVA.
    However, recognizing that many states have imposed VVPAT 
requirements for voting systems used in their states, the EAC, NIST and 
the TGDC developed testable standards that could be used to evaluate 
VVPAT components. The VVPAT testing standards were included in the 2005 
VVSG. In addition, EAC also recognized that the free market system had 
developed other forms of independent verification, such as witness 
systems, cryptographic systems and split processing systems. There are 
several companies that market witness systems and at least one company 
that currently markets a cryptographic system. As such, the EAC has 
charged NIST and TGDC with developing testing standards for these 
independent verification systems.
    In conclusion, the EAC has no authority to mandate VVPAT or any 
other kind of voting technology. In elections, one size does not fit 
all. In our decentralized election system, states and counties have 
countless different types of voting equipment for various reasons, and 
election officials choose voting equipment that best fits the needs of 
their respective voters. The EAC believes it is best to continue to 
allow election officials the freedom to choose from different 
technologies that offer the same benefits. Mandating VVPAT would 
possibly stifle the development of technology and the innovation of 
election administrators throughout the country. In addition, such a 
requirement does not recognize the ability of the states to choose 
voting systems and technologies that best serve the needs of their 
respective voters.
    The authority and the decision as to whether to mandate VVPAT rests 
with Congress. The EAC is poised to provide information from election 
officials that have used VVPAT and research that NIST has conducted on 
VVPAT and other independent verification methods.
b. Expand standards from focusing primarily on functionality testing to 
        incorporate technical evaluations of the security, reliability, 
        and usability of voting machines.
    Dr. Wagner states ``[t]oday, the standards primarily focus on 
functionality testing, which evaluates whether the machines implement 
all necessary functionality.'' This is an inaccurate statement 
regardless of whether it refers to the 2002 VSS or the 2005 VVSG. Thus, 
it is not clear as to what Dr. Wagner is suggesting with this 
recommendation. The 2002 VSS sets forth standards for testing 
accessibility, reliability and security. Specifically, the 2002 VSS was 
the first set of standards to establish requirements for voting systems 
to provide access to both physically and visually disabled individuals. 
In addition, the 2002 VSS established an error rate against which 
voting machines are tested as well as other tests to determine whether 
voting systems will reliably count votes and store results even under 
extreme conditions.
    The 2005 VVSG significantly expand on all three categories of 
testing which Dr. Wagner says are lacking. Section 7 of the VVSG is 
devoted exclusively to security requirements, including requirements on 
the following security topics:

        <bullet>  Access Control

        <bullet>  Physical Security

        <bullet>  Software Security

        <bullet>  Telecommunications and Data Transmission

        <bullet>  Use of Public Communications Networks

        <bullet>  Wireless Communications

        <bullet>  Independent Verification Systems

        <bullet>  Voter Verifiable Paper Audit Trail Requirements

    In addition, Section 3 of the VVSG contains the usability and 
accessibility requirements. These requirements were increased from 29 
requirements in 2002 to 120 requirements in 2005. Reliability of voting 
equipment to count, maintain, and report results accurately continues 
to be a significant part of the 2005 VVSG as it was in the 2002 VSS. 
For more information on requirements see the full text of the VVSG.
c. Eliminate conflicts of interest in the federal testing process by 
        establishing a new funding process whereby Independent Testing 
        Authorities (ITA) are not paid by the vendors whose systems 
        they are testing.
    The process of testing to which Dr. Wagner refers is not a 
``Federal'' testing process. Accordingly, to suggest that there was a 
conflict of interest in a ``Federal'' testing process is inaccurate. 
Testing has been conducted by NASED, a trade association of state 
election directors. It was neither sanctioned nor funded by the Federal 
Government.
    As for the EAC's voting system certification program, the EAC is 
not currently authorized by Congress to charge a fee to manufacturers 
for testing or to redirect such a fee to the voting system testing labs 
through a contract or other arrangement to procure such testing. For a 
Federal Government agency to take in and redirect funds, it must have 
specific authority from Congress, which the EAC does not have. 
Furthermore, Congress has not authorized the expenditure of federal 
funds to test privately developed voting systems. Thus, the EAC 
currently anticipates operating a voting system certification process 
that will involve the manufacturers paying an accredited voting system 
testing laboratory directly for the services that the laboratory 
performs in testing that voting system. The accredited laboratory 
report will then be forwarded to the EAC for a determination of whether 
certification is warranted. If Congress changes these authorizations or 
funding, other options will be considered.
d. Reform the federal testing process to make all ITA reports publicly 
        available and documentation and technical package data 
        available to independent technical experts.
    Again, Dr. Wagner refers to the prior existence of a ``Federal'' 
testing program, when the previous testing program and all testing 
laboratories were administered exclusively by NASED. Regardless, the 
EAC has already anticipated the need and legal requirements for 
additional disclosure of information related to voting system testing. 
Unlike NASED, the EAC is subject to laws that dictate what information 
a Federal Government agency can and cannot disclose, including the 
Freedom of Information Act (FOIA), 5 U.S.C. 552 and the Trade Secrets 
Act, 18 U.S.C. 1905. These statutes specifically preclude the release 
of trade secrets information and privileged or confidential commercial 
information.
    The EAC will abide by the letter and spirit of these laws. Within 
their constraints, the EAC will make available information contained in 
testing reports and technical data packages that are legally 
releasable.
e. Require broader disclosure of voting system source code, at a 
        minimum to independent technical experts under appropriate non-
        disclosure agreements.
    To the extent that source code is a trade secret or confidential or 
privileged commercial information, the EAC is precluded by FOIA and the 
Trade Secrets Act from releasing that information. However, the EAC has 
already made provision in its upcoming certification program to have 
manufacturers submit the final build of the software to an escrow 
agent. In addition, election officials will be provided with a 
mechanism to compare the software that they are delivered by the 
manufacturer against the final build and executable code.
f. Institute a process for collecting, investigating, and acting on 
        data from the field on performance of voting equipment, 
        including a mechanism for interim updates to the standards to 
        reflect newly discovered threats to voting systems.
    The EAC has already anticipated a need for collecting, 
investigating and acting on allegations of system malfunction and 
nonconformance with the voting system standards. The EAC has included a 
decertification process in its voting system certification program that 
will allow informed persons (i.e., election officials, manufacturers, 
and poll workers) to make complaints of machine malfunction or an 
instance where they believe that a machine does not conform to the 
standards to which it has been tested and certified. Each allegation 
will be investigated and if evidence of nonconformance is discovered, 
the EAC will begin the process of decertifying the system.
    It is important to note, here, that the EAC did not issue or adopt 
the certifications issued by NASED. Thus, the EAC has no authority to 
revoke those certifications or to decertify those systems. For systems 
that have been certified by NASED, such allegations will be considered 
in any review of that system for EAC certification.
g. Increase the representation of technical experts in computer 
        security on the TGDC.
    As has been previously discussed, the Technical Guidelines 
Development Committee is a Federal Advisory Committee established by 
the EAC and prescribed by HAVA. The membership of the committee is set 
forth in Section 221 of HAVA. The committee consists of 15 members, 
which include:

        <bullet>  The Director of the National Institute of Standards 
        and Technology

        <bullet>  Members of the EAC Standards Board

        <bullet>  Members of the EAC Board of Advisors

        <bullet>  Members of the Architectural and Transportation 
        Barrier Compliance Board

        <bullet>  A representative of the American National Standards 
        Institute

        <bullet>  A representative of the Institute of Electrical and 
        Electronics Engineers

        <bullet>  Two representatives of the National Association of 
        State Election Directors

        <bullet>  Other individuals with technical and scientific 
        expertise relating to voting systems and voting equipment.

    Thus, unless Congress changes the legal structure of the TGDC, the 
EAC is limited in the appointments that it and NIST can make. All but 
four members of the TGDC are currently dictated by HAVA. The four 
members who were appointed jointly by the EAC and NIST based upon their 
technical and scientific expertise are: Dr. Ron Rivest, Professor, 
Massachusetts Institute of Technology, Department of Electrical 
Engineering and Computer Science; Ms. Whitney Quesenbery, President, 
Usability Professionals' Association; Mr. Patrick Gannon, President and 
CEO, OASIS; and Dr. Daniel Schutzer, Vice President and Director of 
External Standards and Advanced Technology, e-Citi, CitiGroup.

Q2.  In his testimony, Dr. Wagner said that the federal standards 
process is not working, and that ``Federal standards are not sufficient 
to guarantee that federally-approved voting systems are able to 
adequately protect the integrity of our elections, either against 
unintentional failures, or against deliberate tampering.'' Do you agree 
with this statement? If so, why, and if not, what is your assessment of 
the current state of voting equipment in terms of reliability and 
security?

A2. Dr. Wagner again mistakenly assumes that the Federal Government has 
been testing voting systems. At the time of the hearing, all voting 
systems were ``qualified'' by NASED, a non-government association, that 
received no funding from the Federal Government. Therefore, it is 
inaccurate and premature to state that the ``Federal process is not 
working.''
    The EAC began its voting system certification process on July 24, 
2006. The EAC has implemented the first phase of its certification 
process, which focuses on the need to review modifications prior to the 
November 2006 elections. The second phase will begin in December 2006 
and will include additional processes to assure that the systems that 
are fielded are the same as the systems that are tested. These 
processes include screening manufacturers for conflicts of interest, 
implementing a quality control program that includes site visits to 
manufacturing facilities and localities that use the systems, and a 
decertification program to review and act on allegations that a voting 
system does not conform to standards.
    In regards to protecting the integrity of elections, having 
stringent, thorough voting system guidelines against which voting 
systems are tested and a testing and certification program are only 
half of the equation. When voting systems successfully meet the 
guidelines, they should also be subjected to rigorous testing, 
evaluation, and implementation at the state level. Many states have 
already developed thorough state certification programs wherein they 
test systems for specific capabilities required by state law or 
according to more stringent standards than those required on a national 
level. In addition, states should actively participate in the 
acceptance process to assure that the systems that they buy and receive 
meet the same requirements as the systems that were tested. Finally, 
voting systems must be implemented using a thorough management process 
in which security and access procedures are applied at the locations in 
which the systems are operated. Those procedures include securing the 
location where equipment is stored, developing chain of custody for the 
transport of equipment, and training and protocols for those operating 
the equipment. The EAC's work in developing management guidelines for 
election administration will provide states with suggested practices on 
implementing and managing voting systems. The first of these management 
guidelines pieces was made available to election officials in June 2006 
and others will be distributed before the November elections.

Q3.  Will the EAC be providing an incident reporting system for the 
2006 election through which election managers can report problems with 
voting equipment? If so, what will the process be and will the results 
be made available to the public or to independent technical experts? If 
not, why not?

A3. In 2004, the EAC collected this data as a part of its Election Day 
Survey. The information was made available to the public through its 
report on the Election Day Survey, which can be found on the EAC's web 
site. With the onset of the EAC certification program, this data will 
be collected through the decertification process of that program. 
Information on the certification program and processes will also be 
made available through the EAC web site.

Q4.  The 2005 Voluntary Voting Systems Guidelines contain an appendix 
on independent dual verification systems that could perform the same 
functions as a voter-verifiable paper audit trail. Is this technology 
being used in voting systems today or is more research needed to make 
it operational? What are the advantages and disadvantages of this 
technology? To what extent are there other technologies that could 
perform the same function as a voter-verifiable paper audit trail?

A4. There are currently several forms of independent verification other 
than VVPAT on the market, including witness systems, cryptographic 
systems, audio verification systems, and split processing systems. 
There is at least one company that markets each of the alternative 
independent verification systems. However, there are no standards 
currently available to test these systems. Thus, the EAC, NIST and the 
TGDC have made developing testing standards for independent 
verification systems a priority. The current section on independent 
verification can be found in Section 7 of the VVSG. This section 
includes one form of independent verification, specifically VVPAT. The 
next iteration of the VVSG will include testing methods for alternative 
forms of independent verification.

Questions submitted by Democratic Members

Q1.  Ms. Davidson, there have been several incidents of security, 
reliability and usability flaws discovered in Independent Testing 
Authority (ITA) approved voting equipment--either during elections or 
during state certification. When such flaws are uncovered, what is the 
process for ensuring that the same mistakes are not repeated in the 
future? Has the Election Assistance Commission published any report or 
analysis on who or why flaws were not discovered during inspection and 
testing?

A1. The ITAs that have previously tested voting systems were 
administered under the NASED program. When the EAC began its 
certification program in July 2006, the EAC reviewed the three testing 
laboratories accredited under the NASED program for interim 
accreditation by the EAC to serve in the first phase of its 
certification program. The laboratories were assessed by an expert in 
the field of voting systems and a certified laboratory reviewer to 
determine if the laboratories conform to ISO 17025. Of the three 
laboratories, the EAC has currently granted interim accreditation to 
one laboratory. In addition, the EAC is working with the National 
Voluntary Laboratory Accreditation Program (NVLAP) of NIST to review 
labs for accreditation to test systems under the second phase of the 
EAC's certification system. NVLAP is also reviewing labs according to 
the requirements of ISO 17025. In December 2006, NIST expects to have 
completed reviews of at least two of the five laboratories that have 
applied to the NVLAP program for accreditation.
    Thus, the EAC and NIST are taking steps to assure that the 
laboratories that test voting systems under the EAC's certification 
program are qualified and apply the appropriate procedures, processes 
and tests to assure that voting systems tested in their facilities are 
adequately reviewed for conformance with the voting system standards.

Q2.  Ms. Davidson, several states including California, Florida, and 
Georgia, appear to have more exacting certification processes than 
those required by the Election Assistance Commission. For example, 
California has adopted a ``volume testing'' of voting machines; 
machines are voted on as realistically as possible for at least six 
hours, to ensure that they will actually function on election day. In 
one case, California discovered that 20 percent of a particular 
Independent Testing Authority (ITA) approved machine failed this volume 
testing. Do you see these more extensive tests as evidence that current 
federal standards and certification processes need to be revised and 
made more robust? Will the Election Assistance Commission incorporate 
the more exacting certification processes of these states to revise 
federal testing standards and conformance tests?

A2. Again, the testing and certification program that has previously 
been in place to assess voting system conformance was administered by 
NASED, not the EAC. The EAC has developed testing standards, but is 
awaiting test suites or testing protocols to be developed by TGDC and 
NIST. If the technologists at NIST and the member of the TGDC believe 
that additional volume testing are necessary, we will see that 
reflected in the testing protocols that will be developed for the 
testing laboratories to implement when testing each discrete voting 
system.
    State certification programs have existed for many years and many 
states like California have solid programs that focus on additional 
requirements of that state's certification program or additional 
testing in certain areas. The EAC encourages states to continue their 
work not only in the state certification programs, but also in 
acceptance testing to assure that they have field voting systems that 
are accurate and reliable.

Q3.  Ms. Davidson, is there any clear mechanism for suspending or 
revoking the certification of machines with serious defects in the 
security, reliability, usability, or accessibility of certified when 
discovered? It is common in other industries to mandate recalls when 
products are found to have serious security or safety defects. Is this 
an issue that should be addressed by the Election Assistance Commission 
and the latest set of standards/guidelines?

A3. The EAC anticipated the need for a decertification process, and it 
will be implemented in phase two of the EAC's certification program. 
Informed individuals (i.e., election officials, manufacturers, and poll 
workers) will be able to report machine malfunctions and instances in 
which the individual believes a voting system does not conform to the 
voting system standards to which it has been tested. The reports will 
be investigated, and where evidence of nonconformance is found, the EAC 
will begin the process of decertifying the voting system.
    It is important to note that decertification will be applied only 
to systems that have been tested and certified by the EAC. The EAC has 
not and will not adopt qualifications issued by NASED. Systems that 
have been previously qualified by NASED will be eligible for testing 
and certification under the EAC program, just like newly manufactured 
systems. Because the EAC has not adopted NASED qualifications, it has 
no authority to revoke those certifications. The EAC can, however, 
consider allegations of nonconformance in its review of any systems 
submitted under the EAC certification program.

Q4.  Ms. Davidson, the General Accounting Office's June 2006 report 
identified five states that plan to use the Election Assistance 
Commission's 2005 guidelines (Voluntary Voting Systems Guidelines, 
VVSG) in the 2006 election. How many voting systems have begun testing, 
completed testing and been certified against the 2005 standards/
guidelines (VVSG)? How many systems do you expect to see certification 
against these standards prior to the 2006 general election?

A4. The EAC has not received any systems to be tested and certified to 
the 2005 VVSG. Furthermore, the EAC will not be able to accept any 
systems for such testing and certification until December 2006, when 
NVLAP has reviewed and recommended qualified laboratories for 
accreditation to test voting systems to the 2005 VVSG.

Q5.  Ms. Davidson, the Election Assistance Commission has now assumed 
responsibility for certifying voting systems against current national 
standards/guidelines. This change was intended to improve the 
consistency and transparency of the certification process. What 
criteria, steps and personnel are being used by the EAC to certify 
voting systems for the 2006 elections and is this information available 
to the public? What qualifications are required of individuals 
responsible for reviewing certification of test results and 
recommending EAC's approval for certification?

A5. The EAC has adopted phase one of its certification program, which 
focuses on testing and certifying modifications to voting systems prior 
to the November 2006 elections. Information regarding the process for 
certification under phase one is available on the EAC's web site. 
Systems submitted with modifications during phase one will be tested to 
the 2002 VSS, a document which is also available to the public.
    In December 2006, the EAC will launch its full certification 
program. By October 2006, the EAC will publish the details of that 
program in the Federal Register and on its web site for comment by the 
public. This program will be rigorous and thorough, and one that will 
include registering manufacturers, assessing manufacturers for 
conflicts of interest, testing according to the 2002 VSS or 2005 VVSG, 
quality assurance, as well as decertification, when warranted.
    The EAC sought technical reviewers with the following 
qualifications to staff its review of the testing reports that will be 
provided by the accredited testing laboratories:

         Minimum Qualifications. Candidates for the position must 
        possess the following minimum qualifications:

                <bullet>  Bachelor's degree from an accredited college 
                or university; or equivalent education and experience.

                <bullet>  Demonstrated knowledge of the VVS and/or 
                VVSG.

                <bullet>  Knowledge of computer science and testing, 
                including, but not limited to, software coding 
                conventions, hardware, computer security, and software.

                <bullet>  Excellent written and verbal communication 
                skills.

                <bullet>  No financial, political, or personal conflict 
                of interest.

         Preferred Qualifications. The successful candidate should also 
        have outstanding skills and abilities in the following areas:

                <bullet>  At least five (5) years experience in voting 
                software or hardware testing; voting technology 
                development; or some combination of the two.

                <bullet>  Knowledge of election procedures in the 
                United States. Familiarity with laws and procedures 
                governing the election process.

                <bullet>  Knowledge of the legal, accounting, and 
                auditing requirements for elections.

                <bullet>  Knowledge of quality testing, including, but 
                not limited to International Standards Organization 
                (ISO) (particularly ISO 17025 and ISO 9000).

                <bullet>  Experience with software and/or hardware 
                testing methodologies, including, but not limited to, 
                (1) minimum standards for test plans, (2) methods of 
                ding testing, and (3) requirements for testing hardware 
                and software.

         Additional Considerations. Successful candidates will be 
        required to demonstrate that they can operate as fair, 
        impartial, and unbiased parties by certifying that they are not 
        subject to conflicts of interest.

    These persons make recommendations to the EAC's Executive Director 
as to which systems should be certified.

Q6.  Ms. Davidson, do vendors currently provide election officials with 
documentation that explain the security features of the systems that 
they sell and the procedures that need to been in effect for the 
election to be secure? If not, is this something that needs to be done?

A6. This is a question for the voting system manufacturers, as these 
materials would be provided under contractual agreements between 
themselves and the election jurisdiction purchasing the equipment.

Q7.  Ms. Davidson, Dr. Wagner made a number of short-term 
recommendations based on the Brennan Center report that he believes 
could improve the security and reliability of voting equipment that 
will be used this November. These recommendations include routine 
audits of voter-verified paper records, performing parallel testing of 
voting machines, adopting procedures for investigating and responding 
to evidence of fraud or error, and banning voting machines with 
wireless capabilities. Would you please comment on these suggestions?

A7. In his testimony, Dr. Wagner demonstrated a misunderstanding of 
HAVA, the role of the EAC, voting systems, and the history of voting 
system certification in this country. Some of Dr. Wagner's suggestions 
were legitimate. However, they do not take into account several issues 
such as the authorities vested in the various branches of government, 
programs or processes that are not operated by the Federal Government, 
and federal programs currently in place.
    The following are recommendations made by Dr. Wagner:
a. Mandate voter-verified paper records and mandatory manual audits.
    The EAC received its authorization from Congress regarding its 
duties, responsibilities and powers. HAVA specifically limited the 
EAC's power to develop voluntary guidelines and guidance for the 
states. HAVA recognized that the administration of elections is 
decentralized, being operated by the states and local governments. HAVA 
did not seek to upset that balance of power and limited the EAC's 
authority so that this agency would also respect that balance. The EAC 
was given no regulatory authority, except as it relates to the National 
Voter Registration Form, and is the same authority previously held and 
exercised by the FEC. As such, the EAC is not authorized to mandate 
voter-verifiable paper audit trails (VVPAT). In addition, VVPAT is not 
one of the voting system requirements listed in 301(a) of HAVA.
    However, recognizing that many states have imposed VVPAT 
requirements for voting systems used in their states, the EAC, NIST and 
the TGDC developed testable standards that could be used to evaluate 
VVPAT components. The VVPAT testing standards were included in the 2005 
VVSG. In addition, EAC also recognized that the free market system had 
developed other forms of independent verification, such as witness 
systems, cryptographic systems and split processing systems. There are 
several companies that market witness systems and at least one company 
that currently markets a cryptographic system. As such, the EAC has 
charged NIST and TGDC with developing testing standards for these 
independent verification systems.
    In conclusion, the EAC has no authority to mandate VVPAT or any 
other kind of voting technology. In elections, one size does not fit 
all. In our decentralized election system, states and counties have 
countless different types of voting equipment for various reasons, and 
election officials choose voting equipment that best fits the needs of 
their respective voters. The EAC believes that it is best to continue 
to allow election officials the freedom to choose from different 
technologies that offer the same benefits. Mandating VVPAT would 
possibly stifle the development of technology and the innovation of 
election administrators throughout the country. In addition, such a 
requirement does not recognize the ability of the states to choose 
voting systems and technologies that best serve the needs of their 
respective voters.
    The authority and the decision as to whether to mandate VVPAT rests 
with Congress. The EAC is poised to provide information from election 
officials that have used VVPAT and research that NIST has conducted on 
VVPAT and other independent verification methods.
b. Expand standards from focusing primarily on functionality testing to 
        incorporate technical evaluations of the security, reliability, 
        and usability of voting machines.
    Dr. Wagner states ``[t]oday, the standards primarily focus on 
functionality testing, which evaluates whether the machines implement 
all necessary functionality.'' This is an inaccurate statement 
regardless of whether it refers to the 2002 VSS or the 2005 VVSG. Thus, 
it is not clear as to what Dr. Wagner is suggesting with this 
recommendation. The 2002 VSS sets forth standards for testing 
accessibility, reliability and security. Specifically, the 2002 VSS was 
the first set of standards to establish requirements for voting systems 
to provide access to both physically and visually disabled individuals. 
In addition, the 2002 VSS established an error rate against which 
voting machines are tested as well as other tests to determine whether 
voting systems will reliably count votes and store results even under 
extreme conditions.
    The 2005 VVSG significantly expand on all three categories of 
testing which Dr. Wagner says are lacking. Section 7 of the VVSG is 
devoted exclusively to security requirements, including requirements on 
the following security topics:

        <bullet>  Access Control

        <bullet>  Physical Security

        <bullet>  Software Security

        <bullet>  Telecommunications and Data Transmission

        <bullet>  Use of Public Communications Networks

        <bullet>  Wireless Communications

        <bullet>  Independent Verification Systems

        <bullet>  Voter Verifiable Paper Audit Trail Requirements

    In addition, Section 3 of the VVSG contains the usability and 
accessibility requirements. These requirements were increased from 29 
requirements in 2002 to 120 requirements in 2005. Reliability of voting 
equipment to count, maintain, and report results accurately continues 
to be a significant part of the 2005 VVSG as it was in the 2002 VSS. 
For more information on requirements see the full text of the VVSG.
c. Eliminate conflicts of interest in the federal testing process by 
        establishing a new funding process whereby Independent Testing 
        Authorities (ITA) are not paid by the vendors whose systems 
        they are testing.
    The process of testing to which Dr. Wagner refers is not a 
``Federal'' testing process. So, to suggest that there was a conflict 
of interest in a ``Federal'' testing process is inaccurate. Testing has 
been conducted by NASED, a trade association of state election 
directors. It was neither sanctioned nor funded by the Federal 
Government.
    As for the the EAC's voting system certification program, EAC is 
not currently authorized by Congress to charge a fee to manufacturers 
for testing or to redirect such a fee to the voting system testing labs 
through a contract or other arrangement to procure such testing. For a 
Federal Government agency to take in and redirect funds, it must have 
specific authority from Congress, which the EAC does not have. 
Furthermore, Congress has not authorized the expenditure of federal 
funds to test privately developed voting systems. Thus, the EAC 
currently anticipates operating a voting system certification process 
that will involve the manufacturers paying an accredited voting system 
testing laboratory directly for the services that the laboratory 
performs in testing that voting system. The report of the accredited 
laboratory will then be forwarded to the EAC for determination of 
whether certification is warranted. If Congress changes these 
authorizations or funding, other options will be considered.
d. Reform the federal testing process to make all ITA reports publicly 
        available and documentation and technical package data 
        available to independent technical experts.
    Again, Dr. Wagner refers to the prior existence of a ``Federal'' 
testing program, when the previous testing program and all testing 
laboratories were administered exclusively by NASED. Regardless, the 
EAC has already anticipated the need and legal requirements for 
additional disclosure of information related to voting system testing. 
Unlike NASED, the EAC is subject to laws that dictate what information 
a Federal Government agency can and cannot disclose, including FOIA and 
the Trade Secrets Act, 18 U.S.C. 1905. These statutes specifically 
preclude the release of trade secrets information and privileged or 
confidential commercial information.
    The EAC will abide by the letter and spirit of these laws. Within 
its constraints, the EAC will make available information contained in 
testing reports and technical data packages that are legally 
releasable.
e. Require broader disclosure of voting system source code, at a 
        minimum to independent technical experts under appropriate non-
        disclosure agreements.
    To the extent that source code is a trade secret or confidential or 
privileged commercial information, the EAC is precluded by FOIA and the 
Trade Secrets Act from releasing that information. However, the EAC has 
already made provision in its upcoming certification program to have 
manufacturers submit the final build of the software to an escrow 
agent. In addition, election officials will be provided with a 
mechanism to compare the software that they are delivered by the 
manufacturer against the final build and executable code.
f. Institute a process for collecting, investigating, and acting on 
        data from the field on performance of voting equipment, 
        including a mechanism for interim updates to the standards to 
        reflect newly discovered threats to voting systems.
    The EAC has already anticipated a need for collecting, 
investigating and acting on allegations of system malfunction and 
nonconformance with the voting system standards.
    The EAC has included a decertification process in its voting system 
certification program that will allow informed persons (i.e., election 
officials, manufacturers, and poll workers) to report machine 
malfunctions or an instance where they believe that a machine does not 
conform to the standards to which it has been tested and certified. 
Each report will be investigated and if evidence of nonconformance is 
discovered, the EAC will begin the process of decertifying the system.
    It is important to note that the EAC did not issue or adopt the 
certifications issued by NASED. Thus, the EAC has no authority to 
revoke those certifications or to decertify those systems. For systems 
that have been certified by NASED, such allegations will be considered 
in any review of that system for the EAC certification.
g. Increase the representation of technical experts in computer 
        security on the TGDC.
    As has been previously discussed, the Technical Guidelines 
Development Committee, is a Federal Advisory Committee established by 
the EAC and prescribed by HAVA. The membership of the committee is set 
forth in Section 221 of HAVA. The committee consists of 15 members, 
which include:

        <bullet>  The Director of the National Institute of Standards 
        and Technology

        <bullet>  Members of the EAC Standards Board

        <bullet>  Members of the EAC Board of Advisors

        <bullet>  Members of the Architectural and Transportation 
        Barrier Compliance Board

        <bullet>  A representative of the American National Standards 
        Institute

        <bullet>  A representative of the Institute of Electrical and 
        Electronics Engineers

        <bullet>  Two representatives of the National Association of 
        State Election Directors

        <bullet>  Other individuals with technical and scientific 
        expertise relating to voting systems and voting equipment.

    Thus, unless Congress changes the legal structure of the TGDC, the 
EAC is limited in the appointments that it and NIST can make. All but 
four members of the TGDC are currently dictated by HAVA. The four 
members who were appointed jointly by the EAC and NIST based upon their 
technical and scientific expertise are: Dr. Ron Rivest, Professor, 
Massachusetts Institute of Technology, Department of Electrical 
Engineering and Computer Science; Ms. Whitney Quesenbery, President, 
Usability Professionals' Association; Mr. Patrick Gannon, President and 
CEO, OASIS; and Dr. Daniel Schutzer, Vice President and Director of 
External Standards and Advanced Technology, e-Citi, CitiGroup.

Q8.  Ms. Davidson, Dr. Wagner's testimony outlines problems that we 
frequently see reported in news articles about problems with voting 
equipment. In addition to his comments on the current status of voting 
equipment, he makes a number of longer-term recommendations, many which 
focus on conformance criteria and testing of voting machines. Would you 
please comment on these recommendations?

A8. Please see response to question 7.

Q9.  Ms. Davidson, as a former Secretary of State, would you discuss 
steps we can take to assure Americans that elections held in this 
country are accurate and secure. For example, how would you respond to 
the issues raised in Dr. Wagner's written testimony about the 
independent testing authority and conformance testing or reports from 
several states that have had problems with voting equipment that has 
been approved by an independent testing authority?

A9. Voting security is a multi-faceted issue that can only be addressed 
by examining each of the points of potential weakness. Certainly, 
security in the voting system itself is important. The EAC, NIST, and 
TGDC have made a good start at developing security standards for the 
voting equipment. Those standards are not, however, the only factor in 
the security equation. Election officials must be diligent in policing 
access to voting systems, programming equipment and equipment that 
provide results. Physical security of these systems is equally, if not 
more important, than the processes, hardware and software that protect 
the voting machine itself. If a bad actor does not have access to the 
voting system, then it is increasingly difficult to manipulate the 
results.
    The EAC has begun developing a series of suggested practices that 
will focus on the physical security and administration components of 
conducting a secure election. The first issue of EAC's management 
guidelines was issued in June 2006 and was a Quick Start Guide for 
election officials to use as a checklist for accepting, testing, and 
securing voting systems. A more comprehensive physical security 
document will be released shortly to augment the initial concepts 
outlined in the Quick Start Guide.
                   Answers to Post-Hearing Questions
Responses by William Jeffrey, Director, National Institute of Standards 
        and Technology

Questions submitted by Chairman Vernon J. Ehlers and Chairman Sherwood 
                    L. Boehlert

Q1.  In his testimony, Dr. Wagner recommended that the Technical 
Guidelines Development Committee (TGDC) and the Election Assistance 
Commission (EAC) take the following actions to improve security and 
reliability of voting systems. For each recommendation listed below, 
please answer these questions: Do you agree with the recommendation? If 
so, what is the TGDC doing to implement the recommendation? If not, why 
not?

A1. Let me first clarify how the TGDC operates. There are 15 members on 
the TGDC whose membership is either specified in the HAVA statute or 
are chosen based upon their expertise. NIST is only allotted one slot 
on the TGDC as chair. Specific areas for research are determined by 
majority vote of the TGDC members. The next version of the Voluntary 
Voting System Guidelines is scheduled for July, 2007. Between now and 
July, 2007 the TGDC will have several plenary meetings where decisions 
will be made concerning the content of the July Guideline. 
Consequently, the decisions to implement any of Dr. Wagner's, or any 
other, recommendations have not yet been made and will, if appropriate, 
be debated among the TGDC members. My responses to the specific 
questions are detailed below:
a. Mandate voter-verified paper records and mandatory manual audits.
    I support some form of independent verification (IV). Voter-
verified paper records are one form of IV--but not the only form that 
could be implemented. It should be noted that VVPATs have several 
disadvantages, especially in terms of usability for voters and election 
officials, as well as accessibility. NIST is researching other types of 
IV systems, such as witness systems and cryptographically-based systems 
that have the potential to provide increased security with a reduced 
impact on usability and accessibility.
    For the VVSG 2007, the TGDC is considering requirements for three 
or four different IV techniques, including voter-verified paper 
records. It is important to note that IV by itself will be 
insufficient. Robust operational procedures (i.e., concepts of 
operation) must also be implemented which are not technical and thus 
cannot be specified by the TGDC. These operational procedures must be 
developed and practiced at the State/local level. Best practices for 
operations can be captured and promulgated through the EAC and other 
organizations. However it should be noted that more research is needed 
generally in the area of independent dual verification (IDV or IV). 
However, there are some voting systems that utilize this technology and 
cryptographically-based systems that have the potential to provide 
increased security with a reduced impact on usability and 
accessibility.
b. Expand standards from focusing primarily on functionality testing to 
        incorporate technical evaluations of the security, reliability, 
        and usability of voting machines.
    I agree with this recommendation. VVSG 2005 incorporated new 
requirements for the security and usability of voting machines. VVSG 
2007 will consider incorporating more detailed and comprehensive 
requirements for security and usability as well as new requirements for 
reliability. These VVSG requirements will provide for a comprehensive 
technical evaluation of these items.
c. Eliminate conflicts of interest in the federal testing process by 
        establishing a new funding process whereby Independent Testing 
        Authorities (ITA) are not paid by the vendors whose systems 
        they are testing.
    NIST and the TGDC have discussed various reimbursement models for 
the ITAs with the Election Assistance Commission (EAC). However, this 
is a policy issue that is not within the purview of a technical 
guidelines committee and is ultimately a decision of the EAC.
d. Reform the federal testing process to make all ITA reports publicly 
        available and documentation and technical package data 
        available to independent technical experts.
    This is a reasonable recommendation. Making summary reports 
publicly available is not an uncommon practice. For instance, test 
reports provided by Telecommunication Certification Bodies (private 
organizations accredited by ANSI and designated by the FCC) for 
equipment subject to the FCC's certification process are retained by 
the FCC, which makes summary information publicly available. The TGDC 
will consider specifying the set of testing material that should be 
made public. There are, however, several legal and policy issues that 
would need to be addressed prior to implementation. These issues are 
not under the purview of NIST or the TGDC, but rather the Election 
Assistance Commission.
e. Require broader disclosure of voting system source code, at a 
        minimum to independent technical experts under appropriate non-
        disclosure agreements.
    Broader disclosure of source code that can be reviewed by experts 
could increase the probability that errors, particularly security 
flaws, could be detected earlier. This is, however, a policy and legal 
issue that would not be appropriate in a technical guidelines document.
f. Institute a process for collecting, investigating, and acting on 
        data from the field on performance of voting equipment, 
        including a mechanism for interim updates to the standards to 
        reflect newly discovered threats to voting systems.
    A process for collecting data on performance of voting equipment 
would be very useful to document newly discovered threats, as well as 
to detect errors in the voting hardware and/or software. This 
information could then be used to either modify or generate new 
technical requirements to mitigate these threats or errors in updates 
to the guidelines.
g. Increase the representation of technical experts in computer 
        security on the TGDC.
    I agree that the TGDC is under-represented with respect to security 
experts. I am actively encouraging HAVA mandated TGDC organizations to 
consider security expertise as a qualification for their nominations to 
fill vacancies on the TGDC.

Q2.  In his testimony, Dr. Wagner said that the federal standard 
process is not working, and that ``Federal standards are not sufficient 
to guarantee that federally-approved voting systems are able to 
adequately protect the integrity of our elections, either against 
unintentional failures, or against deliberate tampering.'' Do you agree 
with this statement? If so, why, and if not, what is your assessment of 
the current state of voting equipment in terms of reliability and 
security.

A2. The new guidelines in VVSG 2005 enhance the security and integrity 
of voting systems by providing the first guidelines for Voter Verified 
Paper Audit Trails; requirements for addressing how voting system 
software is to be distributed; validating the voting system setup; and 
governing how wireless communications are to be secured. But there is 
more that needs to be done. Standards are a necessary but not 
sufficient condition to protect the integrity of our elections. In 
addition to standards, a comprehensive test suite to help ensure that 
the voting systems correctly implement the standard is necessary. NIST 
will begin the development of such a test suite in FY 2007. 
Additionally, comprehensive procedures for election officials are 
needed as well. Until all of these components are in place, our ability 
to guard against failures or tampering will not be as robust as 
desired.

Q3.  How will you know if the Voluntary Voting Systems Guidelines 
(VVSG) are leading to improvements in voting systems? Are there 
mechanisms available to the National Institute of Standards and 
Technology (NIST) or the TGDC to track the performance of voting 
systems, ensure that standards are effective, and obtain feedback on 
the performance of the standards themselves? If so, what are these 
mechanisms? If not, what is needed?

A3. Tracking the effectiveness of security guidelines is especially 
difficult. The absence of known security breaches does not establish 
that breaches have not occurred or that they are unlikely to occur in 
the future. In this area, ongoing scrutiny of security specifications 
and testing methods is needed. This scrutiny should come from voting 
officials, national and state testing entities, and the public. 
Improvements in usability and accessibility, on the other hand, will be 
much easier to track through analysis of voting trends and from 
feedback from the community.

Q4.  How do the TGDC or NIST plan to address security in the 2007 VVSG? 
What kinds of security tests are being contemplated and how do the 
compare to security tests used for computer equipment in other 
industries? Is security testing different from other types of testing, 
and if so, how?

A4. The VVSG 2007 will likely contain several chapters with significant 
security-related material. The security-related material that is under 
consideration includes: General Requirements; General Design 
Requirements; Voting Variations, Security & System Integrity; 
Cryptography; Access Control; Voting System Records Audit; System 
Integrity Management; System Auditing & Logging; Physical Security; 
Usability; Accessibility; Hardware & Software Performance; Workmanship; 
Archival Requirements; Inter-operability; and Requirements by Voting 
Activity.
    Security tests will include tests of the functionality of security 
features (such as access controls), reviews of security documentation, 
including an assessment to determine if security features function 
together as intended, and open-ended security testing, including 
penetration testing. These are common types of security testing used in 
many industries. Security testing is indeed different from other types 
of testing. In ``regular'' (or conformance) testing, one simply tests 
each requirement to ensure it is implemented according to the guideline 
or standard. Security testing is more difficult. In security testing, 
you have an unbounded field of possible security threats to address. 
NIST and the TGDC are researching open-ended testing and other forms of 
security testing as part of the overall testing strategy to be included 
in the VVSG 2007.

Q5.  Are there any plans to issues advisories on voting equipment that 
does not meet the 2005 VVSG and subsequent versions? Will NIST be 
providing an incident reporting system or other feedback system so that 
lessons learned from testing laboratories can be disseminated to 
election officials? If so, what will the process be? If not, why not.

A5. Providing information and best practices to the election officials 
is the responsibility of the Election Assistance Commission.

Q6.  The 2005 VVSG contains an appendix on independent dual 
verification systems that could perform the same functions as a voter-
verifiable paper audit trail. Is this technology being used in voting 
systems today or is more research needed to make it operational? What 
are the advantages and disadvantages of this technology? To what extent 
are there other technologies that could perform the same function as a 
voter-verifiable paper audit trail?

A6. More research is needed generally in the area of independent dual 
verification (IDV or IV). However, there are some voting systems that 
utilize this technology. NIST sees voter-verified paper audit trail 
(VVPAT) as a type of IV system. VVPATs have several disadvantages, 
especially in terms of usability for voters and election officials, as 
well as accessibility. NIST is researching other types of IV systems, 
such as witness systems and cryptographically-based systems that have 
the potential to provide increased security with a reduced impact on 
usability and accessibility.
                   Answers to Post-Hearing Questions
Responses by Mary Kiffmeyer, Secretary of State for Minnesota

Questions submitted by Chairman Vernon J. Ehlers and Chairman Sherwood 
                    L. Boehlert

Q1.  In his testimony, Dr. Wagner recommended that the Technical 
Guidelines Development Committee (TGDC) and the Election Assistance 
Commission (EAC) take the following actions to improve security and 
reliability of voting systems. For each recommendation listed below, 
please answer these questions: Do you agree with the recommendation? If 
so, to what extent and how is Minnesota implementing the 
recommendation? If not, why not?

Q1a.  Mandate voter-verified paper records and mandatory manual audits.

A1a. Agree. Minnesota not only requires a voter-verified paper record 
it requires an actual paper ballot.

Q1b.  Expand standards from focusing primarily on functionality testing 
to incorporate technical evaluations of the security, reliability, and 
usability of voting machines.

A1b. Agree. Minnesota requires a source code review that assures that 
the votes are accurately recorded and counted.

Q1c.  Eliminate conflicts of interest in the federal testing process by 
establishing a new funding process whereby Independent Testing 
Authorities (ITA) are not paid by the vendors whose systems they are 
testing.

A1c. Disagree. It is like the use of the Underwriters Laboratories to 
grade consumer products. Even though the manufacturer pays for the 
testing it does not mean that the system is corrupt.

Q1d.  Reform the federal testing process to make all ITA reports 
publicly available and documentation and technical package data 
available to independent technical experts.

A1d. Agree with limits. As long as the reports or documentation does 
not assist persons with malicious activities in mind do not get 
information that would assist them to do things to affect the recording 
and tabulating of votes.

Q1e.  Require broader disclosure of voting system source code, at a 
minimum to independent technical experts under appropriate non-
disclosure agreements.

A1e. Disagree. The wide distribution of source code could lead to the 
loss of source code to those who have malicious intents.

Q1f.  Institute a process for collecting, investigating, and acting on 
data from the field on performance of voting equipment, including a 
mechanism for interim updates to the standards to reflect newly 
discovered threats to voting systems.

A1f. Agree. The accuracy and the integrity of elections are essential 
to the process of fair and honest elections. All new methods of 
ensuring the correct outcome of every election has value.

Q1g.  Increase the representation of technical experts in computer 
security on the TGDC.

A1g. Agree. In the review of our source code there were requirements to 
have security experts as part of the team reviewing the source code.

Q2.  In his testimony, Dr. Wagner said that the federal standards 
process is not working, and that ``Federal standards are not sufficient 
to guarantee that federally-approved voting systems are able to 
adequately protect the integrity of our elections, either against 
unintentional failures, or against deliberate tampering.'' Do you agree 
with this statement? If so, why, and if not, what is your assessment of 
the current state of voting equipment in terms of reliability and 
security?

A2. The security standards of the 2005 VVSG are not sufficiently 
comprehensive to ensure security in our election systems. The use of 
technology for voting increases the risk that security of the voting 
system will be breached, if proper safeguards are not taken. Wireless 
components should only be turned on after the polls close and voting is 
complete or strict security guidelines are developed. Also, a voter-
verified paper audit trail should be required in the VVSG to provide 
assurance that the elections process is being conducted in an accurate 
and fair manner.

Q3.  What are your top three priorities for updates to the 2005 
Voluntary Voting Systems Guidelines (VVSG)?

A3. Priorities for updates to the 2005 VVSG include introducing a VVPAT 
requirement, banning the use of wireless components during elections, 
and requiring post-election audits of voting systems.

Q4.  If the EAC or another organization provided an incident reporting 
system for the 2006 election through which election managers could 
systematically report problems with voting equipment, would this be 
useful to you, and if so, how would you recommend the system be 
structured?

A4. An incident reporting system for the 2006 election through which 
election managers could systematically report problems with voting 
equipment would be an effective tool. In Minnesota, election judges can 
record any unusual events or any problems on the precinct incident log. 
On this form, election judges could record any problems with the voting 
equipment that may have taken place during the election. In terms of an 
incident reporting system, an effective mechanism would be for the 
election judges to submit the data recorded on the incident log and 
submit this to election managers so that voting equipment problems in 
all precincts are recorded and in one centralized location.

Q5.  The 2005 VVSG contains an appendix on independent dual 
verification systems that could perform the same functions as a voter-
verifiable paper audit trail. Is this technology being used in voting 
systems today or is more research needed to make it operational? What 
are the advantages and disadvantages of this technology? To what extent 
are there other technologies that could perform the same function as a 
voter-verifiable paper audit trail?

A5. Minnesota law does not allow for the use of an independent dual 
verification system.

Questions submitted by Democratic Members

Q1.  Ms. Kiffmeyer, what documentation do your voting system vendors 
currently provide you that explain the security features of voting 
systems and the procedures required for your elections to be secure?

A1. Minnesota requires that vendors applying for voting system 
certification provide recommended procedures for use of the system at 
Minnesota elections which includes security issues.

Q2.  Ms. Kiffmeyer, what additional improvements are needed (if any) 
voting for the voluntary guidelines and national certification process? 
Also, what additional steps should the Election Assistance Commission 
take to support efforts of states and local jurisdictions to acquire 
and operate accurate, reliable, and secure voting equipment?

A2. The 2005 VVSG and its strength will be tested in the elections this 
Fall and in elections to come even more so. The guidelines will need to 
be evaluated after the elections in order to ascertain how the 
equipment functioned and what, if any, standards need to be improved. 
One of the main objectives of the VVSG was to create standards by which 
to guide an effective elections process, and a look into what might 
still be lacking and how best to remedy the situation will provide both 
insight and a benefit to all.

Q3.  Ms. Kiffmeyer, GAO recently reported that only about 15 percent of 
jurisdictions collect measures on voting equipment failures. Does your 
state collect data on voting equipment failures and what have you found 
from the data you've collected? What are your views on collecting this 
information on a national basis.

A3. The state collects data on voting equipment incidents at the local 
level. However, every polling place is required to keep an incident log 
which is returned to the counties and would include apparent issues of 
equipment failure. In addition to having a paper ballot system, the 
counties have machine backups for tallying and the incidents of machine 
problems are very few and usually rectified immediately on election 
day.
    Minnesota also has a new statute this year to require a post 
election review of voting equipment including a hand tally to compare 
to the machine tally results This review will be conducted with a 
randomly selected number of precincts per county with additional 
requirements if there are sufficient enough errors found in the 
counting of results. This information will be collected by the state 
and posted on the web site.
    Elections have been to this point a function of the states and 
local election officials and the collecting of the information should 
be kept to the responsibility of state and local election officials.

Q4.  Ms. Kiffmeyer, Dr. Wagner made a number of short-term 
recommendations based on the Brennan Center report that he believes 
could improve the security and reliability of voting equipment that 
will be used this November. These recommendations include routine 
audits of voter-verified paper records, performing parallel testing of 
voting machines, adopting procedures for investigating and responding 
to evidence of fraud or error, and banning voting machines with 
wireless capabilities. Would you please comment on these suggestions?

A4. The short-term recommendations made in the Brennan Center Report 
are ones that will help improve both security and reliability. Routine 
audits of voter-verified paper records also provide an additional level 
of fairness and accuracy in our elections process. Procedures for 
investigating and responding to evidence of fraud or error are 
efficient tools necessary to the integrity of the process. In regards 
to performing parallel testing of voting machines, Minnesota does not 
require such a test at this time, but may in the future. As there is a 
valid concern for wireless components being used during voting in the 
polling place, Minnesota law prohibits wireless functions to take place 
during voting. In other words, wireless components should only be 
turned on after the polls close and voting is complete.

Q5.  Ms. Kiffmeyer, Dr. Wagner's testimony outlines problems that we 
frequently see reported in news articles about problems with voting 
equipment In addition to his comments on the current status of voting 
equipment, he makes a number of longer-term recommendations, many which 
focus on conformance criteria and testing of voting machines. Would you 
please comment on these recommendations?

Q5a.  Mandate voter-verified paper records and mandatory manual audits.

A5a. I agree. Minnesota not only requires a voter-verified paper 
record, it requires an actual paper ballot.

Q5b.  Expand standards from focusing primarily on functionality testing 
to incorporate technical evaluations of the security, reliability, and 
usability of voting machines.

A5b. I agree. Minnesota requires a source code review that assures that 
the votes are accurately recorded and counted.

Q5c.  Eliminate conflicts of interest in the federal testing process by 
establishing a new funding process whereby Independent Testing 
Authorities (ITA) are not paid by the vendors whose systems they are 
testing.

A5c. I agree as long as the funding is certain and long-term.

Q5d.  Reform the federal testing process to make all ITA reports 
publicly available and documentation and technical package data 
available to independent technical experts.

A5d. I agree but with limits. As long as the reports or documentation 
does not assist persons with malicious activities in mind to get 
information that would assist them to breach security or make it easier 
to hack and to affect the recording and tabulating of votes.

Q5e.  Require broader disclosure of voting system source code, at a 
minimum to independent technical experts under appropriate non-
disclosure agreements.

A5e. I believe that the voting system source code should require 
security in its distribution as concerns for giving knowledge to those 
with malicious intents is a risk. Until the security and risk concerns 
can be addressed, the wide distribution of source code could lead to 
the loss of source code to those who have malicious intents and thus 
lead to greater security risk or risk of hacking. That is an ultimate 
possible unintended consequence. We must act carefully on this matter.

Q5f.  Institute a process for collecting, investigating, and acting on 
data from the field on performance of voting equipment, including a 
mechanism for interim updates to the standards to reflect newly 
discovered threats to voting systems.

A5f. I agree. The accuracy and the integrity of elections are essential 
to the process of fair and honest elections. All new methods of 
ensuring the correct outcome of every election has value and every 
effort should be made and funded fully to accomplish that laudable 
goal.

Q5g.  Increase the representation of technical experts in computer 
security on the TGDC.

A5g. I agree. In the review of our source code there were requirements 
to have security experts as part of the team reviewing the source code. 
However, election practitioners especially at the state level should 
also be in high representation with the technical experts. Security is 
more than the technological box. It is the sum total of the election 
system including voter registration.
                   Answers to Post-Hearing Questions
Responses by Linda H. Lamone, Administrator of Elections, Maryland 
        State Board of Elections

    As I stated in my testimony, it is important to recognize that the 
new voting system standards are the first step in an evolution, not a 
panacea with an immediate and dramatic impact on elections as some 
observers believe.
    Before responding to your questions for the record, I would like to 
share with you some important information that seems to have been lost 
in the ongoing debate about voting systems.
    First, it is important to understand why jurisdictions chose Direct 
Recording Electronic (DRE) voting systems in the first place. DRE 
voting systems are the most accurate voting systems. They eliminate 
issues of voter intent and over-votes, offer accessible voting to most 
voters with disabilities, and easily accommodate multiple languages.
    One way to measure the accuracy of a voting system is to evaluate 
the number of voters who cast a ballot but did not record a vote for 
the highest contest on the ballot (typically President or Governor). In 
2000, there were 10,553 voters in Maryland who went to the polls to 
vote and did not have a vote recorded for President. In 2004, there 
were 7,541 voters who voted but did not have a vote recorded for 
President.\1\ This represents a 29 percent decrease in the number of 
voters who voted but did not record a vote for President. As 
demonstrated in Maryland and other states, the transition from lever 
machines, punchcard, and optical scan voting systems to DRE voting 
systems has translated into more voters having their votes counted.\2\ 
This, of course, is the reason for elections--to capture the will of 
the people.
---------------------------------------------------------------------------
    \1\ In 2000, nineteen counties in Maryland used optical scan voting 
systems, three counties used mechanical lever machines, one used a 
punchcard voting system, and one used a DRE voting system. In 2004, all 
twenty-four jurisdictions used a DRE voting system; twenty-three 
counties used the same DRE, with the remaining jurisdiction using a 
different DRE. In 2006, all twenty-four jurisdictions will be using the 
same DRE.
    \2\ See Stewart, Charles III, ``Residual Vote in the 2004 
Election,'' CalTech/MIT Voting Technology Project, February 2005, http/
/vote.caltech.edu/media/documents/wps/vtp<INF>-</INF>wp25.pdf
---------------------------------------------------------------------------
    Second, it is commonly accepted by computer scientists that no 
voting system can be made 100 percent secure. While security procedures 
have been standard operating procedures in election administration, it 
is important to recognize that paper ballots pose an equal--if not 
greater--security risk than DRE voting systems. Throughout this 
nation's history, there are countless examples of outright fraud to 
questionable procedures with paper ballots. While I am not questioning 
the integrity of elections conducted on paper-based voting systems, it 
is important to recognize that implementing these systems do not 
eliminate or even reduce security concerns. Actually, paper-based 
systems are more vulnerable as there is no special technical knowledge 
that is required to alter or remove a paper ballot.
    Third, although the advocates opposing the use of DRE voting 
systems are organized and active, they do not represent a majority of 
voters in Maryland. Earlier this year, I commissioned a public opinion 
poll to assess what Maryland voters thought of the DRE voting system 
used in Maryland. Eighty-two percent of the respondents thought their 
votes on DRE voting systems were counted and recorded accurately, and 
76 percent had a favorable opinion about touchscreen voting. 
Interestingly, 77 percent of the survey respondents were not even aware 
of the debate about electronic voting. This survey clearly shows that, 
in Maryland, there is no ``crisis of confidence'' in the voting system. 
A copy of the report is enclosed for your information.

Questions submitted by Chairman Vernon J. Ehlers and Chairman Sherwood 
                    L. Boehlert

Q1.  In his testimony, Dr. Wagner recommended that the Technical 
Guidelines Development Committee (TGDC) and the Election Assistance 
Commission (EAC) take the following actions to improve security and 
reliability of voting systems. For each recommendation listed below, 
please answer these questions: Do you agree with the recommendation? If 
so, to what extent and how is Maryland implementing the recommendation? 
If not, why not?

A1. 

        <bullet>  Mandate voter-verified paper records and mandatory 
        manual audits.--Because of the extensive pre-election, Election 
        Day, and post-election testing we conduct on the State's voting 
        system and numerous security analyses and resulting security 
        procedures, we are confident that the voting system accurately 
        counts and records votes. For this reason, I do not believe 
        that a voter-verified paper record improves the accuracy of a 
        thoroughly tested voting system.

            Additionally, I am concerned that a mandatory voter-
        verified paper record would stifle--and likely already has--the 
        development of other independent verification technologies. 
        Last winter, I contracted with two University of Maryland 
        institutions to conduct an independent study on vote 
        verification systems, including voter-verified paper trails. 
        Several of the technologies were very promising and offered 
        audit and verification tools that are not possible with voter-
        verified paper records. One, for example, could provide the 
        amount of time it takes poll workers to prepare the voting unit 
        for voting. This information could be used to enhance poll 
        worker training and inform the vendor on how the opening 
        process on the voting unit could be improved. Mandating voter-
        verified paper records would prevent the development and 
        testing of other verification solutions.

        <bullet>  Expand standards from focusing primarily on 
        functionality testing to incorporate technical evaluations of 
        the security, reliability, and usability of voting machines.--I 
        agree that all aspects of voting systems should be tested and 
        that testing should extend beyond just functional testing. 
        Although Dr. Wagner states that the current ``standards 
        primarily focus on functionality testing,'' this is not the 
        case. Both the 2002 Voting Systems Standards and the Voluntary 
        Voting System Guidelines (VVSG) incorporate standards for 
        testing accessibility, reliability, and security.

        <bullet>  Eliminate conflicts of interest in the federal 
        testing process by establishing a new funding process whereby 
        Independent Testing Authorities (ITA) are not paid by the 
        vendors whose systems they are testing.--The testing process 
        under the National Association of Election Directors, the 
        entity that previously oversaw the testing process, has been 
        conducted with the highest integrity. Although I am open to 
        discussing different federal testing structures, the current 
        testing process is objective, and to suggest that there are 
        conflicts of interest implies that the vendors have influence 
        over the voting system testing process solely because they pay 
        for testing. This is not the case.

        <bullet>  Reform federal testing process to make all ITA 
        reports publicly available and documentation and technical 
        package data available to independent technical experts.--With 
        the EAC assuming responsibility for the voting system 
        certification process, more information about voting system 
        testing will be available.

        <bullet>  Require broader disclosure of voting system source 
        code, at a minimum to independent technical experts under 
        appropriate non-disclosure agreements.--In the EAC's upcoming 
        certification program, voting system vendors will be required 
        to submit a final software version to an escrow agent and allow 
        election officials to compare the delivered software against 
        the software version on file with the escrow agent. Maryland 
        has previously used NIST's National Software Reference Library 
        to compare the version of the software being used in the State 
        against the version qualified by the National Association of 
        State Election Directors. This comparison has been performed 
        both before and after statewide elections and reassures 
        election officials that no unauthorized software is being used.

        <bullet>  Institute a process for collecting, investigating, 
        and acting on data from the field on performance of voting 
        equipment, including a mechanism for interim updates to the 
        standards to reflect newly discovered threats to voting 
        systems.--It is my understanding that the EAC has developed a 
        process to collect and investigate claims that voting systems 
        are not performing appropriately and are not in compliance with 
        voting system standards, and I support this effort. It is 
        important that the EAC serve as both a resource to election 
        officials for investigating potential voting system 
        malfunctions and noncompliance with standards and, if 
        necessary, initiating a decertification system if the 
        allegations are substantiated.

        <bullet>  Increase representation of technical experts in 
        computer security on the TGDC.--Four of the fifteen--or 25 
        percent--of the TGDC's current members are technical experts. 
        (Election officials currently hold four seats on the TGDC, the 
        same number as technical experts.) Increasing the number of 
        technical experts at the expense of other subject matter 
        experts would not reflect the realities of voting systems and 
        elections administration and would alter the balance that 
        currently exists on the TGDC. While technical experts play an 
        important role in improving election administration, they are 
        but one voice in the debate.

Q2.  In his testimony, Dr. Wagner said that the federal standards 
process is not working, and that ``Federal standards are not sufficient 
to guarantee that federally-approved voting systems are able to 
adequately protect the integrity of our elections, either against 
unintentional failures, or against deliberate tampering.'' Do you agree 
with this statement? If so, why, and if not, what is your assessment of 
the current state of voting equipment in terms of reliability and 
security?

A2. As the VVSG are not yet in effect nor being used for testing and 
the EAC has only just started its work in accrediting testing 
laboratories, I do not believe that the decision can be made that the 
federal standards process does not work. As I noted earlier, the voting 
system standard process is an evolution, and no one should have 
expected that the VVSG was going to improve dramatically and 
immediately voting systems and the testing process. It is important to 
give the current VVSG and future versions time to impact voting 
systems.
    While I think the VVSG and new testing structure will improve 
voting systems over time, I believe that the current voting systems are 
reliable and secure with appropriate security policies and procedures 
in place. Like any information technology system, the security of the 
system is more than just the hardware and software; it includes the 
people that work with the system and the procedures that surround the 
system. Best practices and management standards can be shared among 
election officials to improve the security of voting systems.

Q3.  What are your top three priorities for updated to the 2005 
Voluntary Voting System Guidelines (VVSG)?

A3. As the VVSG are not yet in effect nor being used for testing and 
the EAC has only just started its work in accrediting testing 
laboratories, it is important to give both the VVSG and the EAC time to 
work before making significant recommendations. That being said, I 
recommend that future versions of the VVSG include state-specific 
certification requirements. This would enable state election officials 
could accept the EAC's certification as the basis of state 
certification. This joint certification would reduce the resources 
needed to conduct state certification without a reduction in confidence 
in the voting system and would greatly benefits states with less 
financial resources for testing. Incorporating a joint certification 
could also provide an additional incentive for states to adopt the 
VVSG.
    The EAC has contracted with two experienced and well-respected 
election officials to develop management standards. While these 
management standards will cover many topics related to elections 
management, they will also focus on standards for voting systems. I 
believe that this effort has enormous potential to improve election 
administration and the security of voting systems. I also believe tha 
the EAC could provide much needed assistance to states and counties by 
offering best practices and assistance in negotiating contracts with 
voting system vendors.

Q4.  If the EAC or another organization provided an incident reporting 
system for the 2006 election through which election managers could 
systematically report problems with voting equipment, would this be 
useful to you, and if so, how would you recommend the system be 
structured?

A4. Maryland collects information on reported voting system 
malfunctions from a variety of sources: (poll workers, voting unit 
technicians, State and local election officials, and vendor's help 
desk). Either county or State election officials follow-up on the 
information and determine the root cause of the problem.
    A 2004 analysis of voting units from Maryland's largest 
jurisdiction showed that many of the voting units flagged by election 
officials and poll workers as requiring special attention or review 
were voting units that did not have the power cord properly inserted, 
causing the internal battery to drain, and the voting unit to 
eventually lose power, physical damage to the voting unit booths (which 
may include issues such as broken legs or cases); any voting unit that 
has substantially fewer ballots cast on it than others in the same 
precinct; or any other reason that an election judge or local election 
board staff member feels the voting unit needs to be analyzed, either 
because a problem was observed or reported by a voter. After careful 
review of all of the voting units referred for additional analysis, 
State election officials found that only .4 percent of that county's 
voting units had issues on Election Day.
    I believe that it is important to collect this information at the 
national level to assist election officials with identify summon 
concerns and work collaboratively to address any issues. As with any 
national survey and the resulting conclusions based on the data, it is 
important that there are standard and clear definitions and that the 
data is used to improve the voting process, not for criticizing 
election officials or a specific vendor, and that election officials 
have time to conduct an initial review of the reported voting system 
malfunctions. For obvious reasons, a voting unit with a broken leg must 
be recorded and analyzed differently than a voting unit that freezes 
during voting hours. The EAC has a similar belief as it has developed a 
process to collect and investigate allegations of malfunctioning voting 
systems and systems that are in compliance with voting system 
standards.

Q5.  The 2005 VVSG contains an appendix on independent dual 
verification systems could perform the same functions as a voter-
verifiable paper audit trail Is this technology being used in voting 
systems today or is more research needed to make it operational? What 
are the advantages and disadvantages of this technology? To what extent 
are there other technologies that could perform the same function as a 
voter-verifiable paper audit trail?

A5. As I noted earlier, two University of Maryland institutions 
conducted an independent technical and usability study on four vote 
verification systems. The systems included in the study were VoteHere's 
Sentinel, SCYTL's Pnyx.DRE, MIT Professor Ted Selker's voter-verified 
audio audit trail, and Diebold Election Systems, Inc.'s voter-verified 
paper audit trail. A copy of the combined report is enclosed for your 
information.
    The study found that none of the vote verification systems--
including voter-verified paper trail--are fully developed and that 
implementing any one of the systems would greatly increase the 
complexity of the election and, as implemented in Maryland, jeopardize 
the secrecy of the ballot. That being said, the researchers found that 
each of the systems could provide some level of vote verification if 
the system was fully developed, fully integrated with the voting 
system, and effectively implemented. Although the conclusion of the 
study was to recommend against implementing any one of the 
participating vote verification systems, these systems might become 
viable with further development and testing. As a result, it is 
important that further development not be stifled by mandating a 
specific vote verification system for use.

Questions submitted by Democratic Members

Q1.  What documentation do your voting system vendors currently provide 
you that explain the security features of voting systems and the 
procedures required for your elections to be secure?

A1. The State's voting system vendor provides the standard ``User's 
Guide'' for the touchscreen and a guide for the software. These 
documents give an overview of the security features, such as data 
encryption and the use of dynamic keys, provide recommendations for 
their use, and detailed instructions on how to use those features. For 
new software releases, they also provide release notes that detail new 
or updated security features.
    With respect to the procedures required to secure elections, I 
believe that this is the responsibility of election officials, not 
vendors. While election officials should consider the vendor's 
recommendations for operating a secure voting system, it is ultimately 
the duty of election officials to implement security procedures.
    In Maryland, we have contracted with outside firms to conduct a 
variety of security assessments and have internal resources implement 
the recommendations of these assessments and develop procedures to 
protect the election process. The agency's Chief Information Officer 
has significant experience in security-related matters, and a Chief 
Information System Security Officer is on staff to review the vendor's 
recommendations and develop security procedures for all aspects of the 
election process. These internal resources, combined with the vendor's 
recommendations and outside analyses, demonstrate the commitment to 
preserving the integrity of the election process and reducing the 
likelihood of any tampering with the election.

Q2.  What additional improvements are needed (if any) for the voluntary 
guidelines and national certification process? Also, what additional 
steps should the Election Assistance Commission take to support efforts 
of states and local jurisdictions to acquire and operate accurate, 
reliable, and secure voting equipment?

A2. As the Voluntary Voting Systems Guidelines (VVSG) are not yet in 
effect nor being used for testing and the Election Assistance 
Commission (EAC) has only just started its work in accrediting testing 
laboratories, it is important to give both the VVSG and the EAC time to 
work before making significant recommendations. That being said, I 
recommend that future versions of the VVSG include state-specific 
certification requirements. This would enable state election officials 
to accept the EAC's certification as the basis of state certification. 
This joint certification would reduce the resources needed to conduct 
state certification without a reduction in confidence in the voting 
system and would greatly benefits states with less financial resources 
for testing. Incorporating a joint certification could also provide an 
additional incentive for states to adopt the VVSG.
    The EAC has contracted with two experienced and well-respected 
election officials to develop management standards. While these 
management standards will cover many topics related to elections 
management, they will also focus on standards for voting systems. I 
believe that this effort has enormous potential to improve election 
administration and the security of voting systems. I also believe that 
the EAC could provide much needed assistance to states and counties by 
offering best practices and assistance in negotiating contracts with 
voting system vendors.

Q3.  GAO recently reported that only 15 percent of jurisdictions 
collect measures on voting equipment failures. Does your state collect 
data on voting equipment failures and what have you found from the data 
you've collected? What are your views on collecting this information on 
a national basis?

A3. Maryland collects information on reported voting system 
malfunctions from a variety of sources (poll workers, voting unit 
technicians, State and local election officials, and vendor's help 
desk). Either county or State election officials follow-up on the 
information and determine the root cause of the problem.
    A 2004 analysis of voting units from Maryland's largest 
jurisdiction showed that many of the voting units flagged by election 
officials and poll workers as requiring special attention or review 
were voting units that did not have the power cord properly inserted, 
causing the internal battery to drain, and the voting unit to 
eventually lose power, physical damage to the voting unit booths (which 
may include issues such as broken legs or cases); any voting unit that 
has substantially fewer ballots cast on it than others in the same 
precinct; or any other reason that an election judge or local election 
board staff member feels the voting unit needs to be analyzed, either 
because a problem was observed or reported by a voter. After careful 
review of all of the voting units referred for additional analysis, 
State election officials found that only .4 percent of that county's 
voting units had issues on Election Day.
    I believe that it is important to collect this information at the 
national level to assist election officials with identifying common 
concerns and working collaboratively to address any issues. As with any 
national survey and the resulting conclusions based on the data, it is 
important that there are standard and clear definitions, that the data 
is used to improve the voting process, not for criticizing election 
officials or a specific vendor, and that election officials have time 
to conduct an initial review of the reported voting system 
malfunctions. For obvious reasons, a voting unit with a broken leg must 
be recorded and analyzed differently than a voting unit that freezes 
during voting hours.

Q4.  Dr. Wagner made a number of short-term recommendations based on 
the Brennan Center report that he believes could improve the security 
and reliability of voting equipment that will be used this November. 
These recommendations include routine audits of voter-verified paper 
records, performing parallel testing of voting machines, adopting 
procedures for investigating and responding to evidence of fraud or 
error, and banning voting machines with wireless capabilities. Would 
[you] please comment on these suggestions?

A4. I generally agree with Dr. Wagner's recommendations to the extent 
that election officials should implement recognized best practices and 
measures that verify the accuracy and integrity of the voting system. 
To that end, Maryland has implemented pre-election and Election Day 
parallel testing, has procedures for investigating and responding to 
allegations of fraud or error, and does not use voting systems with 
wireless capabilities. Although the State's voting system does not have 
a voter-verified paper record, there are routine audits performed after 
each election to verify the accuracy of the voting system. 
Jurisdictions that are not already planning on implementing these 
short-term recommendations for the upcoming November elections may not 
have sufficient time to implement best practices and develop and 
implement these recommendations.

Q5.  Dr. Wagner's testimony outlines problems that we frequently see 
reported in news articles about problems with voting equipment. In 
addition to his comments on the current status of voting equipment, he 
makes a number of longer-term recommendations, many which focus on 
conformance criteria and testing of voting machines. Would you please 
comment on these recommendations?

A5. Before responding to Dr. Wagner's recommendations, I think it is 
very important to recognize that many ``problems'' reported in the news 
are not voting system problems; they are, in fact, problems caused by 
human error. For example, in 2004, the media reported that voting 
systems in several Maryland precincts failed. The voting units 
prevented voting, because precinct-specific encoders (the device that 
tells the voting unit which ballot to load) were delivered to the wrong 
precinct. The voting system worked exactly as it should have; that is, 
it prevented the wrong encoder from working with the voting system. 
Although reported as such, this was not a voting system problem; it was 
simply a human mistake.
    After each of Dr. Wagner's recommendations, I have provided 
comment.

        <bullet>  Mandate voter-verified paper records and mandatory 
        manual audits.--Because of the extensive pre-election, Election 
        Day, and post-election testing we conduct on the State's voting 
        system and numerous security analyses and resulting security 
        procedures, we are confident that the voting system accurately 
        counts and records votes. For this reason, I do not believe 
        that a voter-verified paper record improves the accuracy of a 
        thoroughly tested voting system.

            Additionally, I am concerned that a mandatory voter-
        verified paper record would stifle--and likely already has--the 
        development of other independent verification technologies. 
        During our study of vote verification systems, several of the 
        products were very promising and offered audit and verification 
        tools that are not possible with voter-verified paper records.

            One, for example, could provide the amount of time it takes 
        poll workers to prepare the voting unit for voting. This 
        information could be used to enhance poll worker training and 
        inform the vendor on how the opening process on the voting unit 
        could be improved. Mandating voter-verified paper records would 
        prevent the development and testing of other verification 
        solutions.

        <bullet>  Broaden the focus beyond functionality testing.--I 
        agree that all aspects of voting systems should be tested and 
        that testing should extend beyond just functional testing. 
        Although, Dr. Wagner states that the current ``standards 
        primarily focus on functionality testing,'' this is not the 
        case. Both the 2002 Voting Systems Standards and the 2005 VVSG 
        incorporate standards for testing accessibility, reliability, 
        and security.

        <bullet>  Eliminate conflicts of interest in the federal 
        testing process.--The testing process under the National 
        Association of Election Directors, the entity that previously 
        oversaw the testing process, has been conducted with the 
        highest integrity. Although I am open to discussing different 
        federal testing structures, the current testing process is 
        objective, and to suggest that there are conflicts of interest 
        implies that the vendors have influence over the voting system 
        testing process solely because they pay for testing. This is 
        not the case.

        <bullet>  Reform federal testing process to provide more 
        transparency and openness.--With the EAC assuming 
        responsibility for the voting system certification process, 
        more information about voting system testing will be available. 
        Examples of information that will be available from the EAC 
        include testing reports and technical data packages.

        <bullet>  Require broader disclosure of voting system source 
        code.--In the EAC's upcoming certification program, voting 
        system vendors will be required to submit a final software 
        version to an escrow agent and allow election officials to 
        compare the delivered software against the software version on 
        file with the escrow agent. Maryland has previously used MST's 
        National Software Reference Library to compare the version of 
        the software being used in the State against the version 
        qualified by the National Association of State Election 
        Directors. This comparison has been performed both before and 
        after statewide elections and reassures election officials that 
        no unauthorized software is being used.

        <bullet>  Incorporate closed feedback loops into the regulatory 
        process.--It is my understanding that the EAC has developed a 
        process to collect and investigate claims that voting systems 
        are not performing appropriately and are not in compliance with 
        voting system standards, and I support this effort. It is 
        important that the EAC serve as both a resource to election 
        officials for investigating potential voting system 
        malfunctions and noncompliance with standards and, if 
        necessary, initiating a decertification system if the 
        allegations are substantiated.

        <bullet>  Strengthen the evaluation of usability and 
        accessibility.--I believe that the enhanced usability and 
        accessibility standards in the VVSG are an important first 
        step. I understand that the 2007 standards will include 
        additional usability and accessibility factors.

        <bullet>  Increase representation of technical experts in 
        computer security on the TGDC.--Four of the fifteen--or 25 
        percent--of the TGDC's current members are technical experts. 
        (Election officials currently hold four seats on the TGDC, the 
        same number as technical experts.) Increasing the number of 
        technical experts at the expense of other subject matter 
        experts would not reflect the realities of voting systems and 
        elections administration and would alter the balance that 
        currently exists on the TGDC. While technical experts play an 
        important role in improving election administration, they are 
        but one voice in the debate.

        <bullet>  Ensure that standards are grounded in the best 
        scientific and engineering understanding.--While I agree with 
        this recommendation, the science of voting systems must be 
        balanced against the realities of elections.
                   Answers to Post-Hearing Questions
Responses by David Wagner,\1\ Professor of Computer Science, University 
        of California-Berkeley
---------------------------------------------------------------------------
    \1\ This work was supported by the National Science Foundation 
under Grant No. CNS-052431 (ACCURATE). Any opinions, findings, and 
conclusions or recommendations expressed in this material are those of 
the author and do not necessarily reflect the views of the National 
Science Foundation. I do not speak for UC-Berkeley, the National 
Science Foundation, or any other organization. Affiliations are 
provided for identification purposes only.

Questions submitted by Chairman Vernon J. Ehlers and Chairman Sherwood 
---------------------------------------------------------------------------
                    L. Boehlert

Q1.  How do you think the sections of the 2005 Voluntary Voting Systems 
Guidelines (VVSG) that deal with security should be improved?

A1. I recommend sweeping changes to how the 2005 Voluntary Voting 
Systems Guidelines (VVSG) deal with security, to bring them up to date 
with fundamental changes over the past decade in how voting systems are 
built. The 2007 VVSG are in the process of being drafted, and I propose 
several suggestions for consideration.

        <bullet>  Require that systems provide voter-verified paper 
        records. The single most effective step that the VVSG could 
        take to improve security would be to stop certifying new voting 
        systems that do not provide a voter-verified paper record. The 
        VVSG could also be revised to require that the use procedures 
        provided by the vendor specify how to perform a routine manual 
        audit of these paper records.

            Given the current state-of-the-art, there is no known way 
        to provide a comparable level of security without voter-
        verified paper records. In the long run, as technology 
        advances, it may be possible to develop alternative voting 
        technologies that provide an equal or greater level of security 
        without using paper. Consequently, it may be appropriate to 
        structure the VVSG to permit other systems that demonstrably 
        provide an equal or greater level of security as voter-verified 
        paper records with manual audits. However, any such provision 
        would need to be accompanied by a new process for determining 
        which systems meet this criteria. The current evaluation and 
        testing process is not capable of making these determinations 
        with any credibility; major reforms of the current processes 
        would be required before such a provision would be safe to add. 
        Adding such a provision without accompanying reform of the 
        process used to evaluate which systems qualify for the 
        exception would eliminate much of the benefit of a requirement 
        for voter-verified paper records. In addition, it should be 
        expected that evaluating the security of systems that do not 
        use voter-verified paper records will be considerably more 
        expensive and difficult than evaluating systems that use voter-
        verified paper records, due to the fact that paperless systems 
        do not record a permanent copy of the voter's intent that the 
        voter can verify.

        <bullet>  Begin enforcing existing requirements. At present, 
        many of the security requirements in the 2005 VVSG are not 
        enforced or tested by the federal qualification process. While 
        the existing requirements of the VVSG are, for the most part, a 
        fairly reasonable start at specifying security requirements for 
        a voting system, the lack of enforcement renders these well-
        intentioned requirements ineffective.

            The VVSG do not specify any specific testing procedure for 
        many of the security requirements, and perhaps as a 
        consequence, the federal testing labs apparently do not perform 
        an independent analysis of whether these requirements are met. 
        Instead, the testing labs seem to concentrate their efforts on 
        requirements for which there is a concrete testing procedure 
        defined in the VVSG. We now know of multiple examples where the 
        federal testing labs have approved voting systems that contain 
        violations of the VVSG [1].

        <bullet>  Create faster ways to investigate and act on 
        experience from the field. At present, the EAC has no way to 
        respond quickly to new discoveries about the security of 
        deployed voting systems. Currently, the only mechanism the EAC 
        has to affect the machines that voters vote on is to revise the 
        VVSG. However, these revisions take an extremely long time to 
        take effect. For instance, the next revision of the VVSG is not 
        scheduled until 2007. Moreover, the 2007 VVSG are not expected 
        to take effect until 2009. Furthermore, when the 2007 VVSG do 
        go into effect in 2009, they will only affect newly developed 
        or modified systems submitted for certification after that 
        date. Any systems that had been already certified or already 
        deployed at that time would be grandfathered. Consequently, any 
        new provisions in the 2007 VVSG will only affect systems 
        purchased after 2009, and possibly only systems that were both 
        developed and purchased after 2009. Because jurisdictions 
        purchase new systems only rarely--perhaps once a decade or so, 
        at best--any revisions to the VVSG that the EAC wished to make 
        today might not have any impact on the machines that a majority 
        of Americans vote on until 2015 or so.

            Moreover, the EAC has no formalized, systematic way to 
        gather data from the field about the performance of voting 
        systems or to track incidents and failures across the country.

            In comparison, the aviation industry has more effective 
        mechanisms for investigating and responding to new discoveries 
        about threats to aviation safety. Whenever a plane crash or 
        other serious in-flight anomaly occurs, federal investigators 
        immediately investigate the cause of the failure. If serious 
        problems are found, federal regulators have the authority to 
        require that corrective action be taken immediately, if 
        necessary. The consequence is that federal authorities have the 
        ability to respond to serious problems that affect aviation 
        safety in a matter of months. The EAC lacks any corresponding 
        capability to investigate or respond to voting system failures.

            It would help to create ways to investigate voting system 
        failures, to require reporting of election incidents, to gather 
        data from the field and quantitatively measure the rate of 
        failures, to update voting standards more frequently in 
        response to this data, and to require timely adherence to the 
        standards [2].

            Also, it would help to establish a process to decertify 
        voting systems that are certified and then are subsequently 
        discovered to have security flaws or to violate the standards. 
        It would help if the EAC were to exercise its authority to 
        decertify systems when they are found to have security 
        vulnerabilities.

        <bullet>  Require some additional safeguards recommended by 
        security experts. Many security experts have recommended 
        several additional safeguards: banning wireless communications 
        in voting systems; banning some forms of interpreted code; 
        banning code stored on removable storage media. These would not 
        on their own fix all the security problems we are currently 
        experiencing, but they would help address some known gaps in 
        the standards.

Q1a.  Do you think that the way in which security for voting systems is 
tested needs to change? If so, how, and if not, why not?

A1a. Yes. The current process is not working: systems with serious 
security vulnerabilities are getting approved. I suggest several 
reforms.

        <bullet>  Convene a panel of security experts to conduct 
        independent security evaluations of every system submitted for 
        certification. Each time a voting system is submitted to the 
        federal qualification process, the EAC could convene a panel of 
        leading security experts from both academia and industry to 
        perform an independent security analysis of the system. 
        Independent security evaluations are standard practice in the 
        field of computer security; the election industry has lagged 
        behind the rest of the field in this respect.

            Over the past few years, external experts have been much 
        more effective at finding security flaws and assessing the 
        security of today's e-voting systems than the federal testing 
        labs. Consequently, it makes sense to enlist those who have 
        demonstrated skill at finding security vulnerabilities in 
        voting systems, so that we know about the flaws and can take 
        appropriate action before the systems are deployed in the 
        field. For instance, in 2003 four academics found more security 
        flaws in one voting system in 48 hours of examination of the 
        voting software than the federal testing labs had in the years 
        that the system was deployed. In 2005, a Finnish security 
        researcher found two significant security vulnerabilities after 
        approximately one week of study of a voting system, upon the 
        request of a county election official in Florida. In 2006, the 
        same Finnish researcher found another serious security 
        vulnerability after another week of study of the same voting 
        system, at the request of a county election official in Utah. 
        Independent security evaluations could help reduce the chances 
        of approving and deploying a flawed system.

            Given that many have lost faith in the ability of federal 
        testing labs to evaluate the security of voting systems, 
        independent security evaluations would provide an independent 
        check on the federal testing labs. Because the effectiveness of 
        an independent security evaluation is highly dependent upon the 
        skills of the participants, it is important that panelists be 
        chosen from among the best minds in computer security. To this 
        end, I would recommend that the EAC consult with the ACCURATE 
        project to identify potential panelists. The panel should have 
        full access to all technical information about the voting 
        system, including all source code. The panel should also have 
        full access to a working unit of the voting system, and the 
        authority and ability to physically inspect and run tests on 
        that unit. The panel should be asked to write a report of their 
        findings, and the report should be made public in its entirety. 
        If necessary, the vendor's proprietary interests can be 
        protected, while preserving transparency and the independence 
        of the evaluators, through an appropriate non-disclosure 
        agreement.

        <bullet>  Require vendors to disclose the source code of all 
        voting system software by a specified future date. The use of 
        secret software has contributed to a loss of transparency and 
        eliminated opportunities for public oversight of important 
        parts of the machinery of our elections [3]. This secretiveness 
        has contributed to a loss of confidence in the voting systems. 
        The best way to remedy this would be to require that vendors 
        make all source code, and other technical information about the 
        design and construction of their voting machines, publicly 
        available for all interested parties to examine [4]. Vendors 
        would still enjoy the protection of patent and copyright law 
        but would be required to forfeit trade secrecy in their 
        software to field systems in federal elections.

            Some transition strategy may needed to phase in this 
        requirement. One possibility is to specify a date several years 
        in the future after which source code to voting systems would 
        be required to be disclosed and provide advance notice to 
        vendors of that date. In the short-term, source code might be 
        required to be disclosed to any accredited security expert who 
        is willing to sign appropriate non-disclosure agreements.

        <bullet>  Eliminate the COTS loophole. The standards currently 
        contain an exception that exempts commercial off-the-shelf 
        software (COTS) from some of the testing. Because COTS software 
        has been implicated in some recent security vulnerabilities, I 
        believe there is a good argument for eliminating this 
        exception.

        <bullet>  Eliminate conflicts of interest; ensure that 
        evaluators are truly independent. At present, the federal 
        testing labs work for the vendors: they are paid and selected 
        by the voting vendors. We need some other mechanism that better 
        ensures the independence of the testing labs.

            One possibility would be for the testing labs to be paid by 
        the Federal Government, with vendors required to reimburse the 
        government for all costs incurred. For instance, in California 
        the state has set up an escrow account for each vendor. The 
        vendor is required to deposit sufficient funds to cover all the 
        costs of certification testing into this account; when the 
        state hires consultants or other experts, they are paid out of 
        this escrow account. The Federal Government could use a similar 
        system. This would make it clear that labs work for the Federal 
        Government and have a fiduciary responsibility to the 
        citizenry, not to the vendor.

            It may be possible to devise creative new approaches that 
        rely on market forces to make testing more effective. For 
        instance, if federal labs had to pay damages when a voting 
        system they approved turned out to be insecure, they would have 
        an incentive to make their testing processes as effective as 
        possible. One possibility might be to require federal labs to 
        carry insurance and give all citizens standing to sue the labs 
        for approving insecure voting systems, setting the damages for 
        endangering democracy at a high dollar amount. Federal approval 
        of a voting system might mean far more if testing labs needed 
        to keep their insurance premiums down in order to remain 
        profitable. It is not clear whether such an approach can be 
        made workable, but new incentive structures may be worth 
        exploring.

        <bullet>  Make all reports from the testing labs public. Today, 
        the results from the federal testing labs are not made 
        available to the public. The labs consider them proprietary and 
        the property of the vendor. If a system fails to gain the 
        testing lab's approval, this fact is not disclosed to anyone 
        other than the vendor who paid for the testing.

            I recommend that the results of all testing at the federal 
        level be disclosed to the public. All reports produced by the 
        testing labs should be published in full, whether the systems 
        pass or fail.

        <bullet>  Enforce all security requirements in the standards. 
        As mentioned earlier, many security requirements are never 
        tested and consequently are not enforced. Security evaluation 
        of voting systems should change so that all security 
        requirements are assessed. We should expect and require testing 
        labs to fail any voting system if they cannot demonstrate that 
        it meets all security requirements.

Q2.  Is computer security testing different from other types of 
conformance testing, and if so, how? Has this type of testing ever been 
performed on voting equipment and if so, what were the results? Should 
this type of testing be performed routinely on voting equipment?

A2. Yes, security evaluation is different from other types of 
conformance testing. Conformance testing--commonly also known under the 
name ``functionality testing'' or ``black-box testing''--is concerned 
with ensuring that the system will respond in certain ways under 
ordinary operating conditions. This makes conformance testing fairly 
straightforward: the best simulates ordinary operating conditions and 
then checks that the system responds as desired under these conditions. 
For instance, if we want to test that a voting system correctly counts 
write-in votes under normal operating conditions, then we can run a 
mock election, cast several write-in votes, and confirm that they are 
counted correctly. As this example illustrates, conformance testing is 
often fairly straightforward.
    In contrast, security evaluation is concerned with ensuring that 
the system will not misbehave when it is intentionally misused. Thus, 
ordinary conformance testing is concerned with how the system behaves 
under normal conditions, while security evaluation is concerned with 
how it behaves under abnormal conditions. Unfortunately, it is very 
difficult to predict how an attacker might try to misuse the system. If 
we could predict how the attacker were going to misuse the system, then 
we could simulate such misuse and observe whether the system is able to 
respond appropriately. However, usually we do not know how an attacker 
might try to misuse the system, and there are too many ways that an 
attacker might try to misuse the system to exhaustively enumerate them 
all. Consequently, there is no way to simulate how the system reacts to 
these kinds of unanticipated attacks. This makes security evaluation 
more difficult than ordinary standard conformance testing.
    For these reasons, standard conformance testing practices are not 
effective at evaluating whether a system is secure or not. Security 
practitioners are familiar with this phenomenon [5]. As a result, when 
experienced practitioners need to evaluate the security of some 
software, they normally use discipline-specific methods chosen to be 
effective for security purposes, instead of just relying on testing. 
These methods always include some form of adversarial analysis, which 
may include elements of threat assessment, source code review, 
architectural review, penetration analysis, and red teaming. Security 
practitioners also understand that, to be most effective, adversarial 
analysis should be performed by security experts who are neutral and 
independent. This process of adversarial analysis, when performed by 
independent security experts, is sometimes known under the name 
``independent security evaluation.'' Use of these adversarial analysis 
methods is routine practice in industries where security is mission-
critical.
    Yes, these security evaluation practices have been applied, on a 
limited basis, to several voting systems. In each case, serious 
security flaws were found.

        <bullet>  In 2003, researchers from Johns Hopkins and Rice 
        Universities undertook an adversarial analysis and source code 
        review of voting software used in Diebold touchscreen voting 
        machines [6]. They found numerous security vulnerabilities.

        <bullet>  In 2004, a security consulting company (RABA 
        Technologies) performed an independent security evaluation of 
        Diebold voting systems and found several security 
        vulnerabilities [7].

        <bullet>  In 2005, Finnish researcher Harri Hursti applied 
        source code analysis and testing to discover and confirm two 
        security vulnerabilities in an optical scan machine 
        manufactured by Diebold [8].

        <bullet>  In 2006, I and several other security experts 
        analyzed source code provided by Diebold as part of our 
        independent security evaluation of Diebold systems [9]. We 
        confirmed that Hursti's vulnerabilities were present in both 
        Diebold optical scan and touchscreen machines. We also found 16 
        other security defects that had not been previously known.

        <bullet>  In 2006, Hursti was asked to examine a Diebold 
        touchscreen machine, and he discovered another serious security 
        vulnerability using adversarial analysis [10].

    In each case, the use of practices specific to the field of 
computer security was central to the effectiveness of these security 
evaluations. As far as I can tell, none of these security 
vulnerabilities had been previously discovered by the federal testing 
labs, perhaps because the labs were focused on standard conformance 
testing and failed to use methods more appropriate to security 
evaluation [11].
    Yes, these security-specific evaluation methods should be applied 
routinely to voting systems. They are the best tools we have for 
weeding out insecure voting systems, for proactively finding and fixing 
security vulnerabilities in voting systems before they are deployed, 
and for increasing confidence in the security of these systems.
    It is worth mentioning that the term ``testing'' has a more 
specific meaning in the computer science jargon than its everyday 
meaning. Someone who is not a computer specialist might use the word 
``testing'' to describe any method for evaluating the quality of 
software or for finding software defects. In contrast, computer 
scientists use the term ``testing'' more narrowly to refer to one 
specific method for evaluating software quality: among computer 
scientists, the unqualified term ``test'' is often viewed as a synonym 
for ``black-box testing,'' ``functionality testing,'' or ``conformance 
testing.'' Computer scientists would say that ``testing'' is just one 
method of assessing the quality of software, but that there are others, 
as well. When it comes to security, those other methods are usually 
more effective than ``testing.'' Because of the potential for 
confusion, I will avoid use of the unqualified word ``testing;'' I will 
use terms like ``functionality testing'' to refer to one specific 
method of evaluating software quality, and terms like ``evaluation'' to 
refer to the broad goal of evaluating software quality and finding 
software defects.

Q3.  In your written testimony, you stated that functionality testing 
is not as good as discipline-specific testing. Please explain the 
difference between functionality and discipline-specific testing, and 
why you believe discipline-specific testing should be used for voting 
equipment.

A3. ``Functionality testing'' is a synonym for ``black-box testing'' or 
``conformance testing.'' Thus, my response to Question 2 is relevant to 
this question as well.
    As I mentioned, security practitioners have developed discipline-
specific methods--methods that are suited to the discipline of computer 
security--for evaluating the security of computer systems. These 
include source code analysis, independent security analysis, 
architecture and design reviews, and red teaming. Functionality testing 
verifies that a machine does what it is supposed to do, when it isn't 
under attack; in contrast, these security evaluation methods verify 
that a machine does not do what it isn't supposed to do, even when it 
is under attack. These discipline-specific methods should be used on 
voting equipment in addition to functionality testing, because they are 
the best known way to assess the security of such systems.
    The discipline of usability has also developed its own discipline-
specific methods for evaluating the usability and accessibility of 
computer systems, including user testing with actual voters and poll 
workers as well as heuristic evaluation by usability and accessibility 
experts. These methods specifically cater to human factors concerns and 
are designed to evaluate how the software influences interactions 
between humans and computers. These methods are focused less on 
functional requirements (e.g., can the system display candidate names 
in a bold font?) and more on assessing performance via quantitative 
metrics of usability. These discipline-specific methods should be used 
for voting equipment, because they are the best known way to assess the 
usability and accessibility of such systems.

Q4.  Mr. Groh and Ms. Lamone expressed concerns about the use of the 
voter-verifiable paper audit trail. These concerns included the 
additional costs to jurisdictions of implementing these systems, and 
the accessibility of such technologies to the disabled community. Ms. 
Lamone also cited a Maryland study that indicated that the paper trail, 
in addition to other verification technologies, was not ready for prime 
time. Do you agree with these concerns? If so, why, and if not, why 
not?

A4. In short: I agree with the concerns about cost; I do not agree with 
the concerns about accessibility; I do not agree with Ms. Lamone's 
characterization of the Maryland study. I provide my reasoning below.

        <bullet>  I do share Mr. Groh and Ms. Lamone's concerns about 
        the costs of implementing systems that support voter-verified 
        paper records. Approximately 15 states have purchased paperless 
        voting systems that do not provide voter-verified paper records 
        [12]. Some of these paperless voting systems can be retrofitted 
        to produce a voter-verified paper trail, but in some cases 
        these systems cannot be easily upgraded or retrofitted with a 
        paper trail. Even when it is possible, retrofitting is not 
        cheap. Replacement is even more expensive, as it involves 
        throwing away equipment and replacing it with more modern 
        equipment. It is certainly understandable why states who have 
        made a significant investment into a particular voting system 
        would be reluctant to scrap these systems and incur significant 
        costs in replacing them. It is unfortunate that some states 
        bought paperless voting systems without realizing the security, 
        reliability, and transparency consequences of that action.

            The costs would vary widely from state to state. Currently, 
        27 states require by law that all voting systems produce voter-
        verified paper records, and another eight states have deployed 
        voting systems with voter-verified paper records even though 
        state law does not require it. In total, 35 states (70 percent 
        of states) have voting systems that already produce a paper 
        audit trail and would not need to be upgraded or replaced. 
        Those 35 states would not incur any cost. The remaining 15 
        states (30 percent) do not consistently use systems with a 
        paper audit trail statewide. In those states, some or all of 
        the voting equipment in the polling places would need to be 
        upgraded, retrofitted, or replaced. On the other hand, 
        equipment used for scanning absentee (mail-in) ballots, which 
        account for 30-40 percent of the vote in many states, would not 
        need to be changed.

            Even within this class of 15 states, costs would vary by 
        state. At one extreme, some states use paperless DREs 
        throughout the state, and all of those DREs in every county 
        would need to be upgraded, retrofitted, or replaced. As best as 
        I can tell, there appear to be five states (DE, GA, LA, MD, SC) 
        in this category. Of those five states, two (GA, MD) use DREs 
        that would need to be completely replaced, because there is no 
        good way to upgrade or retrofit them with a paper trail; two 
        (LA, SC) use DREs for which an approved printer add-on is 
        already on the market; and I do not know whether retrofitting 
        is possible in the remaining state (DE). Obviously, replacing 
        all DREs is the most expensive possible case. At the other 
        extreme, in some states the voting equipment is not uniform 
        throughout the state and costs would be less in some counties 
        than in others. For instance, approximately 52 of 67 Florida's 
        counties use optical scan voting machines plus one accessible 
        voting system (DRE or ballot marking device) per polling place; 
        upgrades for those counties would be less expensive, because 
        the optical scan machines would not need to be upgraded, 
        retrofitted, or replaced.

            Costs will also vary according to the system that is in 
        use. Many modern DREs (e.g., the Diebold TSx, ES&S iVotronic, 
        Sequoia Edge, and Hart-Intercivic eSlate) can be upgraded to 
        produce a paper trail: approved printer units are available on 
        the market. Upgrading these DREs to add a printer might cost 
        approximately $500-$2000 per DRE, depending on the vendor. Some 
        older DREs (e.g., the Diebold TS) cannot easily be upgraded or 
        retrofitted with a paper trail, and would have to be replaced 
        with all new equipment. Buying new DREs normally costs about 
        $3000-$5000 per DRE. However, in some cases it may be cheaper 
        to replace the paperless DREs with a hybrid system using 
        optically scanned paper ballots. These hybrid systems require 
        purchasing one optical scan machine plus one accessible voting 
        machine (DRE with VVPAT or ballot marking device) per precinct, 
        and this equipment typically costs in the ballpark of $10,000-
        $12,000 per precinct. Because an all-DRE solution usually 
        requires several DREs per precinct, hybrid systems using 
        optical scanners may come out cheaper. The cost advantages of 
        hybrid systems are more pronounced in states that require DREs 
        to display a full-face ballot, because full-faced DREs are 
        significantly more expensive than standard DREs [13]. I would 
        encourage jurisdictions to consider all available options.

            In summary, I do not know what the total costs might be, 
        but I share Mr. Groh and Ms. Lamone's concerns that the costs 
        of implementing a voter-verified paper trail will be 
        significant in some states.

        <bullet>  I do not agree with their concerns about the 
        accessibility of these voting systems to the disabled 
        community. The disabled community has praised the development 
        of touchscreen voting systems as providing major improvements 
        in accessibility, and rightly so: the accessibility benefits 
        are significant and real. However, voter-verified paper records 
        are in no way incompatible with these benefits. Today, every 
        major vendor who offers a touchscreen voting machine also 
        offers a version of that touchscreen machine that produces a 
        voter-verified paper record. Those VVPAT-enabled versions 
        provide the same accessibility support--audio interfaces, high-
        contrast displays, sip-and-puff devices, booths designed for 
        wheelchair voters, and so on--as their paperless brethren do. 
        Adding a printer makes the machine no less accessible.

            I believe security and accessibility do not need to be in 
        conflict; I believe we can have both. This is fortunate, 
        because I believe both security and accessibility are important 
        goals.

            I understand that one concern is that visually impaired 
        voters will not be able to independently verify what is printed 
        on the voter-verified paper record. This concern is valid, but 
        I do not consider it a persuasive argument against voter-
        verified paper records. If a blind voter does not trust the 
        voting machine to work correctly, then it is true that they 
        have no way to independently verify that their vote has been 
        recorded correctly. In other words, blind voters must rely upon 
        the voting software to work correctly, and they are vulnerable 
        to software failures; they have no independent means of 
        checking that the software is working correctly. This situation 
        is truly unfortunate. However, this is the case for all 
        currently available voting technologies, whether they print a 
        paper record or not. If the machine prints nothing, then the 
        blind voter still cannot independently verify that their vote 
        has been recorded correctly on electronic storage. To put it 
        another way, with paperless voting machines, neither sighted 
        voters nor blind voters have any chance to independently verify 
        their vote; with voter-verified paper records, sighted voters 
        can independently verify their vote, but blind voters cannot. 
        Voter-verified paper records do not make the independent 
        verification problem any worse for blind voters; they just fail 
        to make things better.

            The policy question is whether it is valuable to improve 
        security and reliability for most voters, even if there are 
        some voters who are not helped by these measures (but are not 
        harmed by them, either) and remain without any means of 
        independent verification.

        <bullet>  I do not agree with Ms. Lamone's characterization of 
        the Maryland study. At present, Maryland uses a paperless 
        touchscreen voting machine, called the Diebold TS. The Maryland 
        study was commissioned to study whether there exists any 
        technology currently on the market that could be used to 
        upgrade or retrofit the Diebold TS with a way for voters to 
        independently verify that their vote was recorded, and to 
        evaluate whether any of these are ready for use in real 
        elections. The Maryland study was specifically limited to 
        studying methods of upgrading or retrofitting the Diebold TS; 
        replacement was out of scope for the study. The conclusion of 
        the study was that there was no good way of upgrading the 
        Diebold TS that would be ready for use in the near future. I 
        have read the study carefully and I agree with that conclusion. 
        I agree with Ms. Lamone that the study was ``very thorough'' 
        and ``provided some very valuable information.''

            However, I disagree with Ms. Lamone's characterization of 
        the study as finding that ``the paper trail'' was not ``ready 
        for prime time.'' In fact, the Maryland study's findings were 
        more narrow than that. The Maryland study was asked not to 
        consider any technology that would require replacing Maryland's 
        Diebold TS machines; they were asked to consider only 
        technology for upgrading those machines, and they did so. It is 
        indeed justified to conclude from the study that none of the 
        systems for upgrading the Diebold TS are ``ready for prime 
        time.'' However, the study says nothing about the viability of 
        other, more modern voting systems that do provide a voter-
        verified paper trail. The correct conclusion to draw from the 
        Maryland study is that if Maryland wants to adopt voter-
        verified paper records, they will need to replace their 
        existing Diebold TS machines; retrofitting is not a viable 
        option. The study says nothing about whether existing, deployed 
        systems that provide a paper trail are ready for prime time. I 
        believe there are existing paper-trail systems that are already 
        ready for prime time.

            Maryland is in an admittedly difficult position. Maryland 
        was one of the first states to adopt touchscreen voting 
        systems, and while the Diebold TS machines they bought were 
        thought by some to be adequate at the time, at present the 
        Diebold TS machines are no longer the most current technology. 
        The Diebold TS was not designed to provide a paper trail. Its 
        successor, the Diebold TSx, does provide a voter-verified paper 
        audit trail. The other major voting system vendors also sell 
        voting machines that do provide a paper trail. Not all states 
        are in the same position that Maryland is in: many states 
        already use systems with a voter-verified paper trail; and some 
        states have voting systems that do not currently provide a 
        voter-verified paper trail, but that can be upgraded or 
        retrofitted to provide a paper trail.

Q5.  The 2005 VVSG contains an appendix on independent dual 
verification systems that could perform the same functions as a voter-
verifiable paper audit trail. Is this technology being used in voting 
systems today or is more research needed to make it operational? What 
are the advantages and disadvantages of this technology? To what extent 
are there other technologies that could perform the same function as a 
voter-verifiable paper audit trail?

A5. No, this technology is not being used today in any deployed voting 
system that I am aware of. More research would be needed to determine 
whether the approach can be made operational. The future of this 
approach is uncertain at this point.
    The advantages and disadvantages of any particular system will 
depend on how that system is designed and implemented. It is difficult 
to comment on advantages and disadvantages in the absence of a fully 
implemented system. I can only speculate.
    One potential disadvantage is that evaluating whether these systems 
meet the security requirements is likely to be significantly more 
expensive for paperless independent dual verification systems than for 
systems producing a voter-verified paper record, both because the 
certification process would need to be overhauled, and because 
assessing whether paperless independent dual verification systems are 
secure is inherently more difficult than assessing whether systems with 
a paper trail meet their security goals. Another potential disadvantage 
of paperless independent dual verification systems is that it may be 
harder for voters who do not have a degree in computer science to know 
whether they should trust those systems. One motivation for seeking 
paperless systems is that eliminating the need to handle or store paper 
could make election administration more efficient. Also, ideally such a 
system might provide visually impaired voters with a way to 
independently verify their vote, which would be a significant 
advantage. Unfortunately, no such method is known at present.
    At present, it is an open question whether it will be possible to 
develop a paperless voting system that can perform the same function as 
a voter-verified paper trail. There does not appear to be any firm 
consensus among computer scientists on whether such an alternative is 
even possible, given the current state of technology; on what 
directions are most promising to explore; or on how far off this goal 
may be. I believe that more research is warranted, but that we should 
not expect deployable replacements for paper anytime soon.

Q6.  Have you conducted any studies of the problems/deficiencies of 
paper-based systems?

A6. Yes. I have conducted studies that revealed some problems and 
deficiencies in certain paper-based systems. I have not attempted to 
undertake any study to exhaustively categorize all possible problems or 
deficiencies that can arise with paper-based systems. Of course, the 
history of paper-based elections in this country dates back at least 
two hundred years, and it is well-known that they can be susceptible to 
certain kinds of problems (e.g., problems in the handling, 
transportation, or storage of paper ballots) if elections are not well-
administered.

Q6a.  Is your support for a voter-verified paper record principally 
motivated by confidence in paper-based systems or a lack of confidence 
in direct recording electronic systems? If the former, what is the 
source of this confidence? If the latter, on what basis do you conclude 
that paper-based systems are necessarily superior?

A6a. My support for voter-verified paper records is motivated both by 
confidence in paper-based elections (if they are administered well) and 
by my lack of confidence in paperless DRE machines.
    My confidence in systems that produce voter-verified paper records 
and include routine manual audits is based on my study of these systems 
and on analysis of their security properties. My confidence in these 
systems is based on the ability of voters to verify for themselves that 
their vote was recorded as they intended, and on the ability of 
observers to verify that votes were counted correctly and to exercise 
effective oversight of the process.
    My lack of confidence in paperless DRE machines is based on my 
study of these systems, on analysis of these systems in the open 
literature [14], and on the documented security flaws and failures of 
these systems. For instance, the Brennan Center report found that with 
paperless DRE machines, a single malicious individual with insider 
access may be able to switch votes, perhaps undetected, and potentially 
swing an election. The analysis in the Brennan Center report also found 
that systems that produce voter-verified paper records and include 
routine manual audits are significantly more secure against these 
threats than paperless DRE machines.

Q7.  Do you foresee any problems that might arise in jurisdictions 
utilizing a voting system that attaches printers to Direct Record 
Electronic voting machines? What do you think they might be?

A7. Yes. There are several issues such jurisdictions may want to be 
aware of.
    First, the introduction of printers raises questions of printer 
jams and the reliability of these devices. California's solution to 
this problem has been to adopt volume testing, where approximately 
10,000 ballots are cast on 50-100 machines in a mock election. Volume 
testing seems to be effective in weeding out unreliable machines and 
improving the reliability of voting machines--including their 
susceptibility to printer jams. The first such volume test found 
serious printer jam problems in one voting system; fortunately, the 
vendor was able to correct those problems, and subsequently their 
system passed the volume testing with no serious problems. California 
has now certified several DRE voting machines that come with an 
printer, and these systems appear to provide a satisfactory degree of 
reliability.
    Second, a voter-verified paper record is only effective in 
proportion to the number of voters who actually verify the paper record 
as they cast their ballot [15]. Consequently, jurisdictions may wish to 
consider undertaking voter education to inform voters of the importance 
of checking the accuracy of the voter-verified paper record.
    Third, there is no point in printing a voter-verified paper record 
if those paper records will never be used or examined by election 
officials for their intended purpose, i.e., to check vote counts. For 
this reason, it is important that the jurisdiction create procedures 
specifying the conditions under which those paper records will be 
inspected, and what will be done in case of a discrepancy between the 
paper record and the electronic record. My own recommendation is that 
jurisdictions adopt routine manual audits; that discrepancies trigger 
an investigation; that any unexplained discrepancies discovered trigger 
a manual recount; and that in the event of a discrepancy between the 
electronic record and paper record, the paper record verified by the 
voter should have a (rebuttable) presumption of accuracy unless there 
is some specific reason to believe that the paper records are 
inaccurate or incomplete.
    Fourth, in any election system that uses paper, the handling, 
transportation, and storage of the paper records is crucial. It is 
important that jurisdictions establish procedures to establish a good 
chain of custody for paper ballots and paper trails. For instance, 
analysis performed by the Brennan Center shows that, if the chain of 
custody is done poorly, jurisdictions may still be vulnerable to fraud, 
no matter what voting technology they use.
    Finally, and most importantly, the success of an election is 
determined by more than just technology: it depends crucially on the 
people who run the election and the processes and procedures they use. 
Effective and competent election administration is crucial--and 
printers do not eliminate this important requirement.

Questions submitted by Democratic Members

Q1.  Dr. Wagner, to what extent do voting system security 
vulnerabilities outlined in the Brennan Center Study reflect weaknesses 
in the 2002 standards and current certification process? To what extent 
have those weaknesses been addressed in the 2005 version of the voting 
systems guidelines and proposed certification process?

A1. The threats outlined in the Brennan Center study reflect 
significant gaps in the 2002 standards and in the current certification 
process. The Brennan Center study identified potential threats to 
voting systems that are not addressed by the 2002 standards or by the 
current certification process.
    Those gaps have not been addressed in the 2005 standards or the 
certification process it proposes. The Brennan Center study suggested 
six concrete recommendations to improve the security of elections. None 
of those are required or recommended by the 2005 standards. In some 
cases, the 2005 standards takes stances that are directly at odds with 
the recommendations of the Brennan Center study. For instance, the 
Brennan Center study recommended banning all wireless communications, 
yet the 2005 standards explicitly allow wireless communications under 
certain conditions. One lesson from the Brennan Center study is that 
the best defense against these threats is the use of voter-verified 
paper records with routine manual audits; however, the 2005 standards 
do not require voter-verified paper records or manual audits. If voter-
verified paper records are not in place, the Brennan Center recommended 
that parallel testing be used as a stop-gap; however, the 2005 
standards do not require parallel testing, and very few states 
currently undertake the effort (and expense) of parallel testing.

Q2.  Dr. Wagner, what additional measures need to be taken at the 
federal level to reduce the incidence of voting system vulnerabilities 
and problems across the U.S.?

A2. Please see to my answers to Question 1, starting on page 1, for 
detailed suggestions.
    The most significant step that could be taken is to mandate that 
all voting systems provide voter-verified paper records, and that 
jurisdictions perform routine manual audits of these records. Also, it 
would help to conduct more rigorous testing of voting machines, 
performed by truly independent authorities, using testing methods based 
on the best scientific and engineering understanding from each 
applicable discipline and performed by experts from each relevant 
field; to invite outside security experts to perform independent 
security evaluations of all voting systems before certification; to 
increase transparency surrounding the federal testing and qualification 
process; to begin enforcing the existing security requirements already 
in the standards; to strengthen the security requirements and testing 
processes so they reflect the latest understanding of voting systems; 
and to disclose the source code of all voting systems.

Q3.  Dr. Wagner, why do you believe that electronic voting machines 
cannot be trusted?

A3. If the electronic voting machines are accompanied by a voter-
verified paper trail and routine manual audits, and if they are used 
properly, I believe that they can be trusted. Under these 
circumstances, they may offer some significant advantages.
    However, I do not believe that paperless electronic voting machines 
can be trusted. The evidence that would be required to trust them is 
nowhere to be found.
    It is beyond the state-of-the-art to verify that the software and 
hardware used in voting systems will work correctly on election day. 
For instance, how do we know that a programmer at the vendor has not 
introduced malicious logic into the voting system? The short answer is 
that we don't. Malicious logic that has been introduced into a voting 
system could, for instance, switch five percent of the votes away from 
one candidate and to the benefit of some other candidate; in a close 
race, this might make the difference between winning and losing, and 
such an attack might be very hard to detect. At present, we have no 
good ways to gain any confidence that our voting systems are free of 
malicious code; that is beyond the state-of-the-art [16]. Consequently, 
it seems there is little alternative but to assume that, for all we 
know, our voting systems could potentially be tampered with to 
introduce malicious code that will be triggered in some future 
election.
    A second significant concern arises due to the possibility of 
defects unintentionally introduced into voting systems. Modern 
electronic voting systems are a highly complex assembly of software and 
hardware, and there are many things that can go wrong. It is not 
possible, given the current state of technology, to verify that voting 
systems are free of defects, flaws, and bugs, or to verify that they 
will record and count votes correctly on election day; given the 
complexity of modern voting systems, this is beyond the state-of-the-
art.
    Consequently, at the moment there seems to be little or no rational 
basis for confidence in paperless electronic voting machines [17]. In 
the end, it's not up to voters to take it on faith that the equipment 
is performing correctly; it's up to vendors and election officials to 
prove it.

Q4.  Dr. Wagner, why is it that most security experts and computer 
scientists believe it is necessary to regularly audit voter-verified 
paper trails?

A4. Routine audits are crucial if we are to trust electronic voting 
[18, 19]. With both DREs and optically scanned paper ballots, it is 
important to routinely spot-check the paper records against their 
electronic counterparts. As I explained in my response to Question 3, 
there is no basis for confidence in the electronic records produced by 
electronic voting systems--we cannot know, a priori, whether they are 
correct or not. Given the stakes, we have to be prepared for the worst: 
that the electronic records may be inaccurate or corrupted. The purpose 
of a manual audit of the voter-verified paper records is to confirm 
whether or not the electronic records match the paper records verified 
by the voter.
    The paper records verified by the voter are the only records that 
we can rely upon to be accurate: they are the only hard copy record of 
voter intent, and they are the only records that the voter has the 
chance to inspect for herself. It would be perfectly adequate, from a 
security point of view, to simply discard the electronic records and to 
manually count all of the voter-verified paper records (without the 
assistance of computers). Such a 100 percent manual count would produce 
results that could not be corrupted by computer intrusions, malicious 
logic, or software defects. However, manual counting of paper records 
is labor-intensive and costly. Given the number of contests on a 
typical American ballot today, routine 100 percent manual counts are 
probably not economically viable.
    To address these concerns, voting experts have devised an 
alternative that preserves the cost-efficiency of electronic vote 
counting with the trustworthiness of 100 percent manual counts [20]. 
This alternative is based around machines that produce voter-verified 
paper records along with routine manual audits. During the audit, the 
paper records from some percentage (perhaps one percent or five 
percent) of the precincts are manually counted; then the paper tallies 
are compared to electronic tallies. If they match exactly in all cases, 
then this provides evidence that the electronic vote-counting software 
produced the same vote totals that a 100 percent manual count would 
have produced, which provides a rational basis for confidence in the 
election outcome. On the other hand, any mismatches discovered during 
the audit indicate that something has gone wrong. This provides an 
opportunity to identify the problem and remedy it, if possible, or to 
perform a 100 percent manual recount if the problem cannot be 
identified.
    Consequently, routine manual audits are the best way to ensure that 
the electronic vote-counting systems are working correctly; to discover 
and recover from major failures of the electronic vote-counting 
software; to prevent and deter large-scale vote fraud; to provide 
transparency; and to give election observers evidence that the election 
was performed correctly. If done right, these audits provide us with a 
powerful defense against errors and election fraud: the paper records 
are a cross-check on the electronic records, and the electronic records 
are a cross-check on the paper. It is for these reasons that I 
recommend routine audits be used across the board, for both DREs and 
optically scanned paper ballots.

Q5.  Dr. Wagner, why is inspection of machine software and hardware not 
sufficient for trusting a voting system?

A5. As explained in my response to Question 3, it is beyond the state-
of-the-art to verify through inspection that the machine software and 
hardware will work correctly on election day. Given the current state 
of technology, it is not feasible to verify that the machine software 
and hardware is free of malicious logic, nor is it feasible to verify 
that the machine software and hardware is free of defects, flaws, and 
bugs.
    Modern voting software and hardware is too complex to inspect 
completely. The software in a typical voting machine might contain 
hundreds of thousands of lines of source code. If all of this source 
code were to be printed on paper, it would fill thousands of sheets of 
paper. Each line of source code would have to be inspected manually by 
software experts, and these experts would have to understand how those 
lines of source code might interact with each other. This task is too 
complex to perform with 100 percent confidence; it is simply too easy 
to miss problems.
    The U.S. Tax Code might provide a useful analogy [21]. The tax code 
also contains thousands of pages of material, and probably no one 
person understands it in its entirety. The tax code is infamous for 
containing loopholes that aren't obvious on first inspection; so, too, 
can source code contain malicious code or defects that aren't obvious 
on first inspection. At the same time, tax code is written to be 
interpreted by human judges, who might apply some degree of common 
sense from time to time; in comparison, software is executed by 
computers, who are unfailingly literal-minded, so while small 
ambiguities in the tax code might be minor, small ambiguities in 
software can be catastrophic. The analogy to the tax code is decidedly 
imperfect, but it might help provide some intuition about why 
inspection of voting software and hardware is not sufficient to trust a 
voting system, given the current state of technology.
    A second difficulty is that, given current practice, it is 
difficult to be sure that the software and hardware that is running on 
the machine on election day is the same as what has been inspected. The 
existing technology does not provide any way to verify what software is 
running on the voting machine. Moreover, some machines have known 
security vulnerabilities that could allow an attacker to modify the 
software installed on the machine, so that the software executed on 
election day differs from the software that was inspected and 
certified. Also, there have been documented cases where uncertified 
versions of software were inappropriately installed and used in 
elections [22,23,24,25].
    At the same time, despite these limitations, inspection does have 
benefits. While it is not sufficient on its own to provide a basis for 
trust in voting systems, inspection--if done right--is still a good 
idea that can help reduce the number of voting system failures. 
Unfortunately, today's voting systems are not currently subject to any 
meaningful form of inspection by independent parties. The source code 
is kept secret by vendors, and access is tightly restricted. The 
federal testing lab--one of the few parties who are routinely given 
access to voting source code--do not perform meaningful inspections of 
source code. (The limited inspection that federal testing labs perform 
is more analogous to running a spell-checker on a student essay than to 
checking whether the writing in the essay is grammatical, coherent, 
meaningful, or persuasive.) In the few cases where independent experts 
have had the chance to inspect voting source code, they have often 
found serious flaws in these products which the testing labs overlooked 
[26]. Consequently, I believe that broader inspections of voting system 
software and hardware would help improve the reliability and security 
of elections, even though they are not on their own sufficient and 
would need to be supplemented with voter-verified paper records and 
routine manual audits.

Notes

 1.  David Wagner, Written testimony before U.S. House of 
Representatives at joint hearing of the Committee on Science and 
Committee on House Administration, July 19, 2006.

 2.  ``Public Comment on the 2005 Voluntary Voting System Guidelines,'' 
ACCURATE Center, submitted to the United States Election Assistance 
Commission, September 2005.

 3.  Douglas W. Jones, ``Voting System Transparency and Security: The 
need for standard models,'' written testimony before the EAC Technical 
Guidelines Development Committee, September 20, 2004. http://
www.cs.uiowa.edu/jones/voting/nist2004.shtml

 4.  Peter G. Neumann, Written testimony before the California Senate 
Elections Committee, February 8, 2006. http://www.csl.sri.com/neumann/
calsen06.pdf

 5.  Aviel D. Rubin, Written testimony before the Election Assistance 
Commission, May 5, 2005. http://avirubin.com/eac.pdf

 6.  Tadayoshi Kohno, Adam Stubblefield, Aviel D. Rubin, and Dan S. 
Wallach, ``Analysis of an Electronic Voting System,'' May, 2004.

 7.  RABA Innovative Solution Cell, ``Trusted Agent Report: Diebold 
AccuVote-TS System,'' January 20, 2004.

 8.  Harri Hursti, Black Box Voting, ``Critical Security Issues with 
Diebold Optical Scan,'' July 4, 2005.

 9.  ``Security Analysis of the Diebold AccuBasic Interpreter,'' Report 
of the California Secretary of State's Voting Systems Technology 
Assessment Advisory Board, February 14, 2006.

10.  Harri Hursti, Black Box Voting, ``Critical Security Issues with 
Diebold TSx,'' May 11, 2006.

11.  Douglas W. Jones, ``Connecting Work on Threat Analysis to the Real 
World,'' June 8, 2006.

12.  ``The Machinery of Democracy: Protecting Elections in an 
Electronic World,'' Brennan Center Task Force on Voting System 
Security, June 27, 2006.

13.  New Yorkers for Verified Voting, ``Analysis of Acquisition Costs 
of DRE and Precinct Based Optical Scan Voting Equipment for New York 
State,'' April 13, 2005. http://www.nyvv.org/doc/
AcquisitionCostDREvOptScanNYS.pdf

14.  Barbara Simons, ``Electronic voting systems: the good, the bad, 
and the stupid,'' ACM Queue 2(7), October 2004.

15.  Justin Moore, ``How Effective is an Occasionally-Used Paper 
Ballot?'' http://www.cs.duke.edu/?justin/voting/
paper<INF>-</INF>effectiveness.pdf

16.  Jonathan Bannet, David W. Price, Algis Rudys, Justin Singer, Dan 
S. Wallach, ``Hack-a-Vote: Demonstrating Security Issues with 
Electronic Voting Systems,'' IEEE Security & Privacy Magazine 2(1), 
January/February 2004, pp. 32-37.

17.  David L. Dill, Bruce Schneier, Barbara Simons, ``Viewpoint: Voting 
and technology: who gets to count your vote?'' CACM 46(8), August 2003.

18.  Douglas W. Jones, ``Auditing Elections,'' Communications of the 
Association for Computing Machinery 47(10), October 2004, pp. 46-50.

19.  Aviel D. Rubin, Written testimony before the Election Assistance 
Commission, June 30, 2005. http://avirubin.com/vote/eac2.pdf

20.  Roy G. Saltman, ``Final Project Report: Effective Use of Computing 
Technology in Vote-Tallying,'' NBSIR 75-687, prepared for the 
Clearinghouse on Election Administration, May 1975.

21.  This analogy is taken from Barbara Simons, Jim Horning, ``Risks of 
technology-oblivious policy,'' CACM 48(9), Sept. 2005.

22.  ``Staff Report on the Investigation of Diebold Election Systems, 
Inc.,'' Presented before the California Voting Systems and Procedures 
Panel, April 20, 2004. http://www.openvotingconsortium.org/files/
shelly<INF>-</INF>diebold<INF>-</INF>reportapril20<INF>-</INF>final.pdf

23.  ``Phase II County Voting System Review,'' R&G Associates, April 
19, 2004. http://web.archive.org/web/20041108230726/http://
www.ss.ca.gov/elections/ks<INF>-</INF>dre<INF>-</INF>papers/
rg<INF>-</INF>phase<INF>-</INF>II<INF>-</INF>revised<INF>-</INF>report.p
df

24.  ``E-Voting Undermined by Sloppiness,'' Kim Zetter, Wired News, 
December 17, 2003. http://www.wired.com/news/evote/0,2645,61637,00.html

25.  ``Diebold: Voting machine maker dinged in CA: Auditor says 
software wasn't approved,'' Elise Ackerman, Mercury News, December 17, 
2003.

26.  Douglas W. Jones, ``Misassessment of Security in Computer-Based 
Election Systems,'' Cryptobytes 7(2), Fall 2004, pp. 9-13.
                   Answers to Post-Hearing Questions
Responses by John S. Groh, Chairman, Election Technology Council, 
        Information Technology Association of America

Questions submitted by Chairman Vernon J. Ehlers and Chairman Sherwood 
                    L. Boehlert

Q1.  In his testimony, Dr. Wagner recommended that the Technical 
Guidelines Development Committee (TGDC) and the Election Assistance 
Commission (EAC) take the following actions to improve security and 
reliability of voting systems. For each recommendation listed below, 
please answer these questions: Do you agree with the recommendation? If 
so, to what extent and how are voting systems manufacturers 
implementing the recommendation? If not, why not?

Q1a.  Mandate voter-verified paper records and mandatory manual audits.

A1a. Mandated voter-verified paper records: Although today's voting 
equipment is reliable, accurate, and secure, the ETC and its members 
recognize that some jurisdictions and/or states prefer the option of a 
voter-verifiable paper audit trail (VVPAT). In response, most vendors 
developed VVPAT technical options to meet that customer need. At this 
time, some states (over half) have developed legislation requiring 
VVPAT, but the cost of providing that equipment is the burden of the 
state or jurisdiction. Before a federal agency mandates the use of 
VVPATs, the ETC recommends that current VVPAT usage be monitored to 
learn from real-world experience with the technology. Also, it should 
be anticipated that additional federal funding will be needed to 
accommodate that mandate.
    Mandatory manual audits: The ability to audit an election as 
prescribed by HAVA and other laws, rules, and regulations is an 
important requirement of all voting system available today. However, 
whether or not those audits are manual or automatic is a state or local 
decision. The ETC and its members regularly work with jurisdictions 
and/or states to implement and comply with specific election processes 
and procedures. In considering federally mandated manual audits, it is 
important to keep in mind that manual audits can provide a verification 
of election results, but due to human error, a manual audit can also 
create additional issues that would have to be anticipated and 
addressed during implementation. Further, there are costs involved in 
performing manual audits. If a federal agency mandates a manual audit, 
then additional federal funding will be needed to accommodate that 
mandate.

Q1b.  Expand standards from focusing primarily on functionality testing 
to incorporate technical evaluations of the security, reliability, and 
usability of voting machines.

A1b. The EAC 2005 voting systems guidelines expand upon the FEC 2002 
standards, particularly in the areas of security, reliability and 
usability. However, tests and measures for these requirements have not 
yet been fully defined to where the tests are objective and repeatable.
    The ETC and its members, as stakeholders, have contributed to 
development of the 2005 guidelines and have offered public comment on 
their implementation. In general, our belief is that technical and 
functional evaluations are both important aspects of the testing 
process. In fact, technical evaluations against the federal 
requirements have always been a part of federal certification. (Please 
see the attached overview of the current federal certification 
process.) Therefore, standards, and accompanying testing, should not 
focus only on technical or functional aspects of voting equipment, but 
rather continue to include both in balance.
    In addition, federal standards should not be too prescriptive or 
restrictive. Over regulation by the Federal Government could lead to 
higher costs, could stifle innovation by slowing reaction to necessary 
change or technological advances to meet emerging needs, and could 
intrude on state and local authority or practices.
    In considering additional federal action in this area, it is 
important to keep in mind that the intent of the federal requirements 
for voting systems has been to establish a ``minimum'' standard for 
evaluating voting systems. Each state has the authority to mandate a 
higher level and quite a few do require higher State level 
certification standard. However, between states there are sometimes 
conflicting requirements and there are also issues which are under the 
authority of the state and not the Federal Government. In the past, the 
federal standard has tried to not conflict with individual state 
requirements and to not create requirements which are under a state's 
authority to mandate. These elements need to be taken into 
consideration whenever improving the federal standard.

Q1c.  Eliminate conflicts of interest in the federal testing process by 
establishing a new funding process whereby Independent Testing 
Authorities (ITA) are not paid by the vendors whose systems they are 
testing.

A1c. There is no influence that the vendors have over the work that the 
ITAs perform. The ITAs are testing to a standard as they would test any 
system to a standard. The ITAs are accountable to the EAC for the 
testing to that standard, regardless of whether the ITAs are paid by 
the vendors or by some other funding mechanism.
    This situation is similar when a car owner takes car into an auto 
service shop for required state emission testing to meet federal or 
state standards. The car owner pays for the testing; however, he or she 
has no influence over whether your vehicle passes the test or not. The 
service shop is accountable to the state or local jurisdiction for 
testing to the required standard.
    While there may be other issues to consider in evaluating the 
merits of providing federal funding for this function, conflict of 
interest need not be one of them.

Q1d.  Reform the federal testing process to make all ITA reports 
publicly available and documentation and technical package data 
available to independent technical experts.

A1d. The EAC is reforming the format of the ITA reports so that they 
may be released to the public without compromising intellectual 
property. The ETC vendor members endorse the public release of the 
testing process and the testing results. The ITA reports that exist 
today could be released to the public if they didn't contain the 
intellectual property that is inherently embedded into them. The ETC is 
hopeful that the EAC's reformatting of the ITA reports will allow the 
testing information to be publicly available.
    However, the Technical Data Packages (TDPs) contain intellectual 
property of commercial value to the vendor and therefore are held as 
confidential and cannot be released to the public. The TDP could be 
made available to designated independent technical experts but only 
with acceptable and binding non-disclosure agreements signed between 
the independent expert and the vendor. Vendors have invested millions 
of dollars in research and development to produce their product lines 
and to compromise that investment without compensating the vendor would 
not be economically viable.

Q1e.  Require broader disclosure of voting system source code, at a 
minimum to independent technical experts under appropriate non-
disclosure agreements.

A1e. See response above for question (d).

Q1f.  Institute a process for collecting, investigating, and acting on 
data from the field on performance of voting equipment, including a 
mechanism for interim updates to the standards to reflect newly 
discovered threats to voting systems.

A1f. Although we would need additional detail about the form, function, 
and approach, the ETC agrees with the general concept. Currently, there 
is a lot of mis-information about the performance of voting equipment. 
As a result, voter confidence is unnecessarily compromised. It could be 
beneficial to the public to task an agency which understands the 
environment and ``totality of circumstances'' in which voting equipment 
is used as an entity to investigate issues and report objectively on 
their factual findings. That effort could provide a level of 
transparency for the public and a level of fairness and truth in 
reporting to the election industry and the general public.

Q1g.  Increase the representation of technical experts in computer 
security on the TGDC.

A1g. If the tests and measures defined are objective and repeatable, 
increasing the representation of computer security experts will not add 
any value; it would not matter who tested the equipment, as the results 
would be similar. With subjective tests and measures, having more 
technical experts will just provide more differing opinions without 
agreement. Passing the security tests would then be a matter of who 
tested it and not whether it met a standard. The goal should be to 
define more objective tests and measures for security requirements, and 
on this point computer security experts could play a role. An effort 
was made but never concluded during the IEEE P1583 project to gain 
agreement on an objective and repeatable set of tests and measures to 
evaluate voting system security. Computer security experts could focus 
their efforts on completing the process.

Q2.  How do you think the sections of the 2005 Voluntary Voting Systems 
Guidelines (VVSG) that deal with security should be improved? Do you 
think that the way in which security for voting systems is tested needs 
to change, and if so, how, and if not, why not?

A2. Although the 2005 VVSG have enhanced the security requirements for 
voting systems, the testing of those requirements has not been well 
enough defined. The tests currently proposed are very subjective, if 
they exist at all. Studies need to be performed to develop tests and 
measures that are objective and repeatable, otherwise, success in 
testing will be a matter of who tests the equipment and not the 
standard to which it is tested. If tests and measures are objective and 
repeatable, it should not matter who tests a voting system as the test 
results should be the same or similar between testers.

Q3.  In your testimony you described an idea for phased implementation 
of the 2005 VVSG. Please explain in more detail how a phased 
implementation would work? Are there parts of the 2005 VVSG that could 
be implemented now?

A3. Voting systems certified to the 2002 federal standards should be 
grandfathered-in under the 2005 standard until additional federal 
funding is provided to states and local jurisdictions to support 
purchasing on newly upgraded equipment. Additionally the timeframe for 
transition to a new voting system certified under the 2005 VVSG could 
be allowed over an eight year period, or two voting cycles.

Q4.  The 2005 VVSG contains an appendix on independent dual 
verification systems that could perform the same functions as a voter-
verifiable paper audit trail. Is this technology being used in voting 
systems today or is more research needed to make it operational? What 
are the advantages and disadvantages of this technology? To what extent 
are there other technologies that could perform the same function as a 
voter-verifiable paper audit trail?

A4. Independent dual verification (or IDV) is a good concept, but there 
are technological as well as economic and usability factors that must 
be considered before implementing such a solution. This includes:

        <bullet>  Complexity for the voter and poll worker.

        <bullet>  Added costs for the jurisdiction in having two 
        independent systems for each voting station (including 
        material, storage, transportation)

    Currently, some claim that other technologies could perform the 
same function as a VVPAT, however it is important to point out that, 
when compared to paper, those technologies are more complex for voters 
and poll workers to understand and trust, and those technologies are 
more costly then paper-based verification systems. Any requirement must 
be valued and measured against the real-world application and use. The 
goal should be to make the voting process easier for all voters and to 
encourage them to come out and vote not to add additional complexities 
that may have the opposite affect.

Questions submitted by Democratic Members

Q1.  Mr. Groh, do vendors currently provide election officials with 
documentation that explains the security features of their systems that 
they sell and the procedures required for an election to be secure. If 
not, is this something they should provide to election officials?

A1. Yes, vendors do provide election officials with documentation that 
explains the security features of their systems. Vendors also provide 
best practices on using the equipment securely, however it is up to the 
State and the Local Election jurisdiction to establish and perform 
those processes as they establish as a best practices.

Q2.  Mr. Groh, do you have any concerns about how to interpret the 2005 
standards/guidelines? Are you satisfied with mechanisms for addressing 
questions and issues arising from the guidelines during the two-year 
transition period?

A2. Yes, the ETC members do have concerns on the interpretation of the 
2005 VVSG. First, there is some ambiguity in the standards that will 
require interpretation, and certain clarifying answers will be 
profound. Second, some requirements conflict with one another and will 
have to be resolved. Third, some requirements are not yet 
technologically feasible and/or will likely to impact overall cost of 
the newly enhanced equipment. Finally, currently there are requirements 
that do not have well defined tests if they have any tests defined at 
all. Some of the tests are very subjective in their measurement and 
could depend on who performs the test as to whether a voting system 
will pass or fail. The pre-established tests for each requirement 
should be objective and repeatable so that it does not matter which ITA 
performs the test.
    The mechanisms for addressing questions and issues are still being 
defined by the EAC. Those mechanisms will likely not be implemented 
until the EAC adopts a Full Certification Process in December 2006. 
Currently, the EAC has only adopted an Interim Certification Process 
which only allows modifications to existing certified voting systems to 
be tested and does not allow a vendor to submit a new product or 
accessory for federal certification under the 2005 VVSG.
    Prior to the date when those mechanisms are implemented for 2005 
VVSG certification, the ETC is working with NIST (the authors of the 
2005 VVSG) to better understand the intent of the new requirements so 
that voting systems can be developed to comply. However, as there will 
likely be a learning curve in applying the new standard to evaluations 
of voting systems, and a learning curve in applying the new 
interpretation mechanisms, there will likely be delay in the 
certification of voting systems to the VVSG 2005 standard.
    The ETC members have been in contact with the EAC, formally asking 
for more clarity on the new certification process and procedures they 
are rolling out. We have received feedback, but there are still open 
questions we are working with the EAC to reach full clarification.
    Regarding opportunities to address questions and issues about 
pertaining to implementation of the 2005 guidelines, the ETC and its 
members are still awaiting clarification of the actual mechanisms for 
doing so. We do, as described above, have concerns and would welcome 
the opportunity to engage in direct discussion and deliberation about 
the challenges we and election administrators could face. At this 
point, our input has been limited to working with NIST (the authors of 
the 2005 VVSG) to better understand the intent of the new requirements 
so that voting systems can be developed to comply.

Q3.  Mr. Groh, does ITAA or its Election Technology Council specify or 
endorse any testing or product quality standards or processes for its 
members that supplement the Election Assistance Commission's voting 
system standards? If so, what are they?

A3. The Election Technology Council does not specify or endorse testing 
or product quality standards or processes. Rather, we contribute to the 
guideline and standards development process by providing our expertise 
as developers and Subject Matter Experts (SMEs) of voting technology. 
The current federal standards process is thorough and rigorous, but 
also on-going and regularly updated to reflect emerging needs or 
technical opportunities. This process has worked well to incent 
continually updated and enhanced voting system options.
    At the same time, the federal standards provide a minimum 
benchmark. States and jurisdictions are able to expand and mandate 
higher standards than the EAC's standard. In fact, many states do have 
laws and rules which require testing and product quality above the EAC 
standard.

Q4.  Mr. Groh, reports of problems in Indiana, West Virginia, Michigan 
and Texas elections--among others--indicate that voting systems are 
being delivered to jurisdictions for the 2006 election with reliability 
and accuracy problems that could affect election results. What steps 
are your organization and its membership taking to respond to actual 
and potential voting system problems that have surfaced during recent 
primaries?

A4. The ETC is a trade association and cannot comment on the specific 
issues of individual member companies. A vendor member company would 
have to provide information to specific reported issues with their 
systems and the state or local election jurisdiction they serve. 
However, in general, it is important to keep in mind that 
implementation of the Help America Vote Act has created the greatest 
transformation in the way elections are run since the Voting Rights Act 
of the 1960s. This is a time of tremendous change and that change has 
presented challenges to not only election vendors, but election 
officials and voters, as well. In each case, it is important to keep in 
mind the human element in carrying out elections, and that vendors and 
election officials have a shared responsibility in the process. Though 
reliability of the voting equipment is critically important, so too are 
processes, procedures, and training.

Q5.  Mr. Groh, you warn that election officials must exercise caution 
against taking shortcuts in important areas such as training, testing 
and preparation. Could you provide some examples of what you are 
talking about and are there cases where this is taking place?

A5. The observation was a general one related to the importance of 
thorough training, testing, and election preparation. With the 
compressed timeline against nationwide implementation of the Help 
America Vote Act, it is important to emphasize that these areas must 
not be compromised and, in fact, must be enhanced given the greater 
complexities around newer voting technology. Specific examples would 
include training on ADA sensitivity; voter outreach; poll worker 
training; and total system pre-election testing of equipment.

Q6.  Mr. Groh, you mention that increasing complexity required of 
voting systems by the standards/guidelines is creating a need for more 
using training and that the vast majority of problems experienced with 
voting systems are attributable to insufficient training and 
preparedness in the polling place. Would you describe the training and 
operation manuals your membership provides to local election officials?

A6. The Election Technology Council does not develop or provide 
training and operation manuals to local election jurisdictions. Each 
vendor company develops training and operation documentation relevant 
to their own specific voting systems. In addition, most have developed 
materials specifically geared toward educating voters about the use of 
new voting systems for use by the local election jurisdictions. From 
the ETC perspective, it is important to point out that even with the 
detail of the manuals provided to local jurisdictions, to be effective, 
these materials must be read, they must be used, and, they must be 
localized to include jurisdiction-specific processes, procedures, 
policies, and documentation.
    In addition, the Election Assistance Commission (EAC) has developed 
material providing best practices-based guidance to elections officials 
and is in the process of developing and releasing by end of September 
2006 a newly revised edition of ``Best Practices Guidelines'' which 
will compliment the ``Quick Start Guide'' they released in June 2006.

Q7.  Mr. Groh, Dr. Wagner made a number of short-term recommendations 
based on the Brennan Center report that he believes could improve the 
security and reliability of voting equipment that will be used this 
November. These recommendations include routine audits of voter-
verified paper records, performing parallel testing of voting machines, 
adopting procedures for investigating and responding to evidence of 
fraud or error, and banning voting machines with wireless capabilities. 
Would you please comment on these suggestions?

A7. First, it is important to state that the ETC members takes strong 
exception to much of Dr. Wagner's testimony. In our response to other 
questions from the committee, we provide comment on some of the general 
concepts contained in Dr. Wagner's recommendations. Overall, in 
response to his testimony, it is important to point out that The ETC 
endorses recommendations to enhance the security and integrity of 
elections by using the voting systems security features which were 
designed to be used in concert with security procedures and personnel.
    For more perspective on the Brennan Center Task Force report on 
voting system security, please read the Election Technology Council 
response. It is available for review and download at:
http://www.electiontech.org/downloads/ETC-BRENNANCENTER%20RESPONSE-
FINAL.pdf

Q8.  Mr. Groh, Dr. Wagner's testimony outlines problems that we 
frequently see reported in news articles about problems with voting 
equipment. In addition to his comments on the current status of voting 
equipment, he makes a number of longer-term recommendations, many which 
focus on conformance criteria and testing of voting machines. Would you 
please comment on these recommendations?

A8. Please see response to question 7 above and responses to other 
questions from the Committee.

                              Appendix 2:

                              ----------                              


                   Additional Material for the Record


 Statement of the U.S. Public Policy Committee of the Association for 
                          Computing Machinery
    The U.S. Public Policy Committee for the Association for Computing 
Machinery (USACM), commends Congress for reviewing issues related to 
voting machines, testing practices and standards. Ensuring that voting 
is accurate, error-free, secure and accessible to all registered voters 
is of great importance. However, as experts in computing, we have grave 
reservations about the safeguards in place with many of the 
computerized voting technologies being used. New federal standards and 
a certification process hold promise for addressing some of these 
problems, but more must be done ensure the integrity of our elections. 
We recommend that Congress and the Election Assistance Commission 
(EAC):

        <bullet>  Create a formal feedback process that will ensure 
        that lessons learned from independent testing and Election Day 
        incidents are translated into best practices and future 
        standards.

        <bullet>  Make the testing process more transparent by making 
        the testing scope, methodologies and results available to the 
        public.

        <bullet>  Ensure that the guidance for usability and security 
        standards provides performance-based requirements and is clear 
        so as to minimize the variance of human interface designs from 
        jurisdiction to jurisdiction.

        <bullet>  Create a mechanism for interim updates to the 
        standards to reflect emerging threats, such as newly discovered 
        security defects or attacks.

        <bullet>  Require voter-verified paper trails and audits to 
        mitigate the risk associated with software and hardware flaws.

Testing, Certification and Reporting

    Thirty-nine states require federal certification of their voting 
systems, which is currently handled by independent testing authorities 
(ITA). They test the systems against the 2002 Voting System Standards 
(VSS). Ideally this testing would discover any flaws in the system and 
allow for corrections before subsequent elections. However, in May 
2006, a new report\1\ was issued outlining several security 
vulnerabilities in one brand of certified electronic voting machines. 
Many computer scientists were stunned by the fundamental nature of 
these defects, and noted that the reported defects were the most 
egregious security vulnerabilities known to date. This was not, 
however, the first time serious security vulnerabilities were 
revealed.\2\<SUP>,</SUP>\3\<SUP>,</SUP>\4\
---------------------------------------------------------------------------
    \1\ Harri Hursti, May 11, 2004, ``Diebold TSx Evaluation Black Box 
Voting,'' Black Box Voting, http://www.blackboxvoting.org/
BBVtsxstudy.pdf
    \2\ Tadayoshi Ohno, Adam Stubblefield, Aviel Rubin, Dan Wallach, 
May 2004, ``Analysis of an Electronic Voting System, IEEE Symposium on 
Security and Privacy 2004.'' IEEE Computer Society Press, http://
avirubin.com/vote.pdf
    \3\ RABA Technologies LLC, January 20, 2004. ``Trusted Agent Report 
Diebold AccuVote-TS Voting System,'' http://www.raba.com/press/
TA<INF>-</INF>Report<INF>-</INF>AccuVote.pdf
    \4\ David Wagner, David Jefferson, Matt Bishop, February 14, 2006, 
``Security Analysis of the Diebold AccuBasic Interpreter,'' California 
Voting Systems Technology Assessment Advisory Board, http://
www.ss.ca.gov/elections/voting<INF>-</INF>systems/
security<INF>-</INF>analysis<INF>-</INF>of<INF>-</INF>the<INF>-</INF>die
bold<INF>-</INF> accubasic<INF>-</INF>interpreter.pdf
---------------------------------------------------------------------------
    There are several gaps in our testing and certification system that 
need to be addressed even if we have more robust standards for voting 
systems. First, there is no corrective mechanism to ensure that flaws 
found during testing are fixed before subsequent elections. Second, the 
guidelines are being construed quite narrowly; if a flaw is found that 
is not explicitly prohibited by the guidelines, a system is still 
certified. It is unclear how such flaws can be successfully addressed 
under the current certification process. Finally, there is a clear need 
to create a formal system for reporting problems in the field and 
improving the standards based on these reports. This step will allow 
election officials throughout the country to be informed of potential 
problems and that experiences can inform the federal standards.
    Under the Help America Vote Act (HAVA) the EAC is responsible for 
certifying voting systems through accredited laboratories. The National 
Institute of Standards and Technology (NIST) is taking over the 
accreditation process of ITAs from the National Association of State 
Election Officials. Federal involvement may make the testing and 
certification process more independent, but not necessarily more 
transparent.
    Currently, voting machine vendors are the clients of the ITAs. 
Typically, they are the only recipients of the testing results, which 
are considered to be proprietary. This is not unusual. Certification 
testing of other products that the public relies on, such as aviation 
software and medical devices, is also proprietary. A key difference is 
that if an aviation system fails, the failure is reported to the FAA 
and investigated. If a medical device fails, the FDA investigates. 
Where the investigation demonstrates flaws in the management, 
manufacture, design, or testing of the aviation system or medical 
device, these flaws become public record and the operating rules and or 
equipment standards are adjusted accordingly. Investigation reports are 
public records.
    Our country is far from having any such formal system for voting. 
We should have a system to ensure that lessons learned from multiple 
jurisdictions are feedback to vendors, states and federal officials, 
and then incorporated into standards and best practices. Often the 
real-world conditions of an election reveal errors that have not been 
detected by testing. The only organized incident reporting system for 
voting equipment that has been employed recently is a limited, all-
volunteer project sponsored by several non-profit groups.
    Further, Congress should seek to make the certification process and 
testing results more transparent, and, like incident reporting, have a 
formalized system for incorporating the results into federal standards. 
The public should know the results of voting system tests and the 
certification tests of ITAs. California and New York State are taking 
steps to make their processes more transparent. Federal incentives also 
could strengthen the independence and transparency of the testing 
process. Incident reporting and transparent testing results would make 
it much more likely that vendors and elections officials would 
implement the lessons learned both from their own practices and from 
other jurisdictions.

Voting Guidelines

    The new 2005 Voluntary Voting System Guidelines (VVSG) improve on 
the 2002 VSS, but they are not sufficient for ensuring that electronic 
voting systems are secure, reliable, usable and verifiable. It is 
unclear whether the level of guidance in the 2005 VVSG is adequate to 
guarantee that all eligible voters will be able to understand and use 
the new voting systems. In the area of human factors, the 2005 
standards still leave too much to the discretion of local jurisdictions 
and are based on functional requirements instead of performance-based 
requirements. This is also a general problem with the security 
standards. While the EAC recognizes the problem, it is not in a 
position to act quickly.
    The guidelines process is far from timely. The 2005 VVSG will take 
effect in December 2007--two years after the standards were approved. 
In that timeframe it is difficult to refine the guidelines to handle 
problems not already covered. NIST is helping develop the next VVSG, 
but that will likely not be implemented before elections in 2010. 
Viruses and other security attacks operate in minutes and days, not 
months or years. A new method of developing and implementing interim 
guidelines quickly is necessary to respond to new problems.

Paper Trails and Audits

    Even with improved standards and a process more responsive to 
emerging threats, the best designed and tested systems will continue to 
have flaws. We've seen numerous examples of security threats in 
software for commercial systems and critical infrastructures. Flaws, 
unfortunately, are inherent in any complex software system. There are 
formal mathematical proofs that testing is incapable of finding all 
accidental software flaws, and finding purposely concealed flaws is 
even more difficult. It is also possible to have unanticipated hardware 
or operational failures as well as accidents that can corrupt or lose 
vote totals held in memory of some voting machines.
    To mitigate these risks we recommend paper trails and audits. 
Voting systems should enable each voter to inspect a physical record to 
verify that his or her vote has been accurately cast, and to serve as 
an independent check on the result produced and stored by the system. 
Making those records permanent--not based solely in computer memory--
allows for an accurate recount. We are encouraged by the actions of 36 
states that have either established voter-verified paper trails as law 
or purchased equipment capable of providing voter-verified paper 
trails.
    Thank you for taking the time to consider this important issue. 
Ensuring that computer based systems are secure, reliable, usable, and 
ultimately trustworthy will require ongoing involvement of technical 
experts, usability professionals, voting rights advocates, and 
dedicated election officials in the U.S. and other countries. We stand 
ready to provide technical guidance to Congress on this and other 
issues. Please contact ACM's Office of Public Policy should you have 
any questions at (202) 659-9712.

About ACM

    ACM, the Association for Computing Machinery, is an educational and 
scientific society uniting the world's computing educators, researchers 
and professionals to inspire dialogue, share resources and address the 
field's challenges. ACM strengthens the profession's collective voice 
through strong leadership, promotion of the highest standards, and 
recognition of technical excellence. ACM supports the professional 
growth of its members by providing opportunities for life-long 
learning, career development, and professional networking.

ABOUT USACM

    The ACM U.S. Public Policy Committee (USACM) serves as the focal 
point for ACM's interaction with U.S. Government organizations, the 
computing community, and the U.S. public in all matters of U.S. public 
policy related to information technology. Supported by ACM's 
Washington, D.C., Office of Public Policy, USACM responds to requests 
for information and technical expertise from U.S. Government agencies 
and departments, seeks to influence relevant U.S. Government policies 
on behalf of the computing community and the public, and provides 
information to ACM on relevant U.S. Government activities.


                      Statement of Lawrence Norden
              Chair, Task Force on Voting System Security
                       Brennan Center for Justice
                   New York University School of Law
    The Brennan Center thanks the Committees on House Administration 
and Science for holding this joint hearing. We especially thank 
Chairman Ehlers for his leadership in taking steps to ensure that our 
elections are as fair and secure as possible.
    The Voluntary Voting System Guidelines (``VVSG'') considered at the 
joint hearing today can, and should, be a cornerstone in the shared 
federal and state effort to ensure elections that are secure, accurate 
and accessible. However, in their current form, the VVSG fail to 
achieve that goal. After summarizing the recently completed work of the 
Brennan Center Task Force on Voting System Security (the ``Brennan 
Center Security Task Force''), I will review the very serious gaps in 
the security, usability and accessibility of current systems that have 
gone unaddressed in the VVSG. Until these looming problems are 
confronted and remedied, the machinery of American elections will 
remain a legitimate concern for all of us who care about the health of 
our democracy.

I.  Report of the Brennan Center Task Force: The Machinery of 
                    Democracy: Protecting Elections in an Electronic 
                    World

    Over the past year-and-a-half, the Brennan Center has worked with 
leading technologists, election experts, security professionals, and 
usability and accessibility experts to review the current state of 
voting systems in the United States. Three weeks ago, we released the 
first study from this collaboration, The Machinery of Democracy: 
Protecting Elections in an Electronic World (the ``Brennan Center 
Security Report'') \1\ In the coming weeks, we will be releasing 
comprehensive reports on the usability and accessibility of voting 
systems.
---------------------------------------------------------------------------
    \1\ Lawrence Norden et al., The Machinery of Democracy: Protecting 
Elections in an Electronic World (Brennan Center for Justice ed., 
2006), available at http://www.brennancenter.org/programs/downloads/
SecurityFull7-3Reduced.pdf.
---------------------------------------------------------------------------
    The Brennan Center Security Report was a summary of the Nation's 
first systematic analysis of security vulnerabilities in the three most 
commonly purchased electronic voting systems. This threat analysis was 
conducted by the Brennan Center Task Force\2\ and revealed that all 
three voting systems have significant security and reliability 
vulnerabilities; the most troubling vulnerabilities of each system 
cannot be substantially remedied; and few jurisdictions have 
implemented any of the key security measures that could make the least 
difficult attacks against voting systems substantially more secure.\3\
---------------------------------------------------------------------------
    \2\ For a complete list of the Task Force Members, see The 
Machinery of Democracy at i.
    \3\ Id. at 3.
---------------------------------------------------------------------------
    The Task Force surveyed hundreds of election officials around the 
country; categorized over 120 security threats; and evaluated 
countermeasures for repelling attacks. The report of the Task Force 
concluded:

        <bullet>  All of the most commonly purchased electronic voting 
        systems have significant security and reliability 
        vulnerabilities. All three systems are equally vulnerable to an 
        attack involving the insertion of corrupt software or other 
        software attack programs designed to take over a voting 
        machine.

        <bullet>  Automatic audits, done randomly and transparently, 
        are necessary if paper records are to enhance security. The 
        report called into doubt basic assumptions of many election 
        officials by finding that using voter-verified paper records 
        without requiring automatic audits--as is done in twenty-four 
        states--is of ``questionable security value.''

        <bullet>  Wireless components on voting machines are 
        particularly vulnerable to attack. The report finds that 
        machines with wireless components could be attacked by 
        ``virtually any member of the public with some knowledge of 
        software and a simple device with wireless capabilities, such 
        as a PDA.''

        <bullet>  The vast majority of states have not implemented 
        election procedures or countermeasures to detect a software 
        attack even though the most troubling vulnerabilities of each 
        system can be substantially remedied.

    Among the countermeasures advocated by the Task Force are routine 
audits comparing voter-verified paper trails to the electronic record; 
and bans on wireless components in voting machines. Currently only New 
York and Minnesota ban wireless components on all machines; California 
bans wireless components only on DRE machines. The Task Force also 
advocated the use of ``parallel testing": random, Election Day testing 
of machines under real world conditions. Parallel testing holds its 
greatest value for detecting software attacks in jurisdictions with 
paperless electronic machines, since, with those systems, meaningful 
audits of voter-verified paper records are not an option.

II.  Scientific Threat Analyses Should be the Basis for Guidelines on 
                    Security and Reliability

    The threat analysis performed by the Brennan Center Task Force on 
Voting Security involved (a) identifying and categorizing potential 
threats to voting systems, (b) prioritizing these threats based on 
level of difficulty, and (c) determining how much more difficult each 
of the catalogued attacks would become after various sets of security 
measures were implemented.\4\
---------------------------------------------------------------------------
    \4\ Id. at 8.
---------------------------------------------------------------------------
    To our knowledge, neither the Election Assistance Commission (the 
``EAC''), nor state election officials have undertaken similar 
comprehensive analyses before adopting voting system security and 
reliability guidelines. The Brennan Center Security Report shows that 
unless the EAC and the States commission such studies and use them to 
establish security guidelines for each VVSG-certified system, voting 
system security measures are likely to continue to fail to address 
important security and reliability concerns.
    The Brennan Center Security Report and threat analysis demonstrate 
that merely assuming machines are programmed and configured correctly, 
without some independent form of verification such as a voter-verified 
paper record, is a significant security and reliability risk. 
Ultimately, if we are to have confidence in the accuracy of our voting 
systems, all voting machines must have some form of independent dual 
verification, in which the verification is audited against the official 
record.

III.  Usability Testing Is the Key to Ensuring that Voter Intention Is 
                    Accurately Recorded

    The performance of a voting system is measured in significant part 
by its success in allowing a voter to cast a valid ballot that 
accurately reflect her intended selections without undue delays or 
burdens. This system quality is known as ``usability.'' \5\ Following 
several high profile controversies in the last few elections--
including, most notoriously, the 2000 controversy over the ``butterfly 
ballot'' in Palm Beach County, Florida--voting system usability is a 
subject of utmost concern to voters and election officials.
---------------------------------------------------------------------------
    \5\ Although there is no firm consensus on precise benchmarks to 
measure the usability of voting systems, academics and industry 
researchers have developed design guidelines in other areas, most 
importantly in web-browser design, that can increase usability. See 
Sanjay J. Koyanl et al., U.S. Dept. of Health and Human Resources, 
Research-Based Web Design and Usability Guidelines (Sept. 2003), 
available at http://usability.gov/pdfs/guidelines<INF>-</INF>--book.pdf
---------------------------------------------------------------------------
    The current VVSG requires that the ``voting process shall provide a 
high level of usability for voters.'' \6\ It includes many valuable 
guidelines for vendors and election officials. Unfortunately, it does 
not require the kind of usability testing by users and experts that is 
necessary to ensure that voter intentions are recorded as accurately as 
possible. To date, only a few studies have compared different ballots 
directly or definitively determined what makes one form of ballot more 
usable than another--i.e., less prone to producing errors, more 
efficient, and more confidence-inspiring.\7\ Without such information, 
it is impossible to create systems and procedures that will reduce 
voter error.
---------------------------------------------------------------------------
    \6\ Election Assistance Commission, Voluntary Voting System 
Guidelines, Volume I Version 1.0 at  3.1 (2005), available at http://
www.eac.gov/VVSG%20Volume<INF>-</INF>I.pdf, [hereinafter EAC VVSG].
    \7\ See Jonathan Goler, Ted Selker, and Lorin Wilde, Augmenting 
Voting Interfaces to Improve Accessibility and Performance (2006), 
available at http://vote.caltech.edu/reports/chi-abstract-
golerselker.pdf; Ted Selker, Matt Hockenberry, Jonathan Goler, and 
Shawn Sullivan, Orienting Graphical User Interfaces Reduces Errors: the 
Low Error Voting Machine, available at http://vote.caltech.edu/media/
documents/wps/vtp<INF>-</INF>wp23.pdf
---------------------------------------------------------------------------
    As it contemplates future drafts of the VVSG, the Brennan Center 
strongly urges the EAC to commission further study of usability issues, 
such as ``incidental under-voting, over-voting, or any other 
inaccuracies that are products of the human/system interaction.'' \8\ 
Moreover, regardless of the voting system used, election officials 
should conduct usability testing in their local communities on proposed 
ballots before finalizing their design.
---------------------------------------------------------------------------
    \8\ Accurate, Public Comment on the 2005 Voluntary Voting System 
Guidelines at 26 (Sept. 30, 2005), available at http://accurate-
voting.org/accurate/docs/2005<INF>-</INF>wsg<INF>-</INF>comment.pdf.
---------------------------------------------------------------------------

IV.  Assessments of System Accessibility Must Include Full Range of 
                    Disabilities and Entirety of Voting Process

    Traditionally, many voters with disabilities have been unable to 
cast their ballots without assistance from personal aides or poll 
workers. Those voters do not possess the range of visual, motor, and 
cognitive facilities typically required to operate common voting 
systems.
    The Help America Vote Act of 2002 (``HAVA'') took a step forward in 
addressing this longstanding inequity. According to HAVA, new voting 
systems must allow voters with disabilities to complete and cast their 
ballots ``in a manner that provides the same opportunity for access and 
participation (including privacy and independence) as for other 
voters.'' \9\ For voting systems to become truly accessible to all 
voters, members of disabled populations should be included in empirical 
research to ensure that vendors have satisfied VVSG requirements.\10\ 
In particular, assessments of such systems should:
---------------------------------------------------------------------------
    \9\ Help America Vote Act 42 U.S.C.  15481(a)(3)(A) (2002).
    \10\ See also Accurate Public Comment at 29.

        <bullet>  Examine each step a voter must perform, starting with 
        ballot marking and ending with ballot submission. Systems that 
        may provide enhanced accessibility features at one stage of the 
        voting process may be inaccessible to the same voters at 
---------------------------------------------------------------------------
        another stage in that process.

        <bullet>  Take into account a full range of disabilities and 
        ensure that accessible features are fully usable by people with 
        disabilities. When selecting participants for system tests, 
        officials should include people with sensory disabilities 
        (e.g., vision and hearing impairments), people with physical 
        disabilities (e.g., spinal cord injuries and coordination 
        difficulties), and people with cognitive disabilities (e.g., 
        learning disabilities and developmental disabilities). Given 
        the rising number of older voters, officials should take pains 
        to include older voters in their participant sample. Ensuring 
        that the entire process is as easy to use as possible for 
        voters with disabilities is the only way of creating real 
        accessibility.

        <bullet>  Use full ballots that reflect the complexity of a 
        real election. A simplified ballot with only a few races or 
        candidates may produce misleading results.

V. Conclusion

    The VVSG is a piece of a larger effort occurring on many fronts to 
improve the machinery of our elections. Given the leadership 
responsibilities of the EAC, the VVSG must set a high standard. The 
guidelines should be informed by the scientific testing methods used 
successfully to assess the risks of other widely-deployed technologies; 
and by the real-world experiences of the voting populations likely to 
be thwarted by voting systems that fall short on accessibility and 
usability.
    Refinements to the VVSG that I've recommended would, if adopted, 
move us several steps closer to the goal of fair, accessible and secure 
elections.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Statement of the National Committee for Voting Integrity (NCVI)
         ``Elections require an end-to-end concern for a wide variety 
        of integrity requirements, beginning with the registration 
        process and ballot construction, and continuing through vote 
        tabulation and reporting.''--Peter Neumann

    Our thanks go to the Committees for holding this joint hearing, 
``Voting Machines: Will New Standards and Guidelines Help Prevent 
Future Problems?'' We would like to offer a special thanks to Chairman 
Ehlers for his leadership on these important issues, which are 
challenging to our nation's public election's process.

General Comments

    The Voluntary Voting System Guidelines (VVSG) is an improvement in 
some respects over the standards created by the Federal Election 
Commission process for 1990 and 2002: the increased attention to 
accessibility for voters with disabilities and language minorities is a 
step forward over previous voting technology standards. However, the 
document's treatment of security, transparency, and auditability 
reflects no improvement over previous standards. In fact some sections 
of the VVSG pose serious challenges to election integrity and voter 
privacy.

Current State of Voting System Certification

    We are very troubled by the decision of the EAC to keep in place 
the existing voting technology certification process beyond the period 
designated by HAVA. On August 18, 2005, the EAC announced that the 
current voting technology certification process will be in place until 
the spring of 2007, with only one change: instead of the National 
Association of State Elections Directors (NASED) providing oversight of 
the three NASED approved laboratories the EAC will perform that 
function.

         ``Provide for interim accreditation of National Association of 
        State Election Directors (NASED) accredited Independent Test 
        Authorities (ITA). The EAC will develop a process to 
        temporarily accredit current NASED ITAs. This temporary EAC 
        accreditation is needed to ensure that certified test 
        laboratories are available in the near term. It has been 
        determined that the EAC will not receive a recommended list of 
        testing laboratories from the NIST National Voluntary 
        Laboratory Accreditation Program (NVLAP) until the spring of 
        2007.'' \1\
---------------------------------------------------------------------------
    \1\ U.S. Election Assistance Commission, Staff Recommendation: EAC 
Voting System Certification & Laboratory Accreditation Programs Adopted 
August 23, 2005: EAC Public Meeting, Denver, CO, available at http://
www.eac.gov/VSCP<INF>-</INF>082305.htm

    Allowing the current three certification laboratories to remain 
until the spring of 2007, as the only accredited laboratories that can 
certify voting systems intended for use in public elections, will not 
have a temporary effect. This decision will negatively affect those 
laboratories that have shown an interest in being accredited to certify 
voting technology. It may also diminish the intended results of the 
promulgation of new voting technology standards, and undermine public 
confidence in the accreditation and certification process. We strongly 
object to the continuation of the NASED ITA established voting 
technology laboratory accreditation and certification process because 
it allows failed voting technology to pass certification, is in 
violation of HAVA Section 231(b)(1), ignores the work already begun by 
NIST to replace the NASED ITA process, and hinders transparency.\2\
---------------------------------------------------------------------------
    \2\ Lillie Coney, Testimony, U.S. Election Assistance Commission, 
Denver, Colorado, August 23, 2005, available at http://www.epic.org/
privacy/voting/eac-8<INF>-</INF>23.pdf
---------------------------------------------------------------------------
    The widely reported failures of voting systems, which have passed 
NASED ITA certification, cannot be ignored. The failures are too 
numerous to summarize in this letter, but a few of the more notable 
ones are worth recounting:\3\
---------------------------------------------------------------------------
    \3\ National Committee for Voting Integrity, Election News, 2004, 
available at http://votingintegrity.org/archive/news/e-voting.html

         Sarpy County Recount (Nebraska): As many as 10,000 phantom 
        votes were added in 32 of 80 precincts when a machine error 
        doubled the votes during counting. Source: Channel Six Omaha NE 
        WOWT, available at http://www.wowt.com/news/headlines/
---------------------------------------------------------------------------
        1164496.html (Nov. 5, 2004).

         Broward Vote-Counting Blunder (Florida): Vote tabulation 
        software changes amendment results when the maximum capacity of 
        32,000 is reached, and the software begins to subtract votes. 
        Source: Channel 4 WJXT Florida, available at http://
        www.news4jax.com/politics/3890292/detail.html (Nov. 4, 2004).

         Carteret County (North Carolina): A voting machine loses more 
        than 4,000 votes leaving three races including the 
        Superintendent of Public Instruction and the state Agriculture 
        Commissioner's race in doubt. Source: WRAL.com available at 
        http://www.wral.com/news/3891488/detail.html (Nov. 4, 2004).

         San Joaquin County (California): The Secretary of State's test 
        of Diebold's TSx voting system recorded that almost 20 percent 
        of the touchscreen machines crashed during the election 
        simulation. Based on the voting systems performance California 
        refused to certify the use of Diebold's TSx voting system in 
        public elections. Source: Oakland Tribune available at http://
        www.votersunite.org/article.asp?id=5818 (Aug. 3, 2005).

    HAVA Section 231(b)(1) states that ``not later than six months 
after the Commission first adopts voluntary voting system guidelines 
under part 3 of subtitle A, the Director of NIST shall conduct an 
evaluation of independent, non-federal laboratories and shall submit to 
the Commission a list of those laboratories the Director proposes to be 
accredited to carry out the testing, certification, decertification, 
and recertification provided for under this section.'' \4\ Further, the 
law requires the EAC Commissioners to vote to approve the list of 
accredited laboratories, once submitted by the Director of NIST, for 
the certification of voting technology used in public elections. The 
Commission is also directed by HAVA to publish an explanation for the 
accreditation of any laboratory not included on the list submitted by 
the Director of NIST.
---------------------------------------------------------------------------
    \4\ Help America Vote Act Law, Public Law 107-252, available at 
http://www.fec.gov/hava/law<INF>-</INF>ext.txt
---------------------------------------------------------------------------
    NIST began work two years ago to produce a list of accredited 
laboratories for the certification of voting systems. On June 23, 2004, 
NIST announced in the Federal Register that it was establishing an 
accreditation program for laboratories that perform testing of voting 
systems, including hardware and software components. On August 17, 
2004, NIST's National Voluntary Laboratory Accreditation Program 
(NVLAP) hosted a public workshop to exchange information among NVLAP 
laboratories interested in seeking accreditation for the testing of 
voting systems under HAVA. NIST has also published the National 
Voluntary Laboratory Accreditation Program's Voting System Testing 
Handbook 150-22. The handbook outlined the technical requirements and 
guidance for the accreditation of laboratories under the NVLAP Voting 
System Testing laboratory accreditation program. Finally, on June 17, 
2005, NIST published a solicitation for applications and fees from 
those laboratories interested in being considered in the initial group 
of applicant laboratories. The notice stated that accreditation would 
begin on or about September 15, 2005.
    In light of the work already done by NIST to provide for a new list 
of laboratories to be certified by the EAC to conduct certification of 
voting technology, why is the process being delayed until 2007? The 
consequences for this delay may be a reduction in the number of new 
qualified laboratories seeking work in this area, further erosion of 
public trust in the election system, and more failed voting technology 
being deployed by states.

Transparency

    Transparency is a key component of a functioning, healthy 
democracy. Transparency or open government is any effort by agencies to 
impart information to the public on the work of the government. Open 
government can be accomplished in a number of ways, which may include: 
public meetings, public rule-making notices, reasonable public comment 
periods, access to rule-making proceedings, official reports, and open 
records laws. The application of technology intended to provide a 
government service should not be excluded from open government 
objectives. In addition to the methods described, the adoption of 
technology should include efforts to involve the participation of those 
members of the public with relevant skills and training.
    The guidance to states on the administration of elections should 
include strong support of open government procedures that allow public 
access to the election administration process. Historically, the 
election administration community, voting rights community, media, and 
partisan efforts looked closely at how elections were managed. Today, 
that list of constituencies has grown to include technologists, 
election reform advocates, and concerned citizens.
    Transparency is not part of the current laboratory testing and 
certification process for voting technology. The NASED process did not 
and would not provide information on the testing process for any voting 
system.\5\ Further, NASED would not answer specific questions regarding 
a voting technology manufacturer or a specific voting system.\6\ In 
California, Diebold was found to have used uncertified software on 
voting systems operated during public elections.\7\ When asked by 
California election officials about their certification of Diebold's 
AccuVote-TSx voting system, Wyle Laboratories refused to discuss the 
status of the testing.\8\ It was reported that Wyle Laboratory told the 
state that the information was proprietary. These conditions should not 
be tolerated, especially in light of the need to provide proof to the 
American public that the promise of HAVA will be fulfilled.
---------------------------------------------------------------------------
    \5\ House Science Committee's Subcommittee on Environment, 
Technology, and Standards, Hearing: ``Testing and Certification for 
Voting Equipment: How Can the Process be Improved?'' 108th Congress 
Second Session, June 24, 2004.
    \6\ id.
    \7\ Thomas Peele, ``State allows unapproved machines for March 
election'' Contra Costa Times, January 16, 2004. Ian Hoffman, ``E-
voting software problems worsens,'' Alameda Times-Star, May 15, 2004.
    \8\ Elise Ackerman, ``Vote-machine labs' oversight called lax,'' 
Costra Costa Times, May 31, 2004.
---------------------------------------------------------------------------

Audit

    In the final version of voting system guidelines, too little focus 
is placed on the importance of conducting audits of election results. 
Post-election evaluation of the results is fundamental to election 
integrity. For audits to be credible, the same vendor that supplied the 
voting system being audited should not perform the audit. It is 
important to know when election systems perform as expected, and when 
they do not. For this reason, independent, verifiable, and transparent 
audits of election results should be routine.\9\ California, Colorado, 
Connecticut, Hawaii, Illinois, Minnesota, New Mexico, New York, North 
Carolina, Washington, and West Virginia all have laws addressing 
election audits.\10\ For example, California's audit law requires a one 
percent manual recount of voted ballots.
---------------------------------------------------------------------------
    \9\ David Dill, Testimony, Election Assistance Commission, July 28, 
2005.
    \10\ Verified Voting, Manual Audit Requirements, August 20, 2005, 
available at http://verifiedvoting.org/article.php?id=5816
---------------------------------------------------------------------------
    Audits should include a representative hand count of ballots or 
ballot images; examining documentation of the chain of custody of all 
voting technology; and the chain of custody on all unmarked, and marked 
ballots. States are well within their prerogative to determine how the 
results of audits will be treated, however, they should be strongly 
encouraged to incorporate audits into every aspect of election 
administration, and make the results public. States should be 
encouraged to engage the technology community in the decision-making 
process to help meet the unique needs of State or local governments to 
routinely audit their elections.
    Today it is not enough that vendors assure states that paperless 
voting systems record and retain accurate vote information, those 
systems must be proven to do so. The record of systems failures that 
resulted in lost votes cannot be ignored. Ballots lost from electronic 
voting systems used in North Carolina and Florida in 2004 attest to the 
need for more rigorous voting technology standards.\11\ There is also a 
need to ensure routine access to ballot images for recount and election 
audit purposes. In 2004 the California Primary election resulted in a 
legal challenge, Soubirous vs. County of Riverside, when a candidate 
lost an election contest by 45 votes. The candidate was denied access 
to the memory and audit logs of the Sequoia electronic voting machines 
purchased the Riverside County Board of Supervisors, which resulted in 
a court challenge.\12\
---------------------------------------------------------------------------
    \11\ Voters Unite, Report, Myth Breakers: Facts About Electronic 
Elections, available at http://www.votersunite.org/MB2.pdf

``Electronic Voting Machines Lose Ballots Carteret County, North 
Carolina. November, 2004. Unilect Patriot DRE A memory limitation on 
the DRE caused 4,438 votes to be permanently lost. Unilect claimed 
their paperless voting machines would store 10,500 votes, but they only 
store 3,005. After the first 3,005 voters, the machines accepted--but 
did not store--the ballots of 4,438 people in the 2004 Presidential 
election. Jack Gerbel, President and owner of Dublin-Calif.-based 
UniLect, told The Associated Press that there is no way to retrieve the 
missing data. Since the agriculture commissioner's race was decided by 
a 2,287-vote margin, there was no way to determine the winner. The 
State Board of Elections ordered a new election, but that decision is 
---------------------------------------------------------------------------
being challenged in the court.

Palm Beach County, Florida. November 2004. Sequoia DRE Battery failure 
causes DREs to lose about 37 votes. Nine voting machines ran out of 
battery power and nearly 40 votes may have been lost.. . .The nine 
machines at a Boynton Beach precinct weren't plugged in properly, and 
their batteries wore down around 9:30 a.m., said Marty Rogol, spokesman 
for Palm Beach County Supervisor of Elections Theresa LePore. Poll 
clerk Joyce Gold said 37 votes appeared to be missing after she 
compared the computer records to the sign-in sheet. Elections officials 
won't know exactly how many votes were lost until after polls close.''
---------------------------------------------------------------------------
    \12\ Soubirous vs. County of Riverside, No. E036733, 2006 Cal. App. 
Unpsb. Lexis 1218 (Cal. App. Feb 8, 2006) available at http://
www.verifiedvoting.org/downloads/legal/california/soubirous-v-
countyofriverside/
---------------------------------------------------------------------------

Security

    Security can be defined as a series of tradeoffs.\13\ For example, 
automobile manufacturers initially opposed interior airbags in cars 
because they were thought to be too costly. The government made the 
decision that their inclusion in cars would save lives and that the 
increased cost for the purchase of an automobile was worth the 
tradeoff.
---------------------------------------------------------------------------
    \13\ Bruce Schneier, ``Beyond Fear: Thinking Sensibly About 
Security in an Uncertain World'' pg. 7.
---------------------------------------------------------------------------
    The voter is the only person who should know how they voted. That 
person should not be able to prove to anyone how they voted, nor should 
a ballot be associated with that voter.\14\ The votes cast by voters 
should be recorded and retained free from error or manipulation. The 
ballots and votes cast should be secured from tampering, damage, 
machine failure, or loss.
---------------------------------------------------------------------------
    \14\ Coney, Hall, Vora, and Wagner, ``Towards a Privacy Measurement 
Criterion for Voting Systems.''
---------------------------------------------------------------------------
    Voters should be able to cast votes and verify vote choices 
unassisted. Accuracy should be maintained and authenticated through a 
post-election audit process. State and local election contingency 
planning should detail what should be done in the event of a natural 
disaster or if a polling location unexpectedly becomes unavailable. 
Once an election has begun, contingency plans should cover what should 
take place to complete the election. For example, what should be done 
if a power outage occurs that exceed battery life of voting or ballot 
tabulation technology, voter turnout exceeds expectations, or 
unexpected shortages of Election Day poll workers occur, which threaten 
the conclusion of an election once begun.\15\
---------------------------------------------------------------------------
    \15\ Ace Project, Voting Operation: Contingency Plans, available at 
http://www.aceproject.org/main/english/po/pohO1d.htm
---------------------------------------------------------------------------

Reliability

    Another technical threat to voting systems, which receives too 
little attention, is Electrostatic Disruption (ESD). This can be 
devastating to the operation of electrical equipment. Humidity and 
other conditions in which voting systems will operate can contribute to 
ESD. It is our view that more study should be done to better understand 
the threats that ESD poses to voting systems and develop means to 
mediate them. States should be directed to use a sliding scale for 
conditions, where machines will be used and ESD is a high probability.

Comments on Voluntary Voting System Guidelines

    The Election Assistance Commission has demonstrated problems with 
version control of the final recommendations on voting system 
standards.\16\ The problem has continued with the publication in the 
Federal Register the final guidance submitted to the EAC by the 
Technical Guideline Development Committee (TGDC) on their 
recommendations for voluntary voting system guidelines.\17\ The TGDC 
recommendations sent to the EAC are available online.\18\ The TGDC's 
online document representing their final recommendations to the EAC and 
the EAC's reprint of those recommendations in the Federal Register in 
April 2006 do not agree. Specifically the TGDC's final recommendations 
dated May 9, 2005 includes Sections 6.0.4.2.1.1.6 through 6.0.4.3.2.2, 
and the EAC document identified as the TGDC's recommendations document 
does not include these sections. The missing sections addressed the 
role of the NIST National Software Reference Library.
---------------------------------------------------------------------------
    \16\ National Committee for Voting Integrity, Letter (April 28, 
2006).
    \17\ Election Assistance Commission, Technical Guidelines 
Development Committee's Final Recommendations on Voluntary Voting 
System Guidelines, Federal Register (April 12, 2006) available at 
http://a257.g.akamaitech.net/7/257/2422/01jan20061800/
edocket.access.gpo.gov/2006/pdf/06-3101pdf
    \18\ TGDC final VVSG Document Delivered to the EAC May 6, 2006 
available at http://vote.nist.gov/VVSGVol1&2--pdf
---------------------------------------------------------------------------
    If this had been the only incident of version control problem it 
might not be noteworthy other than a correction be published in the 
Federal Register, but another earlier incident makes this appear to be 
a pattern of inefficient management of documents. For example in 
another incident the EAC voted on the final of the VVSG on December 13, 
2005, the document was made public on January 12, 2006.\19\ However, at 
some point between the public posting and mid-February the EAC final 
VVSG document was replaced by another version.\20\
---------------------------------------------------------------------------
    \19\ EAC, Final VVSG Document January 13, 2006 available at http://
votingintegrity.org/pdf/vvsg<INF>-</INF>%20vol<INF>-</INF>I-1.pdf
    \20\ EAC, Current Final VVSG Document, July 14, 2006 available at 
http://www.eac.gov/VVSG%20Volume<INF>-</INF>I.pdf
---------------------------------------------------------------------------
    Barring a thorough investigation of this issue--a solution may not 
be easy to achieve, however it is worth noting that the chief expertise 
of the National Institute of Standards and Technology (NIST) is the 
development of standards, and a key component of this work is version 
control. Therefore, we strongly recommend that the following action be 
taken, the correct TGDC VVSG document be printed in the Federal 
Register in its entirety, and that NIST be directed to manage version 
control for the EAC of all document development required under the Help 
America Vote Act (HAVA).
    VVSG creates new threats to voting system security by recommending 
the use of telecommunication systems to transmit the election 
information over public telecommunication networks. Public 
telecommunication networks, especially the Internet, are insecure.\21\ 
It is important to note that HAVA Section 245 directs that the EAC 
conduct a study and report on Electronic Voting and Electoral Process 
in federal elections.\22\ The study, when completed, would assess the 
safe use of the Internet and other communication technology's use in 
voting.
---------------------------------------------------------------------------
    \21\ David Jefferson, Aviel D. Rubin, Barbara Simons, David Wagner, 
Report, ``A Security Analysis of the Secure Electronic Registration and 
Voting Experiment (SERVE),'' January 2004.
    \22\ Help America Vote Act of 2002 (HAVA), Public Law 107-252, 
October 29, 2002. SEC. 245. 42 USC 15385, available at http://
www.fec.gov/hava/law<INF>-</INF>ext.txt
---------------------------------------------------------------------------
    It is our strong recommendation that future guidance issued by the 
agency to states direct them to prepare realistic contingency plans in 
the event of electronic voting system failures that jeopardize the 
completion of the election process.\23\ Future Voluntary Voting System 
Guidelines should encourage State and local election administrators not 
to limit their thinking to what can be done, but to consider what can 
be done safely to establish reliable, secure, accessible, transparent, 
accurate, and auditable public elections.
---------------------------------------------------------------------------
    \23\ Ace Project, Report on Physical Security, available at http://
www.aceproject.org/main/english/et/ete01a.htm
---------------------------------------------------------------------------
    In VVSG Volume 1, Section 7 Security, recommends the incorporation 
of wireless technology in voting systems. We strongly recommend that 
wireless technology not be allowed in voting systems. Although wireless 
technology is commonplace in remote control systems for televisions, 
DVDs, VHS, computer networks, and other consumer products that does not 
mean it should be trusted in voting systems. States considering 
wireless technology as an option should be strongly encouraged to 
enumerate the need for it, and evaluate the potential risks. 
Manufacturers of voting systems should not incorporate wireless 
technology as a standard offering in voting systems used in public 
elections because it poses serious security risks. The only way to be 
sure that the risk is not present is not to include the wireless 
capability. If states insist on having wireless capability on voting 
systems, the next best security option is the ability to physically 
remove the device from voting systems before their use in public 
elections.
    In closing, future recommendations to election administration 
should include a directive to test all ballot marking devices to be 
sure that they meet specifications of the precinct tabulating facility 
and central tabulating technology. The precinct tabulator and central 
tabulator technology should be calibrated to read reasonable marks, 
which should include a dark stroke crossing the voting target on its 
long dimension and half the width of the target should register as a 
vote. Finally, all ballot tabulators should be tested and/or calibrated 
to ignore erasures made by a new gum eraser of a thoroughly blackened 
pencil mark.
    Guidance to states regarding the use of paperless direct recording 
electronic voting systems should include strong recommendations that at 
least one poll worker at each polling location should be trained to 
check the calibration of DRE voting machines and if necessary 
recalibrate them. Guidance to manufacturers should include criterion 
that these systems memory capacity is exceeded or a malfunction that 
threatens vote capture and retention is detected the voting system 
shall disallow the reinsertion of voter cards to disallow the 
appearance of continuing to record votes.
    The United States is a society of equal rights. On Election Day, 
this nation must function as a society of equal rights, where a single 
vote is treated as important as the majority of votes cast.

    Thank you,

    MEMBERS

    Peter G. Neumann, Chair * David Burnham * David Chaum * Cindy Cohn 
* Lillie Coney David L. Dill * Joe Hall * David Jefferson * Jackie Kane 
* Douglas W. Jones * Stanley A. Klein * Vincent J. Lipsio * Justin 
Moore * Jamin Raskin * Marc Rotenberg * Avi Rubin * Bruce Schneier * 
Paul M. Schwartz * Sam Smith

NCVI Intern, Richard Rasmussen

                    Statement of VerifiedVoting.org

    There is a crisis of confidence today in electronic voting systems 
that are widely used across our nation. It grows each day as the public 
gains awareness of the inadequacies and vulnerabilities of those 
systems. The concern is perhaps greatest among those who have the most 
technical understanding of the computing systems that form the basis 
for the voting equipment.
    The concerns that led to this crisis are not new, but no set of 
standards alone has been or will be sufficient to erase them.
    There will be those who say the crisis is not the fault of 
inadequate systems but rather the fault of those who shed light on the 
inadequacies--a ``shoot the messenger'' approach to restoring the 
public's sense that they can be sure their votes will count. They are 
wrong. They might be able to bury their own heads in the sand, but 
asking the public to take it on faith that there's no such thing as a 
machine malfunction or someone who might want to tamper with an 
election is simply not good enough, and a simple review of historical 
fact belies that belief.
    There will be those who say that system problems can be solved with 
a set of procedures. This too is a false fix, akin to directing the 
public to watch while we attach a big lock on the front door of the 
bank, while leaving the back door unlocked and the safe wide open. Good 
procedures are necessary, as are technical features that support system 
security, reliability and usability. However, sometimes one needs 
mechanisms to prevent specific acts that doesn't depend on humans to 
follow rules. A procedural fix cannot alone solve a system problem.
    Guidelines, regardless of how well written, do not matter at all if 
they are not enforced. At present, mechanisms are not in place to halt 
the electoral process or address the problem if the Guidelines are 
violated or circumvented, nor even to scrutinize the process to ensure 
Guidelines are not violated nor circumvented. The Guidelines instead 
become mere fig leaves strategically draped over the never-ending 
problem of voting systems that cannot be made secure without the 
essential safeguard of a voter-verified paper record (VVPR) of every 
vote, and mandatory random checks of the paper records to ensure 
accuracy of the vote count.
    Seventy percent of the states believe--regardless of the existence 
of any Guidelines--that voter-verified paper records are necessary.\1\ 
Over half of the members of the U.S. House of Representatives have 
reflected that majority position by sponsoring legislation that would 
make VVPR mandatory in all states. While only 13 states currently 
require random manual audits of the voter-verified paper records,\2\ 
many more have the tools to conduct those audits today.
---------------------------------------------------------------------------
    \1\ 28 states have enacted rules or legislation requiring voter-
verified paper records: AZ, AK, AR (partial req.), CA, CT, CO, HI, ID, 
IL, ME, MI, MN, MO, MT, NC, NV, NH, NY, NJ, NM, OH, OR, SD, UT, VT, WI, 
WV, WA. Another eight states are deploying voter-verifiable equipment 
statewide even without a requirement: AL, MA, MS, NE, ND, OK, RI, WY. 
For details see http://verifiedvoting,org
    \2\ AK, AZ, CA, CT, CO, HI, IL, MN, NM, NY, NC, WA, WV--for 
details, see http://www.verifiedvoting.org/article.php?id=5816
---------------------------------------------------------------------------
    Unless and until these practices (the use of voter-verified paper 
records and mandatory manual audits of those records) are adopted 
nationwide, the crisis of confidence will continue to grow. The current 
set of Guidelines, despite the efforts of those who worked on them, do 
not resolve this current crisis, for several reasons.
    --First, they are inadequate: the current process for voting system 
certification is wholly insufficient for security, and resolutions of 
the Technical Guidelines Development Committee to include open-ended 
research on possible attacks were omitted from the guidelines.
    --Second, they will never be adequate for security, if separate and 
apart from a voter-verifiable voting system and robust random manual 
audits. This is not to say the VVSG on security shouldn't exist, but 
rather that it must be understood they can only serve as a potential 
enhancement to mitigate risks, and cannot ever be strong enough alone.
    --Third, the most significant thing the current VVSG could have 
done to help bolster the public's confidence was not done: On January 
18, 2005, Professor Ron Rivest introduced a resolution (#13-05) to 
require voter-verified paper records at the TGDC meeting. Professor 
Rivest is the member of the TGDC with by far the greatest expertise in 
computer security. That resolution was voted down, by members of the 
committee who know less about computer security than the person who 
introduced the measure. Just as the Food and Drug Administration would 
not approve of a pharmaceutical based on a vote where accountants out-
voted physicians, it is important that decisions affecting technical 
requirements are made by people that are technical experts.
    --Finally, as the lion's share of HAVA equipment funding has been 
spent on systems that were not designed to those standards, the current 
VVSG can serve only as a theoretical or philosophical guideline for 
what you would want in a voting system, if one were going to buy a new 
one today. . .but almost no one is buying now. As safeguards for the 
systems we use today and for the foreseeable future, or as insurance 
that those systems are accessible and usable as possible--the VVSG are 
the horse lagging behind its voting-system cart.

Concerns and Recommendations

    Analysis of the VVSG process to date makes clear the Guidelines are 
inadequate to address the current (justified) crisis of confidence in 
electronic voting systems. Recommendations for improvement follow.

1. Prevent Unrecoverable Lost Votes; Mandate VVPR. During the November 
2004 election in Carteret County, North Carolina, a paperless DRE 
voting machine completely failed to record over 4,400 ballots cast on 
that machine; this failure occurred because those ballots exceeded the 
configured size of that machine's electronic memories. The machine 
failed to warn the affected voters that their ballots were not being 
recorded, the votes from those ballots were irretrievably lost, and 
several statewide races were thrown into limbo because the margin of 
victory in those races was less than the number of lost votes. While 
this was apparently the largest number of votes irretrievably lost on a 
single DRE, it was not the first or only documented instance of such a 
loss. Two years earlier, 436 ballots failed to be recorded on a 
different vendor's DRE used for early voting in Wake County, North 
Carolina. And just last year, in Pennsylvania, cast ballots were 
inadvertently erased at the end of the voting day due to a set-up 
error.
    In each case, had those DRE voting machines been equipped with a 
voter-verifiable paper audit trail (VVPAT) (or had those jurisdictions 
been using an inherently voter-verified paper ballot system, such as 
optical scan ballots), those votes would not have been lost. Yet 
despite these problems, the revised VVSG do not adequately protect 
against these types of problems and lack any requirement for VVPAT, 
despite thousands of comments submitted by the public in support of 
adding such a requirement.

         To prevent future losses of votes due to malfunction, 
        programming error, set-up error, or tampering, the VVSG must 
        require voter-verified paper records. This step will also serve 
        as an interim measure to regain some of the lost confidence in 
        our voting system, although only in those jurisdictions that 
        adopt the voluntary guidelines. For real impact, legislation 
        requiring voter-verified paper records and mandatory random 
        manual audits must be passed so that votes in all jurisdictions 
        are protected.

2. Accelerate VVSG Update Process. The VVSG do not take effect until 
December 2007, and even then, not all states are obligated to follow 
them because the guidelines are voluntary. Hence, in terms of 
addressing the current crisis, they offer too little, too late. The lag 
between their development and their effective date almost ensures that 
they will be obsolete by the time they are in effect. The capabilities 
and state-of-the-art in computerized systems changes vastly over the 
24-month adoption period, and the pace of voting standards development 
, while slightly accelerated over what it has been, still seems glacial 
when seen in the light of security concerns.

         Given the rate of change of technology, security-related and 
        other standards in the VVSG should be reviewed annually, and 
        the adoption window should be shorter than it is (e.g., 12 
        months rather than 24). When gravely serious security or 
        performance problems with voting systems are uncovered as has 
        happened in recent months, standards should be upgraded in 
        response, and if need be, voting machines in the field re-
        tested for modification.\3\ No new elections should have to be 
        run on equipment demonstrated to be faulty or insecure.
---------------------------------------------------------------------------
    \3\ These recommendations echo those of Dr. Michael Shamos, 
Distinguished Professor of Computer Science at Carnegie Mellon 
University, who testified in 2004 to the Environment, Technology, and 
Standards Subcommittee of the House Science Committee on the subject of 
voting system testing and certification. Cf. http://www.house.gov/
science/hearings/ets04/jun24/shamos.pdf

3. Certification Process Should Not Be Cloaked in Secrecy. Despite some 
minor changes to the scheme for certifying voting systems (i.e., 
``qualification'' has been renamed ``certification,'' ITAs have been 
renamed ``voting system testing laboratories,'' and the EAC, through 
NIST, will assume oversight and accreditation of the testing 
laboratories), the overall scheme still remains one in which private 
voting system vendors contract with (and pay for) private testing 
laboratories to carry out certification testing in secret. Public 
confidence in the integrity of this certification scheme will not be 
achieved if this testing process continues to remain cloaked behind a 
---------------------------------------------------------------------------
veil of secrecy.

         ``To keep vendors and [the VSTLs] accountable for their work, 
        the EAC should require that, as a condition of certification, 
        the report produced by the ITA be publicly released, along with 
        the technical data package.'' \4\
---------------------------------------------------------------------------
    \4\ Testimony of Dr. David Dill, Professor of Computer Science, 
Stanford University and Founder of Verified Voting, before the Election 
Assistance Commission, July 28, 2005 hearing, Pasadena, CA http://
www.eac.gov/docs/Dill.pdf

4. Stronger Security Testing Needed. The VVSG scheduled to take effect 
in 2007 do not mandate the type of vigorous security examination needed 
to uncover security weaknesses (e.g., the several Hursti hacks,\5\ plus 
additional vulnerabilities discovered by California's Voting Systems 
Technology Assessment Advisory Board [VSTAAB]) of the sort discovered 
due to the inquisitiveness and concern of local election officials 
(e.g., Ion Sancho, Supervisor of Elections, Leon County, Florida; Bruce 
Funk, Emery County Clerk, Utah). These vulnerabilities could be 
successfully exploited without leaving any trace. Any certification 
system that subjects voting systems to hundreds of hours of ``testing'' 
and which takes many months and hundreds of thousands of dollars to 
complete and yet fails to discover grave security vulnerabilities which 
can be successfully exploited in a manner of minutes is completely 
ineffective.
---------------------------------------------------------------------------
    \5\ Finnish computer security expert Harri Hursti discovered two 
distinct classes of vulnerabilities in the Diebold AccuVote voting 
systems: a) Vulnerabilities associated with the use of interpreted 
AccuBasic code on the removable memory card used to store vote totals 
and/or ballot images (for details see http://www.ss.ca.gov/elections/
voting<INF>-</INF>systems/
security<INF>-</INF>analysis<INF>-</INF>of<INF>-</INF>the<INF>-</INF>die
bold<INF>-</INF>accubasic<INF>-</INF>interpreter.pdf); and b) 
vulnerabilities associated with boot loader software and flash memory 
(http://www.blackboxvoting.org/BBVreport.pdf).

         ``Security evaluations should be conducted by experts not 
        chosen by the vendors, and those experts should be allowed to 
        do open-ended research on possible attacks (such groups are 
        sometimes called ``Tiger teams''). Any new iteration of the 
        VVSG should incorporate the TGDC Resolution #17-05 which called 
        for such an approach.'' \6\
---------------------------------------------------------------------------
    \6\ Testimony of Dr. Dill July 28, 2005, ibid.

5. Proprietary Interests Should Not Outweigh Security and Performance 
Requirements. The current (and future) certification scheme based on 
the current (and future) VVSG appears to be biased in favor of 
maintaining the proprietary interests of voting machine vendors rather 
than ensuring the integrity of the voting systems being evaluated.
    An example is the inclusion of wireless networking, which opens up 
security threats while facilitating vendor interests. The inevitable 
consequence of allowing wireless, even with special guidelines about 
its use, is that machines with wireless capability will be certified, 
even though they will not and cannot be secure. Worse, even if a 
jurisdiction wanted to ban wireless capabilities locally, it is 
possible under the current certification scheme that they would be 
unable to determine whether such capability was already ``on-board'' in 
their existing systems. First, they'd need the technical ability to 
check their hardware (and if a wireless component was found, to examine 
the software to ensure that the software will not support it). Second, 
warranty and maintenance agreements often consider things like 
``unauthorized'' opening of the case of a voting system to violate or 
void the warranty. So, more than likely, a jurisdiction would have to 
ask the vendor if there was wireless capability and take their word for 
it or ask permission to examine the system to assess whether or not 
wireless functionality was shipped and armed.

         Wireless networking is unnecessary and inherently unsafe, and 
        should be banned outright. Further, The VVSG should define 
        procedures under which local election jurisdictions can 
        reliably verify the absence of such wireless capability in any 
        voting systems equipment that they purchase or lease.

6. Encourage (Secure) Usability Advances. The current practice of 
certifying whole voting systems has the potential to stifle the 
independent development of add-ons to existing voting systems that can 
greatly enhance usability and especially accessibility. For example, 
this practice has impeded deployment of accessible ballot-marking 
devices which are designed for, and capable of, working with any legacy 
optical scan voting system, because those devices must be re-submitted 
for testing with each such voting system, a process in which vendors 
have yet to cooperate. Accessibility advocates describe a wish for 
systems with a broad spectrum of capabilities and features, yet 
typically no one system currently addresses all those needs. 
Jurisdictions lack the resources to obtain more than one system for 
accessibility, but even if they had the resources, inter-operability 
between competing systems is lacking.
    There is a need to provide for inter-operability between such 
existing and potential modular devices made by different vendors. Yet 
it is important not to sacrifice the performance and security benefits 
that end-to-end system testing brings.

         The VVSG should look to develop a better solution for inter-
        operability such as testing a proposed subsystem, and having 
        well-defined, standard interfaces between sub-systems that 
        comprise a voting system. For example, a standardized schema 
        for defining the layout of optical scan paper ballots should be 
        developed to enable the interchange of ballot layouts between 
        voting systems developed by different vendors, so that an 
        optical scan ballot printed by vendor X could be marked by a 
        ballot marking device manufactured by vendor Y and scanned by 
        an optical scanner built by vendor Z. Each vendor would be 
        responsible for providing conversion software to translate 
        between their proprietary ballot layout definition files and 
        the standardized schema.

7. Scrutiny and the Need to Address Defects Discovered After 
Deployment. At present, the revised VVSG and proposed certification 
process lack any clear mechanism for suspending or revoking the federal 
certification status of deployed voting systems found to contain 
serious defects, including security vulnerabilities, that put the 
public's votes and the integrity of our elections at risk. When such 
critical security defects are discovered in already-deployed voting 
systems, some fraction of impacted states issue some sort of warning or 
advisory, while other states take no action at all. Even when warnings 
or advisories are issued, most states typically take no further action 
to ensure that local jurisdictions comply or act on those notices, in 
part because the costs for implementing interim mitigation procedures 
fall on local election jurisdictions that lack the resources to 
effectively carry them out.
    When defects in other types of products affect public safety, 
product recalls are initiated and product defects corrected at vendor 
expense. But when similarly serious defects or vulnerabilities are 
found in voting systems, we do not see federal certification revoked or 
products recalled. (Nor have we seen any requirement that vendors 
notify all their existing markets about the problem, with 
recommendations for mitigation or replacement. This means the same 
problem can occur election after election, in county after county, 
despite having been likely preventable in all but the first instance.)

         To help prevent voting machine problems, new Guidelines must 
        provide a mechanism for scrutiny to ensure that its standards 
        are maintained and enforced, especially when problems with the 
        design of a voting machine are discovered after it has 
        completed federal qualification and been deployed for use in 
        elections.

         The revised VVSG should include mechanisms for suspending or 
        revoking federal qualifications when serious defects in voting 
        machines are discovered after initial qualification, and should 
        require notification and mitigation by the vendor involved to 
        all jurisdictions where the voting system is deployed.

Need for Prompt Action

    Slightly over two years ago, on June 24, 2004, the Environment, 
Technology, and Standards Subcommittee of the House Science Committee 
held hearings on the subject: ``Testing and Certification of Voting 
Equipment: How can the process be improved.''\7\ In his testimony\8\ 
before that committee, Dr. Michael Shamos stated in part:
---------------------------------------------------------------------------
    \7\ http://www.house.gov/science/hearings/ets04/index.htm
    \8\ http://www.house.gov/science/hearings/ets04/jun24/shamos.pdf

         I am here today to offer my opinion that the system we have 
        for testing and certifying voting equipment in this country is 
        not only broken, but is virtually nonexistent. It must be re-
        created from scratch or we will never restore public confidence 
---------------------------------------------------------------------------
        in elections.. . .

         . . .We need a coherent, up-to-date, rolling set of voting 
        system standards combined with a transparent, easily-understood 
        process for testing to them that is viewable by the public. We 
        don't have that or anything resembling that right now, and the 
        proposal I have heard are (sic) not calculated to install them.

         . . .I propose that standards for the process of voting be 
        developed on a completely open and public participatory basis 
        to be supervised by the EAC, with input from NIST in the areas 
        of its demonstrated expertise, such as cryptography and 
        computer access control. Members of the public should be free 
        to contribute ideas and criticism at any time and be assured 
        that the standards body will evaluate and respond to them. When 
        a problem arises that appears to require attention, the 
        standards should be upgraded at the earliest opportunity 
        consistent with sound practice. If this means that voting 
        machines in the field need to be modified or re-tested, so be 
        it. But the glacial pace of prior development of voting 
        standards is no longer acceptable to the public.

    Unfortunately, two years after the Subcommittee heard these 
concerns in testimony, little has changed. Instead of recreating the 
testing and certification system ``from scratch'' and making that 
process ``transparent, easily-understood'' and ``viewable'' by the 
public, the revised VVSG does little to address any of these concerns. 
Rather, the revised VVSG makes some tweaks to the ``arcane technical 
standards'' (Guidelines) and the accreditation of the testing labs, but 
otherwise leaves intact the existing opaque and secretive system which 
Professor Shamos describes as ``grotesque.'' That system can continue 
no longer, and must be made transparent.
    Beyond accepting public input to the revised VVSG, the ``standards 
body'' must show greater evidence that it has heard the overwhelming 
majority of that public input and must provide a meaningful response to 
key concerns raised by the public (e.g., concerns regarding the urgent 
need for VVPR and for the elimination of wireless technology from 
voting systems).
    When gravely serious security problems with DREs are uncovered as 
they were during this past year, standards must be upgraded in 
response, voting machines in the field modified and retested, and the 
pace of voting standards development must accelerate to address 
usability, performance and especially security concerns.
    It is time for Congress to act to safeguard our elections. Tweaking 
the voluntary Guidelines (not even yet in effect) will not address the 
public's urgent concerns about the integrity of our voting system. 
Immediate passage of a requirement for voter-verified paper records and 
mandatory random manual audits will.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


           A Study of Vote Verification Technologies for the

                   Maryland State Board of Elections

Executive Summary

    This Executive Summary presents the principal findings of two 
studies of vote verification technologies that were commissioned in 
2005 by the Maryland State Board of Elections (SBE). The first, or the 
technical study, was conducted by researchers at the University of 
Maryland, Baltimore County (UMBC). The second, or the usability study, 
was conducted by researchers at the University of Maryland, College 
Park.
    We note that while these studies were commissioned by the SBE, they 
were conducted independently of the SBE and, independently of one 
another. This should provide the citizens and decision-makers in the 
State of Maryland with a high degree of confidence that the studies are 
impartial and scientifically sound.

Part I: Technical Study Executive Summary

    Scholars at UMBC, working through the National Center for the Study 
of Elections of the Maryland Institute for Policy Analysis and 
Research, conducted a technical review of vote verification systems for 
the Maryland State Board of Elections (SBE). Initially, the review was 
supposed to include up to seven systems from the following 
organizations and individuals: VoteHere (Sentinel); SCYTL (Pnyx.DRE); 
Prof. Ted Selker, MIT (VVAATT); Diebold's VVPAT; Democracy Systems, 
Inc. (VoteGuard); IP.Com; and Avante. We determined that IP.Com did not 
represent a true vote verification technology, and Avante and Democracy 
Systems, Inc., declined to participate in the study. We also examined 
the SBE's procedures for ``parallel testing'' of the Diebold AccuVote-
TS (touchscreen) voting system in use in Maryland and used this as a 
baseline against which to evaluate the vote verification systems.
    In conducting our analysis, we received demonstrations from the 
vendors, and we examined the vendors' hardware, software, and 
documentation to determine if their products did what their vendors 
claim that they do. That is, do they enable voters who use the 
touchscreen voting system in use in the State of Maryland to verify 
that their votes were cast as intended, recorded as cast, and reported 
as recorded, and do they permit post-election auditing? We examined 
such issues as:

        <bullet>  implementation

        <bullet>  impact on current state voting processes and 
        procedures

        <bullet>  impact on voting

        <bullet>  functional completeness

        <bullet>  security against fraud, attack and failure

        <bullet>  privacy

        <bullet>  reliability

        <bullet>  accessibility

    We also compared these systems to one another and to the state's 
current voting system and procedures, which includes the SBE's use of 
parallel testing around that system.
    We note several specific concerns about these products, including 
the following:

        1.  Only one of these products, the Diebold VVPAT, provides for 
        a pure paper solution.

        2.  All of these products would impose significant one-time 
        implementation and on-going management burdens (cost, effort, 
        security, etc.) on the SBE and the state's 24 Local Boards of 
        Elections.

        3.  All would increase the complexity of the act of voting.

        4.  All would increase the amount of time required to vote.

        5.  All would at least double the amount of effort required to 
        administer elections.

        6.  All would adversely affect voter privacy.

        7.  These products would have both potentially positive and 
        potentially negative impacts on security and election 
        integrity.

        8.  None can be considered as fully accessible to persons with 
        disabilities and none of them fully meets the accessibility 
        standards of Section 508 of the Rehabilitation Act.

        9.  Integration of these systems will require the cooperation 
        of Diebold to develop and/or ensure the viability of a working 
        interface between the vendors' products and the Diebold system.

    Our principal findings are, first, that each of the systems we 
examined may at some point provide a degree of vote verification beyond 
what is available through the Diebold System as currently implemented. 
But this is true only if the system were fully developed, fully 
integrated with the Diebold DREs and effectively implemented.
    Our second principal finding is that none of these systems is yet a 
fully developed, commercially ready product. None of these products had 
been used in an election in the U.S. (SCYTL has been used outside the 
U.S. and a different version of the Diebold VVPAT has been used in the 
U.S.).
    Were the State of Maryland to decide to acquire any of these 
products, the vendor would have to invest additional money and effort 
to produce an actual product and make the product ready for use in 
actual elections. Indeed, nearly all of these vendors are looking for 
some level of external support to fully develop and commercialize their 
products.
    In our expert opinion, it is a bad idea for governments to buy 
products that are not functionally complete and that either do not have 
positive records in the market place or that cannot be fully and 
effectively tested in simulated elections to ascertain their 
performance characteristics.
    Therefore, based on the evidence from this study, we cannot 
recommend that the State of Maryland adopt any of the vote verification 
products that we examined at this time.
    We would note that no election system--regardless of the technology 
involved--is foolproof nor is any election system completely immune or 
secure from fraud and attack. Indeed, there is a long and inglorious 
history of election fraud in the U.S. that involves nearly all methods 
and technologies of voting, especially paper voting systems. Moreover, 
it would be prohibitively costly to make any election totally secure.
    Finally, regardless of what the State of Maryland does in the near 
term with regard to vote verification and vote verification systems, in 
future elections, it should expand the use of parallel testing. The 
state should also undertake a full-scale assessment of the security 
procedures and practices around its current voting system. We say this 
even with the knowledge that current security procedures are reasonable 
and prudent and that the SBE's system of parallel testing, as currently 
implemented, reduces considerably the possibility of fraud and attack 
on the system.

Part 11: Usability Study Executive Summary

    The University of Maryland's Center for American Politics and 
Citizenship, along with the Human-Computer Interaction Lab, conducted a 
usability study of four vote verification systems and a voting system 
with no verification unit for the Maryland State Board of Elections.
    The major findings from the expert review by human-computer 
interaction experts are:

        <bullet>  There was a perceived trade-off between usability and 
        security. In all cases, the verification system appeared to 
        reduce the usability of the voting process compared to the 
        Diebold AccuVote-TS, which had no verification unit.

        <bullet>  The Diebold AccuVote-TSx with the AccuView Printer 
        Module (paper printout, referred to as AccuView Printer) was 
        rated most favorably. However, suggestions were made for 
        improvement and questions were raised about the paper record's 
        utility when used for a long ballot.

        <bullet>  Privacy concerns were raised about each of the four 
        vote verification systems.

    The major findings from the field test involving more than 800 
Marylanders are:

        <bullet>  All of the systems were viewed favorably, including 
        the Diebold AccuVote-TS with no verification unit.

        <bullet>  The Diebold with AccuView Printer was rated the most 
        favorably in terms of voter satisfaction, but not substantially 
        better than the AccuVote-TS with no verification unit or the 
        VoteHere Sentinel.

        <bullet>  The MIT (audio) system was found to be distracting 
        and it failed to generate as much confidence as other systems. 
        It also was criticized by some users because of sanitary 
        concerns related to the repeated use of the same headset.

        <bullet>  Participants needed the least amount of help when 
        using the Diebold AccuVote-TS system (no verification unit). 
        The Diebold with AccuView Printer system (paper trail) came 
        next. Voters received more help using the VoteHere (Internet or 
        telephone), MIT (audio), and Scytl (monitor) systems.

    The major findings concerned with election administration are:

        <bullet>  Adding any of the four verification systems greatly 
        increased the complexity of administering an election.

        <bullet>  The paper spool in the Diebold AccuView Printer had 
        to be changed frequently, and changing it was fairly complex.

        <bullet>  It was difficult and time consuming to set up the 
        Scytl system.

        <bullet>  The Scytl, MIT, and Diebold AccuVote-TS with no 
        verification unit were out of commission for some portions of 
        the study (but not enough to affect the results).

        <bullet>  Diebold provided outstanding response to service 
        calls. Scytl (based in Spain) provided poor service. No service 
        calls were made to MIT or VoteHere.

Recommendations

        <bullet>  On the basis of usability and some administrative 
        considerations, we cannot recommend that the State of Maryland 
        purchase any one of the vote verification systems (or system 
        prototypes) that were reviewed. There are some important 
        tradeoffs between usability and other considerations, including 
        the security of the vote.

        <bullet>  We recommend that the voter interface of AccuVote-TS 
        (with no printer unit) be modified to incorporate some of the 
        improvements made to the interface of the AccuVote-TSx with the 
        AccuView Printer system.

        <bullet>  The AccuVote-TS with no verification unit became 
        inoperative while an individual was voting under normal 
        circumstances. This had a direct impact on the usability of the 
        system and caused concern among voters. An explanation was 
        provided but it was beyond the scope of this study to confirm 
        it. We recommend this situation be addressed.
          Statement of the U.S. Election Assistance Commission

INTRODUCTION

    EAC is a bipartisan commission consisting of four members: Paul 
DeGregorio, Chairman; Ray Martinez III, Vice Chairman; Donetta 
Davidson; and Gracia Hillman. EAC's mission is to guide, assist, and 
direct the effective administration of federal elections through 
funding, innovation, guidance, information and regulation. In doing so, 
EAC has focused on fulfilling its obligations under HAVA and the 
National Voter Registration Act (NVRA). EAC has employed four strategic 
objectives to meet these statutory requirements: Distribution and 
Management of HAVA Funds, Aiding in the Improvement of Voting Systems, 
National Clearinghouse of Election Information, and Guidance and 
Information to the States. Each program will be discussed more fully 
below. The topic at hand involves our strategic efforts to aid in the 
improvement of voting systems.

AIDING IN THE IMPROVEMENT OF VOTING SYSTEMS

    One of the most enduring effects of HAVA will be the change in 
voting systems used throughout the country. All major HAVA funding 
programs can be used by states to replace outdated voting equipment. 
HAVA established minimum requirements for voting systems used in 
federal elections. Each voting system must:

        <bullet>  Permit the voter to verify the selections made prior 
        to casting the ballot;

        <bullet>  Permit the voter to change a selection prior to 
        casting the ballot;

        <bullet>  Notify the voter when an over-vote occurs (making 
        more than the permissible number of selections in a single 
        contest);

        <bullet>  Notify the voter of the ramifications of an over-
        vote;

        <bullet>  Produce a permanent paper record that can be used in 
        a recount or audit of an election;

        <bullet>  Provide accessibility to voters with disabilities;

        <bullet>  Provide foreign language accessibility in 
        jurisdictions covered by Section 203 of the Voting Rights Act; 
        and

        <bullet>  Meet the error rate standard established in the 2002 
        Voting System Standards.

    According to HAVA, the requirement for access for voters with 
disabilities can be satisfied by having one accessible voting machine 
in each polling place. In addition to these requirements, Congress 
provided an incentive for states that were using punch card or lever 
voting systems by providing additional funding on a per precinct basis 
to replace those outdated systems with a voting system that complies 
with the requirements set out above.
    HAVA also provides for the development and maintenance of testable 
standards against which voting systems can be evaluated. It further 
requires federal certification according to these standards. EAC is 
responsible for and committed to improving voting systems through these 
vital programs.
Voluntary Voting System Guidelines
    One of EAC's most important mandates is the testing, certification, 
decertification and recertification of voting system hardware and 
software. Fundamental to implementing this key function is the 
development of updated voting system guidelines, which prescribe the 
technical requirements for voting system performance and identify 
testing protocols to determine how well systems meet these 
requirements. EAC along with its federal advisory committee, the 
Technical Guidelines Development Committee (TGDC), and the National 
Institute of Standards and Technology (NIST), work together to research 
and develop voluntary testing standards.
    On December 13, 2005, EAC adopted the first iteration of the 
Voluntary Voting System Guidelines (VVSG). The final adoption of the 
VVSG capped off nine months of diligent work by NIST and the TGDC. In 
May of 2005, the TGDC delivered its draft of the VVSG. EAC then engaged 
in a comprehensive comment gathering process, which included comments 
from the general public as well as from members of its Board of 
Advisors and Standards Board. Interested persons were able to submit 
comments on-line through an interactive web-based program, via mail or 
fax, and at three public hearings (New York, NY; Pasedena, CA; Denver, 
CO). EAC received more than 6,000 individual comments. EAC teamed up 
with NIST to assess and consider every one of the comments, many of 
which were incorporated into the final version.
    The VVSG is an initial update to the 2002 Voting System Standards 
focusing primarily on improving the standards for accessibility, 
usability and security. The 2005 VVSG significantly enhances the 
measures that must be taken to make voting systems accessible to 
persons with disabilities and more usable for all voters. For example, 
the 2002 VSS contained 29 accessibility requirements, focusing 
primarily on accommodating persons with visual disabilities. The 2005 
VVSG contains 120 requirements that establish testing measures to 
assure that voting systems accommodate all persons with disabilities, 
including physical and manual dexterity disabilities. In addition to 
ensuring accessibility requirements were increased and strengthened, 
the 2005 VVSG includes for the first time a usability section, which 
addresses the needs of all voters, empowering them to adjust voting 
systems to improve interaction. Those testing measures include allowing 
adjustment of brightness, contrast, and volume by the voter to suit 
his/her needs.
    The 2005 VVSG also incorporated standards for reviewing voting 
systems equipped with voter-verifiable paper audit trails (VVPAT)\1\ in 
recognition of the many states that now require this technology. In 
accordance with HAVA and to assure that persons with disabilities had 
the same access to review their ballots as non-disabled voters, the 
2005 VVSG required VVPATs to be accessible when the paper record would 
be used as the official ballot or as definitive evidence in a recount. 
In addition, the VVSG addressed new technologies that emerged on the 
market since the 2002 VSS, such as wireless technology. Standards were 
established to require the wireless mechanism to be disabled during 
voting and to provide a clear, visual indicator showing when the 
wireless capability is activated. VVSG also establishes testing methods 
for assessing whether a voting system meets the guidelines. A complete 
listing of the changes and enhancements included in the 2005 VVSG can 
be found on the EAC web site, http://www.eac.gov/Summary%20of%20Changes 
%20to%20VVSG.pdf.
---------------------------------------------------------------------------
    \1\ VVPAT is an independent verification method that allows the 
voter to review his/her selections prior to casting his/her ballot 
through the use of a paper print out. VVPAT is merely one form of 
independent verification. EAC is currently working with NIST to develop 
standards for additional methods such as witness systems, cryptographic 
systems, and split process systems.
---------------------------------------------------------------------------
    The 2005 VVSG, like the 1990 and 2002 VSS, is a voluntary set of 
voting system testing standards. States choose to make these standards 
mandatory for equipment purchased in those states by requiring national 
certification according to those standards in their statutes and/or 
rules and regulations. Currently, approximately 40 states require 
certification to either the 2005 VVSG or the 1990 or 2002 VSS. When EAC 
adopted the 2005 VVSG, it did so with an effective date of December 13, 
2007. This two-year period was designed to allow states the time needed 
to make changes to their laws, rules and regulations to require 
certification to the new standards, as is standard practice when 
introducing new industry guidelines. New York has already legislatively 
mandated certification to the 2005 VVSG, and EAC expects over the next 
several years that the vast majority of the states will make changes to 
their legislation requiring certification to the 2005 VVSG. Prior to 
December 13, 2007, voting systems, components, upgrades and 
modifications can be tested against either the 2002 VSS or the 2005 
VVSG, depending on the requirements of the states and manufacturers' 
requests. After December 13, 2007, EAC will no longer test systems to 
the 2002 VSS; systems and upgrades will only be tested to the 2005 
VVSG.
    Significant work remains to be done to fully develop a 
comprehensive set of standards and testing methods for assessing voting 
systems and to ensure that they keep pace with technological advances. 
In FY 2007, EAC along with TGDC and NIST, will revise sections of the 
VVSG dealing with software, functional requirements, independent 
verification, and security and will develop a comprehensive set of test 
suites or methods that can be used by testing laboratories to review 
any piece of voting equipment on the market. Much like the roll out of 
the 2005 VVSG, these future iterations will be adopted with an 
effective date provision and a procedure for when new voting systems, 
components, upgrades and modifications will be required to be tested 
against the new iteration of the VVSG.
Accreditation of Voting System Testing Laboratories
    HAVA Section 231 requires EAC and NIST to develop a national 
program for accrediting voting system testing laboratories. NIST's 
National Voluntary Laboratory Accreditation Program (NVLAP) will 
initially screen and evaluate testing laboratories and will perform 
periodic reevaluation to verify that the labs continue to meet the 
accreditation criteria. When NVLAP has determined that a lab is 
competent to test systems, the NIST director will recommend to EAC that 
a lab be accredited. EAC will then make the determination to accredit 
the lab. EAC will issue an accreditation certificate to the approved 
labs, maintain a register of accredited labs and post this information 
on its web site to fully inform the public about this important 
process.
    In June 2005, NVLAP advertised for the first class of testing 
laboratories to be reviewed under the NVLAP program and accredited by 
EAC. Three applications were received in the initial phase, with two 
additional applications following in late 2005. Pre-assessments of 
these laboratories began in April 2006 and formal review is proceeding. 
NVLAP will conduct full evaluations of at least two initial applicants 
this fall and, depending on the outcome of the evaluations, will make 
initial recommendations to the EAC before the end of the year. All 
qualified candidates from among the pool of five applicants will be 
sent to the EAC by spring 2007.
    In late 2005, EAC invited laboratories that were accredited through 
the National Association of State Election Directors (NASED) program as 
Independent Testing Authorities (ITAs) to apply for interim 
accreditation to avoid a disruption or delay in the testing process. 
All three ITAs have applied for interim accreditation. Interim 
accreditation reviews by EAC contractors are under way and are expected 
to be completed by September 2006. ITAs will be accredited on an 
interim basis until the first class of laboratories is accredited 
through the NVLAP process. After that time, all testing labs must be 
accredited through the NVLAP evaluation process.
The National Voting System Certification Program
    In 2006, EAC is assuming the duty as prescribed by HAVA to certify 
voting systems according to national testing standards. Previously, 
NASED qualified voting systems to both the 1990 and 2002 Voting System 
Standards. Historically, voting system qualification has been a labor 
intensive process to ensure the integrity and reliability of voting 
system hardware, software and related components. In six months, NASED 
received 38 separate voting system test reports for review and 
qualification. All requests were received, processed and monitored 
while the testing laboratory assessed compliance. Once a test report 
was produced, technical reviewers analyzed the reports prior to 
certification.
    EAC's certification process will constitute the Federal 
Government's first efforts to standardize the voting system industry. 
EAC's program will encompass an expanded review of voting systems, and 
it will utilize testing laboratories accredited by EAC and experts 
hired by EAC to assure that the tested systems adequately met the 
standards.
    The EAC will implement the Testing and Certification Program 
required by Section 231(a)(1) of HAVA in two distinct phases (pre-
election phase and full program). Both phases will be rolled out in 
2006. The first phase of the program will begin on July 24, 2006 and 
terminate upon the EAC's implementation of the program's second phase. 
The second phase (full program) will begin on December 7, 2006.
    The pre-election phase of the program focuses on providing 
manufacturers a means to obtain federal certification for modifications 
required by State and local election officials administering the 2006 
General Election. This pre-election phase will ensure a smooth and 
seamless transition from the NASED program (which has qualified voting 
systems at the national level for more than a decade) to the more 
rigorous and detailed EAC program. This will be done by delaying 
implementation of some the procedural requirements found in the full 
program until after the critical pre-election period. This will allow 
the EAC to diligently review voting system modifications while, at the 
same time, ensuring a smooth transition and avoiding the unacceptable 
delays often associated with rolling out a new program.
    The full program will begin in December by requiring every voting 
system manufacturer that desires to have a product certified to 
register and disclose information about the company and its owners, 
board members and decision-makers. Manufacturers will be subject to a 
conflict of interest analysis including reviewing whether any owners or 
board members are barred from doing business in the United States. EAC 
will test complete voting systems including new components and how they 
integrate with the entire voting system. This process will be achieved 
by having technical experts review the reports provided by accredited 
testing laboratories to assure that the tests performed and the results 
are consistent with a system that conforms to the VVSG. These experts 
will recommend conforming systems for certification. Another new 
feature of the EAC certification program will be the quality assurance 
program. Through site visits to manufacturing facilities and field 
inspections, EAC will confirm that the systems that are being 
manufactured, sold to and used by election jurisdictions throughout the 
country are the same as those certified by EAC. Last, EAC will 
introduce a decertification process that will allow involved persons to 
file complaints of non-conformance, provide for the investigation of 
those complaints, and if warranted decertify systems because of a 
failure to conform to the VVSG.
Election Management Guidelines
    To complement the VVSG, the EAC is creating a set of election 
management guidelines. These guidelines are being developed by a group 
of experienced state and local election officials who provide subject 
matter expertise. The project will focus on developing procedures 
related to the use of voting equipment and procedures for all other 
aspects of the election administration process. The election management 
guidelines will be available to all election officials if they wish to 
incorporate these procedures at the State and local levels. These 
guidelines cover the following topics:

        <bullet>  Storage of equipment

        <bullet>  Equipment set up

        <bullet>  Acceptance testing

        <bullet>  Procurement

        <bullet>  Use

        <bullet>  Logic and accuracy (validation) testing

        <bullet>  Tabulation

        <bullet>  Security protocols (all phases--storage, set up, 
        transport and Election Day)

        <bullet>  Training of employees/poll workers

        <bullet>  Education for voters

    The first of these management guidelines was issued by EAC in June 
2006 in the form of a Quick Start Guide for election officials. This 
guide focused on the issues and challenges faced by election officials 
as they accept and implement new voting systems. The guide gave tips to 
the election officials on how to avoid common pitfalls associated with 
bringing new voting systems on-line.

2006: A YEAR OF CHANGE, CHALLENGE AND PROGRESS

    The federal elections in 2006 have and will mark a significant 
change in the administration of elections. In compliance with HAVA, 
states have purchased and implemented new voting systems. There is a 
strong shift to electronic voting, although optical scan voting is 
still popular. In addition, states have imposed new requirements on 
their voting systems, and they have implemented their own testing 
programs for voting systems they purchase. And, in at least 25 states, 
voter-verified paper audit trails (VVPAT) have been required for all 
electronic voting. Due to the introduction of new voting systems 
throughout the Nation, the voter's experience at the polls will be 
quite different in 2006 than it was in 2000. It is estimated that one 
in three voters will use different voting equipment to cast their 
ballots in 2006 than in 2004.
    Voters with disabilities will likely experience the most dramatic 
changes. For the first time, every polling place must be equipped with 
voting machines that allow them to vote privately and independently. 
For many voters with disabilities, this may be the first time that they 
will cast ballots without the assistance of another person.
    Voting systems do not represent the only changes in election 
administration that will be apparent in 2006. States have also 
developed statewide voter registration lists, which will provide the 
ability to verify voters' identity by comparing information with other 
state and federal databases. This will result in cleaner voter 
registration lists and fewer opportunities for fraud. Another 
anticipated benefit of the statewide lists will be a significantly 
reduced need for provisional ballots, as was the case in states that 
had statewide voter registration lists in 2004.
    This year is one of transition, which is difficult to overcome in 
any business; elections are no different. The introduction of new 
equipment will present some challenges and hurdles to overcome. For 
State and local governments, there are also a host of new obligations. 
They must receive and test a fleet of new voting equipment. Training 
for staff and poll workers must be organized and conducted. And, 
extensive education programs must be implemented to inform the public 
about the new voting equipment.
    Although EAC cannot be on the ground in every jurisdiction to lend 
a hand in these tasks, we have issued a Quick Start Guide to assist 
election officials as they implement new voting systems. We also 
encourage states to take proactive measures to test their voting 
systems and voter registration lists prior to the federal elections. 
Such activities have proven to be an excellent tool to identify 
problems and solutions prior to the stresses and unpredictability of a 
live election.

CONCLUSION

    Over the past four years, significant changes have been made to our 
election administration system. New voting systems have been purchased 
and implemented. Each state has adopted a single list of registered 
voters to better identify those persons who are eligible to vote. 
Provisional voting has been applied across all 50 states, the District 
of Columbia and four territories. However, one thing has not changed. 
Elections are a human function. There are people involved at every 
level of the election process, from creating the ballots, to training 
the poll workers, to casting the votes.
    With these changes will come unexpected situations, even mistakes. 
We cannot anticipate in a process that involves so many people that it 
will work flawlessly the first time. What we can embrace, however, is 
that the process has been irrevocably changed for the better. There is 
a heightened awareness of the electoral process in the general public. 
There have been significant improvements to the election administration 
process. And, more people have the ability to vote now than ever 
before.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                        Security Analysis of the

                     Diebold AccuBasic Interpreter

             David Wagner, David Jefferson, and Matt Bishop
      Voting Systems Technology Assessment Advisory Board (VSTAAB)
                        with the assistance of:
                     Chris Karlof and Naveen Sastry
                   University of California, Berkeley
                           February 14, 2006

1. Summary

    This report summarizes the results of our review of some of the 
source code for the Diebold AV-OS optical scan (version 1.96.6) and the 
Diebold AV-TSx touchscreen (version 4.6.4) voting machines. The study 
was prompted by two issues: (1) the fact that AccuBasic scripts 
associated with the AV-OS and AV-TSx had not been subjected to thorough 
testing and review by the Independent Testing Authorities when they 
reviewed the rest of the code for those systems, and (2) concern over 
vulnerabilities demonstrated in the AV-OS optical scan system by 
Finnish investigator Harri Hursti in Leon County, FL. Mr. Hursti showed 
that it is possible for someone with access to a removable memory card 
used with the AV-OS system to modify scripts (small programs written in 
Diebold's proprietary AccuBasic language) that are stored on the card, 
and also to modify the vote counts stored on the card, in such a way 
that the tampering would affect the outcome of the election and not be 
detected by the subsequent canvass procedures.
    The questions we addressed are these:

        <bullet>  What kinds of damage can a malicious person do to 
        undermine an election if he can arbitrarily modify the contents 
        of a memory card?

        <bullet>  How can the possibility of such attacks be 
        neutralized or ameliorated?

    The scope of our investigation was basically limited to the above 
questions. We did not do a comprehensive code review of the whole code 
base, nor look at a very broad range of potential security issues. 
Instead, we concentrated attention to the AccuBasic scripting language, 
its compiler, its interpreter, and other code related to potential 
security vulnerabilities associated with the memory cards.
    We found a number of security vulnerabilities, detailed below. 
Although the vulnerabilities are serious, they are all easily fixable. 
Moreover, until the bugs are fixed, the risks can be mitigated through 
appropriate use procedures. Therefore, we believe the problems as a 
whole are manageable.
    Our findings regarding the scope of possible attacks on the AV-OS 
optical scan and AV-TSx touchscreen systems can be summarized as 
follows:

        <bullet>  AccuBasic is a limited language: The AccuBasic 
        language itself is not a powerful programming language, but a 
        very restricted one, narrowly tailored to one task: calculating 
        and printing reports before and after an election. From a 
        security point of view this is very desirable; minimal 
        functionality generally means fewer opportunities for error or 
        security vulnerability. In particular, when its interpreter is 
        properly implemented (see below) an AccuBasic program cannot 
        modify votes or ballot images; it can read vote counters (AV-
        OS) or ballot images (AV-TSx), but it cannot modify them.

        <bullet>  The AccuBasic interpreter is well-structured: The 
        code in the AccuBasic interpreters for both machines is clean, 
        well-structured, and internally documented. We were able to 
        understand it with little difficulty despite the lack of 
        external documentation.

        <bullet>  Memory card attacks are a real threat: We determined 
        that anyone who has access to a memory card of the AV-OS, and 
        can tamper it (i.e., modify its contents), and can have the 
        modified cards used in a voting machine during election, can 
        indeed modify the election results from that machine in a 
        number of ways. The fact that the results are incorrect cannot 
        be detected except by a recount of the original paper ballots.

        <bullet>  Harri Hursti's attack does work: Mr. Hursti's attack 
        on the AV-OS is definitely real. He was indeed able to change 
        the election results by doing nothing more than modifying the 
        contents of a memory card. He needed no passwords, no 
        cryptographic keys, and no access to any other part of the 
        voting system, including the GEMS election management server.

        <bullet>  Interpreter bugs lead to another, more dangerous 
        family of vulnerabilities: However, there is another category 
        of more serious vulnerabilities we discovered that go well 
        beyond what Mr. Hursti demonstrated, and yet require no more 
        access to the voting system than he had. These vulnerabilities 
        are consequences of bugs--16 in all--in the implementation of 
        the AccuBasic interpreter for the AV-OS. These bugs would have 
        no effect at all in the absence of deliberate tampering, and 
        would not be discovered by any amount of functionality testing; 
        but they could allow an attacker to completely control the 
        behavior of the AV-OS. An attacker could change vote totals, 
        modify reports, change the names of candidates, change the 
        races being voted on, or insert his own code into the running 
        firmware of the machine.

        <bullet>  Successful attacks can only be detected by examining 
        the paper ballots: There would be no way to know that any of 
        these attacks occurred; the canvass procedure would not detect 
        any anomalies, and would just produce incorrect results. The 
        only way to detect and correct the problem would be by recount 
        of the original paper ballots, e.g., during the one percent 
        manual recount.

        <bullet>  The bugs are classic, and can only be found by source 
        code review: Finding these bugs was only possible through close 
        study of the source code. All of them are classic security 
        flaws, including buffer overruns, array bounds violations, 
        double-free errors, format string vulnerabilities, and several 
        others. There may, of course, be additional bugs, or kinds of 
        bugs, that we did not find.

        <bullet>  AV-TSx has potential cryptographic protection against 
        memory card attacks: A majority of the bugs in the AV-OS 
        AccuBasic interpreter are also present in the interpreter for 
        the AV-TSx touchscreen system. However, the AV-TSx touchscreen 
        has an important protection that the AV-OS optical scan does 
        not: the key contents of its removable memory card, including 
        the AccuBasic scripts, are digitally signed. Hence, if the 
        cryptographic keys are managed properly (see next bullet), any 
        tampering would be quickly detected and the attack would be 
        unsuccessful. All of the attacks we describe, and Hursti's 
        attack as well, would be foiled, because the memory card by 
        itself would in effect be cryptographically tamper proof.

        <bullet>  But the implementation of cryptographic protection is 
        flawed: There is a serious flaw in the key management of the 
        crypto code that otherwise should protect the AV-TSx from 
        memory card attacks. Unless election officials avail themselves 
        of the option to create new cryptographic keys, the AV-TSx uses 
        a default key. This key is hard-coded into the source code for 
        the AV-TSx, which is poor security practice because, among 
        other things, it means the same key is used in every such 
        machine in the U.S. Worse, the particular default key in 
        question was openly published two and a half years ago in a 
        famous research paper, and is now known by anyone who follows 
        election security, and can be found through Google. The result 
        is that in any jurisdiction that uses the default keys rather 
        than creating new ones, the digital signatures provide no 
        protection at all.

        <bullet>  All the bugs are easy to fix: In spite of the fact 
        that the bugs we have identified are very serious, all of them 
        are very local and very easy to fix. In each case only a couple 
        of lines of code need to be changed. It should take only a few 
        hours to do the whole job for both the AV-OS and AV-TSx.

        <bullet>  No use of high assurance development methods: The 
        AccuBasic interpreter does not appear to have been written 
        using high-assurance development methodologies. It seems to 
        have been written according to ordinary commercial practices. 
        In the long run, if the interpreter remains part of the code 
        base, it and the rest of the code base should be revised 
        according to a more rigorous methodology that would, among 
        other things, likely have prevented the bugs we found.

        <bullet>  Interpreted code is contrary to standards: 
        Interpreted code in general is prohibited by the 2002 FEC 
        Voluntary Voting System Standards, and also by the successor 
        standard, the EAC's Voluntary Voting System Guidelines due to 
        take effect in two years. In order for the Diebold software 
        architecture to be in compliance, it would appear that either 
        the AccuBasic language and interpreter have to be removed, or 
        the standard will have to be changed.

        <bullet>  Bugs detailed in confidential companion report: In a 
        companion report we have listed in great detail all of the bugs 
        we identified, the lines at which they occur, and the threats 
        they pose. Because that report contains Diebold proprietary 
        information, and because it details exactly how to exploit the 
        vulnerabilities we discovered, that report must be 
        confidential.

    Clearly there are serious security flaws in current state of the 
AV-OS and AV-TSx software. However, despite these serious 
vulnerabilities, we believe that the security issues are manageable by 
a reasonably careful combination of short- and long-term approaches. 
Here are our recommendations with regard to mitigation strategies.
    In the short-term, especially for local elections, the security 
problems related to AccuBasic and the memory cards might be managed 
according to guidelines such as these:

        <bullet>  Strong control over access to memory cards for the 
        AV-OS: The AV-OS optical scan is vulnerable to both the Hursti 
        attack and attacks based on the AccuBasic interpreter bugs we 
        found. It would be safest if it is not widely used until these 
        bugs are fixed, and until a modification is made to ensure that 
        the Hursti attack is eliminated. But if the AV-OS is used, 
        strong procedural safeguards should be implemented that prevent 
        anyone from gaining unsupervised or undocumented access to a 
        memory card, and these procedures should be maintained for the 
        life of all cards. Such controls might include a dual-person 
        rule (i.e., no one can be alone with a memory card); permanent 
        serial numbers on memory cards along with chain-of custody 
        documentation, so there is a paper trail to record who has 
        access to which cards; numbered, tamper evident seals 
        protecting access to the cards whenever they are out of control 
        of county staff; and training of all personnel, including poll 
        workers, regarding proper treatment of cards, and how to check 
        for problems with the seals and record a problem. Any breach of 
        control over a card should require that its contents be zeroed 
        (in the presence of two people) before it is used again.

        <bullet>  Require generation of new crypto keys for the AV-TSx: 
        The AV-TSx is not vulnerable to any of these memory card 
        attacks provided that the default cryptographic key used for 
        signing the contents of the memory card is changed to a new, 
        unguessable key and kept secure. If the key is changed then 
        these threats are all eliminated, at least for the short-term. 
        If this is not done, however, then the AV-TSx is no more secure 
        than the AV-OS.

        <bullet>  Control access to GEMS: Access to GEMS should be 
        tightly controlled. This is a good idea for many reasons, since 
        a malicious person with access to GEMS can undermine the 
        integrity of an election in many ways. In addition, in a TSx 
        system, GEMS holds a copy of the cryptographic key used for 
        signing the contents of the memory cards, and in both systems 
        the GEMS server may hold master copies of the AccuBasic scripts 
        loaded onto the memory cards.

    In the longer-term, one would want to consider a number of 
additional measures:

        <bullet>  Fix bugs: Certainly the bugs in the source code of 
        the interpreters for both the AV-OS and AV-TSx should be 
        corrected with all deliberate speed, the Hursti vulnerability 
        should be fixed, and the code re-examined by independent 
        experts to verify that it was properly done.

        <bullet>  Defensive and high assurance programming methodology: 
        The source code of the interpreters should be revised to 
        introduce systematic defensive programming practices and high 
        assurance development methods. In particular, eliminate in the 
        firmware, insofar as possible, any trust of the contents of the 
        memory card.

        <bullet>  Protect AccuBasic code from tampering: The AccuBasic 
        object code could be protected from tampering and modification, 
        either by (a) storing AccuBasic object code on non-removable 
        storage and treating it like firmware, or by (b) protecting 
        AccuBasic object code from modification through the use of 
        strong cryptography (particularly public-key signatures).

        <bullet>  Don't store code on memory cards: The architecture of 
        the AV-OS and the AV-TSx could be changed so they do not store 
        code on removable memory cards.

        <bullet>  Remove interpreters and interpreted code: The 
        architecture of the AV-OS and the AV-TSx could be changed so 
        they do not contain any interpreter or use any kind of 
        interpreted code, in order to bring the code base into 
        compliance with standards.

2. Introduction

Scope of the study. This report summarizes the results of our review of 
the source code for the Diebold AV-OS optical scan (version 1.96.6) and 
the Diebold AV-TSx touchscreen (version 4.6.4) voting machines. This 
investigation, requested by the office of the California Secretary of 
State, was to evaluate security concerns raised by the use of AccuBasic 
scripts (programs) stored on removable memory cards in the two systems 
and offer options for their amelioration. The study was prompted by 
vulnerabilities demonstrated in the optical scan system by Finnish 
investigator Harri Hursti in Leon County, FL. Mr. Hursti showed that 
under certain circumstances it is possible for someone with access to a 
memory card to modify the scripts and modify the vote counts in a way 
that would not be detected by the subsequent canvass procedure, and 
would normally only be detectable by a recount of the paper ballots.
    Our study does not constitute a comprehensive code review of the 
entire Diebold code base. We had access to the full code bases for the 
AV-OS and AV-TSx, but we did not even attempt a comprehensive review of 
the entire code base. Our attention was focused fairly narrowly on 
Diebold's proprietary AccuBasic scripting language, the compiler for 
that language, the interpreter for its object code, the AccuBasic 
scripts themselves, and the related protocols and procedures, both for 
the AV-OS (optical scan) and AV-TSx (touchscreen) voting systems.
    In particular, we did not have the source code for the Diebold GEMS 
election management system, and our security evaluation does not cover 
GEMS at all. It is widely acknowledged that a malicious person with 
unsupervised access to GEMS, even without knowing the passwords, can 
compromise GEMS and the election it controls. This report does not 
address those threats, however.
    Our analysis was based only on reading the source code we were 
given. We did not have access to a real running system (although we 
were able to compile and execute modified versions of the compiler and 
interpreter on a PC). Nor did we have any manuals or other 
documentation beyond that present in comments in the code itself. We 
had access to the source code for a period of approximately four weeks 
for this review.

The threat model. Different jurisdictions around the country have 
somewhat different procedures for conducting an election with the 
Diebold AV-OS and AV-TSx systems, but all include the following steps:

        1.  Before the election, the removable memory cards are 
        initialized though the GEMS election management system with the 
        appropriate election description information for the precinct 
        the machine will be used in, and with the AccuBasic object code 
        scripts to be used, and with other information detailed below.

        2.  The initialized cards are then inserted into the voting 
        machines (optical scan or touchscreen); the compartment in 
        which the card sits is locked and sealed with a tamper-evident 
        seal of some kind.

        3.  The voting machine with its enclosed card is transported to 
        the precinct poll site where it is stored over night (or 
        longer) until the start of the election.

        4.  At the start of the election, a script on the card is used 
        to print initial reports, including the Zero Report, which 
        should indicate that all the vote counters are zero (in the AV-
        OS) and file of voted ballots is empty (in the AV-TSx).

        5.  All during election day, voted paper ballots are scanned 
        and the appropriate counters on the removable memory card are 
        incremented (AV-OS), or the voted ballots themselves are stored 
        electronically on the memory card (AV-TSx), and electronic 
        audit log records are appended to a file on the card.

        6.  At the end of election day, a script from the card is used 
        to print final reports for the day, including vote totals.

        7.  Finally, one of two steps is taken, depending on the 
        jurisdiction: either (a) the seal is broken and the memory card 
        is removed and transported back to a central location for 
        canvass using GEMS; or, (b) the entire voting machine is 
        transported to the central location, where election officials 
        break the seal, remove the memory card, and read its contents 
        during the canvass.

    The threats we are concerned about specifically involve 
modification of the contents of the memory card, especially the 
AccuBasic object code. In other words, somewhere along the line, in the 
procedure above, the attacker is able to get a memory card, arbitrarily 
modify its contents, and surreptitiously place it in a voting machine 
for use in an election, and do so without being immediately detected.
    We assume the attacker's goal is either to change the election 
results undetected, or perhaps simply to disrupt the election (e.g. by 
causing voting machine crashes). We also assume that the attacker knows 
every detail of how the system works, and the procedural safeguards, 
and even has access to the manuals, documentation, and source code of 
the system. The attacker, therefore, is able to take advantage of bugs 
and vulnerabilities in the code. (It is standard to make these last 
assumptions, since it is almost impossible to keep code and related 
information secret from a determined attacker.)
    We do not, however, assume that the attacker has any inside 
confederates, or has access to any passwords or cryptographic keys, or 
access to GEMS. We do not assume that the attacker has any access to 
paper ballots (AV-OS) or VVPAT (AV-TSx), nor even that he has any 
access to the voting system beyond the ability to insert a memory card 
undetected.

The process we followed. We were asked to perform a security review of 
the Diebold source code. As part of the review, we were provided access 
to the source code for the AV-OS and the AV-TSx machines. This included 
the source code for the AccuBasic compiler, for the AccuBasic 
interpreter in the AV-OS and the AccuBasic interpreter in the AV-TSx, 
for some AccuBasic scripts, and all other source code for the AV-OS and 
AV-TSx. There are two separate versions of the interpreter, one in the 
AV-OS and one in the AV-TSx; however, the two implementations are very 
similar.
    We undertook a line-by-line analysis of the source code for the AV-
OS AccuBasic interpreter. Three team members (Karlof, Sastry, and 
Wagner) read every line of source code carefully and checked for all 
types of security and reliability defects known to us. When we found a 
vulnerability in the AV-OS interpreter, we examined the corresponding 
portion of the AV-TSx interpreter to check whether the AV-TSx shared 
that same vulnerability.
    After completing the line-by-line source code analysis, we applied 
a commercial static source code analysis tool to the AV-OS interpreter 
code. Code analysis tools perform an automated scan of the source code 
to identify potentially dangerous constructs. We obtained a copy of the 
Source Code Analyzer (SCA) tool, made by Fortify Software, Inc.; 
Fortify generously donated the tool to us for our use in this project 
at no cost, and we gratefully acknowledge their contribution. Two of us 
(Bishop and Wagner) are members of Fortify Software's Technical 
Advisory Board, and thus were already familiar with this tool. We 
manually inspected each of the warnings generated by the tool.
    While our analysis uncovered several potential attacks on the 
system, we have not attempted to attack any working system. We 
performed our analysis mostly ``on paper;'' we did not have access to a 
genuine running system. We did, however, get a stubbed-out version of 
the code running on a PC, and were able to confirm that one of the 
attacks we discovered (the only one we tried) actually works.
    In the end, we wrote our report in two parts. The public part is 
this document, which contains background, our findings and 
recommendations, and all of the explanatory information we have found 
to support them. The confidential part contains a detailed description 
of all of the bugs we found, the file names and line numbers where they 
occur, how they can be exploited, and what the consequences are. It is 
confidential because it contains both proprietary material and specific 
information about potential attacks on voting systems.

3. Background

3.1 Contents of the memory card
    Both the AV-OS and AV-TSx systems use removable memory cards as key 
parts of their architectures. In both systems, the memory cards contain 
several kinds of information:

        <bullet>  the election description (a small database describing 
        the races, candidates, parties, propositions, and ballot layout 
        information for the current election);

        <bullet>  vote counters for every candidate and proposition on 
        the ballot that store a count of the number of votes for that 
        candidate (in the case of the AV-OS), or data records 
        containing the cast ballot images (AV-TSx), along with various 
        summary counters;

        <bullet>  byte-coded object programs (.abo files), which are 
        normally created by writing scripts (programs) in the AccuBasic 
        language and running them through the AccuBasic compiler;\1\
---------------------------------------------------------------------------
    \1\ AccuBasic object files (.abo files) are normally created by 
running AccuBasic programs through the compiler, i.e., that is the 
intent. But nothing prevents a programmer from directly writing .abo 
files, or modifying them, bypassing the AccuBasic language and the 
compiler entirely. Indeed, this is a route to several potential 
attacks. The AccuBasic interpreter makes no effort to verify that the 
AccuBasic object code has indeed been produced by the compiler.

---------------------------------------------------------------------------
        <bullet>  the internal electronic audit log;

        <bullet>  an election mode field indicating whether the system 
        containing the card is currently being used in a real election 
        or not;

        <bullet>  a large number of other significant variables 
        including strings, flags (for selecting options), various event 
        counters, and other data describing the state of the election.

    In fact, as far as we can tell, the entire election-specific state 
of the voting machine (the part that is retained between voting 
transactions) is stored on the memory card. It would take a much more 
comprehensive review of the software than we were able to conduct in 
order to verify this, but it appears to be the case.
    All of this information on the memory cards is critical election 
information. If it is not properly managed, or if it is modified in any 
unauthorized way, the integrity of the entire election is possibly 
compromised. It is therefore vital, as everyone acknowledges, to 
maintain proper procedural control over the memory cards to prevent 
unauthorized tampering, and to treat them at all times during the 
election with at least the same level of security as ballot boxes 
containing voted ballots.
    From one point of view, such an architecture makes good sense. In 
principle, it allows a memory card to be removed from a machine at 
almost any time (except during a short critical time window at the 
final completion of each vote transaction) without losing any votes or 
audit records, or any of the other context that has been accumulated. 
(Removal of a memory card during an election is procedurally forbidden 
under normal circumstances.) And it guarantees that when the memory 
card is removed at the end of the day, it contains all of the data 
needed for canvass, and for the resolution of most disputes, excepting 
only those that might depend on detailed forensic analysis.
    Having all of the state on a removable memory card has a downside, 
however. It means an attacker with access to the card has potentially 
many other avenues of attack besides direct modification of the vote 
counts or the AccuBasic scripts; he can modify any other part of the 
election configuration or state as well. In our investigation, we did 
not attempt to enumerate all of these possibilities since it was clear 
that the only strong way to protect against all such attacks is to 
prevent any possibility of undetected tampering with the memory card in 
the first place.
    When the AV-OS memory card is inserted into the AV-OS, it acts like 
an extension of main memory, and can be directly read and written via 
ordinary memory addressing, e.g., via variables and pointers. (Whether 
it actually is RAM, or is instead some other kind of memory-mapped 
storage device is not clear to us, but from a software point of view 
there is no difference.)
    On the AV-TSx, however, the election state data is stored in a file 
system on the removable card. This means that the firmware cannot 
access it directly as main memory, but must use open/close/read/write 
calls to move data between files on the card and main memory. From a 
reliability and security point of view this is preferable to the 
architecture used on the AV-OS, since many kinds of common bugs (e.g. 
index or pointer bugs) can corrupt the data on a card that acts as main 
memory, whereas that is less likely for data packaged in a file system.
    In the AV-OS, once the memory card is inserted into the voting 
machine, the byte-coded object programs become immediately executable 
by the AccuBasic interpreter in the firmware of the machine. However, 
on the AV-TSx the byte-coded object programs are cryptographically 
protected by the GEMS election management system. In effect, the GEMS 
server writes a sort of checksum\2\ that depends on both the data and a 
secret cryptographic key to the memory card. When the memory card is 
inserted in an AV-TSx machine, the correctness of the checksum is 
validated and the machine refuses to enter election mode if the check 
fails.\3\
---------------------------------------------------------------------------
    \2\ To be precise, it uses a cryptographic message authentication 
code (MAC).
    \3\ If the cryptographic message authentication code is invalid, a 
dialog box appears on the screen with the warning ``Unable to load the 
election: the digital data base signature does not match the expected 
value,'' and the machine does not enter election mode.
---------------------------------------------------------------------------
    The cryptographic protection for the object code on the AV-TSx 
touchscreen machine is a significant improvement. It means that even if 
an attacker can get access to a memory card and modify the object code, 
unless he also has the cryptographic key to allow him to create a 
matching checksum for the modified object code, the checksum will not 
match when the card is inserted and the attack would be foiled. The 
integrity of the object code then boils down, for all practical 
purposes, to the secrecy of the cryptographic key (which we will 
discuss later).
3.2 AccuBasic
    The AccuBasic programming language is a Diebold-proprietary, 
limited-functionality scripting language (a kind of programming 
language). The scripts (programs) written in AccuBasic are intended to 
be used only for creating and printing reports on the printer units 
attached to the AV-OS or AV-TSx.
    Once a script is written in AccuBasic (the source code version of 
the script), it is run through the AccuBasic compiler, which translates 
it into a form of object code. The object code is represented in 
another Diebold-proprietary language that seems to be unnamed but is 
generally referred to as byte code or an .abo file. It is the object 
code form of the scripts that is stored on the memory card, not the 
source form.
    Normally all .abo files are produced in this way, i.e. by running 
AccuBasic source through the compiler. But it is important to 
understand that nothing prevents a programmer from bypassing the 
compiler and constructing a valid .abo file directly, or by editing an 
.abo file produced by the compiler. (Mr. Hursti did just that, 
modifying the portion of the script responsible for printing the zero 
report.) A .abo file produced in either of these nonstandard ways might 
not be producible by the compiler at all from any AccuBasic source 
file. However, they will still be executable by the interpreter without 
any error, and this fact can be the basis for powerful attacks that can 
take advantage of bugs in the interpreter. The AccuBasic interpreter 
makes no attempt to validate the .abo files, i.e., to ascertain that 
they were in fact produced using the compiler.
    The AccuBasic software for the AV-TSx is slightly different from 
that on the AV-OS. This is due primarily to the differences in the 
environment on the two systems. For example, the AV-TSx gets yes/no 
user input through the touchscreen, whereas the AV-OS gets it from 
physical buttons. Also, AV-OS memory cards contain vote counters only, 
whereas the AV-TSx cards store full ballot records. The memory card on 
the AV-OS is memory-mapped, whereas the same information is stored in a 
file system on the AV-TSx memory card. The AccuBasic interpreter for 
the AV-TSx is implemented in C++, whereas the interpreter in the AV-OS 
is written in C. The AV-OS interpreter contains 1,838 lines of C code 
(not counting blank lines, comments, or global declarations), while the 
AV-TSx contains 2,614 lines of C++ code (again, excluding blank lines, 
comments, and declarations). However, it is clear that the AccuBasic 
interpreter in the AV-TSx was originally just a translation from C to 
C++ of the one in the AV-OS, and they have subsequently diverged only 
slightly. The differences between the two AccuBasic interpreters are 
generally small enough that, except where noted, our generalizations 
about AccuBasic and its implementation apply equally to both versions.
    AccuBasic is in one sense a general purpose language, in that it is 
able to do arbitrary numerical and string calculations.\4\ But in 
another sense, when its interpreter is properly implemented, it is a 
very restricted language in that, while it can calculate anything, it 
can only control a very limited part of the functionality of the voting 
machine. For example, an AccuBasic script can read the vote counters 
(or ballot images) and the election description from the memory card, 
and it can read a few other internal values as well (such as the date 
and time); but it cannot modify any of them. And it can invoke only a 
few functions from the rest of the code base outside the interpreter, 
specifically, those needed for assembling information for, and for the 
printing of, reports on the machine's screen and printer. It is not 
possible (again, when the AccuBasic interpreter is properly 
implemented) for AccuBasic object code to:
---------------------------------------------------------------------------
    \4\ The language uses integer and string data types, and permits 
assignments, sub-string extraction and assignment, conditionals, loops, 
a limited number of defined subroutines, subroutine calls (without 
arguments), and recursion. It is theoretically capable of computing any 
computable function.

        <bullet>  modify the vote counts (AV-OS) or the ballot images 
---------------------------------------------------------------------------
        (AV-TSx);

        <bullet>  forge any votes or fail to record any votes;

        <bullet>  modify the election description information; or

        <bullet>  modify any paper ballots.

    On the other hand, even when perfectly implemented, it is always 
possible for an erroneous or malicious AccuBasic script to:

        <bullet>  print false reports, or

        <bullet>  crash the voting machine (e.g., by going into an 
        infinite loop).

    These latter points are not flaws in the design of AccuBasic 
language or interpreter. Any other software, e.g., the machine's 
firmware, could have similar bugs. However, the fact that the scripts 
are on removable memory cards--and thus potentially exposed to 
tampering--makes these possibilities important. Mr. Hursti's attack on 
the AV-OS depended critically on his ability to modify the Zero Report 
script so that it falsely indicated that all counters were zero when in 
fact they were not. And in some jurisdictions, e.g., Florida, the 
reports printed by the AV-OS are the legal results of the election, so 
printing a false report amounts to falsifying the results of the 
election.
    The intent of the AccuBasic language, compiler, and interpreter is 
that AccuBasic scripts should be usable exclusively for creating and 
printing reports on the voting machine's printer, without modifying the 
voting machine's behavior in any other way. With the exception of some 
serious bugs (described in our findings below) we found that this is 
indeed the case. In spite of its name, which is reminiscent of the 
powerful scripting language Visual Basic, we found that AccuBasic is a 
very limited, special purpose language; this is the right approach if 
one is to use an interpreted language at all.
    Aside from the bugs (described below) the AccuBasic interpreters 
for both the AV-OS and AV-TSx are very well written and documented. We 
had no difficulty understanding the code and reviewing it.

4. Findings

Finding 1 There are serious vulnerabilities in the AV-OS and AV-TSx 
interpreter that go beyond what was previously known. If a malicious 
individual gets unsupervised access to a memory card, he or she could 
potentially exploit these vulnerabilities to modify the electronic 
tallies at wild, change the running code on these systems, and 
compromise the integrity of the election arbitrarily. (The original 
paper ballots for the AV-OS, of course, cannot be affected by tampering 
with the memory cards.)

    The AccuBasic interpreters, in both the AV-OS and AV-TSx, have a 
number of serious bugs--defects in the source code--that render the 
machines vulnerable to various attacks. (This goes well beyond what Mr. 
Hursti demonstrated; his attacks did not exploit any of these 
vulnerabilities.) These vulnerabilities would not affect the normal 
behavior of the machine, and would not be discovered during testing. 
But they could be exploited by an attacker with unsupervised access to 
a memory card. Many of these vulnerabilities are present in both the 
AV-OS and AV-TSx; the AV-TSx code is basically a translation of the AV-
OS code from C to C++, and most of the vulnerabilities were preserved 
in the translation.
    The vulnerabilities arise because the AccuBasic interpreter 
``trusts'' the contents of the AccuBasic object code (.abo files) 
stored on the memory card, and implicitly assumes that this AccuBasic 
object code has been produced by a legitimate Diebold AccuBasic 
compiler. As discussed earlier, this assumption is not necessarily 
justified. Anyone with unsupervised access to the AV-OS memory card 
could freely modify its contents, including the .abo file stored on the 
memory card. The same is true of the AV-TSx memory card, if the 
cryptographic keys are not updated from their default values (see 
Finding 4 below).

Types of vulnerabilities. The vulnerabilities include several instances 
of the classic buffer overrun vulnerability, as well as vulnerabilities 
with a similar effect. This kind of vulnerability would allow someone 
who could edit the AccuBasic object code on the memory card to 
completely control the behavior of the voting machine. The instant that 
the AccuBasic interpreter on the AV-OS or AV-TSx attempts to execute 
the malicious AccuBasic object code, the machine will be compromised.
    Table 1 contains an overview of the 16 vulnerabilities we found in 
the AV-OS, and their impact. Also, Table 2 contains a similar overview 
of the 10 vulnerabilities we found in the AV-TSx. Note that we have 
excised any information that might help to exploit these 
vulnerabilities from those tables. We have relegated all such 
information to a separate Appendix, which contains additional detail: 
for each vulnerability, the Appendix lists the source code line number 
where the vulnerability appears, along with information about how the 
vulnerability might be exploited in the field.
    These vulnerabilities were found primarily by line-by-line review 
of the source code, performed by three of us reading every line of the 
interpreter code together as a team. After we had completed a careful 
line-by-line security analysis, we then applied the Fortify Source Code 
Analyzer (SCA) tool and examined the warnings it produced. Given the 
care with which we performed the manual code review, we had not 
expected a static bug-finding tool to find any further bugs. Consistent 
with our expectations, the first warning we inspected from the tool 
referred to an exploitable security vulnerability we had already found. 
However, to our considerable surprise, the second warning from the tool 
turned out to reveal a vulnerability that we had missed as part of our 
manual code inspection (namely, Vulnerability V2). (The remainder of 
warnings we examined pointed to bugs and vulnerabilities that we had 
already found.)
    In all cases the specific bugs we found are local and easy to fix. 
One concern, however, is that these are just the bugs vie were able to 
find; there are quite possibly others we did not notice, and that 
automated bug-finding tools (which are always imperfect) would not 
notice either. Code review is difficult. It is hard to be confident 
that one has found all bugs (and indeed, our experience with the 
Fortify SCA tool highlighted this fact), and if we used another tool or 
if another person were to examine the code, they might find other 
vulnerabilities.
    None of the vulnerabilities we found would have been found through 
standard testing, so testing is not the answer. This is a long-term 
problem with the use of interpreted code on removable memory cards, and 
with the failure to use defensive programming and other good security 
practices when implementing the interpreter.
    These vulnerabilities have not been confirmed by verifying that 
they work against a full working system. (We did not have access to a 
running system.) We have used our best judgment to assess which bugs 
are likely to be exploitable, but it is possible that some bugs we 
classified as vulnerabilities may in fact not be exploitable. 
Conversely, there may be other vulnerabilities that we failed to 
identify because of the lack of a working system.
    To double-check our analysis, we chose one vulnerability more or 
less at random and verified that we were able to exploit it in a 
simulated test environment. We were able to compile and execute a 
slightly modified version of the AV-OS AccuBasic interpreter, as well 
as the AccuBasic compiler, on a PC. We then developed an example of 
AccuBasic object code (an .abo file) that would exploit this 
vulnerability. We verified that, when using the interpreter to 
interpret this object code on our PC, we were able to trigger a buffer 
overrun and successfully exploit the vulnerability. This provides 
partial confirmation of our analysis, but it is certainly not an 
authoritative test. We did not attempt to perform an exhaustive test of 
all 16 vulnerabilities.

Impact. The consequence of these vulnerabilities is that any person 
with unsupervised access to a memory card for sufficient time to modify 
it, or who is in a position to switch a malicious memory card for a 
good one, has the opportunity to completely compromise the integrity of 
the electronic tallies from the machine using that card.
    Many of these vulnerabilities allow the attacker to seize control 
of the machine. In particular, they can be used to replace some of the 
software and the firmware on the machine with code of the attacker's 
choosing. At that point, the voting system is no longer running the 
code from the vendor, but is instead running illegitimate code from the 
attacker. Once the attacker can replace the running code of the 
machine, the attacker has full control over all operation of the 
machine. Some of the consequences of this kind of compromise could 
include:

        <bullet>  The attack could manipulate the electronic tallies in 
        any way desired. These manipulations could be performed at any 
        point during the day. They could be performed selectively, 
        based on knowledge about running tallies during the day. For 
        instance, the attack code could wait until the end of the day, 
        look at the electronic tallies accumulated so far, and choose 
        to modify them only if they are not consistent with the 
        attacker's desired outcome.

        <bullet>  The attack could print fraudulent zero reports and 
        summary reports to prevent detection.

        <bullet>  The attack could modify the contents of the memory 
        card in any way, including tampering with the electronic vote 
        counts and electronic ballot images stored on the card.

        <bullet>  The attack could erase all traces of the attack to 
        prevent anyone from detecting the attack after the fact. For 
        instance, once the attack code has gained control, it could 
        overwrite the malicious AccuBasic object code (.abo file) 
        stored on the memory card with legitimate AccuBasic object 
        code, so that no amount of subsequent forensic investigation 
        will uncover any evidence of the compromise.

        <bullet>  It is even conceivable that there is a way to exploit 
        these vulnerabilities so that changes could persist from one 
        election to another. For instance, if the firmware or software 
        resident on the machine can be modified or updated by running 
        code, then the attack might be able to modify the firmware or 
        software in a permanent way, affecting future elections as well 
        as the current election. In other words, these vulnerabilities 
        mean that a procedural lapse in one election could potentially 
        affect the integrity of a subsequent election. However, we 
        would not be able to verify or refute this possibility without 
        experimentation with real systems.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

        <bullet>  It is conceivable that the attack might be able to 
        propagate from machine to machine, like a computer virus. For 
        instance, if an uninfected memory card is inserted into an 
        infected voting machine, then the compromised voting machine 
        could replace the AccuBasic object code on that memory card 
        with a malicious AccuBasic script. At that point, the memory 
        card has been infected, and if it is ever inserted into a 
        second uninfected machine, the second machine will become 
        infected as soon as it runs the AccuBasic script.

            It is difficult to confidently assess the magnitude of this 
        risk without experimentation with real systems. That said, 
        given our current understanding of how memory cards are used 
        and our current understanding of the vulnerabilities,\5\ we 
        believe the risk of this kind of attack is low (at least in the 
        near-term). This kind of virus would only be able to spread 
        through ``promiscuous sharing'' of memory cards, which means 
        that propagation would probably be fairly slow. If typical 
        practice is that memory cards are wiped clean before the 
        election, programmed, sent to the polls, and then returned for 
        reading at the GEMS central management system, then there does 
        not seem to be much opportunity for one infected memory card to 
        infect many machines.
---------------------------------------------------------------------------
    \5\ We have assumed as part of this analysis that the GEMS central 
management system, and TSx machines running in accumulator mode, do not 
execute AccuBasic scripts as part of reading memory cards. We were not 
able to verify or refute this assumption; however, we have no reason to 
believe it is inaccurate. Of course, if this assumption is inaccurate, 
our analysis of the risk would be affected.

        <bullet>  On the AV-TSx, the attack could print fraudulent 
        VVPAT records. Since VVPAT records are considered the 
        authoritative record during a recount, this might enable 
        election fraud even if the VVPAT records are manually 
        recounted. For instance, the attack could print extra VVPAT 
        records during a quiet time when no voter is present (however, 
        we expect that this might be noticed by poll workers, as the 
        TSx printer is fairly noisy). As another example, when a voter 
        is ready to print the VVPAT record, the attack code could print 
        two copies of the voter's VVPAT record and hope that the voter 
        doesn't notice. The attack might print duplicate VVPAT records 
        only for voters who have voted for one particular candidate, 
        thereby inflating the number of VVPAT records for that favored 
        candidate. Alternatively, it might fail to print VVPAT records 
        for voters who vote for a disfavored candidate (but of course, 
        this could easily be detected voters who know to expect the 
---------------------------------------------------------------------------
        machine to print a VVPAT record).

            We believe the risk of false VVPAT records is lower than it 
        might at first seem. See below for further discussion.

        <bullet>  The attack could affect the correct operation of the 
        machine. For instance, on the AV-OS, it could turn off under- 
        and over-vote notification. It could selectively disable over-
        vote notification for ballots that contain votes for a 
        disfavored candidate, or selectively provide false over-vote 
        notifications for ballots that contain votes for a favored 
        candidate. On the AV-TSx, it could show the voter a wrong or 
        incomplete list of candidates during vote selection; it could 
        change selections between the time when they are initially 
        selected and when they are shown on the summary screen; and it 
        could selectively target a subset of voters, based on how they 
        have voted or on other factors. Once the machine is running 
        native code supplied by the attacker, its operation can be 
        completely controlled by the attacker.

    In addition, most of the bugs we found could be used to crash the 
machine. This might disenfranchise voters or cause long lines. These 
bugs could be used to selectively trigger a crash only on some 
machines, in some geographic areas, or based on certain conditions, 
such as which candidate has received more votes. For instance, it would 
be possible to write a malicious AccuBasic script so that, when the 
operator prints a summary report at the end of the day, the script 
examines the vote counters and either crashes or continues operating 
normally according to which candidate is in the lead.
    Unfortunately, the ability of malicious AccuBasic scripts to crash 
the machine is currently embedded in the architecture of the 
interpreter. Any infinite loop in the AccuBasic script immediately 
translates into an infinite loop in the interpreter (which causes the 
machine to stop responding, and is indistinguishable from a crash), and 
any infinite recursion in the AccuBasic script translates into stack 
overflow in the interpreter (which could corrupt stack memory or crash 
the machine).

The impact on the paper ballots (AV-OS). It is important to note that 
even in the worst case, the paper ballots cast using an AV-OS remain 
trustworthy; in no case can any of these vulnerabilities be used to 
tamper with the paper ballots themselves.

The impact on the VVPAT records (AV-TSx). As mentioned above, on the 
AV-TSx it is conceivable that these vulnerabilities might enable an 
attacker to print false VVPAT records. We assess the magnitude of this 
risk here. There are two cases:

        <bullet>  If the bugs are not fixed, and if proper 
        cryptographic defenses are not adopted (see Finding 3), and if 
        a malicious individual gains unsupervised access to the memory 
        code:

                 In this case, it is hard to make any guarantees about 
                the integrity of the VVPAT records. Attack code might 
                be able to introduce fraudulent VVPAT records, 
                compromising the integrity of both the electronic 
                tallies and the paper records.

                  We were unable to identify any realistic scenario 
                where this would enable an attacker to cause fraud on a 
                large enough scale to affect the outcome of a typical 
                election without being detected. If the attack tries to 
                insert many fraudulent extra VVPAT records, then the 
                one percent recount should detect that the VVPAT 
                records do not match the electronic tallies or that 
                many precincts have more VVPAT records than voters who 
                signed in (on the roster sheets), which would reveal 
                the presence of some kind of attack and (presumably) 
                trigger further investigation. If the attack tries to 
                defraud many voters by failing to print a valid VVPAT 
                record, then we suspect at least some of these voters 
                will notice and the attack is likely to be detected. 
                Also, mounting a large-scale attack would appear to 
                require tampering with many memory cards or with the 
                GEMS election management system, which restricts the 
                class of adversaries who would have the opportunity to 
                mount such an attack.

                  Nonetheless, if such an attack is detected, it may be 
                difficult to decide how to recover from the attack. In 
                this scenario, both the electronic tallies and the 
                paper records are untrustworthy, so in the worst case 
                the only recourse may be to hold another election.

        <bullet>  If the bugs are fixed:

                 In this case, we do not see any realistic threat to 
                the integrity of the VVPAT records.

                  In principle, if a malicious individual is able to 
                introduce a malicious AccuBasic script, one might 
                imagine a possible attack vector where the AccuBasic 
                code prints false VVPAT records. However, in practice 
                we do not see any viable threat here. AccuBasic scripts 
                do have the capability to print to the AV-TSx printer, 
                and this printer is shared for both printing reports 
                (e.g., the zero tape, the summary report) during poll 
                opening/closing, and for printing VVPAT records during 
                the election. In theory, one might be able to envision 
                a malicious AccuBasic script that, after it finishes 
                printing the zero tape, continues running, waits some 
                period of time, and then prints some text designed to 
                look like a VVPAT record in hopes that this will be 
                spooled into the security canister along with other 
                VVPAT records. In practice, we believe that poll 
                workers are unlikely to be fooled by this. As far as we 
                can tell, the AV-TSx is single-threaded, so if the 
                AccuBasic script does not relinquish control, the TSx 
                will not show a startup screen welcoming voters to 
                begin voting. It does not seem particularly likely that 
                a poll worker would print and tear off a zero tape, 
                feed the paper into the security canister, walk away 
                before the machine has displayed a welcome screen, and 
                fail to notice the machine printing and scrolling the 
                tape into the security canister when there is no voter 
                present. It is hard to imagine how this could be used 
                for any kind of large-scale attack without being 
                detected in at least some fraction of the polling 
                places where the attack occurs.

                  Therefore, we consider this risk to be minimal, if 
                the bugs in the AV-TSx AccuBasic interpreter are fixed.

Finding 2 Everything we saw in the source code is consistent with Harri 
Hursti's attack on the AV-OS.

    Our analysis of the source code is consistent with Harri Hursti's 
findings that (a) the AccuBasic script on the AV-OS memory card can be 
replaced with a malicious script, (b) the vote counters on the AV-OS 
memory card can be tampered with and set to non-zero values, and (c) it 
is possible to use a malicious AccuBasic script to conceal this 
tampering by printing fraudulent zero reports or summary reports. Our 
source analysis confirmed that a malicious AccuBasic script is able to 
print to the printer (on both the AV-OS and the AV-TSx), display 
messages on the LCD display (on the AV-OS), and prompt for user 
responses (on the AV-OS). Our analysis also confirmed that the AV-OS 
fails to check that the vote counters are zero at the start of election 
day. We also confirmed that the AV-OS source code has numerous places 
where it manipulates vote counters as 16-bit values without first 
checking them for overflow, so that if more than 65,535 votes are cast, 
then the vote counters will wrap around and start counting up from 0 
again. (It is a feature of 16-bit unsigned computer arithmetic that 
large positive numbers just less than 65,536 are effectively the same 
as small negative numbers).\6\ There is little doubt in our minds that 
Hursti's findings about the AV-OS are accurate. Even if the bugs we 
found in the AccuBasic interpreter are fixed, Hursti's attacks will 
remain possible.
---------------------------------------------------------------------------
    \6\ We discovered that the code does contain a check to ensure that 
it will not accept more than 65,535 ballots. On the surface, that might 
appear adequate to rule out the possibility of arithmetic overflow. 
However, as Hursti's attack demonstrates, the existing check is not, in 
fact, adequate: if the vote counter started out at some non-zero value, 
then it is possible for the counter to wrap around after counting only 
a few ballots. This is a good example of the need for defensive 
programming. If code had been written to check for wrap-around 
immediately before every arithmetic operation on any vote counter, 
Hursti's technique of loading the vote counter with a large number just 
less than 65,536 would not have worked.
---------------------------------------------------------------------------
    The AV-TSx also appears to be at risk for similar attacks. The AV-
TSx memory card also contains an AccuBasic script and appears to be 
vulnerable to similar kinds of tampering, unless the cryptographic keys 
have been updated from their default values (see below for a 
discussion).

Finding 3 The AV-TSx (but not the AV-OS) contains cryptography designed 
to protect the contents of the AV-TSx memory card from modification 
while it is in transit. This mechanism appears to be an acceptable way 
to protect AccuBasic scripts from tampering while the memory card is in 
transit, assuming election officials update the cryptographic keys on 
every AV-TSx machine.

    The AV-TSx uses a cryptographic message authentication code (MAC), 
which ensures that it is infeasible for anyone who does not know the 
secret cryptographic key to tamper with the data stored on the memory 
card. The use of the cryptographic MAC in the AV-TSx appears to be an 
acceptable way to protect AccuBasic object code (.abo files) from 
tampering while the memory card is in transit, provided that election 
officials update the cryptographic keys on every AV-TSx. On the other 
hand, if the cryptographic keys are not updated, then the cryptographic 
mechanism does not protect against tampering with the contents of the 
memory card, for the following reasons.
    The AV-TSx contains a default set of cryptographic keys. There is a 
procedure that election officials can use to change the keys stored on 
any particular AV-TSx machine. However, if this procedure is not 
performed on an AV-TSx machine, then that AV-TSx continues to use its 
default keys.
    The default keys provide no security. They appear to be the same 
for all TSx machines in the Nation, and in fact were discovered and 
published two and a half years ago (see Finding 4 below). 
Unfortunately, if no special steps are taken, the AV-TSx silently uses 
these insecure keys, without providing any warning of the dangers. 
Therefore, election officials will need to choose a new key for the 
county and update the keys on every AV-TSx machine themselves. 
Fortunately, there is a process for updating the keys on the AV-TSx by 
inserting a special smartcard into the AV-TSx machine.
    So long as this process is followed, the cryptographic message 
authentication code (MAC) should provide acceptable security against 
tampering.\7\ Because the AccuBasic script (.abo file) is stored on the 
memory card, the cryptography protects the AccuBasic script from being 
modified. If the cryptographic keys have been set properly, this 
defends against attacks like Harri Hursti's against the TSx: it 
prevents a malicious individual from successfully tampering with the 
AccuBasic script or the ballots stored on the memory card, even if the 
individual has somehow gained unsupervised access to the memory card, 
because the cryptographic check built in to the TSx firmware will fail 
and the TSx will print a warning message and refuse to proceed further.
---------------------------------------------------------------------------
    \7\ We assume that the cryptographic keys are not stored on the 
memory card, but are stored on non-removable storage. We were not able 
to verify this assumption from the source code alone, but we have no 
reason to believe otherwise.
---------------------------------------------------------------------------
    The cryptographic MAC on the TSx appears to cover almost everything 
stored on the memory card data file. It covers election parameters, 
vote counters, the AccuBasic script (.abo file), and some other 
configuration data. The only exceptions we are aware of is that the 
file version number and the election serial number do not appear to be 
covered by the cryptographic MAC or by any checksum. These exceptions 
seem to be harmless.
    In effect, the cryptography acts as the electronic equivalent of a 
tamper-resistant seal. If the contents of the memory card is tampered 
with, the cryptography will reveal this fact.
    We stress that, like a tamper-resistant seal, the cryptography only 
defends against tampering while the memory card is in transit. The 
cryptography does not protect against tampering with AccuBasic scripts 
while they are stored on the GEMS server. In the Diebold system, the 
cryptographic protection is applied by the GEMS server when the memory 
card is initialized. The GEMS server stores the cryptographic keys and 
uses them to compute the cryptographic MAC when initializing a memory 
card; later, the AV-TSx uses its own copy of the keys to check the 
validity of the MAC. Of course, anyone who knows the cryptographic key 
can change the contents of the card and re-compute the MAC 
appropriately. This means that anyone with access to the GEMS server 
will have all the information needed to make undetected changes to AV-
TSx memory cards. Also, AccuBasic scripts (.abo files) are stored on 
the GEMS server and downloaded onto memory cards as needed. If the copy 
of the .abo files stored on the GEMS server were corrupted or replaced, 
then this could affect every AV-OS machine and every AV-TSx machine in 
the county. In other words, if the operator of the GEMS server is 
malicious, or if any untrusted individual gains access to the GEMS 
server, all of the machines in the county could be compromised. The AV-
TSx cryptography provides no defense against this threat; instead, it 
must be prevented by carefully guarding access to the GEMS server.
    The cryptographic algorithm used in the AV-TSx, while perhaps not 
ideal, appears to be adequate for its purpose. The AV-TSx uses the 
following MAC algorithm:

                Fk(x) = AESk(MD5(x)),

where AESk(.) denotes AES-ECB encryption of a 128-bit value under key 
k. This choice of MAC algorithm is probably not what any cryptographer 
would select today, but it appears to be adequate. In August 2004, 
cryptographers discovered a way to find collisions in MD5, which 
prompted many cryptographers to suggest using some other hash algorithm 
in new systems. Fortunately, these collision attacks do not appear to 
endanger the way that AV-TSx uses its MAC, because chosen-plaintext 
attacks do not appear to pose a realistic threat. In contrast, the 
discovery of second pre-image attacks on MD5 would probably suffice to 
break the AV-TSx MAC algorithm, but fortunately no practical second 
pre-image attacks on MD5 are known. Consequently, given our current 
knowledge, the AV-TSx MAC appears to be acceptable.
    In the long run, it would probably make sense to migrate to a more 
robust MAC algorithm (e.g., AES-CMAC). Even better, a cryptographic 
public-key signature (e.g., RSA, DSA) would appear to be ideal for this 
task. With the current scheme, anyone who can gain access to and 
reverse-engineer an AV-TSx machine can recover the cryptographic key 
and attack the other memory cards in the same county; while a public-
key signature would eliminate this risk. Nonetheless, for present 
purposes the current scheme appears to be strong enough that it is not 
the weakest point in the system.

Finding 4 The AV-TSx contains default cryptographic keys that are hard-
coded into the source code and that are the same for every AV-TSx 
machine in the Nation. One of these keys was disclosed publicly in 
July, 2003, yet it remains present in the source code to this day.

    We mentioned above that the AV-TSx contains a set of default keys 
that are used if the cryptographic keys have not been explicitly 
updated. We found that these default keys are hard-coded in the source 
code and are the same for every AV-TSx machine in the Nation.
    The presence of hard-coded keys in the TS was first disclosed in a 
famous scientific paper by Kohno, Stubblefield, Rubin, and Wallach in 
July, 2003. Their paper also revealed the value of the key--namely, 
F2654hD4--to the public. Subsequent reports from Doug Jones revealed 
that this design defect dates back to November, 1997, when he 
discovered the same hard-coded key and reported its presence to the 
vendor. These authors pointed out that use of a hard-coded key that is 
the same for all machines is very poor practice and opens up serious 
risks. It would be like a bank using the same PIN code for every ATM 
card they issued; if this PIN code ever became known, the exposure 
could be tremendous. It had been our understanding that all of the 
vulnerabilities found in those investigations two years ago had been 
addressed. It is hard to imagine any justification for continuing to 
use this key after it had been compromised and revealed to the public. 
This is a serious lapse that we find hard to understand considering how 
widely publicized this vulnerability was.
    This also illustrates the reason that cryptographers uniformly 
recommend against hard-coded keys. If those keys are ever compromised 
or leaked, the compromise can affect every machine ever manufactured, 
and it can be difficult to change the key on every affected machine.
    The AV-TSx would be more secure if it were changed to avoid use of 
default keys, i.e., if election officials were required to generate and 
load a county-specific cryptographic key onto the AV-TSx before its 
first use, and if the AV-TSx were to refuse to enter election mode if 
no key has ever been loaded.

Finding 5 The AV-OS stores the four-digit supervisor PIN on the memory 
card. The PIN is stored in an obfuscated format, but this obfuscation 
offers limited protection due to its reliance on hard-coded magic 
constants in the source code.

    On the AV-OS, the four-digit PIN is derived as a specific function 
of a field stored on the memory card and of some constant values that 
are hard-coded into the source code. These magic constants are the same 
for every AV-OS machine across the Nation, which is the rough 
equivalent of the hard-coded keys found in the AV-TSx. Thus, the AV-OS 
contains a design defect that is roughly similar to one in the AV-TSx.
    Anyone with access to the AV-OS source code can learn these magic 
constants. Likewise, anyone who has unsupervised access to an AV-OS 
machine and the ability to perform reverse engineering could learn 
these magic constants. Once the magic constants are known, anyone who 
gains access to a memory card can read its contents and predict its 
four-digit PIN. Likewise, if they had unsupervised access to the memory 
card, they could set the four-digit PIN to any desired value by setting 
the field stored on the memory card appropriately. The use of the same 
magic constant values for every AV-OS machine in existence poses the 
risk that, if these constant values are ever disclosed, the security of 
the PIN protection would be undermined.
    At present, we believe the security risks of this design mis-
feature are probably minor and limited in extent, because even 
knowledge of the PIN only provides a limited degree of additional 
access. There are worse things that an individual could do if she 
gained unsupervised access to an AV-OS memory card. Nonetheless, we 
caution election administrators not to place too much reliance on the 
four-digit PIN on the AV-OS.

Finding 6 The AccuBasic interpreter was fairly cleanly structured and 
was organized in a way that made the source code very easy to read.

    The source code for the AccuBasic interpreter was written in a way 
that made it easy for us to understand its intent and operation and 
analyze its security properties. The code was split into many small 
functions whose purpose was clear and that performed one simple 
operation. There were comments explaining the purpose of each function 
and explaining tricky parts of the code. The clarity of the interpreter 
source code was about as good as any commercial code we have ever 
reviewed.
    The interpreter is structured as a recursive descent parser, so 
that the program's call stack mirrors the stack of the associated 
context-free automaton. In addition, there is a global variable holding 
the global interpreter context: e.g., AccuBasic registers, AccuBasic 
variables, and various loop indexes. This was a reasonably elegant way 
to structure the implementation.
    There were some ways that the implementation could have been 
improved. The code didn't use defensive programming, which would have 
helped tremendously to harden it against many malicious attacks. Also, 
the source code didn't document the relevant program invariants and 
pre-/post-conditions. We were forced to work these out by hand (e.g., 
that certain parameters were never NULL, that the global string 
register would never contain a string more than 255 bytes long, and so 
on), and it would have helped if these had been documented in the 
source code. Nonetheless, on the whole the interpreter source code was 
structured in a way that simplified the source code review task.

Finding 7 The AccuBasic language is not a general-purpose system; it is 
narrowly tailored for its purpose.

    The AccuBasic language is not a full, general-purpose scripting 
language in the same category as, say, Visual Basic, in spite of the 
similarity of names. Instead, it is very modest in scope, with strongly 
circumscribed capabilities. If you are going to use an interpreted 
language at all in a context where security is important, this is the 
right way to do: one should include only the absolute minimum 
functionality in the language necessary to do the job it is designed 
for, and AccuBasic seems to meet that goal. In particular, we note 
that:

        <bullet>  AccuBasic is computationally complete in the sense 
        that it can compute anything, but its interactions with the 
        rest of the code base are very limited. The parts of the 
        firmware and operating system that it can invoke makes it 
        basically useful only for printing reports, which is the 
        intent.

        <bullet>  The AccuBasic interpreter cannot invoke most of the 
        functions available in the firmware. It cannot read or write 
        memory outside the its own stack. It can only invoke a handful 
        of benign services necessary for its report-writing function, 
        e.g., reading (but not writing) the vote totals or ballot file, 
        accepting yes/no input from the user, writing to the printer, 
        LCD screen, or touchscreen, appending an event to the audit log 
        file, and reading the date and time.

        <bullet>  In particular, the AccuBasic interpreter has only 
        read-only access to the vote counters or ballot file, so that 
        AccuBasic scripts can construct reports from them, but cannot 
        modify them.

    In the short, the design of the AccuBasic language appears to us to 
be appropriate for its purpose.

Finding 8 The AccuBasic interpreter cannot be invoked while the AV-OS 
or AV-TSx are executing the core election functionality, i.e., while 
they are accepting votes during the middle of election day.

The AV-OS. We determined the AV-OS does not invoke the interpreter 
during the tallying of live election ballots. The AV-OS invokes the 
interpreter during pre-election procedures, such as printing test 
ballot zero reports and tallies, printing election zero reports, and 
printing labels for duplicate memory cards and audit reports. The AV-OS 
also invokes the interpreter to print post-election reports after the 
``ender'' card is read.

The AV-TSx. We determined the AV-TSx does not invoke the interpreter 
while it is in ``election'' mode. The AV-TSx can invoke the interpreter 
under five circumstances:

        1.  Printing a zero report on machine initialization.

        2.  The ``Print Election Results'' button on the pre-election 
        menu page for printing pre-election test results.

        3.  Printing election totals after a poll worker presses the 
        ``End Voting'' button on the election menu page.

        4.  The ``Print Election Results'' button on the post-election 
        menu page.

        5.  The ``Print Results'' button on the accumulator menu page.

    None of these can occur during the middle of the day while the TSx 
is in the process of interacting with voters and accepting votes.
    These observations are also positive design points. The interpreter 
is not only very limited in its functionality, but it is very limited 
in the window of time during an election that it runs, which is what 
one wants when security is important.

Finding 9 The AccuBasic interpreter does not appear to have been 
written using high-assurance software development methodologies.

    The AccuBasic interpreter appeared to be written using commercial 
standards of software development. This means it is not high-assurance 
software, nor was it developed following high-assurance methodologies.
    High-assurance methods are often used for software systems where 
security is of utmost importance, most notably for military 
applications (e.g., software used to process classified documents). At 
a high level, these methods are similar to those used to build safety-
critical software systems, where failure of the software can lead to 
loss of life (e.g., software found in avionics control systems, nuclear 
reactors, manned space flight, train control systems, automotive 
braking systems, and other similar settings).
    In high assurance software development, one first determines 
explicitly what requirements the software and/or system must meet. One 
then designs the system, demonstrating throughout that the design meets 
the requirements. The method used to demonstrate this depends upon the 
degree of assurance desired. One then implements the system, and again 
justifies that the implementation meets the design. Indeed, one should 
be able to point to each requirement and show exactly what code is 
present as a result of that requirement. Finally, the operating 
instructions and procedures for the system and software must also meet 
the requirements.
    We saw no evidence that the AccuBasic interpreter was developed in 
this way. Indeed, the problems we found argue against it. We should 
note that we did not see anything beyond the code--no requirements 
documents, architecture documents, design documents, threat model 
documentation, or security analysis documents-all of which would be 
present were high assurance development techniques used.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    We also expect that if one were going to use high-assurance 
programming practices anywhere in a voting system, the interpreter 
would be one of the most likely places to use it. If high-assurance 
practices had been used during the design and implementation of the AV-
OS and AV-TSx, the vulnerabilities we found would likely have been 
avoided.

Finding 10 The AV-OS is at risk from Harri Hursti's attacks no matter 
what state the memory cards are in when they are transported to the 
polls. Even if the memory cards are not put into election mode until 
the polls are opened, Hursti's attack is still possible.

    The AV-OS can be in one of several modes (e.g., pre-election, 
election mode, post-election). This is determined by a value stored on 
the memory card. It has been suggested that, if election workers were 
to wait to put the card into election mode until polls are opened, this 
might provide some level of defense against Hursti's attack. We find 
that this scheme does not, in fact, provide any useful protection.
    Because the mode is stored on the memory card, whether or not the 
memory card is in election mode while in transit makes essentially no 
security difference. An attacker who can modify the object code and 
vote counts on the memory card (as Mr. Hursti did) could just as easily 
modify the election mode indicator too. In addition, all of the 
vulnerabilities described earlier (due to bugs in the code) are still 
exploitable, no matter what mode the memory card is in.
    A detailed technical analysis of the election mode issue can be 
found in Section 4.1.
4.1 Technical details: Election mode and the AV-OS
    In the AV-OS, memory cards can be in one of seven modes, indicated 
by a field stored on the memory card (namely, 
mCardHeader.electionStatus in the source code). The states are 
documented in Figure 1. The mode of the memory card at the time when 
the machine is booted determines what functions the AV-OS will execute. 
The AV-OS also updates the mode of the card in response to operator 
input.
    The memory card also contains many counters, including candidate 
counters (which contain, for each candidate, the number of votes cast 
for that candidate), race counters (which contain, for each race, the 
number of votes cast in that race), and card counters (which contain 
the total number of ``cards cast'' or, in other words, the number of 
ballots scanned). In each case, there are three values stored: the 
number of absentee votes, the number of election-day votes, and the 
total number of votes (which should be the sum of the previous two 
values). This reflects the fact that the machine can be set into a mode 
to count absentee votes or to count at the polling place. Note that 
there is some redundancy among these counter values: for instance, 
under normal operation, if Smith and Jones are the only two candidates 
in one race, then the race counter should equal the sum of Smith's 
candidate counter and Jones' candidate counter.
    In Harri Hursti's demonstration, apparently the memory card was 
already placed into ``election mode'' before Hursti was given the card. 
It has been suggested that if the card had been in one of the two pre-
election modes (``initialized'' or ``downloaded'') when it was given to 
Hursti, then the Hursti attack would not work, because the process of 
placing the card into ``election mode'' would cause the vote counters 
to be zeroed.
    Recall that Hursti's attack, in its most dangerous form, involved 
two components: (a) modifying the vote counters on the memory card to 
pre-load it with some non-zero number of votes for each of the 
candidates (e.g., +7 votes for Smith and -7 votes for Jones); (b) 
replacing the AccuBasic script with a malicious script that falsely 
printed a zero report showing zeros, even though the vote counters were 
in fact not zero. The ability to print a false zero report enabled 
Hursti to conceal the fact that he had stuffed the digital ballot box. 
This attack was demonstrated in a scenario where the card was set into 
``election mode'' in the warehouse, before there was an opportunity to 
tamper with its contents. Might it perhaps be possible to defeat this 
attack if memory cards were left in pre-election mode at the warehouse, 
transported in this mode, and then poll workers were asked to set the 
card to ``election mode'' at the opening of polls? The idea is that, in 
the process of setting the card into ``election mode,'' the AV-OS will 
zero out the vote counters on the card, thereby undoing any pre-loading 
of the memory card with fraudulent votes that might have occurred 
before that point. We were asked to characterize the behavior of 
election mode and investigate whether defenses of this form would 
provide any value in defending against Hursti's ballot stuffing attack.

Boot behavior. When starting the AV-OS machine, the operator has the 
option of holding the YES button or the YES and NO buttons 
(simultaneously) to execute special diagnostic, supervisory, and setup 
functions. When the machine boots, it will enter one of several modes, 
depending on how it is started up:

        <bullet>  If the operator holds the YES and NO buttons down 
        while machine is booting, the machine enters diagnostics mode. 
        In diagnostics mode, the operator can set the clock, dump the 
        memory card image via a serial port, and test various physical 
        components of the voting machine.

        <bullet>  If the operator holds only the YES button and the 
        card is initialized (i.e., in any state other than 
        ``initialized,'' or in other words, mCardHeader.electionStatus 
        % STAT<INF>-</INF>UNUSED) ), then it gives the operator the 
        option to enter supervisor mode. To enter supervisor mode, the 
        operator must enter the four digit PIN. In supervisor mode, the 
        operator can modify the setup parameters, duplicate or clear 
        the memory card, re-enter election mode after an ``ender'' card 
        has been read, and reset the card to pre-election mode. In 
        setup mode, the operator can change the phone number and 
        configure the auto-feeder and other physical devices.

        <bullet>  If the card is ``uninitialized'' 
        (mCardHeader.electionStatus = STAT<INF>-</INF>UNUSED), the 
        machine enters the aforementioned setup mode. Curiously, in 
        this case the operator can enter setup mode without entering a 
        PIN. This means that it would be possible in this case to 
        change the phone number it dials to transmit election results, 
        without entering a PIN. (We are not aware of any California 
        jurisdiction that uses the AV-OS's modem capabilities, so this 
        is of little practical relevance in California.)

    After these functions complete or if the operator chose not enter 
them, the machine displays

         SYSTEM TEST

         ***  PASSED  ***

    and enters the main control loop. The main control loop works as 
follows:

        <bullet>  If the card state is ``initialized'' 
        (STAT<INF>-</INF>UNUSED) or ``downloaded'' 
        (STAT<INF>-</INF>DOWNLOADED), the machine executes pre-election 
        functionality. Then, the machine goes back to the beginning of 
        the loop.

        <bullet>  If the card state is in ``election mode'' 
        (STAT<INF>-</INF>ELECTION), the machine executes the election 
        functionality and begins accepting and counting ballots. Then, 
        the machine goes back to the beginning of the loop.

        <bullet>  If the card state is in any of the four post-election 
        states (STAT<INF>-</INF>ELECTION<INF>-</INF>DONE, 
        STAT<INF>-</INF>DONE, STAT<INF>-</INF>UPLOADED, or 
        STAT<INF>-</INF>AUDIT<INF>-</INF>DONE), it executes the post-
        election functionality. Then, the machine goes back to the 
        beginning of the loop.

The behavior of the AV-OS. We focus on three modes, ``uninitialized,'' 
``downloaded,'' and ``election mode,'' and describe how the AV-OS 
behaves when loaded with a card in one of those three states.
    If the card is ``uninitialized,'' the AV-OS enters a mode of 
operation for downloading data to the memory card. If the download is 
successful, the operator can print an optional zero report using the 
AccuBasic interpreter and then the card is set to ``downloaded'' mode. 
At this point, or if a card in ``downloaded'' state is inserted into 
the AV-OS at any time, the AV-OS provides the operator with the option 
of performing pre-election testing. Pre-election testing includes 
reading blank and full marked ballots, counting test ballots, moving 
the ballot deflector, testing upload of results, and printing test 
total and audit reports.
    After testing, the machine prompts the operator if he or she wants 
to enter election mode. If the operator answers yes, then the card is 
set to ``election mode'' (i.e., the field mCardHeader.electionStatus on 
the card is set to the value STAT<INF>-</INF>ELECTION) and the AV-OS 
proceeds to clear the election counters. The step of entering election 
mode zeroes out the card counters, race counters, and candidate 
counters. In other words, it clears the number of votes registered for 
each candidate, the number of votes registered in each race, and the 
total number of ``cards cast'' (i.e., the number of ballots scanned).
    After the counters are zeroed, the AV-OS machine begins executing 
election functionality. This code first checks the card for errors. 
Then, it checks if any ballots have yet been counted by checking a 
counter stored on the memory card containing the total number of 
ballots that have been counted 
(mCardHeader.numBalCounted[CTR<INF>-</INF>TOTAL]). If no ballots have 
been counted, the AV-OS invokes the AccuBasic interpreter to print a 
zero report (without first prompting the operator) and then begins to 
accept and count ballots. If this counter is non-zero, then it skips 
the zero report step and immediately begins to accept and count 
ballots.

The proposed defense. The Hursti attack works by maliciously pre-
loading some of the vote counters with fraudulent non-zero values. It 
was suggested to us that having poll workers putting the card into 
election mode at the polling place would defeat this attack, but it 
wasn't clear whether this would involve delivering memory cards in the 
``uninitialized'' or ``downloaded'' state.
    We believe that transporting memory cards to the polling place in 
the ``uninitialized'' state doesn't make much sense. This would mean 
that the cards have not been programmed and initialized yet. It seems 
unlikely poll workers would be expected to program and initialize the 
memory cards.
    Therefore, we assume that this procedural defense would involve 
initializing memory cards at the county headquarters, so that when they 
arrive at the polling place they are in the ``downloaded'' state. This 
means that the memory cards will have been programmed and initialized 
and are ready to be put into election mode when the AV-OS machine is 
turned on. After the machine starts and completes the optional 
diagnostics mode (see above), it will prompt the operator (in order) 
to:

        1.  To count test ballots (optional);

        2.  To move the ballot deflector (optional);

        3.  To test the upload option (optional);

        4.  To print a totals report (optional);

        5.  To print an audit report (optional);

        6.  To prepare for the election (optional);

        7.  To enter supervisor mode (optional).

    To enter election mode, the operator should answer yes to the 6th 
prompt. At that time, the AV-OS machine will clear the counters (see 
above) and start counting ballots.

Analysis. Unfortunately, the proposed defense against Hursti's attack 
is not effective. An adversary with access to the memory card could 
maliciously set the card into election mode, by setting the 
mCardHeader.electionStatus field on the card to the value 
STAT<INF>-</INF>ELECTION using a hex editor or by other means. When 
this card is inserted into the AV-OS, the AV-OS will not clear the 
counters, because the card is already in election mode. (The counters 
are only cleared when a card in the ``downloaded'' state is inserted 
into the AV-OS and explicitly put into election mode by the operator.)
    On first consideration, one might expect that this attack could be 
detected. After all, an observant operator might notice that he or she 
did not have to navigate the prompts to explicitly put the machine into 
election mode, and thereby may be able to deduce that the card must 
have already been in election mode. Unfortunately, we cannot count on 
this defense, because things are more complex than they may initially 
appear.
    Recall that if the memory card is in election mode and if the 
counter for the total number of ballots scanned 
(mCardHeader.numBalCounted [CTR<INF>-</INF>TOTAL]) is zero, then the 
AV-OS will execute an AccuBasic script to print a zero report before 
accepting ballots. The operator is not prompted before the AccuBasic 
script begins running. Of course, if we assume that an adversary has 
unsupervised access to the memory card while it is in transport, the 
adversary could have replaced the AccuBasic script on the memory card 
with a malicious script, and this malicious script will start running 
as soon as the machine is turned on. Moreover, recall that AccuBasic 
scripts have the power to issue prompts to the LCD display on the AV-
OS. This means that an adversary could write a malicious script which 
simulates the prompts the operator is expecting to see, to provide the 
illusion that the card is not already in election mode. When the 
operator answers yes to the 6th prompt, the AccuBasic script can print 
a zero report and exit, and the machine will start counting ballots.
    In this scenario, as far as the operator can see, the machine will 
behave exactly as it would if the card had started in ``downloaded'' 
mode and if the operator had put it into election mode, clearing the 
counters. Nonetheless, in reality nothing could be farther from the 
truth. In this scenario, the card has been tampered with to pre-load it 
with votes, to set it into election mode so that these vote counters 
won't be cleared, and the AccuBasic script on the card has been 
tampered with so that the operator won't notice anything unusual and 
the zero report will not show these pre-loaded votes.
    This shows that it is possible for an adversary to tamper with the 
memory card in a way that cannot be detected by the operator and that 
bypasses the clearing of the vote counters. In other words, even if 
memory cards are not put into election mode until the opening of polls, 
the election will still be vulnerable to a variation on Harri Hursti's 
attack. Therefore, it is our conclusion that procedures based on 
putting the AV-OS into election mode at the start of the day cannot be 
counted upon to protect the AV-OS machine against the vulnerabilities 
Harri Hursti found.

4.2 Checksums
    We were asked to investigate what checksums exist in the AV-OS and 
AV-TSx, what types they are, and what they cover. We discuss these 
issues next.

Background. A checksum detects accidental changes to data. It reduces a 
large amount of data down to a fixed size value. This provides a level 
of redundancy: if the data is changed, then the checksum almost always 
changes as well. Hence, the checksum may provide a way to detect the 
change to the data.
    Note that checksums are used to detect accidental changes to data 
values, but they are not at all useful in detecting malicious change. 
An example of an accidental change is a faulty memory cell on the 
memory card. If it cannot properly store the value it is supposed to, 
the computed checksum of the data will not equal the stored checksum, 
and a problem will be detected. On the other hand, if an adversary 
changes the data as well as all copies of the checksum value, it will 
be impossible to notice that the data was modified.
    The AV-OS uses 16-bit checksums: a checksum can take on one of 
65,536 different values. The AV-OS computes numerous checksums over the 
data structures stored on the memory card. These checksum values are 
stored on the card and are also available to AccuBasic scripts to be 
printed in reports. A properly implemented checksum would likely detect 
any accidental corruption of the election setup parameters. 
Alternatively, a checksum printed over a memory card's vote totals at 
the close of polls could be compared with the same value at the county 
election offices to detect changes to the vote totals.

What is covered by the AV-OS checksums. The AV-OS memory card contains 
quite a few checksums. We list them, and what they cover, below:

         1.  Election checksum: covers the password, and flags 
        controlling machine.

         2.  Precinct checksum: covers a few fields describing the 
        precinct: its number, check digit, number of voters, sequence 
        number, and precinct ID string.

         3.  Precinct-card checksum: covers fields that tie the 
        precinct to the card structures.

         4.  Race checksum: all fields governing the race.

         5.  Race counters checksum: covers the total number of votes 
        for each race, write ins, over-votes, under-votes, and blank 
        votes.

         6.  Candidate checksum: covers the candidate number and party 
        number.

         7.  Candidate counters checksum: covers all fields in the 
        candidate structure.

         8.  Card checksum: covers all fields in the card.

         9.  Card counters checksum: covers the precinct number, card 
        number, number of over-votes, under-votes, and blank votes for 
        each card-counter.

        10.  Voting positions checksum: covers all fields governing 
        where the candidate structure is.

        11.  Text checksum: covers all text fields (election title, 
        vote center, vote date, straight party options, address, 
        district name, race titles, and candidate names).

        12.  Audit log checksum: not used.

    In summary, only some of the election setup parameters are covered 
by the AV-OS checksum. For example, the voting type field in the 
precinct (which governs whether it is early, absentee, or precinct 
voting) is not covered by any checksum. Additionally, the audit log is 
not covered by any checksum. It is difficult to determine how 
modifications to the fields not covered by the checksums could cause 
adverse effects, though it is a source of minor concern. Ideally, these 
checksums would cover all of the election parameters.

The AV-OS checksum algorithms. There are many ways to generate a 
checksum. The AV-OS code uses two separate techniques to compute a 
checksum. In the first, the checksum value is simply the arithmetic sum 
of the data being computed. As an example, if the vote counts were as 
follows:

                         Smith:  100
                         Jones:   32
                         Roberts:  7

then the checksum would be 139. If the value for any counter changes 
without the corresponding checksum value changing, it would be easy to 
notice the discrepancy and investigate what happened. However, using 
addition as a checksum, while simple to compute, fails to catch many 
classes of errors. For example, if the vote totals for Smith and Jones 
were switched, the checksum would still be 139. There are other classes 
of changes for which addition is not ideal and will not detect changes.
    The AV-OS computes checksums over textual data in a slightly 
different, but related, manner. The checksum depends on the value of 
each of the names as well as their position (first, second, or so on).

The AV-OS checksum does not detect malicious attacks. An adversary with 
the ability to read and write to the memory card can always engineer 
the checksum to match what the malicious data they place. However, 
relying on the checksum to guarantee that data didn't change due to a 
malicious individual is not possible.
    Using the addition operator (+) as a checksum may catch certain 
classes of non-malicious changes. However, an attacker can easily 
produce two different memory cards which have the same checksums. This 
means the checksum should not be used to determine malicious tampering. 
The textual checksum is also vulnerable to similar attacks.
    If there was a desire to use checksums to detect malicious 
tampering with the contents of memory cards, a different checksum 
algorithm would be needed. One possibility would be to compute and 
print a cryptographic hash of the contents of the entire memory card at 
the beginning and end of the day, so that election officials can verify 
that the contents of the memory card had not been changed during 
transport. A cryptographic hash function is related to a checksum but 
instead of 65,536 outputs, has over 2<SUP>160</SUP> possible values; 
furthermore, it is specially designed to protect against reordering and 
malicious tampering. Examples of cryptographic hash functions include 
SHA-1 or SHA-256. If this route were taken, the cryptographic hash 
function should be applied to the entire contents of the memory card, 
including all election parameters and the audit log. Another 
possibility would be to use cryptographic digital signatures, either a 
public-key signature as discussed later, or a symmetric-key MAC like 
the one used by the TSx (see below).

The TSx ``checksum.'' The AccuVote TSx operates differently. It reads 
the election parameters from a file on the memory card. There is a 
symmetric-key message authentication code (MAC) that protects the data 
from tampering. This computation depends on a secret key, and the MAC 
is designed so that anyone who does not know the key will not be able 
to tamper with the data without being detected. Thus, as long as the 
key is secret and unpredictable, it will detect malicious third party 
tampering, as well as problems with the storage media. A cryptographic 
MAC has all the advantages of a conventional checksum, in that it can 
detect accidental changes or corruption of the data, plus it can also 
detect malicious tampering as well. Thus, a cryptographic MAC is much 
better than a checksum in every way, and we expect the TSx to be 
extremely effective at detecting accidental data corruption.
    See Finding 3 for a discussion of what data is protected by the 
cryptographic MAC on the TSx.
    Since the TSx systems can read the AV-OS memory cards, they also 
include compatibility support for the data on those cards. Of course, 
those cards are only protected by the AV-OS checksums discussed earlier 
and are thus subject to the same caveats regarding tampering.

5. Mitigating the Risks

    We next discuss several possible steps that could be taken to 
mitigate or ameliorate the risks discussed in this report. We start by 
discussing the full set of mitigations that might be possible in the 
long run; then, we discuss some short-term mitigation options.
5.1 Long-term Mitigation Strategies

Mitigation 1 Adopt procedures that eliminate the possibility of a 
single person tampering with the memory card at any time during the 
lifetime of a memory card.

    One approach to mitigating the risk of tampering with the memory 
cards is to adopt various standard handling procedures that prevent 
someone from tampering without the risk of detection. These procedural 
controls would need be maintained throughout the lifetime of the memory 
card. They would affect procedures for writing memory cards at county 
offices, for opening and closing the polls, and for transport and 
storage of memory cards. Training of precinct judges and precinct 
clerks would need to be augmented to stress the critical nature of 
these procedural controls. Among the possibilities are these:

        <bullet>  Adopt the principle that no one should ever alone 
        with memory cards, i.e., there should always be two or more 
        persons present (or none). This parallels the common 
        requirement that no one should be alone with ballots (blank or 
        voted).

        <bullet>  Use numbered, tamper-evident seals to protect memory 
        cards when they are stored or when they are inserted in a 
        voting machine. Keep records, and train poll workers to monitor 
        those seals and their numbers and report anomalies. No one 
        person should be entrusted with that task; all poll workers 
        should sign off that the seals were intact.

        <bullet>  Permanently affix serial numbers to the memory cards 
        and adopt written chain-of-custody procedures for transfer of 
        custody from one pair of people to another, including poll 
        workers.

        <bullet>  Train all personnel, including poll workers, that 
        memory cards are ballot boxes and must be treated with the same 
        degree of care and security.

        <bullet>  Whenever the procedures outlined are breached for 
        some reason, take the memory card(s) in question out of service 
        and zero them (in the presence of at least two people) before 
        using them again.

    It would help if memory cards were sealed inside the AV-OS at 
county headquarters, and AV-OS machines delivered to the polling place 
with the card already inserted and protected by tamper-evident seals. 
At the close of polls, it would help if poll workers did not break the 
seal, but rather returned the entire unit (with memory card still 
sealed inside) to county headquarters. This would reduce the 
opportunity for poll workers to tamper with memory cards.
    When the AV-OS is used as a central-count machine (e.g., to count 
absentee votes), similar processes could be used to ensure that 
officials never insert a memory card into the AV-OS unless they are 
sure no one has had unsupervised access to the memory card. Because 
central-count machines reside in a controlled environment with physical 
security protections, and only a limited number of individuals have 
access to them, it should be much easier to apply very strong 
procedural controls to these machines.

Mitigation 2 Revise the source code of the AccuBasic interpreter to fix 
these vulnerabilities, introduce the use of defensive programming 
practices, and use security practices that will eliminate the 
possibility of any other vulnerabilities of the sort we discovered 
here.

    We can break this mitigation down into several (closely related) 
steps:

        <bullet>  Fix the AV-OS AccuBasic interpreter to eliminate the 
        bugs we found. Every one of the bugs we found should be fixed. 
        Any other bugs of the same sort should also be fixed.

            It is not enough merely to introduce narrow changes to 
        patch the specific bugs we found. Those bugs were symptoms of 
        more fundamental flaws in the programming practices used to 
        build the interpreter. The only way to be sure that all the 
        bugs have been eliminated is to fix the root cause. We explain 
        next what would be involved in doing so.

        <bullet>  Revise the interpreter source code, line by line, to 
        eliminate all trust in the contents of the memory card. One of 
        the reasons that these vulnerabilities existed was because the 
        programmer implicitly assumed that the memory card would not be 
        tampered with, and that the AccuBasic object code (.abo file) 
        on the memory card was produced by a legitimate AccuBasic 
        compiler. The source code should be changed to eliminate all 
        instances of this kind of trust. For instance, when reading an 
        integer from the memory card, the interpreter should first 
        check that it is within the expected range. When reading a 
        string from the memory card, the interpreter should not blindly 
        assume that the string is '/0'-terminated, but should check 
        that this is true before relying on it. Thus, this would 
        involve identifying every point in the code that reads data 
        from the memory card (or any other untrusted source) and 
        inserting appropriate input validation checks at that point.

            Likewise, every place where the code manipulates a vote 
        counter, the code should check that the vote counter is (a) 
        non-negative, and (b) arithmetic on it (e.g., incrementing a 
        vote counter) does not wrap or overflow. If the code always 
        checked that every vote counter were non-negative, and 
        eliminated all possibility of arithmetic overflow or wrap-
        around modulo 65,536, Hursti would not have been able to pre-
        load a negative number of votes for one candidate on the memory 
        card. If the code had checked that all vote counters were zero 
        at the start of the day, Hursti would not have been able to 
        pre-load a positive number of votes for any candidate, either.

            In addition, it would be prudent to revise the source code 
        of the interpreter to prevent infinite loops and infinite 
        recursion. One way to do this would be to introduce a timeout 
        of some sort, and check for timeout every time the AccuBasic 
        script executes any kind of backward jump, call, or control 
        transfer.

        <bullet>  Revise the interpreter, line by line, to incorporate 
        defensive programming throughout the code. If the code had been 
        written to follow defensive programming practices in a more 
        disciplined way, these vulnerabilities could not have existed.

            Programming and driving a car are similar in that the 
        programmer, like the driver, cannot control his or her 
        environment; he or she can merely control how the software, or 
        the car, reacts to that environment. Driving courses emphasize 
        ``defensive driving.'' Driving students learn to prepare for 
        other drivers taking unexpected, and dangerous, actions. They 
        understand that they cannot control other drivers, and that 
        they must avoid accidents even if those accidents are not their 
        fault.

            Similarly, programmers should develop software with the 
        understanding that the environment is not trusted. Users may 
        enter incorrect input; system hardware may fail; touch screens 
        may be miscalibrated and so return nonsensical values to the 
        program. Good programming style is to build software that 
        either functions correctly in the face of such errors, or else 
        reports the error and terminates gracefully. This style of 
        defensive programming is called ``robust programming.''

            As an example, a buffer overflow occurs when an input is 
        larger than the memory allocated to hold that input. The excess 
        input can change internal values, causing the software to 
        malfunction and return incorrect results. In some cases, this 
        allows a malicious user to breach security. Robust programming 
        requires that every input be checked; were this style followed, 
        buffer overflows would not occur because the program would 
        check the length of the input, determine it was too long, and 
        reject it.

            More generally, defensive programming generally means that 
        every module should apply these checks to data it receives from 
        other modules, and should refrain from trusting other modules. 
        Just as drivers are taught that they cannot control what other 
        drivers may do, defensive programming teaches that programmers 
        cannot control what other modules may do, and so should treat 
        them as untrusted and ensure that other modules cannot 
        compromise their own integrity.

            Thus, defensive programming often involves disciplined use 
        of various idioms that ensure the safety of the code. Before 
        copying a string into the buffer, one inserts code to check 
        that there is sufficient room for the string. Before 
        dereferencing a pointer, one writes code to check that the 
        pointer is not NULL. Before adding two integers, one checks 
        that the addition will not overflow. Code is added to perform 
        these checks, even when they seem unnecessary, because 
        sometimes one's assumption that the check is not necessary 
        turns out to be inaccurate.

            Our review of the interpreter source code showed that the 
        programmers could have applied this principle of robust 
        programming more extensively to the code. Specifically, the 
        code had shortcomings (detailed above) that would not occur 
        when software is designed and written to be robust. Hence, when 
        the bugs in the AccuBasic interpreter are fixed, it seems 
        prudent to also revise the code to be robust in the face of 
        erroneous, unexpected, and malicious input, and other failures 
        such as hardware failure.

        <bullet>  After the source code is revised, it would make sense 
        to commission an independent source code review to confirm 
        whether all of the vulnerabilities have been eliminated and to 
        assess whether the code has used structured programming 
        practices that are adequate to have confidence that no other 
        security vulnerabilities of this sort are likely to be present.

    If the source code is not revised, anyone with unsupervised access 
to a memory card, or with access to the GEMS server, may be able to 
exploit the vulnerabilities we found to take control of voting machines 
and compromise the electronic tallies. Such an attack might be able to 
cause lasting effects that persist across elections, and it is not 
clear whether there would be any way to repair the resulting damage. If 
the source code is revised to fix the vulnerabilities we found, these 
attacks would not be possible.
    Even if the interpreter source code is fixed, it would still be 
possible for an individual who can introduce a malicious AccuBasic 
script to cause fraudulent zero tapes and fraudulent summary reports to 
be printed. Depending on whether the arithmetic overflows are fixed, 
such an individual might also be able to pre-load a memory card with a 
positive or negative number of votes for some candidates.

Mitigation 3 Protect AccuBasic object code from tampering and 
modification, either by (a) storing AccuBasic object code on non-
removable storage and treating it like firmware, or by (b) protecting 
AccuBasic object code from modification through the use of strong 
cryptography (particularly public-key signatures).

    All of the vulnerabilities we uncovered were due to the fact that 
part of the code of the voting system (namely, the AccuBasic object 
code) was not adequately protected from modification. Thus, one 
effective mitigation would be to protect the code from modification, 
using one of two strategies:

        (a)  Protect AccuBasic object code in the same way that the 
        rest of the firmware object code is protected, by placing the 
        AccuBasic object code on physically secured non-removable 
        storage. Normally, firmware is protected from modification by 
        storing it on a non-removable storage device (e.g., EEPROM) 
        that is not easily externally accessible and that is protected 
        from casual tampering through some kind of physical security 
        protection. AccuBasic object code could be stored in the same 
        way. If this were done, it would eliminate an entire attack 
        vector, because attackers would no longer have the opportunity 
        to replace the AccuBasic object code with a malicious AccuBasic 
        script.

             Of course, in this approach AccuBasic code would need to 
        be protected with the same protections that are afforded to 
        firmware code. If there is any way to update AccuBasic object 
        code (or any other code), the update process must be strongly 
        authenticated, and updates to the AccuBasic object code must be 
        authenticated as securely as updates to the firmware. (By 
        authenticated, we mean that there are procedural and 
        technological controls which ensure that only authorized 
        individuals can update the code, and only under appropriate 
        circumstances.)

             We recognize that different jurisdictions may require 
        different AccuBasic scripts. One way to handle this would be 
        for each jurisdiction to update the firmware with the 
        appropriate AccuBasic script. Another possibility would be for 
        the vendor to store all the different versions of AccuBasic 
        object files that might ever be needed on the firmware, and for 
        the memory card to contain an index (e.g., numbered from 1 to 
        n, where n is the number of different AccuBasic scripts stored 
        in the firmware) identifying which of these .abo files is to be 
        used. Depending on the circumstances, this index might need to 
        be protected from modification.

        (b)  Alternatively: Use strong cryptography to protect the 
        AccuBasic object code while it is stored on removable media. 
        The appropriate protection would involve signing the AccuBasic 
        object code with a cryptographically strong public-key 
        signature scheme (e.g., RSA, DSA, or some other appropriate 
        public-key algorithm) and arranging for the firmware to check 
        the validity of this signature before executing the AccuBasic 
        code. The private key would need to be guarded zealously (e.g., 
        using a hardware security module (HSM) ). In addition, 
        considerable thought needs to be given to key management as 
        well as to which part of the data is signed by which principals 
        (e.g., by the vendor, by the GEMS server, or by other 
        authorities).

             While the AV-TSx cryptography is a good first step in this 
        direction, it falls short in several respects:

                <bullet>  The use of symmetric-key cryptography in the 
                AV-TSx increases the risk of key exposure. It would be 
                safer to use public-key (asymmetric) digital signatures 
                for this purpose.

                <bullet>  The use of hard-coded symmetric keys that are 
                the same for all AV-TSx units is highly inappropriate 
                for this purpose, and should be avoided at all costs.

                <bullet>  The existence of any kind of default key is a 
                usability pitfall, because it makes it possible for 
                election officials to forget to change the keys, 
                thereby leaving them unaware of their vulnerability. 
                This is an additional problem with hard-coded symmetric 
                keys. We recommend that default keys be avoided.

                <bullet>  Insufficient thought has been given to the 
                topic of key management and which entities are in 
                possession of the appropriate cryptographic keys.

             Fixing these shortcomings would prevent unauthorized 
        individuals from introducing malicious AccuBasic scripts.

Of course, in both approaches the AccuBasic scripts need to be 
considered part of the code base of the system, and should be reviewed 
as part of the qualification and certification process.
    In the long run, the consequences of not protecting AccuBasic code 
from modification are that anyone who gains unsupervised access to 
memory cards can tamper with their contents, attack the voting systems 
(e.g., using Hursti-style attacks), and potentially manipulate the 
electronic vote tallies.

Mitigation 4 Change the architecture of the AV-OS and the AV-TSx so 
they do not store code on removable memory cards.

    In the long run there are good reasons for changing the AV-OS and 
AV-TSx software architectures so that they do not rely on interpreted 
code stored on a removable memory card, or that they do not use 
interpreted code at all and eliminate AccuBasic. All of the potential 
vulnerabilities discussed here are rooted in the fact the code is 
stored on the removable memory cards, and these cards are handled by, 
and in the custody of, many people in a major election. There does not 
seem to be any fundamental reason why the AccuBasic code cannot be part 
of the firmware code base, rather than stored on the removable memory 
card. That change would not only eliminate these attacks, but some 
GEMS-based attacks on the code as well. Of course there would need to 
be enough firmware storage space in the machines to hold the AccuBasic 
code, but we suspect that is not an insoluble problem. This change 
would reduce the vendor's flexibility in providing different reporting 
options to different jurisdictions (i.e., different AccuBasic scripts). 
But if it is accepted that the AccuBasic scripts are part of the voting 
system ``code,'' as they are, and that therefore they must be subject 
to testing and code review by federal and state examiners, then that 
flexibility would be lost anyway, since it cannot be expected that the 
examiners would be able to study hundreds of variations on the 
AccuBasic script packages produced for different jurisdictions.

Mitigation 5 Change the architecture of the AV-OS and the AV-TSx so 
they do not contain any interpreter or use any kind of interpreted 
code.

    There are also good arguments for eliminating AccuBasic interpreted 
code entirely from voting system software. The FEC 2002 Voluntary 
Voting System Standards expressly forbid interpreted code in section 
4.2.2. Perhaps the standard writers had in mind forbidding only 
powerful, interpreted programming languages, such as Visual Basic, and 
not relatively benign and limited rendering languages such as HTML. 
AccuBasic falls somewhere in the middle on the more benign side 
(assuming the interpreter bugs are fixed). But the text of the standard 
is pretty clear, and the same language from the 2002 standards has been 
preserved in the EAC's new successor standard, the Voluntary Voting 
Systems Guidelines, as section 5.2.2. To be in compliance it would seem 
that AccuBasic would have to be eliminated, or the standard would have 
to be changed.
    In any case, the inclusion of interpreted languages in a voting 
system causes great burdens on examiners and code reviewers, who have 
to be highly skilled and do considerable analysis of the compiler and 
interpreter in order to verify that it does not present security 
vulnerabilities or permit malicious code to go unnoticed. It seems 
untenable to us that every time there is a change to the AccuBasic 
language or interpreter another round of detailed code review such as 
we have done would be required; however, an interpreter is such a 
delicate and powerful feature (from a security point of view) that we 
cannot recommend shortcuts in its examination either.

5.2 Short-term Mitigation Strategies for Local Elections
    One disadvantage of several of these mitigation strategies (e.g., 
revising or eliminating the AccuBasic interpreter, improving the 
cryptography, etc.) is that changes to the source code will incur 
significant delays. Source code changes would need to be approved by 
the federal qualification process as well as the state certification 
process. Therefore, in the short term it seems appropriate to consider 
mitigation strategies that do not involve changing the source code.
    For local elections (i.e., elections that do not span the entire 
state), we believe there are mitigation strategies that could be viable 
for the short term. For instance, one possibility might be the 
following two-prong approach:

        <bullet>  For the AV-TSx, update the cryptographic keys on 
        every AV-TSx machine and rely on the cryptography to prevent 
        tampering with memory cards. Election officials would need to 
        first choose a secret and unguessable cryptographic key. The 
        new cryptographic key should be chosen at random by county 
        staff, should not be divulged to anyone, not even the vendor 
        (because anyone who learns the secret key gains the ability to 
        tamper undetectably with memory cards), should not be shared 
        across counties, and should be tightly controlled. Then, the 
        process of updating the keys requires inserting a smartcard 
        into every AV-TSx machine. Officials could adopt checklists or 
        some other process to ensure that every AV-TSx machine has had 
        its keys updated before it is sent into the field. Election 
        officials should be warned that if they forget to change the 
        cryptographic keys, the machine will outwardly appear to 
        function correctly, but will be vulnerable to attack.

        <bullet>  For the AV-OS, deploy strict procedural safeguards to 
        prevent anyone from gaining unsupervised access to a memory 
        card. We would suggest dual-person controls over the entire 
        life cycle of the memory card, chain of custody provisions, and 
        use of numbered tamper-evident seals. It would also help to 
        load and seal the memory card into the AV-OS unit at the 
        warehouse in advance of the election, ship it in this state, 
        and when the election is over, have poll workers return the 
        entire machine (with the memory card still sealed inside) to 
        the county collection point, where election officials would 
        check that the seal remains undisturbed and record the number 
        on the seal before removing the memory card. This would ensure 
        that the memory card is protected by a tamper-evident seal for 
        the entire time that it is outside the control of county staff 
        and would reduce the opportunities for someone to tamper with 
        the memory card while it is in transit. We recognize that these 
        heightened procedural protections are likely to be somewhat 
        burdensome, but as a short-term protection (until the source 
        code can be fixed), they may be appropriate. See Mitigation 1 
        for further discussion of procedural mitigations.

    While these strategies do not completely eliminate all risk, we 
expect they would be capable of reducing the risk to a level that is 
manageable for local elections in the short term.
    In the longer-term, or for statewide elections, the risks of not 
fixing the vulnerabilities in the AccuBasic interpreter become more 
pronounced. Larger elections, such as a statewide election, provide a 
greater incentive to hack the election and heighten the stakes. Also, 
the longer these vulnerabilities are left unfixed, the more opportunity 
it gives potential attackers to learn how to exploit these 
vulnerabilities. For statewide elections, or looking farther into the 
future, it would be far preferable to fix the vulnerabilities discussed 
in this report.

6. Conclusions

    We have detailed a number of security vulnerabilities in the AV-OS 
and AV-TSx implementations of the AccuBasic interpreter. In the long-
term, these vulnerabilities can be easily fixed and the risks 
eliminated or mitigated. We have made recommendations about several 
ways in which that might be accomplished. In the short term, we believe 
the risks can be mitigated through appropriate use procedures.

7. Glossary

.abo file a file containing AccuBasic object code (byte code)

AccuBasic a Diebold-proprietary programming language used (in slightly 
        different versions) in both the AV-OS and AV-TSx machines; 
        AccuBasic programs allow very limited control over the behavior 
        of the voting system

buffer a fixed-size area of memory

buffer overrun a type of program bug in which the program attempts to 
        write more data into a buffer than the buffers size permits. 
        The extra data is thus written beyond the end of the buffer 
        into other memory, where it often overwrites something else of 
        significance, i.e., either other data, or control information, 
        or even instructions. When that happens, the program is 
        corrupted, and any of a vast number of unpredictable things 
        might ensue. One common hacker attack is to deliberately take 
        advantage of a buffer overrun bug, corrupting the program in a 
        specific way that allows the hacker to do things he otherwise 
        would not be able to do. (Usually the goal is to take complete 
        control of the machine.)

byte code object code of a relatively simple kind (e.g., that happens 
        to be encoded as characters (bytes) instead of binary data)

C a very widely used programming language

C++ another widely used programming language, more modern than C, and 
        (roughly) including C as a subset

compiler a program that translates another program from its source 
        language (the human readable form) into an object language (a 
        form not so easily human readable, but much more convenient for 
        machine execution). The AccuBasic compiler translates AccuBasic 
        programs (source code) into AccuBasic object code (also known 
        as byte code in this case).

file system hierarchical collection of files and directories (folders), 
        along with their names, types, and the software to read and 
        write them

firmware software resident inside the voting machine (i.e., not on a 
        removable memory card) and that is (or should be) unmodifiable 
        once the machine is in operation

hex editor an editor that can modify data directly at the binary level. 
        (Hex refers to hexadecimal (base-16) arithmetic, which is 
        extremely closely related to binary, but more compact.) A hex 
        editor is a universal editor, in that it can edit absolutely 
        any kind of digital data, although it requires some knowledge 
        and skill to use it in any particular case.

interpreter a program whose function is to execute another program, 
        usually one that is in the form of object code. The AccuBasic 
        interpreter is part of the firmware of the AV-OS or AV-TSx, and 
        executes AccuBasic object code, i.e., .abo files.

memory mapped memory mapped data is data that resides on some attached 
        memory device, and yet is made to appear as if it is in main 
        memory. (In the technical jargon, the data on the attached 
        device is mapped onto a portion of the machines memory address 
        space.)

object code a program represented in the form of discrete instructions 
        that are easy for a computer (or an interpreter) to execute 
        efficiently. It is more difficult for humans to read and write 
        object code than source code, but it can be done with only 
        modest skill. Usually object code is produced with the aid of a 
        compiler, but it does not have to be.

scripting language a programming language designed primarily so that 
        the programs written in it can easily manipulate character data 
        and files (as opposed to, e.g., binary data), and can easily 
        invoke and control other programs; AccuBasic can be described 
        as a limited-purpose scripting language.

scripts programs written in a scripting language like AccuBasic

source code any software in the original form as written by a human 
        programmer; this is the form in which code is easily read and 
        written by programmers, but cannot be directly executed by a 
        computer or an interpreter.

</pre></body></html>
